<html>
<title> - POACHING AMERICAN SECURITY: IMPACTS OF ILLEGAL WILDLIFE TRADE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                           POACHING AMERICAN
                         SECURITY: IMPACTS OF
                        ILLEGAL WILDLIFE TRADE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, March 5, 2008

                               __________

                           Serial No. 110-62

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
41-050 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 5, 2008.........................     1

Statement of Members:
    Kildee, Hon. Dale, a Representative in Congress from the 
      State of Michigan..........................................     3
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1
        Prepared statement of....................................     2
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, Prepared statement of...........................    21

Statement of Witnesses:
    Clark, William, Illegal Wildlife Trade Expert................    77
        Prepared statement of....................................    78
        Response to questions submitted for the record...........    87
    Galster, Steven R., Director of Field Operations, Wildlife 
      Alliance, Southeast Asia...................................    63
        Prepared statement of....................................    65
        Response to questions submitted for the record...........    68
    Hart, John A., Scientific Director, The Tshuapa-Lomami-
      Lualaba Project, Democratic Republic of Congo..............    70
        Prepared statement of....................................    71
        Response to questions submitted for the record...........    74
    McMurray, Hon. Claudia A., Assistant Secretary, Bureau of 
      Oceans, Environment and Science, U.S. Department of State..     4
        Prepared statement of....................................     7
    Moritz, Dr. William E., Director of Conservation, Safari Club 
      International Foundation, and Acting Director of 
      Governmental Affairs, Safari Club International............    95
        Prepared statement of....................................    97
        Response to questions submitted for the record...........    99
    Perez, Benito A., Chief, Office of Law Enforcement, U.S. Fish 
      and Wildlife Service, U.S. Department of the Interior......    36
        Prepared statement of....................................    38
        Response to questions submitted for the record...........    42
    Pueschel, Peter, Illegal Wildlife Trade Program Director, 
      International Fund for Animal Welfare, Germany.............   101
        Prepared statement of....................................   102
        Response to questions submitted for the record...........   113
    Sellar, John M., Senior Officer, Anti-Smuggling, Fraud and 
      Organized Crime, Secretariat of the Convention on 
      International Trade in Endangered Species of Wild Fauna and 
      Flora (CITES), Geneva, Switzerland.........................    24
        Prepared statement of....................................    26
        Response to questions submitted for the record...........    33

Additional materials supplied:
    Jenkins, Peter T., Director of International Conservation, 
      Defenders of Wildlife, Statement submitted for the record..   123


  OVERSIGHT HEARING ENTITLED ``POACHING AMERICAN SECURITY: IMPACTS OF 
                      ILLEGAL   WILDLIFE   TRADE''

                              ----------                              


                        Wednesday, March 5, 2008

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 9:30 a.m. in Room 
1324, Longworth House Office Building, Hon. Nick J. Rahall II 
[Chairman of the Committee] presiding.
    Present: Representatives Rahall, Kildee, Wittman, Saxton, 
Gilchrest, Bordallo, Brown and Inslee.

STATEMENT BY THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    The Chairman. The Committee on Natural Resources will come 
to order.
    The Committee is meeting today to receive testimony on a 
disturbingly real and growing challenge: The illegal trade of 
wildlife and the role it may play in financing and fostering 
dangerous, violent elements around the globe, including those 
engaged in terrorism.
    For many years, illegal weapons and illegal drugs have been 
the commodities of choice to some of the globe's most brazen 
underworld figures, even spawning the term ``narco-terrorism.'' 
Yet the illegal wildlife trade, which has received considerably 
less public attention, is an increasing concern and may be on 
the rise.
    As a result, illegal wildlife trafficking poses a risk not 
just to the survival of God's creatures, but also to the safety 
and stability of our world and the American people. This then 
is the wildlife version of blood diamonds.
    I felt this was an important topic for investigation by 
this committee. In preparation for the hearing, the 
Congressional Research Service, at my request, has examined the 
threats that the international illegal trade in wildlife poses 
today. That report is eye-opening, both in what it has 
uncovered and in what it was not able to thoroughly discern.
    For example, CRS found that wildlife trade now ranks in the 
upper tier of the world's most lucrative illicit economies, 
behind only illegal drugs and possibly human trafficking and 
arms trafficking. CRS also found that many of the same criminal 
entities that deal in arms and drugs, including organized 
criminals, are hawking wildlife as well.
    It discovered that poachers are becoming increasingly 
sophisticated, often using the same tactics and the same 
complex, secretive distribution networks frequented by sinister 
criminal organizations. And CRS notes that pricey endangered 
wildlife often serves as a type of untraceable currency in the 
underworld money laundering system.
    Particularly disconcerting is the anecdotal evidence 
linking terrorist activity to illegal wildlife trade. Given 
that the industry thrives in many countries also vulnerable to 
fostering terrorism--those with a weak capacity to govern, poor 
law enforcement, high government corruption and porous 
borders--these situations deserve sober consideration.
    Unfortunately, due to the clandestine nature of illegal 
trafficking in wildlife, it is exceedingly difficult to know 
the breadth of this sinister trade or the extent to which it 
may be supporting terrorist organizations.
    But that fact in and of itself and the dense 
interconnections among numerous dark world activities are 
enough to convince me that this committee, the Congress as a 
whole, and the rest of the U.S. Government ought to be taking a 
close look at the lucrative illegal wildlife trade and the role 
that rare and endangered species may be playing in underwriting 
those groups that wish to do our nation harm.
    Today's hearing is a jumping off point. Here we seek to 
gain enlightenment about the menace of illegal wildlife trade 
in today's reality, and we hope to receive advice about how we 
might better address it.
    With that, I want to thank our witnesses for being with us, 
particularly those who have traveled great distances to join 
us, and I look forward to their testimony.
    Let me recognize the gentleman from Michigan before 
recognizing the panel.
    [The prepared statement of Chairman Rahall follows:]

       Statement of The Honorable Nick J. Rahall, II, Chairman, 
                     Committee on Natural Resources

    The Committee is meeting today to receive testimony on a 
disturbingly real and growing challenge the illegal trade of wildlife 
and the role it may be playing in financing and fostering dangerous, 
violent elements around the globe including those engaged in terrorism.
    For many years, illegal weapons and illegal drugs have been the 
commodities of choice to some of the globe's most brazen underworld 
figures, even spawning the term ``narco-terrorism.''
    Yet the illegal wildlife trade, which has received considerably 
less public attention, is an increasing concern and may be on the rise. 
As a result, illegal wildlife trafficking poses a risk, not just to the 
survival of God's creatures but also to the safety and stability of our 
world and the American people.
    This, then, is the wildlife version of blood diamonds.
    I felt this was an important topic for investigation by this 
Committee. In preparation for this hearing, the Congressional Research 
Service at my request has examined the threats that the international 
illegal trade in wildlife pose today. That report is eye-opening, both 
in what it has uncovered and in what it was not able to thoroughly 
discern.
    For example, CRS found that wildlife trade now ranks in the upper 
tier of the world's most lucrative illicit economies, behind only 
illegal drugs and possibly human trafficking and arms trafficking.
    CRS also found that many of the same criminal entities that deal in 
arms and drugs--including organized criminals--are hawking wildlife as 
well. It discovered that poachers are becoming increasingly 
sophisticated, often using the same tactics and the same complex, 
secretive distribution networks frequented by sinister criminal 
organizations.
    And CRS notes that pricey endangered wildlife often serves as a 
type of untraceable currency in the underworld money-laundering system.
    Particularly disconcerting is the anecdotal evidence linking 
terrorist activity to illegal wildlife trade. Given that the industry 
thrives in many countries also vulnerable to fostering terrorism--those 
with a weak capacity to govern, poor law enforcement, high government 
corruption, and porous borders--this anecdotal evidence deserves sober 
consideration.
    Unfortunately, due to the clandestine nature of illegal trafficking 
in wildlife, it is exceedingly difficult to know the breadth of this 
sinister trade or the extent to which it may be supporting terrorist 
organizations.
    But that fact--in and of itself--and the dense interconnections 
among numerous dark-world activities are enough to convince me that 
this Committee, the Congress as a whole, and the rest of the U.S. 
government ought to be taking a close look at the lucrative illegal 
wildlife trade and the role that rare and endangered species may be 
playing in underwriting those groups that wish to do our Nation harm.
    The brutal maiming and killing of animals is certainly a grave 
issue, but when the beneficiaries of that trade are using these funds 
to corrupt, injure and exploit human beings, it is our duty to act.
    Today's hearing is a jumping off point. Here we seek to gain 
enlightenment about the menace of illegal wildlife trade in today's 
reality.
    And we hope to receive advice about how we might better address it.
    With that, I thank our witnesses, particularly those who have 
traveled great distances to join us today, and look forward to your 
testimony.
                                 ______
                                 

STATEMENT OF DALE E. KILDEE, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Kildee. Thank you very much, Mr. Chairman. I am very 
happy to be here this morning.
    I would like to welcome especially someone who is 
accompanying someone from the State Department, a friend of 
mine, Jason Kalbfleisch, whom I have known since he was about 
11 years old.
    He used to write to me on a variety of issues, a 
constituent of mine then. He served with my son in the 
military. My son and he were both in Nairobi at the same time, 
one at the State Department and one with the United States 
Army. Welcome, Jason. Good to have you here.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Kildee.
    Our first witness we are going to allow to proceed and then 
ask her questions, as she has to leave for another commitment, 
is The Honorable Claudia A. McMurray, Assistant Secretary for 
Oceans, Environment and Science with the U.S. Department of 
State.
    Accompanying her on Panel I is John Sellar, the Senior 
Officer, Office of the Secretary General, CITES Secretariat, 
Switzerland, and Mr. Benito A. Perez, Chief, Office of Law 
Enforcement, U.S. Fish and Wildlife.
    We welcome you. Madam Secretary, you may proceed as you 
wish. We do have all the prepared testimony I might add, and it 
will be made part of the record as if actually read. You may 
proceed as you wish.

   STATEMENT OF THE HONORABLE CLAUDIA A. McMURRAY, ASSISTANT 
SECRETARY FOR OCEANS, ENVIRONMENT AND SCIENCE, U.S. DEPARTMENT 
                            OF STATE

    Ms. McMurray. Thank you very much, Mr. Chairman. Mr. 
Chairman, Members of the Committee, I really want to thank you 
for inviting me to testify on this important issue. I do have a 
longer statement that I would like to submit for the record.
    Whenever I talk to people who are unfamiliar with this 
issue of illegal wildlife trade, they ask me, can this really 
be that serious a problem? Most people know that scores of 
animal species are endangered. What they assume is that species 
become endangered because of human population growth, which in 
turn leads to lost habitat and conflict between humans and 
animals.
    All of this is true. These are the primary threats to 
wildlife, but in recent years illegal trafficking has grown and 
now contributes much more significantly to the loss or 
threatened loss of our most precious wildlife. In fact, the 
illegal trade has brought us to a tipping point. In other 
words, it is pushing many species over the brink, over the edge 
to extinction.
    In addition to the serious threats the trade presents to 
biodiversity, it is also important for other reasons. Wildlife 
trafficking poses health threats because some diseases, such as 
avian influenza, SARS, the Ebola virus and tuberculosis, can 
jump from animals to humans, especially when those animals are 
removed from the wild and move in commerce.
    Once I convince people that this issue is important they 
ask me why has the trade grown so dramatically? My response is 
this: Among other factors, organized crime has discovered that 
this trade is very profitable. In some cases, it rivals the 
economic gains made from trafficking in drugs and in weapons. 
As you mentioned, Mr. Chairman, Newsweek, in their most recent 
issue, has now called endangered animals the new blood 
diamonds.
    Mr. Chairman, the annual estimates of the dollar value of 
this trade are indeed staggering. Some put it at about $10 
billion a year globally, and that is a conservative estimate. 
Other estimates put it closer to $20 billion. The dollar 
figures are at this level because certain products command 
extremely high prices on the black market.
    For example, a tiger skin is worth $16,000 in China and up 
to $50,000 internationally. One bottle of wine made from tiger 
bone--yes, wine--sells from $40 to over $100, depending on the 
vintage. The rising demand for ivory has driven the price from 
$200 per kilo in 2005 to more than $700 per kilo in this year.
    The dollar figures are also high because of the sheer 
volume of animals that are flooding the market. Some examples: 
An estimated 25,000 to 40,000 primates alone are traded per 
year, some for pets, some for so-called bushmeat. Two to three 
million birds, live birds, are for sale per year.
    So once I convince people that the problem is there and 
have hopefully convinced them why it is there, then they ask, 
what is the United States doing to stop it? Two years ago we 
formed a partnership called the Coalition Against Wildlife 
Trafficking, or CAWT, to fight illegal wildlife trade. We 
started in 2005 with five partners from the private sector.
    Our approach at that time was and remains to this day that 
no one government or private group can combat this 
sophisticated criminal activity alone and hope to succeed. 
Today we have 19 partners, including Australia, Canada, Chile, 
India and the United Kingdom, and 13 international 
nongovernmental organizations dedicated to stamping out the 
illegal trade.
    Through the Coalition we seek at the highest political 
levels to end the trade by curbing both the supply and demand 
for illegal wildlife and wildlife products. We are educating 
consumers. We are also creating new international networks for 
effective law enforcement.
    Mr. Chairman, I want to touch briefly on each part of our 
work: Curbing supply through enforcement, curbing demand 
through awareness, and garnering high level political attention 
for the issue.
    First, supply. As one way to improve law enforcement, the 
Coalition worked with 10 Association of Southeast Asian 
Nations, ASEAN, to establish a new regional wildlife 
enforcement network, what is now called ASEAN-WEN. In its very 
brief existence, ASEAN-WEN has already produced a string of 
impressive successes.
    In one of the enforcement network's first cooperative 
efforts, in October of 2006 the governments of Thailand, 
Indonesia and Malaysia worked in concert to successfully return 
to Indonesia 48 live orangutans that had been illegally 
smuggled into Thailand from their native habitat.
    In January of this year, Thai enforcement officials seized 
the bodies of six tigers, three leopards and two extremely rare 
clouded leopards, as well as 275 live penguins, from a Thai 
village near the border with Laos. Most of the big cats had 
been cut in half, and their organs had been removed.
    These are only two of very many examples of the work of 
ASEAN-WEN, and we have provided the Committee with a list of 
those accomplishments for the record. The countries of South 
Asia are now working with the U.S. and our CAWT partner, 
Traffic International, to replicate the ASEAN-WEN network and 
its success first in South Asia and we hope thereafter in the 
Middle East and in Africa.
    Curbing demand. Making a dent in organized crime through 
strengthened enforcement is only part of the solution. We also 
have to work out ways to stamp out the demand for these 
products. The two biggest markets for illegal wildlife and 
wildlife products are China, number one, and right here in our 
own backyard, the United States, which is number two.
    American consumers are buying these products when they 
travel, on the internet and sometimes even in shops right here 
in the United States. In most cases, they think that what they 
are buying is perfectly legal. We consider it the job of the 
U.S. Government to let them know that this is not the case.
    So how do we do this? In 2006, Secretary Rice named actress 
Bo Derek as her special envoy for wildlife trafficking issues. 
In that position, Ms. Derek has traveled extensively in the 
United States to make Americans aware of wildlife trafficking 
and the threat it poses. She has also traveled overseas to draw 
attention to the plight of endangered animals.
    We also enlisted the help of actor Harrison Ford, who has 
for many years had a strong commitment to wildlife 
conservation. Last fall, Mr. Ford generously donated his time 
to film three public service announcements urging consumers 
both in America and in other countries to stop buying illegal 
wildlife and wildlife products.
    We plan to distribute these ads in the United States and 
internationally and hope that cruise ships and airlines will 
also show them to their passengers. At the conclusion of my 
statement I would like to give Committee Members a sneak 
preview of one of these ads.
    Last, generating political attention. Mr. Chairman, I want 
to say a word about what I think is the most important role 
that the Coalition Against Wildlife Trafficking can play, and 
that is getting governments and multilateral organizations to 
work to stop this trade at the very highest levels. Only when 
we do this will we truly take on the criminals.
    In its two years of work, CAWT has made great strides to 
generate this much needed public attention. Last year, we 
worked closely with German ministers to include wildlife 
trafficking issues as part of the work of the G-8. It has also 
been on the agenda in summits between President Bush and the 
European Union, India and Brazil, to name a few.
    Last year, we also gained approval for a resolution of the 
U.N. Commission on Crime Prevention and Criminal Justice that 
we hope will lead to asserted global action, and with CAWT's 
strong encouragement, Interpol has now devoted more resources 
to wildlife crime issues.
    We have also worked to generate interest here on Capitol 
Hill, especially among the International Conservation Caucus. 
This hearing is but one example of the mounting interest in 
this issue.
    Mr. Chairman, in conclusion, wildlife crime, like all 
organized crime, is a problem we must band together to stamp 
out. It involves all of us in and out of government in one form 
or another. Wildlife trafficking is not just about saving 
animals from extinction, as vitally important as that is. It is 
also about promoting economic development and the rule of law, 
and protecting public health.
    The effect wildlife trafficking has on the broader social 
fabric is often lost. It lowers the economic value of legally 
traded goods, it contributes to poverty, and it encourages 
lawlessness.
    The U.S. has laid a foundation to combat it, but we have a 
lot of work left to do and we need as many partners as are 
willing to join the battle. We especially welcome congressional 
interest and active engagement in this issue.
    Thank you for this opportunity to testify, and I would be 
pleased to answer questions, but before I close completely, I 
would like to show you and the Committee Members one example of 
our work, a public service announcement featuring Harrison 
Ford.
    The State Department provided the funding for the 
development, production and placement for this ad, as well as 
finding our acting talent. Our CAWT partner, Wild Aid, supplied 
the creative idea and the scripts. The ad is one of three very 
powerful ones, and I hope it will speak for itself here today.
    Thank you.
    [Video played.]
    [The prepared statement of Ms. McMurray follows:]

   Statement of Claudia A. McMurray, Assistant Secretary, Bureau of 
       Oceans, Environment and Science, U.S. Department of State

    Mr. Chairman, thank you for asking me to speak to this committee 
today about this important issue.
The Problem
    It is common knowledge that animal species are endangered across 
the world, and most of the time what people attribute the problem to is 
loss of habitat, human population growth, and human-animal conflict.
    But what people really do not know as much about is that animal 
species are also threatened by the bounty on their head. Wildlife 
trafficking--the illegal trade in wildlife and wildlife products--is a 
huge black market industry. And organized crime may be right at the 
center of it.
    In some cases, wildlife trafficking is posing an even greater 
threat to wildlife than the loss of their natural habitat.
    And the numbers are staggering. Interpol estimates that the 
conservative estimate is that the illicit wildlife trade amounts to 
about $10 billion a year globally and may reach as high as $20 billion.
    The estimates on the trade in live animals are disturbing. For 
example, an estimated 25,000-40,000 primates alone are traded per year, 
some for pets, some for so called ``bushmeat''. Two to three million 
birds--live birds--are for sale per year.
    And the statistics on wildlife products are even grimmer. Hundreds 
of thousands of wildlife parts are sold each year solely for medicinal 
use, mostly for traditional Chinese medicines. And the reason the trade 
has reached these massive quantities is that it has become very 
profitable.
    Wildlife trafficking is often linked to other forms of organized 
crime, including the smuggling of drugs, weapons, and people.
    Research shows that smugglers of contraband tend to use the same 
routes and methods, regardless of the items smuggled. International 
organized crime is increasingly attracted to wildlife trafficking. 
There are huge profits to be made with little risk. Drug and wildlife 
traffickers often use the same routes and have even used illegally 
taken animals to carry concealed narcotics.
    In May of 2006, customs officials in Hong Kong found five tons of 
ivory hidden behind a false wall in the bottom of a metal shipping 
crate. When the Cameroon-based crate was first opened, it appeared to 
contain a shipment of plywood. The false wall was discovered when the 
crate was loaded onto the back of a truck and driven through a giant X-
ray machine. Traces of drugs were found inside the hidden compartment, 
suggesting that the crate had also been used to ship at least two kinds 
of contraband.
Threats to Human Health
    Wildlife trafficking also poses health threats, as some diseases, 
such as avian influenza, SARS (severe acute respiratory syndrome), 
Ebola virus and tuberculosis, can cross species lines and be 
transferred from animals to humans, endangering public health.
    They spread among humans quite quickly, and they're also quite 
deadly. But we see from the illegal trade that there's already some 
potential for moving the avian influenza virus.
    In October 2004, a Thai man was caught attempting to smuggle a 
couple of mountain hawk eagles that were infected with the H5N1 virus. 
He had them in his carry-on bags in Brussels. They were seized and 
euthanized.
    In 2005 in London, two parrots were seized at Heathrow airport that 
were infected with the avian influenza virus. So this is a real threat 
that we need to pay attention to.
    Smuggling of avian influenza infected chicks from China has been 
implicated in the spread of avian influenza to Nigeria.
    According to Timothy E. Moore, director of federal projects at the 
National Agricultural Biosecurity Center at Kansas State University and 
a nationally recognized expert in homeland security:
    ``No one knows the real numbers, but they are large. Behind illegal 
drug traffic, illegal animals are No. 2, and there is no doubt in my 
mind that this will play a prominent role in the spread of this 
disease. It looks to be the main way it [avian influenza] is spreading 
in some parts of the world, along with the migration of wild birds.''
    It's going to take a major effort to crack down on illegal wildlife 
trafficking. And we recognize that it's going to require not only the 
efforts of governments, but also of nongovernmental organizations, the 
private sector, and the average American citizen.
    And, given the challenges we face and the fact that those 
challenges are not limited by national borders, we're going to be 
increasingly reliant on these partnerships in the future.
    The high profits for illegal wildlife products combined with the 
low risk of prosecution are driving larger members of organized crime 
syndicates to engage in this black market. And as more enter the 
illegal trade, more species are brought to the brink of extinction.
    I'll cite a few examples.
Tigers
    The tiger population at the turn of the 20th century worldwide was 
estimated at 100,000 animals. Today the wild tiger population is around 
5,000 animals. That is a 95% population decline, with most of that 
occurring in the last 25 years. India has seen its population of 3,508 
tigers in 1997 drop to 1,411 in 2007. That represents a 60% reduction 
in just ten years. Tigers will not survive in the wild at this rate.
    There is a relentless demand for tigers' skins and body parts. 
Tiger populations are plummeting and at the same time the price for the 
products and the tigers themselves are increasing.
    A tiger skin is worth $16,000 in China and up to $50,000 on the 
international black market.
    A pound of tiger glue made from tiger bones sells for $2,000 in 
Vietnam. Tiger bone wine--yes wine--sells from $40 to over $100 
depending on the vintage.
    As a top predator, this species plays a keystone role in the 
ecosystems it inhabits. For example, without tigers, deer populations 
increase; more deer means more grazing on vegetation and in many cases, 
overgrazing occurs, altering the overall vegetation in an ecosystem. 
Given that the tiger is listed as an endangered species under the 
Endangered Species Act, which means it is in danger of extinction, 
poaching should not be tolerated.
Sharks
    Many species of sharks are particularly susceptible to 
overexploitation because they are typically long-lived, slow-growing, 
and produce few offspring. Over 25 percent of all chondrichthyan 
species evaluated for the IUCN Red List of Threaten Species have been 
assessed as Threatened with some populations declining by 90 percent. 
NOAA
    While sharks are harvested for a variety of products fins are the 
most economically valuable shark product. Extrapolating from data in 
Hong Kong (the world's largest trading center for fins), studies 
estimate that approximately 40 million sharks are represented in the 
global shark fin trade each year (22d meeting of the CITES Animals 
Committee). The value of the global trade in shark fins is estimated at 
400-550 million dollars, and is expected to grow, unless constrained by 
limits on supply.
    While some of this fin trade may be legal--if the fins are 
harvested in accordance with national regulations, such as in the 
United States, or with the various finning bans adopted by regional 
fisheries management organizations ``it is difficult to discern how 
much of it may be illegal.
Coral Reefs
    Coral reefs are the rainforests of the sea. They provide food, 
recreation, livelihood and employment to over a billion people 
worldwide. They are home to more species of sea life than any other 
marine ecosystem.
    But coral reefs are in serious decline globally. An estimated 20 
percent have already been destroyed with little hope of recovery, and 
50 percent is threatened with collapse.
    Reefs face varied and complex threats, from land-based sources of 
pollution to unsustainable fishing practices, such as the use of 
dynamite and cyanide. But one of the main threats is over-exploitation, 
exacerbated by the often illegal trade in coral reef resources, 
including tropical fish for the live reef food fish trade and home 
aquaria and the corals themselves for jewelry and curios.
    Sea turtles, a favorite inhabitant of coral reefs, are often 
illegally traded, the shells used for jewelry and combs. The price of 
coral jewelry can range from a few dollars for simply strung bracelets 
at a beachfront stand to thousands of dollars for red coral necklaces 
set with precious stones and gold. The same is true for turtle shell 
items: a bangle may cost $5 on the beach while a carving from the whole 
shell can run $10,000.
    Even though many coral species are protected under the Convention 
on International Trade in Endangered Species (CITES), the demand for 
these items is fueling the illicit coral trade in both corals and those 
species who depend on coral reefs for their food and shelter.
Elephants
    Although elephant populations overall in Africa are increasing, in 
large part due to increased wildlife law enforcement, elephants remain 
the target of poachers.
    Economic growth in Asia has helped revitalize the illegal trade. 
The rising demand for ivory has driven the price from $200 per kilo in 
2005 to more than $700 per kilo this year.
    In just two weeks in January 2008, Namibian officials seized 13 
elephant tusks, totaling nearly 200 kg of ivory, and representing seven 
dead elephants. In the same period, Kenyan officials seized some 80 kg 
of raw and worked ivory at the international airport in Nairobi. 
Further south in Zimbabwe, police arrested 11 suspected poachers, who 
are believed to have killed 15 elephants within two weeks in Hwange 
National Park.
United States Government Response
    To help respond to this discouraging situation, the United States 
launched a global initiative to fight illegal wildlife trafficking--the 
Coalition Against Wildlife Trafficking. We formed CAWT with five 
partners from the private sector in 2005.
    We launched the Coalition internationally in February, 2007 in 
Nairobi, Kenya. Today, we have 19 partners, including Australia, 
Canada, Chile, India and the United Kingdom and 13 international non-
governmental organizations dedicated to combating the illegal trade in 
wildlife.
    Through CAWT, we seek, at the highest political levels, to end the 
trade by curbing both the supply and demand for illegal wildlife and 
wildlife products. We are educating consumers. We are creating new 
international networks for effective law enforcement.
Improving Wildlife Law Enforcement
    CAWT complements and reinforces the goals and efforts of the 
Convention on International Trade in Endangered Species of Flora and 
Fauna, or CITES, which are focused on monitoring and regulating the 
trade in CITES-listed species.
    While CAWT can help countries meet their obligations under CITES, 
it is also focused on improving the enforcement of wildlife laws in 
other countries, building regional enforcement networks to stop cross 
border trade, and strengthening prosecution capacity.
    The Coalition is helping to strengthen countries' capacity to 
monitor and regulate the trade in species that are protected under 
CITES, as well as trade in animals and plants that are protected by 
national laws in the country of origin. A significant portion of the 
illegal wildlife trade involves species exported in contravention to a 
country's laws.
    As one way to improve enforcement, the Coalition has assisted the 
10 ASEAN (Association of Southeast Asia Nations) countries in 
establishing a new regional wildlife enforcement network, ASEAN WEN. 
The United States, along with WildAid (now Wildlife Alliance) and 
TRAFFIC International, supported the ASEAN countries in their efforts 
to establish the enforcement network in December of 2005.
    ASEAN-WEN, which formalizes information and expertise-sharing among 
the ASEAN countries, for the first time provides the mechanism for law 
enforcement and customs agencies to cooperate with each other across 
national boundaries to combat wildlife crime. ASEAN-WEN, in its brief 
existence, has already produced a string of impressive successes in the 
fight against trafficking.
    In one of the enforcement network's first cooperative efforts, the 
governments of Thailand, Indonesia and Malaysia successfully returned 
to Indonesia 48 orangutans that had been smuggled into Thailand from 
their native habitat.
    Two years ago, Thai officials, acting on information through ASEAN-
WEN, intercepted 1,455 endangered animals believed to be destined for 
the pet trade. Officials said all were imported animals and estimated 
the value of the seizure to be $22,850.
    In June 2006, six hundred and thirty Asian Softshell Turtles from 
Indonesia were confiscated by the authorities at the Jurong Fishing 
Port in Singapore. The turtles, worth approximately SGD 50,000, had 
arrived by boat from the Port of Tembilahan, Riau, in Sumatra, 
Indonesia. Twenty five were dead on arrival, and the remaining 
individuals were repatriated.
    After receiving a tip from the Malaysian government, Thai 
authorities intercepted sixty crates originating in Penang, Malaysia en 
route to Laos filled with hundreds of illegally traded animals, 
including 245 Malaysian pangolins.
    Representatives from five different agencies in Thailand acted in 
concert to ensure the case was properly handled with their counterparts 
in both Malaysia and Laos. Most of the officials involved in the 
seizures were alumni of the USG-sponsored ASEAN-Wildlife Enforcement 
Network (ASEAN-WEN) training events.
    In July of 2006, Thai authorities conducted simultaneous raids on 
three downtown Bangkok locations suspected of trafficking in products 
made from the highly endangered Tibetan Antelope. Police detained four 
dealers for questioning, arrested two, and confiscated over 250 
purported ``shatoosh'' shawls, which can cost between $1,200-$12,000 
apiece. After receiving a tip from the ASEAN Wildlife Enforcement 
Network (ASEAN-WEN), Thai officials uncovered the syndicate dealing in 
shatoosh, spanning at least three countries and involving multiple 
parties. This international ring was subsequently broken up.
    In January of this year, Thai enforcement officials seized the 
bodies of six tigers, three leopards and two clouded leopards, as well 
as 275 live pangolins from Thai village near the border with Laos. Most 
of the big cats had been cut in half and their organs removed. The 
seizure was made possible due to cross border information sharing under 
the ASEAN-WEN umbrella, with the assistance of the ASEAN-WEN Support 
Program.
    The countries of South Asia are working with the U.S. and Coalition 
partner, TRAFFIC International, to replicate the ASEAN- WEN success.
    In addition to supporting ASEAN-WEN, the United States has 
contributed in many other ways to the protection of species all over 
the globe endangered by trafficking, including those I mentioned 
earlier.
    For example, from 2005-2007, the Department of State made grants to 
WildAid (Wildlife Alliance) and TRAFFIC in cooperation with the U.S. 
Fish and Wildlife Service and U.S. Department of Justice to support 
training of customs agents, judges, wildlife enforcement officers, and 
CITES authorities in the ASEAN countries.
    The Department of Justice provided Prosecutor and Judge training in 
the Philippines, demonstrated to authorities the need for specialized 
capacity to deal with environmental crime, and led to the recent 
creation of 117 ``Green Courts'' in the Philippines. Department of 
Justice provided similar training in Indonesia last summer and has 
additional judiciary training workshops scheduled in Thailand and 
Vietnam for 2008.
    Thanks to U.S. financial and technical support, the Department of 
Justice conducts wildlife law enforcement classes at the International 
Law Enforcement Academies in Botswana and Thailand. DOJ officials are 
also now including wildlife crimes in their classes at the 
International Law Enforcement Academy alongside instruction in police 
investigation tactics, techniques and procedures, adding wildlife crime 
to drugs and arms smuggling.
    With State Department funding, the U.S. Fish and Wildlife Service's 
Office of Law Enforcement provided criminal investigator training in 
Indonesia, the Philippines, and Thailand.
    In the marine area, the State Department is the initial and primary 
supporter of the Coral Reef Crime Scene Investigation (CSI) project, 
which has developed a toolkit and training manual translated into 
several languages to help law wildlife and coastal law enforcement 
officials document and prosecute crimes involving coral reefs and reef 
resources. Coral reef CSI has already scheduled a series of three 
training workshops to begin in April, in Central America, South East 
Asia and the Pacific Islands.
    The funding for these three workshops has leveraged interest and 
partners for them to be duplicated in other regions with six additional 
workshops planned for 2008-2009 in the Red Sea, Caribbean, East Africa, 
South America, and South Asia, with more being discussed for 2010.
    For over a decade, the United States has worked to advance strong 
domestic, regional, and international shark conservation and management 
measures in a variety of fora.
    This year, at the United Nations General Assembly, the United 
States took the lead in calling on countries and regional fisheries 
management organizations to do more to protect sharks. The Resolution 
calls on countries to take immediate and concerted action to improve 
the implementation of and compliance with existing shark conservation 
measures, including those banning shark finning.
    The United States also provides technical assistance to help other 
countries develop National Plans of Action for the protection and 
conservation of sharks, as well as shark-finning prohibitions.
    We strongly support the work of the CITES Animal Committee to 
identify key shark species threatened by international trade and 
consider possibilities for additional species listings, to examine the 
linkages between trade in shark meat and fins, and to make species-
specific recommendations to improve shark conservation and the 
management of international trade in shark species.
    Finally, through the CAFTA-DR Environmental Cooperation Agreement 
with funding provided by Congress, the Department of State partnered 
with U.S. Fish and Wildlife Service, Humane Society International, and 
TRAFFIC North America to train customs agents, CITES Authorities and 
rescue centers in the interdiction, rehabilitation, and care of 
illegally traded wildlife in Central America and the Dominican 
Republic.
Raising Consumer Awareness to Reduce Demand
    My testimony indicates that the U.S. and CAWT are working hard 
worldwide to bring wildlife crime to an end and criminals to justice. I 
have said what we are doing to protect wildlife and end wildlife 
trafficking on the supply side. Curbing demand for these products is 
just as important. We are actively engaged on that front as well.
    I wish it were as simple as it sounds. Unfortunately, we have a 
problem here in America. As we are among the world's most significant 
consumer of legally traded wildlife products, along with China, it 
stands to reason that we are a large market for these illegal products.
    Although we know that organized crime is a significant factor, 
average Americans are contributing to this market too. Tourists and 
Internet consumers are buying huge numbers of products without knowing 
that what they are doing is illegal. So we're working to create public 
awareness here in the United States.
    To focus attention on this issue, in 2006 Secretary Condoleezza 
Rice named actress Bo Derek Special Envoy for Wildlife Trafficking 
issues. Ms. Derek has traveled to San Francisco and Miami to make 
Americans aware of wildlife trafficking. She has also traveled overseas 
to draw attention to the plight of endangered animals.
    We'll continue to shine a light on this tragic practice and to try 
to convince people that these products don't need to be brought home--
that coral necklaces, shark fin soup, ivory carvings and shatoosh 
shawls are really things that we can live without.
    As part of this effort, we filmed three public service 
announcements that feature renowned actor Harrison Ford. The message of 
the PSAs is to convince people not to buy illegally traded wildlife or 
wildlife products. We plan to distribute them in the United States and 
internationally and hope to have them placed on cruise ships and in 
airplane messages. We'd like to give you a preview of the PSAs today.
Catalyzing Political Will
    We will also continue to bring the illegal wildlife trafficking 
issue to the attention of those outside the environmental arena.
    For example, last year we worked closely with German officials to 
include wildlife trafficking issues as part of the work of the G-8. It 
has also been on the agenda in U.S. summits with the EU, India, and 
Brazil.
    We succeeded in having wildlife trafficking included in a 
resolution of the UN Commission on Crime Prevention and Criminal 
Justice. We have also actively engaged international crime fighting 
organizations, including Interpol.
Conclusion
    Wildlife crime, like all organized crime, is a shared global 
problem. It affects and involves all of us, in and out of government, 
in one form or another. Wildlife trafficking isn't just about 
charismatic animals. It's about economic development and the rule of 
law, public health and safety, biodiversity and sustainability.
    It is important not to lose sight of the effect wildlife 
trafficking has on human society. It lowers the economic value of 
legally traded goods, contributes to poverty, and encourages 
lawlessness.
    The United States has laid a foundation to combat this insidious 
practice, but we have much work yet to do. We welcome the Congressional 
interest and active engagement in this issue.
                                 ______
                                 
    The Chairman. Thank you, Madam Secretary. I first want to 
commend you for the attention that you have been bringing to 
this issue. I commend the State Department for that excellent 
public service announcement.
    I am going to ask a quick question before I let others ask 
questions. In 2003, Deborah McCarthy, the Deputy Assistant 
Secretary for International Narcotics and Law Enforcement 
Affairs at the State Department, told the Senate Judiciary 
Committee that the United States recognizes a close 
relationship between money laundering and terrorist financing. 
She also said that training investigators to follow the money 
helps determine whether the funds lead to criminal 
organizations, terrorist groups or both.
    My question is what is the State Department doing to follow 
the money in illegal wildlife trafficking? Are the tactics used 
in investigating the relationship between drugs and terrorism 
also used in investigating illegal wildlife trafficking? Are 
they the same methods?
    Ms. McMurray. Mr. Chairman, that is an excellent question, 
and it is an issue that we are trying very hard to get our arms 
around.
    You yourself pointed out in your opening statement how 
difficult it is to not only follow the money, but just to get a 
handle on who is involved here because it is underground for 
the most part. However, we are starting to see some patterns in 
our investigation using networks that are similar to those used 
for other illegal activity.
    I think there are others here in the room who might be 
better able to answer the specifics. For instance, on the 
enforcement side, either with our Fish and Wildlife Service or 
with our Justice Department, when they try to prosecute cases 
they do tend to pick up trends that then will help them put the 
pieces together as to where the connections are.
    I would say also a number of our partners in the Coalition, 
one of whom will testify today, in the NGO community, those 
people are right there on the ground, and a lot of times they 
have informants who give them information that help us or lead 
us to the connections that you are asking about.
    I would also say that if the Committee is really interested 
in this issue, we have asked our intelligence gatherers to 
follow it more closely, and we do have some information that we 
would be happy to provide in a classified setting if you are 
interested.
    The Chairman. We may very well follow up on that. Thank you 
for your answer, and I probably will ask it later of the other 
two panelists as well.
    Let me turn to Mr. Saxton.
    Mr. Wittman. Actually, I would like to ask her something.
    The Chairman. OK. Let me recognize you then.
    Mr. Wittman. Thank you, Mr. Chairman.
    Ms. McMurray, just as you stated, there is high profits and 
small risks now in the trafficking of animals unfortunately 
worldwide, and, as the song goes, the lure of easy money has a 
very strong appeal.
    Can you tell me what the State Department may be doing to 
work with these source countries to increase penalties for 
animal trafficking so that we can hopefully reduce these 
instances?
    Ms. McMurray. Congressman, this is an important question. I 
think what a lot of people don't know is that most of the 
source countries really have pretty good laws in place already.
    They are members of the Convention on Trade in Endangered 
Species, and you will hear from a representative in just a bit 
about that. They have gone home, and they have put the laws in 
place that are supposed to enforce that treaty, but the problem 
really is taking it from the international arena back home.
    While they have these great laws and protected areas, they 
don't have either the personnel or the training that they need 
to really follow through and take these cases from apprehension 
to prosecution, so that is what we are trying to do.
    I want to make clear it is not that the State Department 
has that expertise. We have some experts, again some of whom 
you will hear from the Fish and Wildlife Service, from the 
Justice Department, that we send over on a regular basis and 
conduct training.
    All the feedback that we get is that this is very important 
work and that we have really at a very low cost provided a 
valuable resource to their enforcement officials.
    The Chairman. The Chair wishes to apologize to the 
gentleman from Virginia, Mr. Wittman, for not recognizing him 
as a new Member of the Committee and also for being here first 
in order of questioning. I apologize.
    The gentleman from Michigan, Mr. Kildee?
    Mr. Kildee. Thank you very much, Mr. Chairman.
    Madam Secretary, in your testimony you discussed the 
importance of the Coalition Against Wildlife Trafficking, CAWT. 
It is my understanding that the President is recommending $6 
million for all State Department conservation programs, 
including CAWT and CITES.
    Why do programs to address international trafficking and 
illegal wildlife not receive more money? Does that leverage 
other money, and how does that compare to what other nations 
are doing?
    Ms. McMurray. I think the numbers, when you look at them 
very broadly in our own budget, either what the President 
submits or what the Congress approves, there are a number of 
pots of money that deal with conservation broadly and within it 
this particular issue of illegal wildlife trade, so sometimes 
it is hard to tease out the specifics that get spent on this 
particular issue.
    You probably are aware there are funds for tiger 
conservation, for rhinoceros conservation, elephants, all of 
those, that have significant poaching problems that we try to 
address through the use of those funds, and they are fairly 
significant. I don't have the numbers at my fingertips, but 
they are significant funds, and we can certainly provide them 
for the record.
    But you are accenting a challenge for us, and I am always 
happy to be able to respond when somebody says, why isn't there 
more money spent on this? I think the attention is just now 
being focused on this as a separate issue from some of the 
other conservation challenges, and I think all of us have to 
look at how we can devote more resources to this issue. I would 
certainly welcome congressional interest in this as well.
    We do leverage through the Coalition Against Wildlife 
Trafficking the funding that we do have either through the 
State Department, through the Fish and Wildlife Service, 
through the Agency for International Development. We do 
leverage all of that with what other countries spend.
    Again, we can provide the precise figures for the record, 
but the United Kingdom has a substantial tiger conservation 
program that is part of the work that we do in CAWT. There are 
other countries. India has just pledged hundreds of millions of 
dollars to beef up their enforcement to tiger reserves in their 
country.
    So part of the beauty of the Coalition Against Wildlife 
Trafficking is to have us all come together, pool not only our 
knowledge, but our resources, and try to coordinate the work 
that we do, but it is our hope that there will be more 
resources devoted to this in the future.
    Mr. Kildee. You indicated that we are starting to really 
get involved in this, but for some species time literally is 
running out. That DNA is going to be lost forever. It seems to 
me that a certain sense of urgency is needed.
    You know, I have been here 32 years, and I know you 
advocate yourself for this very strongly, but in the whole 
budget process there is an advocacy within the Department, your 
Department, for example, to OMB, and OMB goes back to you and 
says this and that and you have dialogue with OMB.
    Do you know how close your requests were to what OMB 
finally put in the President's budget, the $6 million?
    Ms. McMurray. Fist of all, the $6 million, I am not sure 
exactly where that total is coming from. Some of that is State 
Department funding I do know. Some of it may also be from other 
agencies.
    I can just speak for our Department though and say our 
funding is not broken out to that level of detail so that you 
could actually look at a line that said ``illegal wildlife 
trade efforts'' or something of that nature. It would be more 
related to natural resource conservation as a whole.
    So we go back and forth at that level, and for 2008 and 
2009, I think OMB has fully funded our requests, so I think 
what we really need to do is look to the future and see if that 
amount is sufficient, also taking into account the other 
agencies that do provide funding for this effort as well.
    Mr. Kildee. Well, our Congressional Research Service 
provides us, and they do an excellent job and have done in my 
32 years here breaking that down, so I think the $6 million is 
a correct figure for our participation in these two programs.
    I would just encourage you in your role with OMB to try to 
push harder. I know the process, and there is your request and 
they come back and you go back. It is a process and finally 
winds up in the President's budget, but we do need strong 
advocates.
    I know your own personal belief is strong in this. Just 
tell OMB not enough and we need more.
    Ms. McMurray. If I could just provide a couple of very 
inexpensive ideas that might be implemented by Congress to get 
the ball rolling a little bit more?
    I have heard from a number of people in the field not just 
in the United States, but in other countries, that there are 
two very simple things that we might be able to do at our own 
borders that are low cost. One is sniffer dogs. We use them, as 
you know, extensively for agricultural imports, illegal and 
legal, to detect them when they come in the border. We also use 
it for terrorism activity, weapons and the like.
    We all know now these dogs can be trained to detect 
anything--you know, elements of disease, if someone has cancer, 
for instance--so it seemingly would be simple to have just a 
couple of dogs at some of our major airports to try and focus 
on this particular trade. I know that the Fish and Wildlife 
Service in particular has used them sometimes for caviar 
detection as one example.
    The other one is a hotline, an 800 number. Vietnam and some 
other countries in Asia have used this quite successfully to 
take tips from people who are afraid otherwise to come forward.
    So those are pilot programs that if Congress has an 
interest might help us get started on the ground.
    Mr. Kildee. Well, I thank you very much for your helpful 
testimony, and I thank you for what you are doing. Thank you 
very much.
    I yield back, Mr. Chairman.
    The Chairman. The gentleman from New Jersey, Mr. Saxton?
    Mr. Saxton. Thank you.
    Let me just follow up on Mr. Kildee's question and ask a 
kind of a general question. Over the years, our committee has 
tried a number of approaches to accomplish the goals or to help 
you accomplish the goals that you talked about in your 
testimony.
    Back in the late 1990s, we passed a law known as the Rhino 
Tiger Product Labeling Act, and that was an effort to eliminate 
the market for illegally killed animals for animal parts.
    On another occasion, we passed some legislation to try to 
help create value for species where hunters could pay a lot of 
money, frankly, to go and hunt a species, thereby creating 
value in the local community in Zimbabwe, for example, a number 
of other educational programs and conservation programs.
    What works and what doesn't? What do you like?
    Ms. McMurray. Well, clearly we have had some successes, 
but, as I was just discussing with Congressman Kildee, the need 
is still there. There is still an urgency about the things that 
we are talking about here today.
    I would say, without picking any of the particular ones 
that you just mentioned, that our focus on the local community 
and how they might become invested in conservation is probably 
our best focus, and the reason for that in this context is that 
while the local community is not a member of an organized crime 
syndicate generally, they are the facilitators. They are the 
ones that can easily be paid off to help the bigger organized 
crime unit move these wildlife products.
    I think what our focus has been not only at the State 
Department, but the Fish and Wildlife Service and AID, is to 
figure out how we can get those communities involved, whether 
it is taking their knowledge of the forest and putting them to 
work as a park ranger or creating some kind of a tourism 
opportunity that actually brings profit back to them so then 
they see an economic value to the animals themselves.
    This is I think the trend of a lot of the work that we are 
doing.
    The Chairman. The gentleman from Maryland, Mr. Gilchrest?
    Mr. Gilchrest. Thank you, Mr. Chairman.
    You touched upon a little bit of the collaboration with our 
own agencies--Fish and Wildlife Service, the State Department 
and so on.
    Is there any indication that drug traffickers, terrorists, 
those that traffick in these wildlife activities, is there any 
link, let us say, between the drug traffickers, the terrorists, 
those who traffic in wildlife live or parts? Is there any link 
with those particular organized crime elements?
    Ms. McMurray. I think we are developing more solid 
information. At the moment, we have anecdotal information of a 
connection. What I mentioned earlier----
    Mr. Gilchrest. But, for example, is it possible, and I 
didn't meant to interrupt you.
    Ms. McMurray. That is all right.
    Mr. Gilchrest. You have a Russian organized criminal 
element. You have an American organized criminal element. You 
have a Chinese organized criminal element. You have Al-Qaeda. 
You have a whole range.
    The State Department, Fish and Wildlife, the Justice 
Department, NSA. Do you think that these various agencies that 
try to provide security for our borders, keep out these 
elements that are illegal, is there sufficient collaboration 
amongst them either periodically or ongoing, looking at all 
these issues?
    Ms. McMurray. Well, I will answer your last question first, 
which is we are trying to have more cooperation now than there 
has been before.
    I have to be quite honest with you. When I go to the 
intelligence officials and the law enforcement officials with 
all of the challenges that they do have these days with 
terrorism and everything else, this one is not the highest on 
their list.
    However, when you are able to make the case that there are 
connections and that perhaps some of the same people are 
engaging in all of these different criminal activities, then 
you can get their attention.
    Mr. Gilchrest. When you get their attention, or maybe this 
is something that the Congress can provide as a priority or 
create a new dimension of understanding of all these various 
problems and how they fit together.
    Do you think among our intelligence agencies, within the 
Fish and Wildlife, State Department and so on, is there a 
capacity to deal with this issue effectively in the ways that 
you have just described?
    Ms. McMurray. Well, I think there is, but we are just at 
the beginning of learning this.
    As I mentioned earlier, we have asked our intelligence 
gatherers to focus on this issue in the larger context of what 
they look at every day in the way of international criminal 
activity, and I did offer, and I will offer it again, that 
there are things we can brief you on in a classified setting on 
those activities.
    I should add though, because your question is very broad, 
when you look at the roots that some of these products are 
traveling, if you look at some of the people who are being 
arrested, there are starting to be connections. The dots are 
starting to be connected.
    You asked about different elements of organized crime in 
our country and others. I think the only one that I have heard 
very strongly mentioned is in the recent seizures of caviar, 
and this I believe is in some testimony submitted to you for 
the record--that there were clear signs of Russian mafia 
activity, so we are starting to dig it up.
    Mr. Gilchrest. You said that the question was very broad. I 
think it was meant to be broad to sort of pull out from your 
experience what the overall strategy is.
    While the different tactics within the State Department or 
whoever dealing with these various organized criminal elements 
can be very effective, in my judgment unless it is coordinated 
or effectively understood within the broader concept of a 
strategy, then we have stovepiped all these different things.
    So the overall strategy and in the overall big picture the 
collaborative effort on the part of various people trying to 
prevent criminal activity and terrorism and illicit drugs and 
securing our borders, I think this could fit into that.
    This particular tactic of wildlife activity, illegal 
activity as a tactic, can fit into the overall strategy if we 
can see that overall strategy.
    Ms. McMurray. Well, part of the strategy is something I 
described in my testimony, which is to create these enforcement 
networks in other countries.
    Now, the rationale for those that I gave in my testimony 
was because we need to improve law enforcement in those 
countries, and that is certainly true, but the other thing that 
we are getting from this is everybody talks to each other, and 
they also talk to us.
    They tell us what kind of information they are getting 
either from informants or others and what kind of cases they 
are able to bring for prosecution. So all of that information--
some of it never got shared before--is now finally coming not 
only to other countries in the region, but to the U.S.
    I think I also mentioned Interpol and some other 
multilateral organizations--CITES certainly can speak to this--
where we get information that comes into the multilateral arena 
that then gets shared more commonly with other countries.
    So this is something we are doing more of. It is certainly 
not perfected by any means. We have a lot of work to do, but I 
think the mere connection of all of these police and customs 
officials is going to yield a lot of information that we didn't 
have before.
    Mr. Gilchrest. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Ms. Bordallo, do you have any questions?
    Ms. Bordallo. Thank you, Mr. Chairman. I do have.
    I have a question here. John Sellar says that the United 
States is well placed to have the topic of illegal wildlife 
crime placed on the agenda of international meetings. What has 
the State Department been able to do to make this happen?
    Ms. McMurray. Well, we have taken about two years to think 
of every place that is a logical place to talk about this 
issue, whether it be the G-8. President Bush has used it in a 
number of his bilateral meetings, particularly with President 
Lula in Brazil, Prime Minister Singh in India and in his 
discussions in other countries as well, such as the European 
Union.
    But to come back to the G-8, we have been pushing this 
quite a bit, but our partner in the United Kingdom has been a 
cooperative advocate of this issue. It may not sound like a lot 
to get words into a G-8 leader's statement, but it takes a 
whole lot to get something there, and then that is something 
that becomes public.
    It is something that is a commitment at a very high 
political level and requires follow-up so all of those things, 
I think, are important ways to get the awareness out there, but 
also to get other countries to devote resources to the issue.
    Ms. Bordallo. So you are agreeing then that more could be 
done in that area?
    Ms. McMurray. Yes, but I can tell you that a big part of my 
job has been to do this for the last two years, so we have 
definitely geared up on this.
    Ms. Bordallo. I have another question for you. Has the 
State Department ever discussed with the Department of Defense 
or other Federal agencies the need to use satellites and aerial 
surveys to watch for poachers and border violations and other 
security threats, as Ms. Galster on the second panel recommends 
in his written testimony?
    Ms. McMurray. We have. This is not something that we have 
made into a systematic effort yet, but really NASA has a lot of 
data. Some of it, even though it is not the most highly 
sophisticated or high resolution, is still quite useful to look 
at trends like deforestation, like migratory patterns of 
animals or lack of populations if that is what you are looking 
for. So, yes, we have been asking NASA to help us more in that 
area.
    I should also mention, because you asked about the 
Department of Defense, and, as you know, they have just created 
a new command in Africa. Part of what they are looking at is a 
law enforcement role assisting other governments in preventing 
crime in that part of the world.
    We have asked them to look at this issue as part of what 
they are doing, and they are very enthusiastic about it.
    Ms. Bordallo. Very good. I feel that we should step up our 
activity in this area.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from South Carolina, Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman, and thank you, Ms. 
McMurray, for being here and being part of this discussion.
    I am sorry I missed your testimony. I had another meeting. 
Just listening to other questioning, is there some sense that 
the United States has the responsibility to police some of 
these developing countries in their law enforcement in regards 
to illegal hunting? Do you sense that is a responsibility that 
the State Department has the responsibility to take on?
    Ms. McMurray. Well, I think we have a responsibility in two 
areas. One very specific to what I do relates to wildlife 
conservation, and since now it is pretty clear illegal activity 
is part of the equation there, part of the threat, that is why 
we are involved.
    I would say the other though is much broader, and it is 
certainly something that Secretary Rice has talked an awful lot 
about, which is promoting democracy and the rule of law 
wherever it can take hold.
    This is a big part of that. The corruption in government, 
all of those other factors, a breakdown in the legal system--
these are things that we try to help with. We certainly can't 
police those countries themselves, but we can provide whatever 
expertise and training we have to try and make their law 
enforcement stronger.
    So, yes, I think it is an important role not just for the 
wildlife but for the broader governance issues that we are 
talking about.
    Mr. Brown. On the other side, and I thank you for that 
answer, but is there some incentives that maybe we could offer 
to hope? I know most of the time, I assume it is the economics 
that is driving the legal planning for some gain. Is there some 
incentives I guess that the State Department might be willing 
to offer to give some alternatives to the legal need?
    Ms. McMurray. This is something that we at the State 
Department don't do as much of, but the arm of the State 
Department that engages in development activities, AID, does do 
quite a bit of work on the ground to create that economic 
incentive for wildlife conservation.
    I mentioned it a bit earlier. You may not have been here. 
We look at things that will create livelihoods for the people 
who live around these protected areas, and so it may be that 
because there is such a need for enforcement that some of these 
people can be trained to be enforcement officers or park 
rangers in the areas where they live.
    Also, around the world there is just a tremendous amount of 
interest in ecotourism, in coming to look at wildlife, and I 
can't tell you. Every country I go to wants to be like Kenya or 
be like South Africa. They want to have a tremendous tourism 
program, and that is another way you can get people to keep the 
poaching activity out.
    Mr. Brown. I know that we have passed legislation here in 
order to protect big cats and I guess the dogs too, but I just 
wonder.
    Is the State Department the umbrella to try to coordinate 
all of these conservation funds to focus in one direction 
rather than having the diversion of lots of people trying to 
address it rather than having some central focus?
    Ms. McMurray. Well, I would like to be able to say that we 
are the coordinator of all those funds, but because Congress 
sends money to a number of different places, it doesn't always 
come back to us to be strategic about that funding.
    If it is AID or if it is State funding, we are very closely 
coordinated. I think we try very hard to talk to the Fish and 
Wildlife Service on a regular basis--that is a lot of where the 
funding you are talking about is going--so that we can be 
strategic about where we are focused.
    It doesn't always work that way, but we do our best to make 
sure our priorities are meshed with theirs.
    Mr. Brown. Thank you, Mr. Chairman. I apologize for going 
over my limit.
    The Chairman. The Ranking Member, Mr. Young of Alaska?
    Mr. Young. Thank you, Mr. Chairman.
    Ms. McMurray, I missed your testimony, but I have one 
thing. You mentioned Kenya for equal tourism. It is my 
information because they have disallowed hunting, they have 
lost 60 percent of their wildlife now to poaching. They are 
probably the worst country of all countries when it comes to 
poaching. Are you aware of that?
    Ms. McMurray. Well, I know that there are still significant 
challenges in Kenya. The example I was citing there was the 
profit that they get from the tourism.
    Mr. Young. The profit is declining because they outlawed 
hunting and management of the game, and now the poachers look 
upon that as their prime target. I think State Department ought 
to look at that.
    The AID is under your umbrella, I believe, and they have a 
policy of not giving guns or equipment to wildlife rangers on 
the ground. How does this restriction help on-the-ground 
professionals who must fight against, very frankly, a well 
armed poaching group?
    I know a little bit about which I speak as I have been to 
Africa numerous times, and I am not happy with any of the 
governments over there. You talk about fighting this issue. 
Until the governments agree to fight poaching, we have a real 
long haul to go.
    Why don't they change that policy and we can distribute 
equipment to the rangers to fight against these poachers?
    Ms. McMurray. Well, I think the policy is something that 
probably ought to be reviewed. We are dealing with hard 
criminals in a number of cases who have weapons from wherever 
the source.
    I am not responsible for the policy in the first instance, 
but I can tell you that I have seen programs--you may have seen 
this one as well--in Namibia that has looked at trophy hunting 
and the economic value that that can provide on a very 
controlled basis to conservation of particular species, whether 
it be leopards or other cats.
    So I think there are two competing things you are asking 
about there. One is to give the resources to the law 
enforcement officials on the ground, which is something we 
would be pleased to look at and see if there are ways we can 
work with them.
    Mr. Young. Well, how would we go about encouraging that? I 
mean, this is outside our realm, in reality, as far as Congress 
goes, but the State Department umbrella over AID, it seems like 
you could change that quite rapidly because it is unfair to 
expect the rangers, and I have been involved with some of these 
rangers that don't have the equipment, and they are going 
against well organized, very frankly, foreign mafia.
    It is cordoned by the governments themselves, which really 
frustrates me, and we are giving money to those governments to 
supposedly help them propose well-being and democracy, et 
cetera, and yet they are the ones who are backing this program 
up.
    But if our rangers don't have it within the parks 
especially, there is no way you are going to address this 
issue. It is like sending a policeman into a bad neighborhood 
with a 38 pistol and they have Uzis. It is not going to happen. 
Or no pistol at all. I am encouraging the Department to get 
more involved in this.
    Last question. Do you think the programs you mentioned a 
little bit about the sport hunters provide funding to local 
communities has a positive effect on wildlife conservation?
    Ms. McMurray. I am certainly not the conservation expert in 
the room, but I will tell you that from the data that I have 
looked at, it depends on where you are.
    The example I mentioned in Namibia I think has been a 
tremendous success. It is not something at this point that has 
been translated into other countries because of funding 
restrictions, but I think it is something that we ought to look 
at in other countries as well.
    Mr. Young. OK. Last question. This is my last question. Are 
our sanctions against Zimbabwe and Mugambe still in effect, or 
do we still give that country any type of assistance through 
the State Department?
    Ms. McMurray. I believe everything is still in place, 
Congressman, but I would be happy to confirm that for the 
record.
    Mr. Young. Because he is the classic example what not to do 
in conservation, unfortunately, and we have let him get away 
with it.
    Thank you, Mr. Chairman. Mr. Chairman, I ask unanimous 
consent to submit my written statement for the record.
    The Chairman. Sure.
    [The prepared statement of Mr. Young follows:]

   Statement of The Honorable Don Young, Ranking Republican Member, 
                     Committee on Natural Resources

    Thank you, Mr. Chairman. I am fascinated by the title of this 
hearing. However, as an alternative I would suggest: ``Endangering 
American Security: Impacts of the House Democrats Failed Leadership to 
Stop Our Dependence on Foreign Oil.''
    While we will hear testimony speculating about whether there is a 
relationship between illegal wildlife and terrorism, there is no debate 
that our growing dependence on foreign oil is financing the activities 
of terrorist organizations throughout the world. By buying oil from 
nations, like Iran, we are literally paying for the guns and ammunition 
they provide to Al-Qaida to kill our brave troops in Afghanistan and 
Iraq.
    Furthermore, I notice that there are several invited witnesses who 
are well known international animal rights advocates. If this hearing 
is about the impact of legal hunting of wildlife, then the record on 
this issue is crystal clear. As someone who has been to Africa, there 
is no question that American hunters are providing the economic 
resources that are critical to conserve these animals.
    For many years, the CAMPFIRE program in Zimbabwe provided the local 
communities with the money they desperately needed to build their 
schools, hospitals and the infrastructure they desperately needed to 
survive. This type of community support is happening throughout the 
continent and many times it is American hunters and American outfitters 
who provide the local game rangers with the equipment they need to stop 
the poachers who are funding the illegal wildlife trade. They also 
provide the on-the-ground eyes and ears to stop illegal poaching 
activity.
    In addition, it is the American hunting and conservation community 
which has consistently supported the enactment of the African Elephant 
Conservation Act, the Rhinoceros and Tiger Conservation Act, the Rhino 
and Tiger Product Labeling Act and yearly requests to full fund those 
programs.
    To most Americans, an elephant or a rhinoceros is a majestic 
animal. To many African villagers, however, these animals are a 
nuisance that drinks their water, destroys their crops and threatens 
the safety of their children. It is essential that these animals retain 
their economic value and that is accomplished through the hard currency 
provided by legal sport hunters. As President Theodore Roosevelt, our 
nation's greatest conservationist, once said: ``The people who protest 
against all hunting, and consider sportsmen as enemies of wild life, 
are ignorant of the fact that in reality the genuine sportsman is by 
all odds the most important factor in keeping the larger and more 
valuable wild creatures from total extermination.''
    It is not a coincidence that the best conservation programs in 
Africa occur in the South, where you have legal hunting, and the worst 
in places, like Kenya, which has long outlawed hunting.
    In terms of the illegal wildlife trade, I am sure there is a 
consensus that every effort should be made to stop the poaching and 
slaughter of these animals. There are many factors responsible for what 
appears to be a growing problem. In Africa, the need for protein has 
fueled the growth of the bushmeat trade and the value of rhino horn, 
elephant ivory and tiger bones has skyrocketed to the point that their 
future, particularly tigers, is in serious peril. I look forward to 
hearing what this Administration and CITES are doing to stop this 
illegal trade. If the Fish and Wildlife Service needs to hire 
additional law enforcement agents to stop this trade, then I would 
certainly support that request.
    Finally, I remain disappointed that while this may be an 
interesting hearing topic, it is now the 397 day since the Democrats 
took control of the People's House and you have done nothing to 
alleviate the suffering of all Americans who are likely to be paying 
nearly $4 dollars a gallon for gasoline this summer. My own 
constituents in Kaktovik, Alaska--living in the shadow of the Arctic 
National Wildlife Refuge--are already paying more than the national 
average per gallon and they are angry that they are being denied the 
chance to develop their own resources and those on federal lands that 
may contain the largest untapped onshore oil reserve in North America.
                                 ______
                                 
    The Chairman. The gentlelady from Guam I believe has one 
more question.
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman. I have 
just one question, and it has to do with my area that I 
represent. It is a question for Assistant Secretary McMurray 
and Mr. Perez.
    Perhaps you can enlighten us to the extent of the illegal 
trade in wildlife across and through the sea lanes transiting 
the Pacific Ocean. What resources and focus are being brought 
to bear to monitor and stop this illegal trafficking and trade 
through or around the Pacific Islands and from points of origin 
in Asia and the Pacific Rim?
    What would you say are the most serious elements of concern 
relative to illegal trade in wildlife in the Asia-Pacific Rim, 
and what is the Federal government doing to address these 
issues?
    Ms. McMurray. This is an important area obviously from a 
fisheries standpoint, as well as from the illegal trade in 
marine mammals and others.
    What we have tried to do through our Coast Guard is train 
enforcement officials in the areas protecting those waters to 
not only enforce against fisheries violations, but to look at 
other illegal trade.
    I would say specifically the most prominent one is sharks. 
There is a huge amount of activity. Shark finning is the 
practice in particular where you remove the fins. You leave the 
rest of the shark, usually put it back in the water and let it 
drown. The fins go for shark fin soup, which is a delicacy in 
many parts of Asia.
    I think the enforcement could be more aggressive than it is 
already. This is an area that is in some cases very remote, and 
it is difficult to get to all the different areas where illegal 
activity is going on.
    But beyond that I would say, and I talked about this 
earlier, we have to look at the demand side of this. What is 
fueling the activity? What is fueling the illegal trade that is 
going on there?
    You will hear from a number of other witnesses, I think, 
about the campaigns on the ground in China and other countries 
to try and get younger people to reject their cultural heritage 
in one sense and to say shark fin soup is not something we need 
to have, even though it is considered to be such a wonderful 
thing in our culture, so that also helps to take the pressure 
off of some of these shark populations.
    Ms. Bordallo. So what you are stating then is the Coast 
Guard is the one group. Do they have equipment, and are they 
trained?
    Ms. McMurray. Well, they are there for some other reasons, 
you know, because we have U.S. fishing vessels that operate in 
that region. We are operating legally. We would like all others 
to do that as well. As a complement to that, they are looking 
for other illegal activity as well.
    Ms. Bordallo. Mr. Perez?
    Mr. Perez. As it relates to the Pacific area, the reality 
of our presence there, the representation of our personnel is 
in fact one wildlife inspector and one special agent on Guam 
and about three agents and six inspectors in Hawaii, and that 
is our total presence.
    We have no capability to work on the open seas. Our 
inspectors are predominantly tied up with the facilitation of 
legitimate trade and then focusing some of their time also on 
interdicting the illegal trade.
    The agents are handling a full spectrum of the different 
types of investigations that come their way, so with regards to 
the priorities that we have out there, and they are basically 
the same priorities across the nation, we are just focusing on 
the most significant conservation risk on the species that we 
are encountering, and that is predominantly endangered 
threatened species in CITES I appendix listed species.
    So our capability is wholehearted just limited by the 
resources that we have out there present to be able to address 
whatever comes our way.
    Ms. Bordallo. Thank you. Thank you, Mr. Perez.
    The Chairman. Yes, Mr. Wittman?
    Mr. Wittman. Thank you, Mr. Chairman.
    Ms. McMurray, you had spoken at length about the actions 
both by U.S. and source countries, both ongoing and 
recommended. Of these actions that you have spoken of and your 
recommendations, which of these are most critical and timely to 
stopping the illegal wildlife trade worldwide?
    Ms. McMurray. Let me make sure I understand your question. 
Do you mean the enforcement activities we have engaged in, some 
of the things I detailed in my testimony? Is that correct?
    Mr. Wittman. Yes. I would say both U.S. actions and actions 
by the source countries.
    If you looked at it overall about all the worldwide effort 
to stopping this illegal trade, which actions are the most 
important? If there are those actions that need to happen, 
which of those are most critical and timely to stopping this 
illegal wildlife trade?
    Ms. McMurray. It is hard to pick because there are so many 
different pressure points, but I think if I had to I would say 
the enforcement networks that are being created seem to be 
bearing a lot of fruit.
    Frankly, one of the reasons that I started working on this 
issue with greater energy is because everybody told me if we 
could crack down on it in the short term, it would have more of 
an impact than some of the longer-term programs we have to 
create protected areas and other conservation measures.
    So as I mentioned, this ASEAN-WEN network has already 
produced a number of seizures of products. I didn't detail all 
of them in my testimony. We have even been told that there are 
a number of rings, organized rings, that have been broken as a 
result of really only a year and a half's worth of effort.
    It really came from having 10 countries get their police 
and their customs officials and their intelligence officials 
and others to sit in the same room, meet each other, learn who 
their counterparts were and then get their phone number so that 
afterwards they can say, you know, we have lost the trail of 
something. It has gone through our country, but you are next. 
How about you trying to stop it?
    So we want to try and take that model and develop it in 
other countries. I think that would be the quickest way to turn 
some of this around.
    The Chairman. Madam Secretary, thank you. We know you have 
another commitment. We appreciate your time with us this 
morning.
    Ms. McMurray. Thank you very much, and thank you for your 
interest in this issue.
    The Chairman. Thank you.
    We will now proceed with the other two panelists, whom I 
have already introduced. Mr. Sellar and Mr. Perez, thank you 
for being with us this morning. As I said, we do have your 
prepared testimony.
    Mr. Sellar, if you want to go first you may.

  STATEMENT OF JOHN M. SELLAR, SENIOR OFFICER, OFFICE OF THE 
              SECRETARY GENERAL, CITES SECRETARIAT

    Mr. Sellar. Thank you very much, Mr. Chairman and Members 
of the Committee. The CITES Secretariat is delighted to 
participate in this inquiry that you have instigated.
    My name is John Sellar. I am the Senior Officer for Anti-
Smuggling, Fraud and Organized Crime in the CITES Secretariat 
based in Geneva, Switzerland. It probably feeds into the last 
of the recommendations that we make in our testimony if I 
explain that that is something of a misnomer, my title. 
Although I am described as a senior officer, I am in fact the 
only officer, and that is one of the major problems facing us.
    In fact, unfortunately my Interpol colleague, the Wildlife 
Crime Officer from Interpol, cannot be with us today, but he 
and I are the only two individuals that are working at the 
international level to try and facilitate combating what you 
have heard as a serious problem.
    The Chairman. Excuse me. That means there is two in the 
whole world?
    Mr. Sellar. At the international level there are two 
people. There is myself in the CITES Secretariat. There is one 
individual in Interpol.
    The Chairman. Wow.
    Mr. Sellar. So that is why in the recommendations that we 
have made in our written testimony we have asked you if you 
have the opportunity to influence the U.S. Government to try 
and support the work of the Secretariat because our budget is 
extremely restricted, but that is a selfish issue, and I won't 
belabor that point at all.
    The other two recommendations for your Federal agencies, 
the first being the Fish and Wildlife Service. You will hear 
from my colleague, Mr. Perez, in a minute, but we wanted to say 
how much we value the work of the Fish and Wildlife Service, 
not only work that it has done within your nation's borders, 
but the way it reaches out in practical ways to support the 
enforcement community internationally in a variety of ways. 
That is from training to the supply of intelligence.
    It is extremely well supported by the Department of 
Justice, and the prosecutions that have taken place in the 
United States are very impressive. In fact, if you look at the 
number of foreign nations that have appeared before your 
courts, that demonstrates how effective your enforcement and 
prosecution agencies are in reaching out beyond your borders to 
deal with the criminals whose trade affects your citizens and 
affects your country.
    Chairman, we have submitted quite lengthy written 
testimony, so I have been struggling with thinking what I 
should highlight to you, what perhaps I could say that you 
won't hear from others.
    Maybe something that you won't hear from your other 
witnesses is we believe it is important that you should 
recognize that wildlife trade per se is not evil. There is a 
lot of wildlife trade that takes place around the world. Some 
examples have been given already this morning, but hunting can 
provide very important sources of revenue to the local 
communities and encourage them to value their wildlife.
    So simply the message from the CITES Secretariat to you 
would be, please don't think that the answer to this is a ban. 
The vast majority of wildlife trade that takes place within the 
provisions of the Convention, within the CITES treaty, take 
place each year in a sustainable and a regulated and in a legal 
manner.
    But I suppose to really wrap up, what we feel are the two 
major problems facing law enforcement is, first of all, for 
some reason wildlife crime does not seem to be regarded as 
mainstream crime so that we don't find it discussed at the 
higher levels of Interpol. We don't find it discussed at 
international meetings of customs officers or law enforcement 
agencies. Until it does move in to being seen as mainstream 
crime, we feel that it is going to be extremely difficult to 
move forward.
    And then the second element that undoubtedly is needed is 
greater political will. Some speakers have already touched upon 
this. There are areas in the world where, quite frankly, some 
local officials are making so much money from their illegal 
trade in wildlife there is no motivation for them to do 
anything about it, so political will is undoubtedly badly 
needed.
    The U.S., we believe, has shown an excellent example in 
this field, and we hope you can encourage others too.
    I think I would confine myself to that, Mr. Chairman. If 
you have questions, I would be very happy to answer them.
    Thank you.
    [The prepared statement of Mr. Sellar follows:]

Statement of John M. Sellar, Senior Officer, Anti-Smuggling, Fraud and 
 Organized Crime, Secretariat of the Convention on International Trade 
    in Endangered Species of Wild Fauna and Flora (CITES), Geneva, 
                              Switzerland

    Mr Chairman and Members of the Committee, thank you for inviting 
the CITES Secretariat to submit testimony on what we believe to be an 
important subject.
    The Convention on International Trade in Endangered Species of Wild 
Fauna and Flora is a multi-lateral environmental agreement that entered 
into force in 1975. There are currently 172 Parties to the Convention. 
It is widely known throughout the world by its acronym of CITES. 
However, it is also often referred to (very appropriately with regard 
to your Committee Hearing) as the Washington Convention, since that it 
where it was concluded and first signed in 1973. The United States of 
America ratified CITES on 14 January 1974.
    CITES is a treaty that regulates international commercial and non-
commercial trade in animals and plants, including their parts and 
derivatives. The Convention provides differing degrees of protection 
and regulation to animal and plant species, depending on their 
conservation status. CITES works by subjecting international trade in 
specimens of selected species to certain controls. All import, export, 
re-export and introduction from the sea of species covered by the 
Convention has to be authorized through a licensing system. About 
30,000 species are listed in the three Appendices of the Convention. 
The aim of CITES is to ensure that international trade in specimens of 
wild animals and plants does not threaten their survival.
    We can provide more detailed information regarding the Convention 
and its operation if required but, with regard to this submission, we 
will hereafter confine ourselves to illicit trade issues, particularly 
serious illegal activities. We presume that the Committee will have a 
general understanding of what constitutes ``illegal wildlife trade'' 
and, therefore, we do not intend to provide examples of what wildlife 
is traded illegally or the nature of the markets.
    Illegal trade in wildlife has many aspects that may be relatively 
obvious, such as the criminality involved, but we are conscious that 
there are others that may not be so apparent. For example, when 
considering this subject and especially its ``impacts'', it is 
important to take account of the potential risks that illegal trade 
includes, such as the spread of diseases (some of which are extremely 
hazardous to humans) and the impact of ``invasive alien species''.
The scale of illegal wildlife trade
    The CITES Secretariat's greatest difficulty in assessing the scale 
of illegal trade in wildlife is that the reporting of seizures of 
smuggled specimens of CITES-listed species or of the related illegal 
harvesting or dealing in such specimens tends to be very haphazard. 
Whilst we created a computerized database in the late 1990s to store 
such information, relatively few of the Parties to the Convention 
submitted data on a regular basis. The lack of resources in the 
Secretariat prevented us from taking action to increase the collection, 
input or analysis of information, and input of data was suspended in 
2007.
    ICPO-Interpol and the World Customs Organization each have similar 
databases but seem to experience similarly inconsistent levels of 
reporting. The European Union also has its own database regarding 
illegal trade in wildlife.
    It is, therefore, extremely difficult to gauge the levels of 
wildlife crime around the world and the nature of such criminal 
activities. Even in many developed countries, there is no central 
collection of information on the subject; primarily because wildlife 
crime is regarded as a low priority for law enforcement agencies. We 
have noted that the increase in efforts to detect and combat terrorist 
activity around the world in recent years has pushed the subject even 
further onto the sidelines.
    At its 14th meeting (The Hague, 2007), the Conference of the 
Parties to CITES noted that this lack of detailed information was a 
problem and instructed that a body of relevant individuals (known as 
the CITES Enforcement Expert Group) be convened to study this and other 
enforcement-related issues. The Group is likely to meet in 2009.
    It should also be noted that, in many parts of the world, the 
enforcement of wildlife legislation is the task of officials whose 
focus is on in-field protection (such as anti-poaching work) and these 
will be game scouts and wardens, forest guards, rangers, fishery 
protection officers and others who often do not have the training, 
authority or resources of their Customs and Police counterparts. This 
affects their ability to gather, store and communicate information. 
This situation has other law enforcement-related implications that we 
will return to later.
The role of organized crime in illegal wildlife trade
    As noted above, the Secretariat does not have as much accurate 
information as it would wish regarding the scale of illegal trade, the 
nature of such trade or the persons involved. However, through the 
reports that we do receive, the regular contacts we have with law 
enforcement officials and agencies, and the assessment and verification 
missions we have undertaken, the Secretariat has no doubt whatsoever 
that organized crime, certainly within the definition used in the 
United Nations Convention against Transnational Organized Crime, is 
engaged in or linked to illegal trafficking in protected wildlife 
species.
    We have, for example, noted the following features in wildlife 
crime and illicit wildlife trade cases, many of which bear the classic 
hallmarks of organized crime or organized criminal groups. These are 
not listed in any particular order of importance or occurrence.
     1.  The organized nature to the illegal harvesting of some 
endangered species is revealed by the recruitment and payment of 
poachers and the provision to such persons of firearms, ammunition, 
vehicles and other supplies necessary for them to remain in the 
species' habitat for prolonged periods and for the specialized 
processing and extraction of species (or their parts) once they have 
been killed.
             One practical example of this is on the Tibetan Plateau of 
            China where groups sometimes numbering up to 15-20 poachers 
            have been arrested, who were equipped with firearms, 
            several 4x4 vehicles, food stocks sufficient for one month, 
            and where members of the poaching gangs had specific roles, 
            i.e. marksmen, cooks, drivers and skinners. The arrested 
            persons have admitted to being recruited for this work by 
            individuals who would then arrange the further processing 
            of the Tibetan antelope skins obtained and their subsequent 
            smuggling out of China. The fact that shawls made from the 
            wool of Tibetan antelope (called shahtoosh) can each retail 
            for the equivalent of up to USD 30,000 illustrates what 
            motivates such activities.
     2.  Similar approaches to the poaching (including the capture of 
live animals) of elephants, great apes, musk deer, the saiga antelope, 
sturgeon, the tiger and many other species of conservation concern, 
although each with its own specialized characteristics, have been noted 
for decades.
     3.  As part of the activities described in paragraphs 1 and 2 
above, members of local communities (often living in conditions of near 
abject poverty) are regularly exploited by organized crime groups and 
are, thus, exposed to personal risk of injury or death from the 
hazardous terrain in which a lot of poaching takes place, similar risks 
from some of the target species (which can be extremely dangerous 
creatures) and finally are put at personal risk from arrest, 
imprisonment, injury or death during encounters with law enforcement 
personnel.
     4.  The quick attendance to persons, who have no visible means of 
financial support, arrested for poaching and the subsequent 
representation of such persons in courts by high-quality criminal trial 
lawyers, whose fees would normally be far beyond the reach of such low-
level criminals, demonstrates an input from wealthy persons behind-the-
scenes in a classic manner of organized crime groups ``looking after 
their own''. This is regularly seen with regard to persons arrested in 
India and prosecuted in relation to the killing of tigers and leopards 
and the smuggling of their skins and bones. A tiger skin currently 
retails for at least USD 10,000 in parts of China.
     5.  There have been several instances where the court process 
involving poachers or traders appears to have been corruptly subverted, 
leading to bail being granted where it would not normally be expected, 
long-term delays whereby cases never reach conclusion, and even 
complete dismissal of charges by apparently corrupt prosecutors or 
judges. In a similar vein, the involvement of persons of high political 
or social status to corruptly influence law enforcement has been noted, 
often discouraging any enforcement action whatsoever or subsequently 
interfering in the judicial process. Diplomats have also been known to 
engage in the smuggling of wildlife, claiming immunity from normal 
border controls and baggage searches.
     6.  The threatening of, harassment of, acts of violence towards 
and murder of officials tasked with the protection of species and anti-
poaching work has been observed. One example of this was in the late 
1990s in the Russian Federation, where the office and accommodation 
complex of a Federal Border Guard unit was bombed and it is understood 
that almost 50 officers, their wives and children were killed or 
injured. This attack is believed to have been the work of the ``Russian 
Mafia'' in retaliation for an increase in enforcement operations 
against sturgeon poachers. Every year, many anti-poaching officers are 
killed in the execution of their duties. Anti-poaching patrols around 
the world are regularly faced with gangs equipped with semi- and 
automatic firearms and some patrols in Africa have encountered criminal 
groups armed with rocket-propelled grenade weapons.
     7.  Poaching is seen to increase in countries experiencing civil 
unrest or wars and the profits from poaching or subsequent trade (such 
as in ivory) is apparently used to fund rebel activities. Whether such 
persons and groups are truly acting in a politically-motivated manner 
or whether they are more representative of organized criminal groups 
is, however, often unclear.
             Disturbingly, it is not uncommon for such poaching and 
            illicit trade to be conducted or facilitated by 
            ``peacekeeping'' and other military or para-military forces 
            that are supposedly in the country or geographical area to 
            restore or maintain law and order. In such instances, 
            military command units and structures may actually become 
            extremely large and highly organized criminal groups. Local 
            police commanders have also been known to control poaching 
            and smuggling activities. It is in this type of scenario 
            that over 200 rangers have lost their lives in the 
            Democratic Republic of the Congo in recent years.
     8.  It has been noted, particularly in parts of Asia and Africa, 
that rebel groups sometimes impose a ``tax'' on illicit cross-border 
wildlife trade. Whether such taxes flow to political causes, fund 
terrorism, or whether this is simply criminal profiteering is unclear.
     9.  The processing and subsequent marketing of illegally-harvested 
wildlife specimens will often be complex and require a financial base 
or entail ``start-up'' costs beyond the means of ``ordinary'' local 
citizens. This can be seen, for example, in the case of sturgeons 
where: the caviar must be extracted and processed carefully if it is to 
later pass as a genuine high-quality product; tins and jars identical 
to those used by genuine traders must be counterfeited; the attachment 
of labels matching those used by genuine traders must be accomplished; 
the caviar must be refrigerated during storage periods; and the caviar 
must be smuggled across several international borders before its final 
sale and distribution in consumer countries.
             However, the profits justify such expenditure. An 
            investigation in 2001 showed that caviar with a wholesale 
            value of USD 20 million had been laundered through one 
            Middle East country in a ten-month period.
    10.  The inviolability displayed by some sections of the caviar 
trade, with regard to law enforcement and attention from other 
criminals, demonstrates either their ownership by organized crime 
groups or their payment to organized crime for ``protection''. The 
brazen and threatening nature of some activities will also discourage 
``clients'' from reporting suspicions or observations to law 
enforcement agencies. For example, in one incident in the Middle East a 
prospective customer was taken to a warehouse to inspect the ``goods'' 
and was astonished to see seven tons of caviar, which was being guarded 
by a large group of Russian males, all armed with automatic weapons.
    11.  The international smuggling of wildlife specimens, often 
involving the crossing of several borders and journeys of many 
thousands of miles, necessitates the concealment of specimens against 
what may be repeated inspections by border control officials and which 
involves sophisticated techniques to hide the true nature of the 
specimens or prevent their detection during inspections.
             This has included hiding illicit goods deep inside or 
            underneath genuine cargo, the wrapping of goods in aluminum 
            foil in the expectation that it will hinder viewing by X-
            ray machines, the painting of goods to hide their natural 
            appearance, the construction of ``false bottoms'' and other 
            hidden compartments in baggage, cargo containers, trains, 
            boats and motor vehicles, and the covering of, for example, 
            ivory carvings in an outer casing of clay or wood. The 
            variety and sophistication of smuggling techniques 
            demonstrate a requirement to engage the assistance of 
            specialists and a need for finance to enable this to occur. 
            Narcotics and firearms have also been smuggled alongside 
            wildlife.
    12.  The duration of some smuggling operations illustrates the need 
for ``management'' of specimens and the route, from country origin to 
destination (and sometimes in transit) that requires the involvement of 
many persons. This may involve human couriers or ``mules'', recruited 
and paid to smuggle wildlife specimens, often by air transport, 
concealed on their body or in luggage. This has included the use of 
airline personnel, who may be less likely to be inspected by border 
control staff. Some couriers may be from the poorest levels of society 
and are exploited in a manner similar to that of poachers. One courier 
gang involved in smuggling caviar from an eastern European country was 
``managed'' by a corrupt Deputy Chief of Police.
    13.  The complex routing of initially bona fide shipments that 
will, at some point during international movements, be replaced by 
illegally-acquired specimens, and then continue to the destination, 
accompanied by genuine CITES permits or certificates and are, thus, 
laundered into domestic markets.
    14.  The sophisticated forgery and alteration of genuine permits 
and certificates authorizing trade in wildlife and of the security 
stamps used on CITES documents by some countries. Additionally, the use 
of forged and altered documents and other fraud related to applications 
for CITES permits and certificates. The threatening, bribery and 
harassment of officials responsible for the issuance of CITES permits 
and certificates, including the use of prostitutes to provide sexual 
favours in return for the issuance of trade authorization documents, is 
not unknown.
    15.  The payment to organized crime groups for the use of their 
already-established smuggling routes or methods. For example, persons 
engaged in illicit trade in tiger and bear products between the Russian 
Federation and China are known to have paid the ``Russian Mafia'' to 
have items smuggled across the border.
    16.  The establishment and use of fake or ``front'' companies to 
distribute and market wildlife products. Also, the fraudulent 
advertising of wildlife for sale, involving widespread use of the 
Internet and ``spam'' email advertising, where no wildlife is possessed 
and it is simply intended to encourage customers to pay in advance but 
where there is no intention to deliver. Various forms of wildlife crime 
lend themselves to money-laundering activities and, thus, will attract 
the involvement of organized criminal groups.
    17.  The involvement of persons clearly associated with organized 
crime. A surveillance operation at an Italian Mafia party noted that 
inordinate amounts of caviar were being served. Leaders of South 
American drug cartels have been known to collect exotic species. For 
instance, the now deceased Colombian drug baron, Pablo Escobar, is 
known to have had a collection of zoo-like proportions, including 
several animal species from Africa and Asia that must have been 
smuggled into Colombia.
    18.  Instances of ``revenge'' violence. For example, the murder of 
a trader in North America is thought to have been motivated by the fact 
that he allegedly supplied pig gall bladders to a group in Asia, 
claiming them to be bear gall bladders. Several senior law enforcement 
officers, responsible for directing operations against wildlife 
criminals, have been murdered in execution-style killings.
    19.  Law enforcement organizations have noted that persons involved 
in serious wildlife crime and illicit trade often have previous 
convictions for other forms of crime, many times involving violence.
    20.  The relatively low risk of detection and low level of 
penalties imposed upon those convicted of wildlife crime or illicit 
trade make these activities attractive to the ``professional'' and 
``organized'' criminal. The massive profits that can be gained from 
some forms of wildlife, often worth more than the same quantity of 
gold, diamonds or narcotics, are, in themselves, appealing to organized 
crime groups and networks since this, after all, is what motivates 
their activities.
    Several of the examples above are of a nature where those involved 
require criminal experience to conduct their activities and could not 
be carried out simply by specialized wildlife traders or collectors.
    It should be recognized that some of the activities above would be 
regarded by the Convention against Transnational Organized Crime as 
``serious crime'' because the Parties to CITES in which they occurred 
have legislation that provides for ``a maximum deprivation of liberty 
of at least four years or a more serious penalty''. Courts in China, 
for example, have the power to sentence some wildlife criminals to 
death and have done so on several occasions. However, many Parties do 
not have such a length of incarceration available as a sentencing 
option. Indeed, in some countries violations of CITES are not criminal 
offences and will simply be dealt with by way of administrative penalty 
and confiscation of specimens.
    Some Parties to CITES, the United Kingdom of Great Britain and 
Northern Ireland and the United States of America for example, have 
established sentencing guidelines for wildlife crime and we believe 
this is a good example to follow. We understand the European Community 
is also examining the concept of harmonizing penalties throughout its 
Member States.
    With regard to trends in wildlife crime, once again, the lack of 
sufficient data makes it almost impossible to measure these. What is 
often very apparent, however, is the fact that certain types of 
wildlife trade move in and out of fashion. It is also noted that 
increased enforcement effort against illicit trade in one species can 
lead to traders exploiting another. It may be that because law 
enforcement agencies are gradually more conscious of wildlife crime, 
they are simply detecting what has always been there. However, there 
does appear to be an increasing level of sophistication in criminal 
activities in this field. This appears, in part, to be due to the 
increasing efforts by some law enforcement agencies to combat such 
crimes, using modern policing techniques (including regular use of 
forensic science). This, in turn, appears to have sometimes prompted 
very serious levels of violence to be directed towards wildlife law 
enforcement officials.
The rule of law
    The majority of the wildlife that is affected by illegal trade is 
found in developing countries or countries with economies in 
transition. Many of such countries face major problems relating to 
governance and criminals exploit this, as illustrated in some of the 
examples above. However, whether they exploit an already-existing 
situation or whether they create it is difficult to assess.
    It is certainly true that, on occasions, wildlife criminals will 
undermine what was previously a law-abiding and corruption-free 
situation. This was the case when a particular country in the Middle 
East became, for a period, the primary location for the laundering of 
illegal-origin caviar. There, civil servants were allegedly corrupted 
using bribes involving cash, gifts and prostitutes in order to persuade 
them to issue genuine CITES permits, so that the caviar could enter 
into international markets. Some of these government officials were 
also threatened with violence or were told that their families would be 
subjected to violence if they did not cooperate.
    Probably more common is when poorly-paid officials are bribed with 
money or goods to ``turn a blind eye'' or otherwise facilitate an 
illegal activity. Any criminal activity, including wildlife crime, 
will, of course, be easier to conduct where there is a climate of 
corruption. It is the Secretariat's experience that wherever we see 
large-scale illegal trade in wildlife we also see widespread, almost 
institutional-level, corruption.
    That said, it is also the experience of the CITES Secretariat that, 
especially in relation to anti-poaching duties, very considerable 
dedication and bravery are displayed by those whose task it is to guard 
endangered species and their habitats. Indeed, many of the officers 
engaged in such duties have to patrol hazardous terrain, in which 
water- or insect-borne diseases are often present, and have to face 
poachers that are considerably better armed than them. These same men 
and women are also often poorly-paid, inadequately trained and 
equipped, and have seen many of their colleagues seriously wounded or 
killed in the line of duty. Their commitment is, therefore, highly 
commendable. We are, frankly, surprised that people continue to apply 
for such work.
Activities to counter illegal trade in wildlife
    As has been noted above, it may be very difficult to differentiate 
between what is a violation of the Convention conducted by: the 
wildlife trader who simply does not want to conform to its provisions 
and will, on occasions, seek extra profit or a quicker sale by evading 
CITES controls; the determined collector of wild exotic plants; the 
person who wishes a particular species of reptile as a pet; the 
vacationer who will innocently buy a wildlife souvenir and then import 
it illicitly to his or her home country; and the ``true criminal'' who 
is motivated purely by profit or the organized criminal group whose 
activities are driven by greed and who have little interest in the 
commodity involved.
    Very few countries in the world have specialized units devoted to 
combating wildlife crime. In most countries, this task is delegated to 
officials who have relatively little training in, or experience of, the 
``policing'' skills that are so vital to target effectively and bring 
to justice the organized criminals who exploit natural resources. It is 
not uncommon, when those officers seek assistance from Federal, State 
or local Police agencies, or from Customs authorities, for it to be 
declined because senior officers simply do not understand the nature of 
the problem or the seriousness of wildlife crime.
    Where specialized and multi-agency wildlife law enforcement units 
do exist, their success rate is high. We also note the considerable 
benefits that are gained through sub-regional and regional enforcement 
networks and groups. For example, the Association of South East Asian 
Nations Wildlife Enforcement Network (ASEAN-WEN), the European Union 
Wildlife Trade Enforcement Group, the Lusaka Agreement Task Force and 
the North American Wildlife Enforcement Group (NAWEG) have each, in 
their own way, contributed substantially to combating illegal trade in 
wildlife. The United States of America, through its US-AID programme, 
has provided significant support to ASEAN-WEN. Of particular success, 
in relation to the specific projects it has engaged in but especially 
with regard to facilitating communication, coordination and 
collaboration between agencies and individual officers, has been the 
Interpol Wildlife Crime Working Group. We understand the Committee will 
learn more about this group from other sources.
    The CITES Secretariat is obliged, through lack of resources, to 
focus its enforcement-related work primarily on illegal trade involving 
those species most at risk and violations of the Convention of a 
commercial nature. Both these areas may involve organized crime.
    Much of the Secretariat's work related to enforcement of the 
Convention involves increasing the awareness of the Parties and their 
relevant law enforcement agencies to the serious nature of some illegal 
trade and, during such activities, the involvement of organized 
criminal groups is emphasized. Training materials for enforcement 
officers have been developed and these are delivered both by 
Secretariat staff, partner organizations and relevant non-governmental 
organizations. These materials are available in the three working 
languages of CITES--English, French and Spanish.
    The Secretariat also acts as a conduit through which information 
and intelligence relating to wildlife crime and illegal trade can be 
received and communicated. Technical advice and support are also 
provided on a regular basis, involving not only specialized knowledge 
of the Convention but also expertise in law enforcement itself. The 
Secretary-General of CITES has a policy of recruiting to the 
Secretariat staff persons with professional backgrounds in enforcement-
related activities. Currently, there are two lawyers (one of whom was 
previously a prosecutor) and a former police officer in the 
Secretariat. The Secretariat also issues confidential Alerts, 
describing current illicit trade and providing targeting intelligence, 
to the Parties and to law enforcement agencies.
    The Secretariat has a long and very close working relationship with 
ICPO-Interpol and the World Customs Organization, and it has signed 
memoranda of understanding with both agencies. The three organizations 
work together strategically and on operational issues. The Secretariat 
has also established memoranda of understanding with a specialized 
forensic science laboratory (the U.S. Fish and Wildlife Service's 
National Fish and Wildlife Forensics Laboratory) and with regional and 
national enforcement agencies.
    The Secretariat sees such links with international, regional and 
national law enforcement organizations as essential in obtaining what 
we regard to be the priority in combating wildlife crime and illicit 
trade; namely, increased cross-border communication, collaboration and 
cooperation. Law enforcement resources are commonly so limited and so 
already heavily-burdened that it is vital that modern profiling, risk-
assessment and targeting techniques be used to the utmost. We believe 
that intelligence-led enforcement is the key to countering wildlife 
crime.
    The Secretariat has conducted missions to assess enforcement needs 
in many Parties, examining both general wildlife trade issues but also 
those related to specific species. These have included illicit trade in 
caviar, great apes, ivory, the Tibetan antelope and the tiger. Where 
appropriate, restricted-circulation reports are subsequently provided 
to the Parties (and usually copied to ICPO-Interpol and the World 
Customs Organization) that contain recommendations regarding the 
improvement of wildlife law enforcement. Such reports have often 
referred to organized crime. The Secretariat subsequently monitors the 
implementation of the recommendations and tries to provide ancillary 
support through additional technical advice, training and general 
capacity-building.
    Since 1992, the Secretariat has conducted a National Legislation 
Project that analyses the national laws of Parties to CITES, according 
to a set of agreed criteria, and determines whether they are adequate 
for implementation of the Convention. Where they are not, follow-up 
work that includes the provision of technical advice is undertaken. The 
Conference of the Parties and its Standing Committee monitor the 
progress of Parties in enacting adequate legislation. Where necessary, 
recommendations for a suspension of trade in CITES-listed species will 
be made and this process has been very successful. Similar 
recommendations for a suspension of wildlife trade in specific Parties 
may also be made where the Secretariat identifies significant levels of 
illicit trade in a Party and where that Party is not responding 
adequately.
    As mentioned previously, the Secretariat, whilst having a high 
regard for the work done by wildlife law enforcement officials 
(particularly in developing countries and countries with economies in 
transition--where the majority of wildlife is harvested) is concerned 
by the sometimes serious lack of resources and professionalism 
available to combat wildlife crime and illicit trade, particularly if 
those involve organized criminal groups. An example of one response we 
attempted follows.
    In 2002, the Secretariat prepared the programme for a two-week 
training event for wildlife law enforcement personnel. We then collated 
a range of training materials for delivery at the course but also for 
use by students in subsequent in-country training. The Sardar 
Vallabhbhai Patel National Police Academy, Hyderabad, India, agreed to 
host the course and all tiger range States were invited to nominate 
students. External funds, amounting to almost USD 100,000, were raised 
from a number of governments and other donors to enable the training to 
take place.
    The training was delivered at the Academy from 13 to 24 May 2002. 
Twenty-eight students attended from the following countries; 
Bangladesh, Cambodia, China, India, Indonesia, the Lao People's 
Democratic Republic, Malaysia, Myanmar, Nepal, the Russian Federation, 
Thailand and Viet Nam. Responsibility for the training was divided 
between staff of the Academy faculty and specialized instructors from 
the CITES Secretariat, Africa, Europe and North America. The subjects 
covered included: arrest techniques, border controls, CITES, covert 
operations, evidence gathering, fraud, forensic science, informants, 
interview techniques, intelligence, organized crime, personal safety, 
search and train-the-trainer. The training received high evaluation 
ratings from the students and the Academy. Together with written 
training materials, each student also received an electronic version of 
the presentations to enable him or her to conduct further training.
    The course was one of the most intensive ever organized by the 
Secretariat and, whilst it is regarded as having been highly 
successful, it placed a heavy burden upon its resources and it would be 
difficult for us to conduct such training on a regular basis.
    Instead, the Secretariat now tends to focus its activities on e-
learning materials. We have a variety of capacity-building modules 
available and the majority is now supplied in a CD-ROM format. These 
include an inter-active training course for Customs officers and an 
informative course for enforcers, prosecutors and the judiciary. One of 
the CD-ROMs incorporates a session relating to ethics in wildlife law 
enforcement, especially prepared with a view to assisting in anti-
corruption work.
Recommendations
    The CITES Secretariat is aware that enforcement alone will never 
address the problems associated with illegal trade. To do so requires 
consideration of a wide range of socio-economic issues, especially 
those relating to enabling local communities to value the natural 
resources around them and benefit from them, e.g. through eco-tourism 
or sustainable trade in wildlife.
    We presume, however, that these are not matters that the Committee 
will consider on this occasion and we will, thus, restrict our comments 
accordingly. The Secretariat is also conscious that many of the 
recommendations that we might be inclined to make are more properly 
matters for the international community as a whole to address and, 
consequently, we will restrict our comments here too.
     1.  The CITES Secretariat is very conscious that the U.S. Fish and 
Wildlife Service (on occasions in conjunction with other federal, State 
and local agencies) has undertaken, and continues to undertake, 
enforcement activities that impact upon the criminals who engage in 
illegal international trade in wildlife. We value the manner in which 
the Service looks beyond the borders of the United States. In such 
work, it has been very ably assisted by its National Fish and Wildlife 
Forensics Laboratory. The Service as a whole has been willing to share 
its intelligence and expertise with other enforcement bodies around the 
world, both at an operational level but also through the provision of 
technical support and training. We trust that the Service will continue 
such activities and, as much as possible, extend them with regard to 
the international community.
     2.  The Secretariat makes the very same remarks as in paragraph 1 
above in relation to the U.S. Department of Justice. The importance of 
effective prosecution can sometimes be overlooked. Here too, the United 
States provides a first-class example to other nations. In 2004, the 
CITES Secretary-General's Certificate of Commendation was awarded to 
the Service and the Department for their work in relation to combating 
and prosecuting illegal trade in caviar. The Secretariat hopes that the 
Department will continue to provide support to the international 
community and, where possible, extend its activities in this field.
     3.  The Secretariat believes that attracting greater political 
will and achieving a higher law enforcement priority in relation to 
combating illegal trade in wildlife will not be possible until wildlife 
crime is viewed as ``mainstream'' crime. For this to happen, we believe 
that wildlife crime must appear more regularly on the agendas of 
relevant meetings of senior law enforcement officials, such as the 
Interpol General Assembly, and political level meetings, such as the 
Conference of the Parties to the UN Convention against Transnational 
Organized Crime. We believe that the United States of America is well 
placed to influence such agendas, both at home and abroad, and we hope 
that the Committee may seek to suggest to the Government of the United 
States that it do so.
    The Secretariat is of the opinion that our work, and that of the 
Parties to CITES, in the field of combating serious illegal trade in 
wildlife has been relatively successful. However, the Secretariat's 
resources are very limited and, in recent years, our attempts to seek 
additional funding for such work have not been successful. We seek the 
support of the United States, as the major contributor to the Trust 
Fund of CITES, to provide additional finance to the budget of the 
Convention and to encourage other Parties to do likewise.
Concluding remarks
    The CITES Secretariat welcomes the initiative by the U.S. House of 
Representatives, Committee on Natural Resources, to examine illegal 
trade in wildlife. We believe it is a subject that deserves to be 
considered more widely in similar fora.
    Many of the violations of the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora are of a minor or technical 
nature. It is also important to acknowledge that the majority of 
wildlife trade conducted around the world each year complies with the 
provisions of the Convention, i.e. it is both legal and sustainable in 
nature. The United States is probably the most significant ``consumer 
country'' with regard to trade in specimens of CITES-listed species and 
we are aware that research by the Fish and Wildlife Service has 
confirmed most imports to be of a lawful nature. Citizens of the United 
States also play a significant role within many wildlife range States, 
especially through trophy hunting, and this provides important revenue 
to many local communities. It is important, therefore, that trade in 
wildlife should not attract a negative image.
    However, we trust that our submission has made plain that there are 
certainly serious levels of crime associated with the trade in wildlife 
and that these are deserving of special and targeted attention. Such 
attention is, in the main, still missing, despite CITES having been in 
existence for over 30 years and the serious nature of wildlife crime 
having been widely known for a similar period. For some reason, crimes 
involving natural resources continue to fall outside ``mainstream 
crime'' and it continues to be extremely difficult to obtain the 
interest or consideration of the wider law enforcement community in 
this subject.
    There are many issues that impact upon species of conservation 
concern, particularly loss of habitat. But poaching and illegal trade 
are undoubtedly issues that have had, and continue to have, major 
impacts upon many of the world's most endangered species. Some of these 
species are literally on the brink of extinction and, for them, time is 
running out.
    The CITES Secretariat repeats its sincere appreciation for the 
invitation to contribute to the work of the Committee. If we can 
provide additional information to assist the Committee as it determines 
how to proceed with this subject, we shall be only too happy to help.
                                 ______
                                 

   Response to questions submitted for the record by John M. Sellar, 
       Senior Officer, Anti-smuggling, Fraud and Organized Crime

    I refer to the additional questions received from the Chairman and 
The Honorable Don Young in a letter dated 6 March 2008. Many of the 
issues raised by the Chairman and Ranking Member are of a complex and 
detailed nature, for which very lengthy explanations could potentially 
be provided.
    I hope you will understand, however, that my current workload and 
lack of resources (as discussed with the Committee) means that I have 
had to restrict my answers to relatively brief responses. Nonetheless, 
I trust the following responses will be of assistance.
Questions for the record by Honorable Nick J. Rahall, II, Chairman
Jewelry sale
    The international trade in ekipas, which was approved at the 13th 
meeting of the Conference of the Parties (Bangkok, 2004), has not 
started. It was Namibia's intention to licence persons who wished to 
manufacture or trade in ekipas and that the ivory would be supplied 
from government stocks. However, the registration system has yet to be 
completed. Consequently, there has been no legal commercial export of 
ekipas from Namibia to date.
    We do not believe it was intended that profits from the sale of 
ekipas would be reinvested in community development. However, we 
understand the Namibian Government's intention was, in authorizing such 
trade, to support the rural communities that have traditionally 
manufactured ekipas. Profits from sales of raw ivory by the Government 
of Namibia are usually reinvested in conservation work, particularly in 
relation to elephants.
    We have no information regarding the scale of domestic trade in 
ekipas in Namibia. We understand that the price of ekipas varies 
greatly, since the ivory is incorporated into pieces of jewellery 
which, in themselves, may be intricate or use precious metals. We are 
aware of one survey that noted prices ranging from the equivalent of 
USD 110 to USD 860.
Ivory trade
    This is a highly emotional and complex issue that attracts many 
differing opinions and is the subject of considerable debate at each 
and every meeting of the Conference of the Parties to CITES. We note 
considerable misunderstanding and some misinformation in the debates.
    The difference in numbers between tigers and elephants is 
particularly important and must not be discounted. It appears that 
there are less than 5,000 tigers left in the wild. Consequently, 
allowing commercial trade in specimens of this species has very 
considerable risks, should trade impact negatively upon wild tigers. By 
comparison, elephant numbers in southern Africa amount to several 
hundred thousand.
    In addition, CITES has established monitoring systems to overview 
elephant populations and illicit trade. Nothing similar exists for any 
other species. Full details on these systems can be found at:
    http://www.cites.org/eng/prog/mike_etis.shtml
    An experimental trade in raw ivory from government stocks in 
Botswana, Namibia and Zimbabwe to Japan was conducted in 1999. There is 
no evidence to show that this trade, or other CITES decisions, have 
increased poaching or illegal trade. Considerable efforts have been 
made by the Secretariat, and the relevant trading Parties, to ensure 
that the exported raw ivory is of a legal origin and that the 
manufacturing and retail controls in the country of import are 
stringent. It is worth noting that, to date, the majority of ivory that 
has entered into trade from such government stocks has been collected 
through natural mortality. The auction, export and import of the ivory 
took place under the supervision of the CITES Secretariat and we 
believe it was impossible for poached ivory to enter this closed trade 
``chain''.
    It is also worth noting that considerable quantities of illegal-
origin ivory are sold through unregulated or illegal markets in west 
and central Africa. CITES has adopted an action plan to address such 
matters, which can be found at:
    http://www.cites.org/eng/dec/valid14/annex2.shtml
Location of CITES
    Locating the CITES Secretariat elsewhere than in Geneva has been 
considered several times by the CITES Standing Committee, with the 
conclusion that such a move would not result in meaningful savings. It 
may be of interest for the Committee to note the following budgetary 
information. For 2009, the assessed contribution to the CITES Trust 
Fund by the United States of America has been set at USD 1,135,359. The 
United States of America is the single largest contributor to the Trust 
Fund. Using a sliding UN scale to assess contributions, many Parties in 
the developing world will pay USD 52 in 2009.
Deterrence
    The Secretariat has no budget to engage in ``deterrence'' 
activities, such as public awareness or education campaigns, and this 
remains a matter for national authorities (although we have identified 
in our programme that we would like to obtain funding to do so).
    CITES has, in a species-specific manner, introduced a caviar trade 
database where the trade is ``tracked'' in as near a ``real-time'' 
manner as possible and we hope this will aid in deterring some of the 
fraud and laundering that previously occurred. This approach may, in 
due course, be used for other forms of trade.
    We seek to encourage and facilitate enforcement of the Convention 
and we hope this helps deter wildlife criminals. Enforcement of 
wildlife trade regulations is solely a matter for national authorities 
and the CITES Secretariat has no enforcement powers. Our role in the 
field of enforcement is one of providing technical advice and 
assistance and facilitating communication, collaboration and 
coordination between law enforcement agencies. Some of our activities 
are described in our written testimony. However, the current 
Secretariat budget of USD 4.8 million means that one staff member only 
deals directly with enforcement, which certainly hampers our efforts in 
this field. Requests for the creation of additional posts have not been 
supported by the Parties so far.
Non-detriment findings
    CITES already has a robust process in relation to non-detriment 
findings, which is overseen by the Animals and Plants Committees 
(formed of scientists and relevant experts). The process is described 
in a Resolution, which can be found at:
    http://www.cites.org/eng/res/12/12-08R13.shtml
    Findings by these Committees that trade is not sustainable can lead 
to recommendations to suspend trade. A major international workshop on 
the making of non-detriment findings will be organized prior to the 
15th meeting of the Conference of the Parties, which will be held in 
early 2010. Details can be found at:
    http://www.cites.org/eng/dec/valid14/14_49-51.shtml
Questions for the record by Honorable Don Young
    (1). The CITES Secretariat believes it is impractical and 
unrealistic to expect that illegal trade in wildlife can be stopped 
altogether. Alongside enforcement, we believe it is important to engage 
in public awareness and education, to ensure that legal trade is 
processed efficiently, but also to involve local communities in 
safeguarding and benefiting from natural resources.
    (2). The Conference of the Parties to CITES has, for many years, 
encouraged nations to consider public awareness initiatives to 
discourage the use of endangered species, that is species listed in 
Appendix I, for example tigers and rhinoceros. Additionally, 
particularly in the case of traditional medicine products, 
encouragement has been given to seeking out alternatives or 
substitutes. For example, substitutes for tiger bone have been 
identified by traditional medicine practitioners. In the case of bear 
bile, as another example, the active ingredient can be chemically 
replicated without using actual bear specimens.
    We are conscious that the United States courts are currently 
considering cases where defendants are claiming that their violation of 
the Convention was driven by religious needs. These aside, we are not 
aware of religious factors being of significance in relation to CITES 
and we suspect that religion may sometimes be used as an excuse for 
what is truly deliberate circumvention of the Convention's provisions.
    (3). A wide range of initiatives have been used to encourage 
sustainable consumptive or non-consumptive use of wildlife. In situ 
captive-breeding or artificial propagation can also play a significant 
role in enabling local communities to benefit lawfully and sustainably 
from natural resources. The Secretariat's budget does not allow it to 
engage, to any significant extent, in practical assistance to Parties 
but it attempts to provide guidance or advice. The following document 
on incentives for implementation of the Convention, prepared by the 
Secretariat, may be of interest:
    http://www.cites.org/eng/cop/14/doc/E14-32.pdf
    A pilot project relating to national wildlife trade policies is 
currently nearing completion and it is hoped this study will provide 
useful lessons. CITES also takes account of work in other fora that can 
provide helpful guidance. For example, CITES has adopted a Resolution 
referring to sustainable use of biodiversity:
    http://www.cites.org/eng/res/13/13-02R14.shtml
    (4). Several Parties maintain that they have governmental data-
protection policies or legislation that prevents them from supplying 
enforcement-related information or which restricts what they can 
supply. In such cases, if information cannot be supplied direct to the 
Secretariat, we encourage the use of alternative channels, such as 
ICPO-Interpol and the World Customs Organization. In recent years, we 
have noted some excellent examples of inter-agency and cross-border 
exchanges of information and many of these have been facilitated by the 
Secretariat. These have led to interceptions of illegal shipments and 
also follow-up investigations. Consequently, whilst it is currently not 
possible to have a central collation of data, we are optimistic 
regarding the ``operational'' sharing of information.
    (5). The CITES Enforcement Expert Group has the following tasks:
        to identify measures to improve the gathering of data on 
        illicit trade from and by relevant international, regional and 
        national law enforcement organizations, CITES Management 
        Authorities and the CITES Secretariat, and to discuss ways in 
        which such data could be analyzed to provide a clearer 
        understanding of illicit trade in specimens of CITES-listed 
        species;

        assess progress in implementing the recommendations made by the 
        Group at its meeting in Shepherdstown in 2004; and

        assess available information relating to any national action 
        plans recommended in Resolution Conf. 11.3 (Rev. CoP14).
        Because the Group consists of experienced law enforcement 
        officials, from a range of agencies and from national, regional 
        and international bodies, it can help provide important 
        guidance for implementation of the Convention. Additionally, 
        because it consists of officers from a range of countries 
        across the world, it can draw upon those who have knowledge of 
        the most recent developments in law enforcement, trends in 
        illegal trade, modus operandi, whilst also benefiting from the 
        insight provided by officers from under-resourced developing 
        countries who can help identify their needs and relevant areas 
        for support to be provided.
    The Resolution relating to compliance and enforcement can be found 
at:
    http://www.cites.org/eng/res/11/11-03R14.shtml
    (6). We have not attempted to define the phrase ``serious crime''. 
We would probably use the definition offered by the UN Convention 
against Transnational Organized Crime, as referred to in our written 
testimony, i.e. ``conduct constituting an offence punishable by a 
maximum deprivation of liberty of at least four years or a more serious 
penalty.'' In simple, practical terms, we would probably regard illicit 
commercial trade in Appendix-I species as a serious CITES-related 
crime, although serious crimes could also involve large-scale illicit 
trade in Appendix-II or -III specimens.
    (7). The Certificates of Commendation are intended to recognize 
exemplary enforcement actions. In the case of the U.S. Fish and 
Wildlife Service and the U.S. Department of Justice, the Secretary-
General was particularly impressed by the self-initiated work 
undertaken by Inspectors and Special Agents, often involving lengthy 
and complex investigations (including covert operations). The Service 
and Department clearly worked together very effectively and the number 
of prosecutions, resulting in significant penalties, was remarkable. 
The commitment and coordination demonstrated was undoubtedly 
``exemplary'' and offered many lessons for other countries to draw 
upon.
    No other country in the world has such a large, experienced or 
well-resourced wildlife law enforcement agency as the U.S. Fish and 
Wildlife Service. Consequently, its Inspectors and Special Agencies 
have considerable advantages compared with their counterparts around 
the world. However, it is our experience that the personal commitment 
and enthusiasm of those Inspectors and Agents matches anything we have 
seen elsewhere. Particularly commendable is the willingness of the 
Service to, wherever possible, assist other agencies around the world, 
whether through capacity-building support, technical assistance or the 
supply of important intelligence. The Service's forensic laboratory is 
also the world-leading facility in its field and has undertaken many 
ground-breaking research initiatives. The laboratory's support to the 
international community is also commendable.
    We particularly commend the recent initiative whereby the Service 
has ``embedded'' a Special Agent to work with the enforcement 
authorities in Thailand for a period of six months. The Secretariat has 
recommended this type of in-depth capacity-building several times in 
the past but the United States is the first country to provide it.
    (8). Lack of funds was not the only reason for our decision to 
cease enforcement-related data collection and storage. Given the 
existence of other databases, such at ICPO-Interpol and the World 
Customs Organization, we believed (even had additional funds become 
available) that our human resources could be more effectively deployed 
on other matters. We were also conscious that we were able to cease 
data input without removing our ability to engage in the preparation of 
Alerts and handling of intelligence.
    Allow me to close by once again expressing the appreciation of the 
CITES Secretariat for the work that the Committee on Natural Resources 
is undertaking.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Perez?

STATEMENT OF BENITO A. PEREZ, CHIEF, OFFICE OF LAW ENFORCEMENT, 
                 U.S. FISH AND WILDLIFE SERVICE

    Mr. Perez. Mr. Chairman and Members of the Committee, I am 
Benito Perez, Chief of the U.S. Fish and Wildlife Service's 
Office of Law Enforcement. I am pleased to be here today to 
discuss the Service's work in combating illegal wildlife trade.
    Illegal wildlife trade is well documented as a significant 
threat to wildlife, and it continues to thrive. More than 
30,000 different species are now protected under CITES, and 
listings under that treaty have increased by more than 75 
percent since the early 1990s.
    Since the traffickers' perspective, illegal wildlife trade 
represents an excellent return on investment. Poachers, 
middlemen and retailers all enjoy significant monetary gain. 
The globalization of the world economy and the resulting ease 
of travel, transport and transaction have only bolstered this 
trade. The United States is a major consumer nation in this 
black market. Each year, we seize about $10 million worth of 
illegal wildlife.
    The U.S. Fish and Wildlife Service is the lead agency for 
combating illegal wildlife trade. Our officers inspect wildlife 
imports and exports for compliance, investigate and disrupt 
smuggling networks and support capacity building efforts around 
the globe. Our strategic goals include preventing illegal trade 
in foreign species, protecting U.S. wildlife from unlawful 
exploitation and increasing cooperation with our law 
enforcement partners.
    Cooperation with other enforcement agencies is particularly 
important given the size and scope of our program. At present, 
we have 114 wildlife inspectors in 38 ports of entry who work 
exclusively on import/export control. Our special agents, who 
currently number 191, conduct investigations involving both 
U.S. and global species, and our four person intelligence unit 
supports our domestic and international enforcement work.
    In 2007, our wildlife inspectors examined more than 179,000 
declared shipments and conducted proactive inspections of air 
and ocean cargo, passenger flights and mail facilities. Our 
agents completed a covert investigation that uncovered large 
scale smuggling of sea turtle parts and products from China and 
Mexico.
    In other key cases, we sent the Japanese butterfly expert 
to prison for trafficking in endangered species and exposed a 
leopard poaching and trophy smuggling operation based in South 
Africa and Zimbabwe.
    Our officers worked with NOAA-Fisheries and the United 
Kingdom to document trafficking in sperm whale teeth, teamed 
with Environment Canada to break up a smuggling network dealing 
in queen conch meat from the Caribbean and completed 
investigations of cross-border bird smuggling that allowed 149 
parrots to be returned to Mexico.
    Last year, we conducted wildlife enforcement training 
programs for officers in Brazil, Mongolia, Indonesia and Sub-
Saharan Africa, and completed validation studies of previous 
training efforts in Thailand and the Philippines.
    Our commitment to capacity building, which dates back to 
the 1980s, has been enforced in recent years. In fact, since 
2000, our agents and inspectors have taught over 30 training 
courses, reaching officers in 58 different countries. We have 
ongoing training partnerships with the International Law 
Enforcement Academy in Botswana and with ASEAN-WEN, the 
Association of Southeast Asian Nations Wildlife Enforcement 
Network.
    Continued efforts to combat illegal wildlife trade are 
clearly warranted from a conservation perspective. They may 
also be advisable in the interest of global security and 
stability.
    The United States must sustain and solidify its trade 
enforcement efforts. The nation must also provide continued 
support through enforcement capacity building overseas and to 
on-the-ground conservation programs and economic development 
efforts. Improved intelligence gathering and sharing is needed 
not only among agencies focused on wildlife crime, but across 
the broader enforcement spectrum.
    The United States can also play an important role in 
fostering regional enforcement alliances as we have with ASEAN-
WEN and the North American Wildlife Enforcement Group, NAWEG.
    The Service is committed to combating illegal wildlife 
trafficking, and we will continue to work with other nations, 
international groups and our law enforcement counterparts to 
meet this goal. We welcome the Committee's interest in 
strengthening U.S. efforts in this area.
    This concludes my prepared remarks. I would be happy to 
respond to any questions.
    [The prepared statement of Mr. Perez follows:]

         Statement of Benito A. Perez, Chief, Law Enforcement, 
    U.S. Fish and Wildlife Service, U.S. Department of the Interior

    Mr. Chairman and Members of the Committee, I am Benito Perez, Chief 
of the U.S. Fish and Wildlife Service's (Service) Office of Law 
Enforcement. I am pleased to be here today to discuss illegal wildlife 
trade and our work to combat it.
    The Service is the lead Federal agency for wildlife law 
enforcement, including the enforcement of U.S. laws and treaties that 
regulate international wildlife trade. Our mandate includes inspecting 
wildlife imports and exports for compliance with U.S. wildlife laws and 
regulations; intercepting illegal shipments; and investigating and 
dismantling wildlife smuggling networks.
Overview of Illegal Wildlife Trade
    Illegal wildlife trade has long been recognized as a threat to 
species worldwide. Although U.S. and global efforts to stem it date 
back over four decades, it continues to thrive.
    More than 30,000 species now receive protection under the 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora (CITES). Listings under CITES have increased by more than 75 
percent since the early 1990s. Trade and trafficking have played a 
major role in pushing such species as elephants, tigers, rhinos, and 
sea turtles to the brink of extinction. Other wildlife ``commodities'' 
subject to significant trade pressures range from sturgeon and corals 
to parrots and tortoises.
    From the traffickers' perspective, illegal wildlife trade 
represents an excellent return on investment. Poachers, middlemen, and 
retailers all enjoy the opportunity to reap significant monetary gain. 
Commodities that first sell for the equivalent of nickels, dimes, or 
dollars in the source country can yield hundreds, or even thousands 
more dollars at the point of final sale.
    Poaching wildlife is viable because the monetary gain often exceeds 
the income that would be available from legitimate sources. Last 
spring, the Associated Press reported that a poacher can earn $180 for 
the tusks of a forest elephant and $6,000 for its meat in an area where 
the average legally earned income is $1 a day.
    The retailer of illegal wildlife enjoys the benefit of exponential 
markups. In a recent Service investigation, sea turtle skins purchased 
for $70 wholesale in Mexico were used to make a pair of sea turtle 
boots that could be sold for up to $480 in the U.S. retail market. 
Wildlife traffickers in India have been quoted in the British press 
claiming even higher profit margins--examples include selling a snow 
leopard pelt for 10 times the price paid to the poacher and selling 
ivory for 100 times the purchase price.
    Many commodities in the illegal wildlife trade represent ``high 
end'' goods in and of themselves. Admittedly, the market value of 
illegal goods is hard to precisely determine (as is the overall value 
of illegal wildlife trade), but we can provide some examples by looking 
at a range of values from import/export declarations, market research, 
actual investigations, and studies by conservation groups. A shahtoosh 
shawl (which requires the slaughter of three to five Tibetan antelope) 
can fetch as much as $19,000. The retail value of the parts (bone, 
skin, teeth, claws and skull) of an adult male tiger can total over 
$70,000. While the starting price for a snow leopard skin in China may 
be as little as $250, our investigations show that that skin may 
ultimately sell in the west for as much as $15,000.
    Despite years of public outreach to discourage the consumption of 
protected species, demand persists and black markets flourish. The 
impact of such demand has been exacerbated by the globalization of the 
world economy. The ease of travel, transport, and transaction that 
characterizes the global marketplace has bolstered illegal wildlife 
trade, facilitating its conduct and foiling its detection.
    The opportunity for massive profits is clearly present, and we have 
often dealt with groups whose operations demonstrate detailed planning, 
significant financial support, sophisticated forgery and alteration of 
permits and certifications, and international management of shipments. 
These are among the indicators for organized crime developed by the 
CITES Secretariat and the United Nations Office on Drugs and Crime. We 
have encountered clearly identified ``organized crime'' elements in 
some Service cases. Two recent examples involved caviar smuggling rings 
with professed ties to the ``Russian mafia''.
    None of the Service's investigations show a definitive link between 
the illegal wildlife trade and terrorism or other groups that pose a 
direct threat to U.S. national security. However, other witnesses at 
today's hearing that have a broader global perspective may well provide 
greater insight into the nexus between illegal wildlife trade and 
instability within other nations.
    Additional examination of these issues may be warranted by those 
with expertise in national security, terrorism, and organized crime.
U.S. Role in Illegal Wildlife Trade
    The U.S. is a major consumer nation in the wildlife trade black 
market. Annually, about $10 million worth of illegal wildlife is 
seized--an amount that probably only scratches the surface of the 
wildlife contraband coming into this country. Over the past four years 
(2004-2008), our inspectors most often seized or refused wildlife 
shipments from Mexico, China, and Canada--countries that are also among 
our leading trading partners for legal wildlife and wildlife products. 
Nations that rank among the top suppliers of shipments stopped for 
wildlife violations include the Philippines, Hong Kong, Thailand, 
Italy, Indonesia, the United Kingdom, and Vietnam.
    Service investigations show that the U.S. is a key end market for 
rare reptiles, birds, corals, cycads and orchids--everything from 
parrots in Mexico to Komodo dragons from Indonesia to radiated 
tortoises from Madagascar. The U.S. is also a prime market for elephant 
ivory and ivory carvings and other art or handicraft items made from 
the feathers, fur, claws and other parts of protected species. For 
example, sea turtle eggs and meat are frequently intercepted at some 
ports of entry as are queen conch meat and shells and Asian medicinals 
made from rhino, tiger, seal, and other endangered wildlife. Other 
examples of items that have been intercepted by Service law enforcement 
include snow leopard and other spotted cat furs; rare mounted butterfly 
specimens; improperly imported reptilian leather goods made from CITES-
listed crocodile, caiman, and lizard; leopard, bontebok and other 
trophies lacking permits; and an array of other wildlife products and 
parts ranging from beluga caviar, whale meat, and iguana eggs to coral 
jewelry, giant clam shells and meat, and primate skulls.
    It would, however, be short-sighted to depict the U.S. solely as a 
consumer nation when it comes to wildlife trafficking. We are a 
supplier nation for certain commodities and must recognize that if such 
trade is left unchecked, it may ultimately prove as much a threat to 
some of our own species as it has been for many endangered exotics.
    A review of Service investigations over the past 10 years shows 
that a number of U.S. resources are subject to unlawful take and trade. 
Examples include a case worked in conjunction with the NOAA Office of 
Law Enforcement involving juvenile leopard sharks unlawfully harvested 
from California waters for both the domestic and European ``pet'' 
markets; the illegal collection and sale of freshwater mussel shell 
from rivers in the Midwest and Southeast for cultured pearl production 
in Asia; the trafficking of live eels from the eastern seaboard for 
Asian food markets; and the harvest and unlawful export of coral reef 
organisms from the Florida Keys National Marine Sanctuary.
    Strong demand exists in overseas markets for U.S. reptiles, 
including those valued as pets or high priced collectibles as well as 
those eventually destined for consumption as food. In fact, export 
markets have put so much pressure on some domestic turtle populations 
that in 2006 the United States listed the alligator snapping turtle and 
all 12 species of map turtles native to this country under CITES 
Appendix III to better regulate this trade.
    Developments in the global illegal trade also affect our native 
wildlife populations. Black market caviar trafficking and habitat 
degradation have sent Caspian Sea sturgeon populations plummeting. Such 
population declines have drastically reduced the availability of caviar 
from this source and have led to increased exploitation of U.S. 
sturgeon and paddlefish for caviar production, some of which has been 
sold in this country falsely labeled as Russian roe. Domestic sturgeon 
caviar is selling for up to $880 a pound, while paddlefish caviar can 
fetch as much as $373 per pound.
Service Role in Policing Wildlife Trade
    As the lead Federal agency in this arena, the Service works to curb 
illegal wildlife trade through inspection activities, investigations, 
and international liaison and capacity building. The strategic goals 
and objectives of our Law Enforcement program include ``preventing the 
unlawful import/export and interstate commerce of foreign fish, 
wildlife and plants'' and ``protecting the Nation's fish, wildlife and 
plants from unlawful exploitation.''
    The Office of Law Enforcement's strategic plan recognizes that our 
ability to achieve these goals will depend in part on how effectively 
we work with other law enforcement agencies, both in this country and 
around the world. Our objectives therefore also include increased 
cooperation with law enforcement partners on information sharing and 
investigations. The Service works with a number of partners including 
resource management agencies in developing nations and customs and 
wildlife authorities worldwide; entities such as Interpol and the CITES 
Secretariat; and other Federal agencies that also police trade, such as 
Customs and Border Protection (CBP), NOAA Office of Law Enforcement, 
Agriculture, the U.S. Department of State and the Food and Drug 
Administration. Cooperative efforts range from joint investigative work 
with counterparts in this country to training programs for officers in 
countries that are working to improve their enforcement capabilities 
and infrastructure.
    Cooperation with other enforcement agencies is particularly 
important given the size and scope of our law enforcement program. At 
present, the Service has a force of 114 uniformed wildlife inspectors 
at 38 ports of entry who work exclusively on import/export control. In 
FY 2007, our inspectors examined more than 179,000 declared shipments 
of wildlife and wildlife products.
    In addition to seizures of unlawfully imported wildlife and 
wildlife products, Service wildlife inspectors also conducted focused 
proactive inspection operations at air and ocean cargo, passenger 
terminals, and international mail facilities to intercept wildlife 
trafficking. For example, an inspection ``blitz'' of passenger flights 
arriving in Atlanta from the Caribbean and Central America during peak 
sea turtle nesting season resulted in the seizure of 69 sea turtle 
eggs; a similar enforcement operation conducted in Miami recovered over 
200 sea turtle eggs along with a commercial shipment of queen conch 
shells and caiman products that lacked CITES permits. Other examples 
include ``strike force'' enforcement operations with Customs 
counterparts in Los Angeles to look for smuggled wildlife in cargo 
arriving at Los Angeles International Airport and at ocean cargo and 
mail facilities in the area. Inspectors in New York now staff a 
``Special Operations Team'' that similarly conducts proactive cargo 
inspections as well as sweeps of passenger flights at John F. Kennedy 
International Airport.
    Our special agents, who currently number 191, conduct 
investigations involving both native species and global trafficking, 
and our four-person intelligence unit supports both our domestic and 
international enforcement work. Investigative priorities focus on 
unlawful commercialization of protected wildlife, including species 
listed under CITES as well as those species listed under our Endangered 
Species Act.
    In FY 2007, our agents completed a three-year covert investigation 
that uncovered large-scale smuggling of sea turtle shell, skin, and 
products from China and Mexico to the United States and resulted in 
joint enforcement action in this country and Mexico. Agents were able 
to document an organized network of individuals involved in the sea 
turtle skin trade from ``start to finish,'' tracing the links between 
fishermen, wholesalers, tanners and processors, boot makers, ``mules'' 
(individuals paid to smuggle product across the border), importers, and 
retailers. More than 4,000 sea turtle skins were offered to agents 
during the course of this investigation, and traffickers dealing in 
shells boasted of being able to supply enough to fill a semi-trailer.
    In another key case, Service investigators sent a Japanese 
butterfly expert to prison for trafficking in endangered species. The 
defendant, who described himself to undercover agents as the world's 
premier butterfly smuggler, pleaded guilty to 17 felony charges. During 
the course of the investigation, he sold almost $30,000 worth of 
protected butterflies and offered to sell another $300,000 worth to 
undercover agents; species included such rarities as the endangered 
giant swallowtail butterfly and endangered Queen Alexandra birdwing--
the world's largest butterfly.
    Our agents worked with NOAA-Fisheries and the United Kingdom to 
document trafficking in more than $450,000 worth of sperm whale teeth. 
Defendants in this country included the owner of two scrimshaw 
businesses in Hawaii who was sentenced to pay a $120,000 criminal fine 
and another purchaser who was fined $150,000. A third defendant who 
orchestrated the smuggling will be sentenced after testifying against a 
British whale tooth/ivory supplier in the United Kingdom. The case 
documented the smuggling and illegal interstate sale of hundreds of 
teeth extracted from whales illegally hunted and killed by fishing 
fleets.
    Service and NOAA Fisheries agents teamed with Environment Canada to 
break up a multi-nation smuggling network dealing in queen conch meat 
from Caribbean and South American countries. The individuals and 
companies involved (which include defendants from Canada, the United 
States and Haiti) are believed to have illegally traded 263,953 pounds 
of queen conch meat valued at more than $2.6 million--the equivalent of 
nearly seven fully loaded semi-trailers. The investigation, code-named 
Operation Shell Game, traced unlawful conch meat exports from the 
Dominican Republic, Haiti, Jamaica, Honduras, and Columbia. Wildlife 
experts estimate that the meat involved in this case represents between 
798,000 and 1.05 million CITES-protected queen conch.
    Other investigative successes last year saw our agents expose a 
leopard poaching and trophy smuggling operation involving South African 
guides and U.S. hunters and the laundering of trophies through 
Zimbabwe. The work of Service officers led to guilty pleas from a 
California man who smuggled live eagle owl eggs from Austria and to the 
conviction of a Philadelphia storeowner who sold more than $30,000 
worth of endangered animal parts and accepted a $11,400 order for a 
tiger and jaguar skin from undercover operatives.
    Another important tool used to address illegal wildlife trade is 
capacity building and training. For example, over the past two years, 
the Service conducted wildlife enforcement training programs for 
officers in Brazil and Mongolia. We worked in close partnership with 
the Association of Southeast Asian Nations to assist that organization 
in setting up a regional Wildlife Enforcement Network (ASEAN-WEN) and 
conducted criminal investigators training under its auspices in the 
Philippines and Thailand in 2006 and in Indonesia in 2007. This past 
summer, our agents returned to the first two countries to conduct 
training validation studies and provide additional technical assistance 
to ongoing enforcement efforts.
    In 2007, in cooperation with and funded by the Department of State, 
for the sixth consecutive year, the Service conducted a two-week 
wildlife investigative training course as part of the core curriculum 
at the International Law Enforcement Academy (ILEA) in Botswana. 
Thirty-two officers from nine sub-Saharan African nations completed the 
program, bringing the total number of officers trained since its 
inception to 182. This partnership has fostered information sharing 
among African nations and the United States, improving collective 
efforts to prevent global trafficking in African wildlife resources.
    These efforts represent a continuation of the Service's 
longstanding commitment to building global wildlife law enforcement 
capacity--a commitment that dates back to the 1980s and that has been 
reinforced in recent years. In fact, since 2000, our agents and 
inspectors have taught over 30 different overseas training courses 
reaching officers in 58 different countries.
    For the past twenty years, the Service has also operated the only 
forensics laboratory in the world dedicated to crimes against wildlife. 
Our forensic specialists examine, identify, and compare evidence using 
a wide range of scientific procedures and instruments, in the attempt 
to link suspect, victim and crime scene with physical evidence. In 
order to meet the forensic needs of wildlife law enforcement officers 
at the federal, state and international levels, the lab's forensic 
specialists will conduct crime scene investigations, examine submitted 
items of evidence, and provide expert witness testimony in court. In 
performing this mission, the lab supports federal law enforcement 
efforts of our special agents and wildlife inspectors throughout the 
United States, all fifty State Fish & Game Commissions, and 
approximately 150 foreign countries who have signed CITES.
The Road Ahead
    The United States must sustain and solidify its efforts to enforce 
U.S. laws and treaties that regulate wildlife trade and protect global 
and U.S. species. We must also provide continued support to enforcement 
capacity building overseas as well as to on-the-ground conservation 
programs and economic development efforts in range countries--efforts 
that can help address the complex socio-economic problems that promote 
poaching and fuel illegal wildlife trade.
    Near-term developments that will strengthen U.S. enforcement 
efforts include the Service's participation in the International Trade 
Data System/Automated Customs Environment--an interagency effort to 
improve the policing and processing of all trade entering and leaving 
the United States. Benefits for our trade interdiction efforts will 
include better access to shipment data for screening purposes and 
increased intelligence sharing with other Federal agencies.
    Improved intelligence gathering and sharing has become increasingly 
important to efforts to address global wildlife trafficking. Further 
attention is needed both in this country and in the global community to 
facilitating information exchange, not only among agencies focused on 
wildlife crime, but across the broader enforcement spectrum.
    We also look to continue our training support to other nations 
through ILEA in Botswana, opportunities arranged by the Department of 
the Interior's International Technical Assistance Program and the U.S. 
Agency for International Development, and other mechanisms, including 
our engagement with ASEAN-WEN. A Service special agent is now on detail 
in Thailand working as a technical expert and advisor on training 
programs for this regional enforcement network.
    Such networks, which include the North American Wildlife 
Enforcement Group, the Lusaka Task Force in Africa, ASEAN-WEN, and the 
International Monitoring, Control and Surveillance Network for 
Fisheries Related Activities play a particularly important role in 
addressing global wildlife trade. As our experience with ASEAN-WEN 
shows, the United States can play a pivotal role in promoting the 
creation of such networks and can further buttress such alliances 
through ongoing technical or training assistance.
Conclusion
    The Service is committed to conserving wildlife not only in this 
country, but throughout the world. The Service will continue working 
with other nations, international groups, and federal enforcement 
counterparts in this country and abroad to combat illegal wildlife 
trade. We welcome the Committee's interest in strengthening U.S. 
efforts in this arena and appreciate the opportunity to participate in 
this hearing. This concludes my prepared remarks, and I would be happy 
to respond to any questions that you may have.
                                 ______
                                 

  Response to questions submitted for the record by Benito A. Perez, 
Chief, Law Enforcement, U.S. Fish and Wildlife Service, U.S. Department 
                            of the Interior

Questions from Chairman Nick Rahall
1.  Wildlife Trade Prosecution
    The international illegal wildlife trade appears to be motivated by 
high profits and low risk of getting caught. Is arresting traffickers 
and confiscating their goods a strong deterrent against future criminal 
acts? What percentage of wildlife crime cases handled by FWS are 
prosecuted? What limits the ability of FWS to handle more cases?
    Response: The U.S. Fish and Wildlife Service (Service) believes 
that enforcing wildlife treaties, laws and regulations can be an 
effective tool in deterring both national and international illegal 
wildlife trade. Investigating wildlife crimes is not, however, a 
priority in many other countries, nor are penalties for poaching and 
wildlife trafficking as stringent as they are in the United States.
    Service investigations often involve years of work and similarly 
staggered prosecutions. Most investigations (particularly those related 
to wildlife smuggling) eventually result in some type of legal action 
with consequences that may include: forfeitures of illegal wildlife and 
instrumentalities used to commit the crime; civil penalties; criminal 
penalties (including imprisonment and fines); forfeiture or 
disgorgement of gains realized from the illegal trade; printing of 
public apologies; suspension or revocation of licenses or other 
privileges; and court-ordered monitoring of environmental compliance. 
Each of these is part of our effort to deter further illegal wildlife 
trafficking. A few investigations are closed without legal action being 
initiated, most often these cases involve the illegal take of protected 
species where there is a lack of evidence connecting the crime with any 
specific person. In enforcement activities for 2007 (including but not 
limited to international trade-related matters), the Service pursued 
over 12,750 investigations, helped obtain more than $14 million in 
criminal fines, and approximately $5.2 million in civil penalties, all 
with fewer than 200 agents. Service law enforcement activities also led 
to prison sentences totaling 32 years and probation terms totaling 557 
years, and our law enforcement inspectors processed more than 179,000 
shipments.
    There are a number of factors that contribute to the limits on the 
Service's ability to handle more cases, including international 
jurisdictional issues, availability of information regarding wildlife 
crimes, and competing priorities within the Service.
2. Multinational Species Conservation Funds
 The President is requesting approximately $4.2 million for the 
        Multinational Species Conservation Fund in FY 2009. What can we 
        do to ensure that some of this money, if appropriated, goes to 
        funding law enforcement in range countries?
    Response: Funding for the Multinational Species Conservation Funds 
(MSCF) will go to the highest priority projects available for funding. 
The authorizing legislation for the individual acts emphasizes law 
enforcement as a key activity to be funded under each. In FY 2007, the 
Service provided about $1.5 million, or approximately 17%, of the MSCF 
appropriation (as complemented by USAID transfer funds) for law 
enforcement related activities. A list of these projects is attached at 
the end of this document.
3.  Use of Database
 Your testimony on page 6 discusses the International Trade Data System 
        to improve the policing and processing of trade entering and 
        leaving the United States. This program only affects U.S. 
        agencies. Is the U.S. a participant in ECOMESSAGE, an 
        international illegal wildlife trafficking database operated by 
        Interpol? Why or why not?
    Response: Interpol's ECOMESSAGE system was intended to facilitate 
efforts by countries worldwide to report on illegal transboundary 
trafficking in wild fauna and flora. ECOMESSAGE relies on technology 
that is, in the Service's opinion, not user friendly, and Interpol 
protocols often result in information being transmitted to a country's 
national police instead of to the appropriate wildlife or customs 
agency for action. In practice, we have found it more effective and 
efficient to relay information about wildlife trafficking directly to 
the appropriate wildlife enforcement agency in the foreign country or 
countries concerned. We also routinely receive information from our 
foreign counterparts through direct communication.
    We understand Interpol has made a number of improvements to 
ECOMESSAGE, and we will reexamine our use of the system and the 
process.
4. FWS Inspectors Working Abroad
 Your testimony mentions that a Fish and Wildlife Service special 
        service agent has been detailed to work in Thailand providing 
        technical assistance and training on law enforcement? Does the 
        Fish and Wildlife Service have plans to detail special agents 
        to other foreign locations as well?
    Response: The special agent stationed in Thailand to provide 
technical assistance and training on law enforcement is funded through 
the U.S. Agency for International Development. Although currently we 
have no plans to detail additional special agents to other foreign 
locations, we recognize the value of doing so and would consider it in 
the future if the nature of the assignment helps to address the 
program's goals and other alternatives are not available.
    We are continuing our other efforts to build wildlife law 
enforcement capacity overseas. Since 2000, Service special agents and 
wildlife inspectors have taught more than 30 different overseas 
training courses reaching enforcement officers in 58 different 
countries. In 2006-2007, OLE training efforts included:
    <bullet>  Criminal investigator training for officers from sub-
Saharan African nations, International Law Enforcement Academy (ILEA)/
Botswana, June 2007 (part of core curriculum, offered yearly since 
2002)
    <bullet>  Criminal investigator training, Indonesia (sponsored by 
the Association of South East Asian Nations Wildlife Enforcement 
Network and USAID), February 2007
    <bullet>  Criminal investigator training, Philippines (sponsored by 
ASEAN-WEN, USAID, and WildAid), December 2006 with follow-up validation 
study in August 2007
    <bullet>  Wildlife trade enforcement training, Mongolia (sponsored 
by TRAFFIC East Asia and State Department's CAWT), December 2006
    <bullet>  Wildlife crime investigators course, Brazil, October 2006
    <bullet>  Crime scene investigation for coral reefs, International 
Tropical Marine Ecosystems Management Symposium, Cozumel, Mexico, 
October 2006
    <bullet>  Criminal investigator training, Thailand (sponsored by 
ASEAN-WEN and WildAid), August 2006 with follow-up validation study in 
July 2007
    <bullet>  Criminal investigator training for officers from sub-
Saharan Africa, ILEA/Botswana, June 2006 (core curriculum)
    <bullet>  Internet wildlife trafficking training, U.S./Canada/
Mexico video-conference (sponsored by the North American Wildlife 
Enforcement Group), February 2006
5.  International Collaboration
 Since international trade in wildlife inherently crosses national 
        borders and jurisdictions, efforts to combat illegal wildlife 
        trade often involve cooperation between and among countries. 
        How frequently do FWS special agents collaborate on cases with 
        foreign governments? What sort of formal agreements exist for 
        collaboration with foreign governments to work on wildlife 
        crime cases?
    Response: The strategic goals and objectives of the Service's 
Office of Law Enforcement include ``preventing the unlawful import/
export and interstate commerce of foreign fish, wildlife and plants'' 
and ``protecting the Nation's fish, wildlife and plants from unlawful 
exploitation.'' The Office of Law Enforcement's strategic plan 
recognizes that our ability to achieve these goals will depend in part 
on how effectively we work with other law enforcement agencies, both in 
this country and around the world. Our objectives therefore also 
include increased cooperation with law enforcement partners on 
information sharing and investigations.
    The United States government has a number of Mutual Legal 
Assistance Treaties with foreign governments that may be used to obtain 
foreign evidence for use in criminal investigations conducted by 
Service agents and for prosecutions of wildlife crimes. These treaties 
define the obligation of governments to provide assistance, specify the 
scope of assistance, and set forth the requirements for assistance 
requests. They may also contain provisions intended to ensure the 
admissibility of foreign evidence in domestic criminal trials.
    Although the Service has no formal agreements to facilitate 
collaboration with other governments on wildlife crime investigations, 
we have formal arrangements with several groups for cooperation in 
building enforcement capacity and infrastructure. For example, we have 
ongoing training partnerships with the International Law Enforcement 
Academy in Botswana, the Association of Southeast Asian Nations' 
Wildlife Enforcement Network (ASEAN-WEN), and the North American 
Wildlife Enforcement Group (NAWEG).
    The Service works with a number of global partners including 
resource management agencies in developing nations and customs and 
wildlife authorities worldwide as well as international entities such 
as Interpol, the CITES Secretariat, and the CITES Enforcement Working 
Group. Cooperative efforts range from joint investigative work with 
counterparts in other countries to training programs for officers in 
nations that are working to improve their enforcement capabilities and 
infrastructure.
    Examples of recent cases involving international cooperation 
include work with Environment Canada to break up a multi-national 
smuggling ring dealing in queen conch meat; coordination with 
authorities in South Africa to expose a leopard poaching and smuggling 
operation; sustained liaison with enforcement officials in the United 
Kingdom that produced charges related to the smuggling of sperm whale 
teeth in both countries; and cooperation with Brazil on investigations 
involving trafficking in rosewood and Amazonian tribal artifacts made 
from protected species.
 6.  Memorandum of Understanding Between the FWS Forensic Laboratory 
        and CITES
 The 1998 MOU between FWS and CITES notes the need for customs and 
        police authorities to intensify their surveillance and 
        enforcement measures. Has this happened?
    Response: While it is difficult for us to gauge the amount of 
increased surveillance and enforcement on a global scale, we believe 
that the increased joint efforts of the Service and CITES have played a 
positive role in international wildlife enforcement. The Service and 
CITES routinely work together to train customs and police authorities 
worldwide in wildlife law enforcement. This training strengthens and 
intensifies their surveillance and enforcement ability.
 7.  Collaboration between Agencies
 Does the FWS have any working collaborative agreements with other 
        federal agencies to specify responsibilities for inspecting 
        wildlife shipments at the border? Does an interagency task 
        force or group exist to address illegal wildlife trade?
    Response: There are no official agreements for collaboration 
between the Service and border inspection agencies on a national level 
or within interagency task forces. However, Service special agents and 
wildlife inspectors work closely with other Federal inspection service 
agencies (including Customs and Border Protection, Department of 
Agriculture, Food and Drug Administration, and Immigration and Customs 
Enforcement) at ports of entry and border crossings on an ongoing, ad 
hoc basis. Such efforts include Service participation in ``standing'' 
committees at ports that address such issues as smuggling detection and 
pest interdiction as well as proactive efforts to organize and conduct 
targeted inspection blitzes.
    There is a Memorandum of Understanding between the Service and the 
El Paso Intelligence Center (EPIC), which is composed of over 13 
federal law enforcement agencies and the Department of Defense. The 
Service's collaboration with EPIC has greatly enhanced our ability to 
target both domestic and transborder illegal wildlife smuggling.
    Finally, the International Trade Data System (ITDS) is a multi-
agency effort to create a one-stop internet interface with all agencies 
involved in international trade. ITDS will provide the core 
technological infrastructure for future wildlife inspection and 
smuggling interdiction operations and is thus a prerequisite for 
continuing and improving Service efforts to enforce U.S. laws and 
treaties that govern international wildlife trade.
Questions from Ranking Member Don Young:
1.  How large is the illegal wildlife trade? What are the major factors 
        that have created this growing international problem?
    Response: Many commodities in the illegal wildlife trade represent 
``high end'' goods in and of themselves. Admittedly, the market value 
of illegal goods is hard to precisely determine as is the overall value 
of illegal wildlife trade. While we do not know the full extent of the 
illegal trade, we can provide some examples of the value of illegal 
goods by looking at a range of values from import/export declarations, 
market research, actual investigations, and studies by conservation 
groups.
    Despite years of public outreach to discourage the consumption of 
protected species, demand persists and black markets flourish. The 
impact of such demand has been exacerbated by the globalization of the 
world economy. The ease of travel, transport, and transaction that 
characterizes the global marketplace has bolstered illegal wildlife 
trade, facilitating its conduct and obstructing its detection.
    Illegal wildlife trade has long been recognized as a threat to 
species worldwide. Although U.S. and global efforts to stem it date 
back over four decades, it continues to thrive. More than 30,000 
species now receive protection under the Convention on International 
Trade in Endangered Species of Wild Fauna and Flora (CITES). Listings 
under CITES have increased by more than 75 percent since the early 
1990s. Trade and trafficking have played a major role in pushing such 
species as elephants, tigers, rhinos, and sea turtles to the brink of 
extinction. Other wildlife ``commodities'' subject to significant trade 
pressures range from sturgeon and corals to parrots and tortoises.
    From the traffickers' perspective, illegal wildlife trade 
represents an excellent return on investment. Poachers, middlemen, and 
retailers all enjoy the opportunity to reap significant monetary gain. 
Commodities that first sell for the equivalent of nickels, dimes, or 
dollars in the source country can yield hundreds, or even thousands 
more dollars at the point of final sale.
    Poaching wildlife is viable because the monetary gain often exceeds 
the income that would be available from legitimate occupations. Last 
spring, the Associated Press reported that a poacher can earn $180 for 
the tusks of a forest elephant and $6,000 for its meat in an area where 
they are found and where the average legally earned income is $1 a day.
    The retailer of illegal wildlife enjoys the benefit of exponential 
markups. In a recent Service investigation, sea turtle skins purchased 
for $70 wholesale in Mexico were used to make a pair of sea turtle 
boots that could be sold for up to $480 in the U.S. retail market. 
Wildlife traffickers in India have been quoted in the British press 
claiming even higher profit margins--examples include selling a snow 
leopard pelt for 10 times the price paid to the poacher and selling 
ivory for 100 times the purchase price.
2.  How many wildlife inspectors are currently employed by the U.S. 
        Fish and Wildlife Service? How has this figure changed over the 
        past five years?
    Response: The Service's Law Enforcement program has 114 wildlife 
inspectors at 38 ports of entry. This figure has grown over the past 
five years. At the end of FY 2004, we had only 94 wildlife inspectors 
on the job.
3.  Is trophy hunting one of the major sources of the illegal wildlife 
        trade?
    Response: While it has been shown that trophy animals killed 
illegally both in the United States and overseas enter the illegal 
wildlife trade, based on our investigations and other information, 
trophy hunting does not appear to be a major source of the illegal 
wildlife trade. When undertaken in the context of a scientifically 
justified, legally sanctioned, and fully controlled program trophy 
hunting can create needed resources for wildlife agencies in their 
efforts to control illegal wildlife trafficking.
4.  Is there any evidence that terrorist organizations are planning 
        attacks involving the transmission of diseases through the 
        illegal wildlife trade?
    Response: None of the Service's investigations show a definitive 
link between the illegal wildlife trade and terrorism or other groups 
that pose a direct threat to U.S. national security, including through 
the transmission of diseases.
5.  Is there any evidence that terrorists groups are engaged in the 
        wildlife smuggling trade?
    Response: Again, none of the Service's investigations show a 
definitive link between the illegal wildlife trade and terrorism or 
other groups that pose a direct threat to U.S. national security.
6.  Mr. Pueschel, with the International Fund for Animal Welfare, 
        stated in his written testimony that tiger bone wine being sold 
        in a shop in San Francisco. Is the Service aware of this? 
        Doesn't the 1998 Rhino and Tiger Product Labeling Act prohibit 
        this? What actions is the Service taking to prevent the sale of 
        these illegal wildlife products?
    Response: Products labeled to contain rhino or tiger parts would be 
illegal, whether or not they actually contain these species. Our 
efforts to prevent the sale of such products include enforcement 
activities (such as compliance inspection sweeps of retail outlets in 
some major metropolitan areas) as well as efforts to educate the public 
about Federal laws and prohibitions. Examples include production of a 
bilingual (English-Chinese) brochure spotlighting laws that protect 
tigers and rhinos; development of a formal conservation curriculum for 
U.S. schools that teach practitioners of traditional medicine; and 
participation in outreach forums such as the annual convention of the 
Association of Chinese Herbalists.
    We routinely receive information that items purported to be illegal 
are being sold in a variety of venues throughout the United States; our 
officers follow up on such reports as resources allow.
7.  In the CRS Report ``International Illegal Trade in Wildlife Threats 
        and U.S. Policy'' there is an assertion that: ``There is 
        limited publicly available evidence of terrorist groups 
        involved in wildlife trafficking.'' Since there were no 
        footnotes, named sources, documentation or evidence to support 
        this assertion, could the Fish and Wildlife Service share with 
        the Committee any evidence of terrorist activity?
    Response: Again, none of the Service's investigations show a 
definitive link between the illegal wildlife trade and terrorism or 
other groups that pose a direct threat to U.S. national security. We 
acknowledged as much in our meetings with CRS staff, and we do not know 
the source of the information that prompted this assertion.
8.  How much money does Fish and Wildlife spend on activities to combat 
        the illegal wildlife trade? What specifically are the funds 
        spent on?
    Response: The FY 2009 budget request for the law enforcement 
program is $57.4 million. In general, these funds will be used to 
investigate wildlife crimes and monitor wildlife trade, both 
domestically and internationally. We do not track the amount of our 
budget specifically spent on combating the illegal wildlife trade. 
While the work of our wildlife inspectors focuses exclusively on both 
legal and illegal trade enforcement, the caseload of our special agents 
typically includes investigations involving not only global wildlife 
trade, but also domestic enforcement issues. Our forensic laboratory 
and intelligence unit also support both international and domestic 
enforcement work.
                               ATTACHMENT

LAW ENFORCEMENT-RELATED PROJECTS SUPPORTED BY THE MULTINATIONAL SPECIES 
                 CONSERVATION FUNDS IN AFRICA AND ASIA

                                FY 2007

THE GREAT APE CONSERVATION FUND--Africa
    Controlling Transportation of Bushmeat by the Cameroon Railway 
Company (CAMRAIL). In partnership with the Wildlife Conservation 
Society. USAID/USFWS: $74,800; Leveraged: $73,997. Support for 
increasing public awareness, education and law enforcement to reduce 
the transport of illegal bushmeat on Cameroon's rail system.
    LAGA-MINFOF Collaboration-Wildlife Law Enforcement. In partnership 
with Last Great Ape Organization. USAID/USFWS: $79,812; Leveraged: 
$112,606. Support for law enforcement, public awareness, and 
prosecution of wildlife crimes to prevent trafficking of bushmeat, live 
apes, and other wildlife products in Cameroon.
    Great Ape Conservation and Monitoring in the Multiple-Use Forests 
of the Sangha-Likouala Provinces, Republic of Congo. In partnership 
with the Wildlife Conservation Society. USAID/USFWS: $92,239; 
Leveraged: $36,750. Support for the protection of apes and other 
endangered wildlife through collaboration with local communities, anti-
poaching patrols, and the development of a wildlife management strategy 
in the Mokabi timber concession.
    Protection Reinforcement to Save Gorillas at Conkouati-Douli 
National Park, Republic of Congo. In partnership with the Wildlife 
Conservation Society. USAID/USFWS: $99,942; Leveraged: $24,127. Support 
for anti-poaching activities, illegal bushmeat control, training and 
equipping of ecoguards to protect apes and other wildlife.
    Conservation and Monitoring of Great Ape Populations in Southern 
Odzala-Kokoua National Park, Republic of Congo. In partnership with the 
Wildlife Conservation Society. USAID/USFWS: $65,531. Leveraged: 
$23,895. Assess the status of gorillas and chimpanzees and support law 
enforcement and protection measures in the southern sector of Odzala-
Kokoua National Park.
GREAT APE CONSERVATION FUND--Asia
    Orangutan Protection and Habitat Monitoring Unit in Gunung Palung 
National Park, Indonesia. In partnership with Fauna and Flora 
International. USFWS: $54,084. Leveraged: $37,503. To patrol orangutan 
habitat, collect and collate information on forest crime, facilitate 
processing of criminal cases, provide relevant refresher training, and 
liaise with government agencies, local communities, and the media.
RHINO-TIGER CONSERVATION FUND--Asia
    Conservation of Rhino and Tiger in Orang National Park, Assam, 
India, through Infrastructure Development. In partnership with the 
Wildlife Areas Development and Welfare Trust. USFWS: $35,346; 
Leveraged: $120,721. To strengthen law enforcement in vulnerable 
portions of the park by providing anti-poaching camp/watch towers to 
allow forest officers to remain in these areas on an extended basis.
    Conservation of Tiger and Elephant in Pakke Wildlife Sanctuary, 
through Construction of Three Anti-poaching Camps along the Common 
Boundary of Pakke Wildlife Sanctuary and Nameri National Park, India. 
In partnership with the Wildlife Areas Development and Welfare Trust. 
USFWS: $51,987; Leveraged: $75,733. To provide greater protection to 
these species through strengthened law enforcement.
    Mobile Village Tiger Patrols II: An Integrated Approach to Tiger 
Protection through Education, Conflict Mitigation and Law Enforcement, 
Indonesia. In partnership with the Wildlife Conservation Society. 
USFWS: $54,033; Leveraged: $63,551. To conduct human-wildlife conflict 
patrols, conduct wildlife crimes investigations, provide legal aid in 
wildlife crimes cases, and conduct educational events to raise 
awareness about tiger conservation.
    Continuation of Rhino Monitoring and Protection Units in Ujung 
Kulon National Park, Indonesia. In partnership with the International 
Rhino Foundation. USFWS: $37,094; Leveraged: $58,181. Patrols will 
focus on key rhino areas such as saltlicks, wallows and important 
access routes.
    Protection of Sumatran Rhinos by Anti-poaching Units in Way Kambas 
National Park, Sumatra, Indonesia. In partnership with the 
International Rhino Foundation. USFWS: $49,949; Leveraged: $125,337. To 
continue to operate five anti-poaching units in the park, remove and 
destroy all traps encountered on patrols, and apprehend suspected 
poachers so they may be prosecuted.
    Vientiane Capital City Illegal Wildlife Trade Project, Phase IV, 
Lao PDR. In partnership with the Wildlife Conservation Society. USFWS: 
$51,113; Leveraged: $32,127. To reduce the loss of tigers, their prey, 
and other wildlife by halting wildlife trade in Vientiane through 
enhanced law enforcement and public awareness.
    Conservation of Tiger and Prey Populations by Improved Law 
Enforcement, Reducing Human-Tiger Conflict, and Awareness Raising in 
the Nam Et-Phou Louey National Protected Area, Lao PDR. In partnership 
with the Wildlife Conservation Society. USFWS: $50,450; Leveraged: 
$81,342. To protect tigers through increased patrolling, continued 
monitoring of livestock depredation, increased public awareness, and 
incentives for tiger conservation.
    Database on Wildlife Crime. In partnership with Wildlife 
Conservation Nepal. USFWS: $56,375; Leveraged: $27,335. To establish a 
database to monitor the activities of wildlife poachers, traders, and 
their associates so as to enhance the capacity of authorities to combat 
wildlife crime.
    Expanding the Monitoring System for Tiger Conservation to Thung Yai 
Wildlife Sanctuary, Western Forest Complex, Thailand. In partnership 
with the Wildlife Conservation Society. USFWS: $51,273; Leveraged: 
$56,468. To expand the science based protection system in use at Huai 
Kha Khaeng Wildlife Sanctuary to the Thung Yai East and West Sanctuary 
so as to protect tigers and their prey.
    Strengthening Tiger Management in Birsky Wildlife Reserve, Russia. 
In partnership with the Khabarovsky Krai Special Protected Areas and 
Wildlife Conservation Service. USFWS: $48,512; Leveraged: $22,440. To 
equip anti-poaching patrols with essential non-lethal equipment.
RHINO-TIGER FUND--Africa
    Black Rhino Surveillance and Security. In partnership with Ol 
Pejeta Conservancy. FWS: $30,344; Leveraged: $30,344. This project will 
provide training and core expenses for security personnel to patrol and 
protect one of Kenya's key rhino populations, on Ol Pejeta Conservancy 
in central Kenya.
    Black Rhino Anti-Poaching & Monitoring Program in the Chyulu Hills, 
Kenya. In partnership with International Rhino Foundation. FWS: 
$44,162; Leveraged: $86,529. This project supports antipoaching and 
water provisioning for a little known population of black rhinos 
outside the Tsavo National Park system in southwest Kenya.
    Security and Monitoring of Rhinos in Lewa Wildlife Conservancy, 
Kenya. In partnership with Lewa Wildlife Conservancy. FWS: $45,502; 
Leveraged: $156,316. To support and enhance the on-going conservation 
of Black and White rhinos on and near Lewa Wildlife Conservancy in 
Kenya through the construction of security housing to enable security 
personnel to be permanently stationed in the Ngare Ndare Forest. This 
project will also enhance Lewa's radio communication network through 
the purchase of new hand-held radios to be used by rhino monitoring 
teams, and supporting radio-licensing costs for Lewa's extensive radio-
network, which links LWC, Kenya Wildlife Service, Kenya Police, 
Laikipia Wildlife Forum and community conservation areas of the 
Northern Rangelands Trust to facilitate efficient and effective 
response to incidents of insecurity across a vast area of northern 
Kenya.
    Support for Training and Equipment for the Greater Mara Community 
Scout Programme. FWS: $38,179; Leveraged: $87,819. In partnership with 
Friends of Conservation. Continued funding will support wildlife scouts 
from settlements surrounding the Maasai-Mara Reserve in Kenya. 
Activities funded by this project include training, workshops, outreach 
on mediating human/wildlife conflict, providing security radios and 
transport costs for patrols, and providing veterinary care for animals 
released found in illegal hunting snares.
    Selous Black Rhino Conservation Project. In partnership with 
International Rhino Foundation on behalf of the Selous Trust. FWS: 
$38,000; Leveraged: $259,800. This project supports security and 
infrastructure to conserve black rhinos in the relatively undeveloped 
areas of the Selous Game Reserve in southern Tanzania. Activities will 
include maintaining basic patrols, locating and regularly monitoring 
surviving rhinos, and providing capacity building necessary to improve 
security and knowledge of the rhino population.
    Support for Rhino Monitoring Bases, Zimbabwe. In partnership with 
International Rhino Foundation. FWS: $9,931; Leveraged: $44,000. 
Important black rhino populations in Zimbabwe occur on private land 
that has been adversely affected by recent land invasions. In response 
to the new human settlements, rhinos have been translocated further 
south, to safer areas. As a result, the rangers monitoring and 
protecting these rhinos need to move to the same area. This grant 
contributes to refurbishing existing buildings in the new region into 
suitable accommodation for the relocated rhino security personnel.
ASIAN ELEPHANT CONSERVATION FUND
    Floating Anti-poaching Camp in Kaziranga National Park, Assam, 
India. In partnership with The Rhino Foundation for Nature in Northeast 
India. USFWS: $46,376; Leveraged: $15,917. Support to build a floating 
anti-poaching camp that will operate on the Bhramaputra River which 
forms the northern boundary of Kaziranga National Park, to enhance 
protection of elephants and other endangered species that live in the 
park.
    Protection of Threatened Megavertebrates by Anti-poaching Units in 
Bukit Barisan Selatan National Park, Sumatra, Indonesia. In partnership 
with International Rhino Foundation. USFWS: $49,996. Leveraged: 
$328,923. Continued support for eight anti-poaching units to be 
operational throughout the year protecting wildlife including 
elephants, rhinos, tigers and tapirs, and other species of importance 
to biodiversity and their habitats in BBS National Park.
AFRICAN ELEPHANT CONSERVATION FUND
    EIA Ivory Enforcement Training Film ``Combating Ivory Smuggling: A 
Guide for Enforcement Officers'' In partnership with Environmental 
Investigation Agency. Country of work: Range States. USFWS: $11,720; 
Leveraged: $21,030. The purpose of this project is to support the 
filming, production and distribution of a comprehensive, inclusive and 
practical training tool for enforcement officers to help curtail 
elephant poaching and the illegal trade in ivory.
    Securing Elephants and Habitat through the Hifadhi Network in West 
Kilimanjaro, Tanzania. In partnership with African Wildlife Foundation. 
Country of work: Tanzania USFWS: $67,973; Leveraged: $61,788. This 
grant assists local community scouts to conduct anti-poaching patrols 
and basic wildlife monitoring on land outside of protected areas in 
northern Tanzania.
    Namunyak Wildlife Conservation Trust Communications Project. In 
partnership with Northern Rangelands Trust Country of work: Kenya 
USFWS: $27,132; Leveraged: $110,021. The Recipient will purchase and 
install a new radio communications system, including: base radios, 
handheld radios, and solar panels for recharging batteries to upgrade 
and improve the communications systems for security personnel in 
community conservancies in northern Kenya. The communications system 
will be maintained in order to provide reliable communication between 
the Northern Rangelands conservancies (including Kalama, Meibae, 
Melako, Sera and Westgate) and the Kenya Wildlife Service, Lewa 
Wildlife Conservancy and the Kenya Police.
    Operations support for the Wildlife Action Group-Malawi for the 
Protection of the Thuma Forest Reserve Elephant Population, September 
2007-August 2008. In partnership with Wildlife Action Group Country of 
work: Malawi. USFWS: $17,031; Leveraged: $44,411 This project provides 
support to a local organization to patrol Thuma Forest Reserve (with 
rangers from Malawi's Department of National Parks and Wildlife staff) 
in order to prevent inflow of guns, snares, pit traps, and poison into 
the forest reserve, and to prevent illegal offtake of forest products, 
while also conducting conservation awareness outreach programs, 
assisting local people in avoiding conflict with elephants and 
initiating projects to provide alternative, sustainable income.
    Aerial support for security, management and conservation of 
elephants in Northern Kenya--II. In partnership with Lewa Wildlife 
Conservancy. Country of work: Kenya USFWS: $15,000; Leveraged: 
$537,197. This project supports aerial patrolling and response to 
improve elephant security in community, private, and government-owned 
rangelands in northern Kenya, in collaboration with the national 
wildlife department and local wildlife scouts.
    Protection and monitoring of elephants in West Gate Community 
Conservancy, Northern Kenya. In partnership with Northern Rangelands 
Trust. Country of work: Kenya. USFWS: $49,911; Leveraged: $35,940. To 
improve security for elephants and other wildlife in community areas in 
northern Kenya, this recipient will construct housing facilities for 
community rangers in West Gate Conservancy.
    Responding to elephant poaching crisis in Chad: surveillance plane 
for Zakouma National Park. In partnership with The WILD Foundation. 
Country of work: Chad. USFWS: $30,000; Leveraged: $120,100. This grant 
provides funding to support a patrol plane for anti-poaching and 
surveying elephants. The pilot will liaise with park officials to 
direct them to the exact sites of any elephant poaching incidents or 
poachers' camps.
    Improving the management and infrastructure of Mamili National 
Park. In partnership with Namibia Ministry of Environment and Tourism. 
Country of work: Namibia. USFWS: $75,274; Leveraged: $487,500. To 
improve national park staff's ability to conduct anti-poaching and 
wildlife monitoring patrols in Mamili NP and, through improved 
transport, develop improved communication with park neighbors, this 
project will develop an overnight patrol camp and provide essential 
equipment for park operations.
                                 ______
                                 
    The Chairman. Thank you, gentlemen, for your testimony.
    I am going to ask both of you a question, but, Mr. Perez, I 
have been told that Fish and Wildlife Service inspectors 
receive seven weeks of basic wildlife inspection training. Our 
U.S. Customs and Border control inspectors who are responsible 
for inspecting shipments for all nondeclared wildlife only 
receive two hours of wildlife training.
    If that is correct, is that really enough for the agency on 
the front line to keep our country safe?
    Mr. Perez. Well, the reality of our presence at the Federal 
Law Enforcement Training Center in Glencoe, Georgia--we have a 
staff of two agents and one wildlife inspector--is actually 
somewhat of a success from our perspective to be able to get 
two hours of training to all these Customs officers on their 
agenda, which is in fact what we are able to do because we are 
physically there, so from our perspective of viewing this issue 
is we are pleased to have at least two hours before all these 
future Customs inspectors.
    Is it sufficient? We actually take very proactive steps at 
all our ports of entry, in some cases monthly, where our local 
wildlife inspectors understand that the eyes and ears of all 
the other present Federal agencies are who is going to help us 
do our job. In fact, in some cases, they have monthly 
orientation and training sessions to get the inspectors that 
are already there and those that are coming out in the field to 
continue to augment that two hours of training.
    So from my perspective, Mr. Chairman, we are very pleased 
to have two hours on all of these training courses, all of 
these training classes that are going through FLETC. Obviously, 
if we could get a whole day, we would orient people and 
synthesize them to the role that they could play in certainly 
supporting the U.S. mission in trying to interdict this illegal 
trade.
    The Chairman. I am sorry. I missed the location of that 
training base.
    Mr. Perez. The Federal Law Enforcement Training Center in 
Glencoe, Georgia.
    The Chairman. Glenville, Georgia?
    Mr. Perez. Glencoe.
    The Chairman. Glencoe?
    Mr. Perez. Brunswick. Brunswick.
    The Chairman. OK.
    Mr. Perez. The southern southeast corner of Georgia.
    The Chairman. Mr. Sellar, in your testimony you state that 
the illegal wildlife trade presents risks such as the spread of 
disease and invasive species that could be economically and 
biologically devastating.
    Can you elaborate on what you have seen and what we should 
be concerned with on this committee?
    Mr. Sellar. Well, I think one has to be proportionate here, 
Mr. Chairman.
    The potential is certainly there. There is a wide range of 
species and the various range of diseases they can carry. You 
know, it goes, for example, from Asian bird flu right down to 
Ebola, which is a terminal disease that you can do nothing 
about if it started to enter your country.
    Now, Asian bird flu has certainly spread around. 
Fortunately, we to date don't seem to have any direct evidence 
of diseases such as Ebola being spread, but the potential is 
certainly there.
    The Chairman. OK. Thank you.
    Mr. Young?
    Mr. Young. Thank you.
    Mr. Sellar, you mention in your testimony the majority of 
the wildlife affected by illegal trade is found in developing 
countries or countries where economics are in transition.
    What incentives have been used or could be used in these 
countries to reduce their dependence on wildlife trade?
    Mr. Sellar. Well, I don't know that there have necessarily 
been incentives to reduce their dependence on wildlife trade 
because, you know, if that wildlife trade is conducted under 
the Convention, then it should be well regulated. It should be 
sustainable.
    Mr. Young. Let me clarify. I agree with you, by the way, 
about the legal trade of wildlife. I happen to be one who 
believes that is part of the economy, but we are talking about 
the illegal trade.
    Mr. Sellar. Right.
    Mr. Young. What can we do to make it more attractive not, 
for instance, to participate in harvesting rhino horns and 
elephant tusks and all those other good things?
    Mr. Sellar. Well, as the Assistant Secretary of State said, 
there are initiatives such as ecotourism. In India, there have 
been very good examples of the type of thing she referred to, 
where you have in fact taken poachers and you have converted 
them into guides for tourists or indeed converted them into 
antipoaching patrol officers.
    In the Caspian Sea, we have seen some poachers of sturgeon 
who have been brought into the fold, if you like, and who have 
now become legal fishermen, but I think the reality I have to 
say is that in many of these countries, the condition in rural 
areas can be really dire, and finding alternatives for some of 
these people is not easy at all.
    And so I think in the immediate term, unfortunately, I 
think enforcement needs to be our first response, but that 
can't be the only response. That is never going to be a long-
term solution for this.
    As somebody made a point this morning, there are several 
species that are listed in CITES that don't have the time to 
wait for a long-term solution.
    Mr. Young. Our biggest problem I think is, like you say, 
you are in a country that you may be making 50 cents a day, and 
if you kill an ivory-bearing animal, you can get maybe $100 or 
$200. Of course, it is worth $6,000 someplace else, but $200 is 
better than 50 cents.
    Then if you sell the meat, because they are protein 
starved. They sell the meat--let us say it is an elephant--for 
maybe $1,000. You have 10 years of wages in one animal. That is 
what we are up against.
    Now, again, it is the demand. I am also concerned. Maybe we 
ought to be going after not the poacher, as much as I despise 
them, but the buyer. What is the penalty for buying or having 
possession of a CITES animal illegally?
    Mr. Sellar. That depends very much which country you are 
talking about.
    Mr. Young. Well, let us say I am in the United States.
    Yes, one or the other. Butt in there if you want to. What 
is the penalty for that?
    Mr. Perez. Assuming we have a felony, which is on the 
import of an unlawful item, the maximum exposure for an 
individual is a five-year prison term and up to $250,000 fine.
    Mr. Young. Now, that is knowingly doing the action, but let 
us say I am John Q. Citizen. I am 75 years old. I am in an 
antique store or I am someplace else, and I purchase a species, 
unbeknownst to me, that is on the CITES list. What is the 
penalty for that?
    Mr. Perez. As we evolve an investigation and we make that 
determination--that it is indeed someone that is not that 
attuned to the illegal origins of this particular item--then 
there are lesser included penalties under the Lacey Act or the 
CITES provisions, so it could be as little as a maximum 
exposure to a $5,000 fine and six months in prison.
    Typically in those instances if there is a lack of intent 
on an individual, what is weighed very significantly is the 
aspect of pursuing the action against the item rather than the 
individual, so the worst scenario in that case is the 
individual that would have invested in that item will lose that 
item, assuming that the forfeiture process is decided on the 
side of the United States.
    Mr. Young. Mr. Sellar, you noted that the Secretariat does 
not have much accurate information regarding the sale of 
illegal wildlife and the nature of such trade, yet you list a 
number of examples where organized crime is involved.
    How much of this information provided is examples of 
factual versus innuendo?
    Mr. Sellar. The 20--I think it is 20--examples that we have 
given you, we have information behind each of those. Those are 
not things that we have just imagined. We can back those up 
with examples from specific instances.
    To come back to your previous question, I think it is true. 
We won't succeed if we simply target the poacher, but I don't 
know that one necessarily has to target the consumer with 
enforcement action. I think the consumer you hopefully target 
with education and awareness raising.
    It is the people in between, and those are the people who, 
as you indicated with regard to prices. Those are the people 
who are making the big bucks here, and they are the people we 
need to put in jail. There are some countries such as China 
that actually have the death penalty for wildlife crime.
    Mr. Young. But that is not for consumers. That is for 
actually killing something in China.
    Mr. Sellar. Killing something in China or, for example, if 
you were engaged in the ivory trade in China or if you were, 
for instance, involved in smuggling falcons commercially out of 
China then you can be sentenced to death.
    Mr. Young. My information is that the three primary 
countries that are consumers of protected species China, India 
and Taiwan, and to some extent Japan. They are the ones that 
are the major contributors to purchasing illegal species, 
primarily for aphrodisiacs or ivory.
    These countries are not developing countries. They are 
countries with great wealth now. Again, if you have a country 
that doesn't have great wealth and people that are starving and 
a government that usually is probably involved some way 
directly or indirectly through some of their ministers 
cooperating with the other countries, and that is where the 
real battle comes as far as I am concerned.
    How do we make the consumer and of course the provider, but 
primarily the government sort of condones this. I just don't 
know how we can solve those problems. That is all.
    Anyway, Mr. Chairman, I am concerned on this issue. I don't 
want it to be cast as an antihunting issue because I think they 
contribute the most for our conservation, and I do know some of 
the problems that are faced in these developing countries about 
just availability of dollars.
    If I was over there and was living on 50 cents a day, I 
think I would be pretty much tempted to be involved in some way 
to feed my family.
    Thank you, Mr. Chairman.
    The Chairman. Anybody wish to comment?
    Mr. Sellar. Well, yes. Perhaps I should. In my role as a 
United Nations official, maybe I should try and correct what 
might be a misconception there.
    I have never had any reason to think that India is a major 
consumer state for wildlife. In fact, India has a very strict 
regime with regards to wildlife trade.
    Mr. Young. If I may interrupt? Maybe it is because some of 
the people involved in the illegal trade are from India. That I 
know.
    Maybe I misinterpreted. They weren't the consumer. They 
were the provider in these impoverished countries to China and 
other countries in the Asian market. They are not angels when 
it comes to this issue.
    Mr. Sellar. That is quite correct. I mean, India 
particularly for its tigers, for leopards and to a certain 
extent its elephants. It has been the subject of illegal trade, 
but most of it is of an export nature, so undoubtedly there are 
criminals based in India that are engaging in significant 
levels of illegal trade. But I just wanted to make the point 
that we don't see India as being a consumer.
    Mr. Young. Maybe not, but again it is my information that 
the parks that hold the last big bastion of tigers have gone 
from about 5,000 to 2,000 under the protection of the parks and 
the Indian Government, so again somebody is not doing the job.
    That is within this country itself. Don't get me started on 
this issue.
    The Chairman. Your time has expired. The gentleman from 
Michigan, Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    What is the status around the world in various countries or 
internationally of declaring as contraband any of these parts 
where they could be seized at any stage of possession?
    Is there any uniformity of laws around the world? Is there 
any international enforcement of declaring them contraband and 
seizing them from the possessor? I will start with Fish and 
Wildlife Service or Mr. Sellar, either one.
    Mr. Sellar. Well, that essentially is why we have CITES. 
CITES establishes levels of protection for the species that are 
listed in its appendices. Those in Appendix I are the most 
endangered, such as your tigers, the rare alcids, rhinoceros, 
and essentially you cannot engage in international commercial 
trade in those species.
    So if you are a party to the Convention, if you are a 
signatory to this treaty, then if those species pass across 
your borders, you are expected to take action and to seize 
those items and to confiscate them and to penalize the 
offender.
    One of the things that the CITES has is a national 
legislation project where all the member countries, we look at 
their domestic legislation and analyze to see whether it is 
adequate to enable them to adequately implement the Convention 
and the provisions of the Convention.
    The Assistant Secretary of State indicated to you, and I am 
sorry to sort of contradict her, that there was a good level of 
legislation around the world. I am afraid the opposite is true. 
The vast majority of parties to the CITES Convention do not 
have adequate legislation to implement it. Consequently, when 
they come across violations, then that is where we face 
problems.
    Mr. Kildee. So they actually agree to the Convention, but 
don't have the internal laws to actually enforce them within 
their country? That is somewhat duplicitous, isn't it, if they 
are signing the Convention?
    Mr. Sellar. Yes. Well, I think if you look at some of the 
more recent multilateral agreements, be that environmental 
agreements or other agreements, then often parties before they 
accede to a convention or a treaty have to come up to a certain 
standard.
    That is not how it was when CITES was developed back in 
1973. You essentially could say yes, we accede to the 
Convention, and then you could play catch-up with regards to 
whether you could implement the Convention or not. I am afraid 
over 30 years later, we are still playing catch-up in many 
parts of the world.
    Mr. Kildee. I served on the Budget Committee for many 
years, so I generally ask some budget questions. What is the 
budget of CITES? What is your budget?
    Mr. Sellar. I am afraid that is not my area of expertise, 
but it is something under $5 million a year.
    Mr. Kildee. Under $5 million?
    Mr. Sellar. If I can best explain it by indicating that we 
have--I think it is 25 staff. Of those, about 15 or less are at 
the professional grade in the United Nations system. The rest 
are G staff, secretarial staff.
    You know, 30,000 species listed by the Convention, 172 
countries, so you can see that we have a very small secretariat 
to deal with a major issue.
    Mr. Kildee. What percentage of that $5 million is from the 
United States?
    Mr. Sellar. Again, I am afraid this is not my area of 
expertise, but what I can tell you is the United States of 
America is the biggest contributor to CITES.
    Mr. Kildee. OK. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Virginia, Mr. Wittman?
    Mr. Wittman. Thank you, Mr. Chairman.
    A question for Mr. Perez. Can you tell us, of the cargo 
that comes into the United States that is inspected by U.S. 
Fish and Wildlife agents, what percentage of those shipments 
actually get looked at directly?
    And then if we were to double or triple that effort, how 
many inspectors would it take to get us to that level?
    Mr. Perez. I would split the response. In fact, the 
inspectors in our program strive to look at at least 25 percent 
of shipments that we are aware of. In many cases, we are able 
to accomplish that.
    However, there are other eyes out there in Customs and 
Border Protection that may contribute to a little bit different 
type of revision for certain cargo, so our goal 
programmatically is to try to review 25 percent, and clearly if 
we are able to double that vigilance, we would potentially be 
more effective in what we are detecting and what we are 
finding.
    The challenge for us is customer service dominates a lot of 
the time of our wildlife inspectors. We have to provide and 
facilitate the legitimate trade, and in fact a daily routine 
for an inspector is to perhaps have some opportunity to do some 
proactive inspection because we have a significant amount of 
cargo that comes in that may not require a declaration to us, 
but in fact we may and certainly have the authority to go view 
and peruse and look through Customs' manifests and whatnot.
    That is the part where we try to certainly focus some 
priority, but in most cases, probably 60 to 80 percent of our 
inspectors' time, depending on where they are assigned, is 
providing that customer service to facilitate the legal trade.
    Mr. Wittman. So if you were to double the effort, about how 
many inspectors would it take to get to that level?
    Mr. Perez. Well, doubling the effort would be--we calculate 
that on a per inspector basis, so if we could get double the 
amount of inspectors, they still may be focusing on 25 percent 
of the shipments, you know, from a ratio perspective.
    But it would give us a little bit of breathing room if we 
could double the staff at a given port like New York where we 
have 10 or 12 inspectors that are facilitating the legal trade 
and then measuring that ratio of some dedicated emphasis on the 
proactive perusal of cargo and facility and even passengers in 
some cases, so that would lend itself to obviously being more 
successful at interdicting the unlawful products as they come 
in.
    Mr. Wittman. You had mentioned that the shipments that your 
inspectors go through that were seized or refused, those 
shipments most often come from Mexico, China and Canada.
    Of those, are those products that come from those countries 
as a source, or are they products that are maybe run through 
those countries from other source countries?
    Mr. Perez. It is not exclusive to a source. What happens, 
for example, I will give you one example. We have a lot of raw 
skins that are brought in through, for example, DFW in Houston 
that are en route to El Paso.
    In El Paso, there is an easier opportunity for the boot 
manufacturers, and the particular city in Mexico is Leon 
Guanajuato, which is the Mecca of making footwear, where they 
then take that product into Mexico, so we have a re-export of 
items that go into Mexico to get made into the products. 
Oftentimes, that product coming back has irregularities with 
the permitting and so on and so forth that has to be in place.
    The other aspect of that trade is certainly the individual 
purchasing items that are unlawful, so we factor the seizure 
rate into the whole spectrum of the individual that brought 
back a pair of sea turtle boots that they found somewhere and 
the commercial vendor that is in fact doing the manufacturing 
and bringing things up.
    That is probably where there is the most volume, and 
obviously the proximity to the southern border is why they are 
constantly in the advent of NAFTA and the proliferation of that 
kind of trade.
    On the Canadian side, we kind of have a mix of the same 
thing. There is some imports that go into Canada that transport 
then into the United States. Not a lot of product goes to 
Canada for manufacturing purposes, but it is just the access of 
the border entries and that kinds of things.
    It runs the gamut. We have the commercial shipments that 
are coming in that are improperly documented and the 
individuals that are bringing back certain types of trophies or 
whatever areas are associated with them.
    The Chairman. The gentlelady from Guam, Ms. Bordallo?
    Ms. Bordallo. Thank you. Thank you, Mr. Chairman. I have a 
couple of questions for Mr. Perez.
    And I know, Mr. Chairman, you interrupted him and asked 
about the two hours of training. I have been told that Fish and 
Wildlife inspectors receive seven weeks of basic wildlife 
inspection training. U.S. Customs and Border control inspectors 
who are responsible for inspecting shipments for all 
nondeclared wildlife only receive two hours. The Chairman made 
note of that.
    Is two hours' training really enough for the agency on the 
front lines to keep our country safe? Second, what is the 
reason for this? Is it financial constraints?
    Mr. Perez. Well, the short answer is no, it is not enough. 
The specialization that our wildlife inspectors have when it 
pertains to conducting their job is the two hours that is being 
referred to here is a Customs and Border Protection agenda that 
they have absolute control over.
    We have the opportunity while these new employees for 
Customs and Border Protection are being trained to provide at 
least two hours of training at FLETC, which is what I was 
alluding to. The comprehension of what it means to understand 
what CITES controls are and the kinds of documents that they 
may encounter is clearly not sufficient for their agenda to 
have that exposure to that.
    The view of my practical experience at Customs and Border 
Protection would be that they are the front line for many of 
our agencies to be there handling the manifests or sometimes 
things we never see. Their body of understanding to everything 
that has to do with imports/exports is significant.
    So our involvement not only while they are in actual formal 
training and in the continuation of trying to get the localized 
interest and attention in educating Customs inspectors in Los 
Angeles and New York and Sweet Grass, Montana, is a constant 
thing that we try to do.
    But I do want to add one thing, and I think it has been 
mentioned by both of you. Very recently, we actually augmented 
our training for wildlife inspectors. Some years ago, their 
basic training was five weeks. Now it is seven weeks because of 
the need to expand their knowledge base, very specialized in 
the wildlife arena.
    We very recently actually in the last year included a 
follow-up field training evaluation program for wildlife 
inspectors similar to our agents, so in fact it is seven weeks 
of training that is basic. They get a lot of their training 
where they are assigned, but we also have a formal follow-up 
training that they have to continue to successfully complete, 
and that is an additional six months back at their duty 
stations.
    Ms. Bordallo. Thank you, Mr. Perez. I have another 
question. Is the current staffing of the Fish and Wildlife 
Service Wildlife Inspection Program enough to deter wildlife 
trafficking into and out of the United States?
    There are 122 authorized wildlife inspectors and 261 
special agents, but FWS only employs 114 inspectors and 191 
special agents.
    Mr. Perez. I will touch on the inspectors initially. The 
inspection program is something that has some capability of 
recovering reimbursable expenses for the legitimate trade in 
the kinds of items that are being brought in.
    When it comes down to the allocation of funding from the 
program to that, the 122 authorized positions are in essence 
just a measure of where we have to take the financial resources 
that are provided to us and comfortably be able to have 114 
inspectors.
    We try not to let inspector vacancies sit for very long 
because of the customer service demand, so the practical answer 
to trying to have more folks out there interdicting the trade 
is clearly certainly we would be much more effective in what we 
do.
    I do want to make a comment regarding our inspectors and 
agents, and that is simply that we have a significant dedicated 
group of people out there that are in many cases giving more 
beyond what we would expect from them, and I want to make sure 
to recognize that. I think our inspectors and agents do an 
exemplary job in carrying out their duties.
    To touch on the number, the 261 number for authorized FTEs 
for agents, we have never been at that level. The highest and 
the closest we ever got to that is 238 about five years ago.
    What happens to us in the agent arena is we have a 
mandatory retirement of 57 so our attrition can be very easily 
calculated, and this is government rules regarding the position 
of a criminal investigator.
    So the 191 is a number that we are approaching very quickly 
where we were in the mid-1980s with the fact that we have--from 
the standpoint of our vacancies--we would have 70 vacancies 
right now. We are in the midst of hiring 24 agents as we speak. 
They would be going through training in Glencoe.
    So the effectiveness of our force is certainly much more 
readily felt and I believe recognized when we have more people 
on the ground doing the work.
    Ms. Bordallo. So what you are saying then, Mr. Perez, is 
that these authorized numbers are really not--you can get along 
very well with the current numbers. Is that what you are 
telling us?
    Mr. Perez. We deliver the mission. What becomes critical 
for us as managers within our program is if we had 261 agents 
right now with the current budget, our budget, we could very 
likely have 261 agents, but they wouldn't be able to do 
anything or go anywhere.
    So what we have to factor in within our program is the 
operational margin. The operational margin where we are at 
now--we certainly are addressing our attrition rate--is 
probably 12 to 14 percent separate from salaries and benefits, 
so while we need and perhaps would like more officers on the 
ground, including inspectors, we have to balance with our 
financial resources.
    Our officers have to be safe, they have to have the 
appropriate equipment out there, and they have to have the 
ability to do their job, which in the case of investigators, 
they have to be out and about. They have to be moving. So we 
have to factor in realistically what that ratio of operational 
margin would be to keep them safe and keep them effective to be 
out there.
    One hundred and ninety-one is not a number that we choose. 
It is a number we have been taken to based on attrition and 
voluntary retirement. So it is always a balance of trying to 
keep that number. We would love to be able to have 261 agents, 
but if we did it with where we are currently funded, then we 
would have to be sacrificing the ability to have an effective 
force.
    We would like to call it a lean and mean force if need be, 
but at the same time trying to be as effective as we possibly 
can. That lends certainly significant attention to how we 
prioritize what our investigators are focusing on.
    Ms. Bordallo. If I could, Mr. Chairman, I don't quite 
understand this.
    Then your agency is requesting these larger numbers of 
FTEs--is this what I am hearing--and then you don't fill them?
    Mr. Perez. I don't believe there has been a request to 
increase those FTE numbers for quite some time. That is an 
accumulation of authorizations that we have received in the 
past based on various funding additions that we have had to our 
program.
    Ms. Bordallo. I see. Perhaps this should be looked at then, 
these numbers here.
    One other question I have. The President's budget request 
for Fiscal Year 2009 would reduce law enforcement funding by 
$3.2 million below the Fiscal Year 2008 level. Meanwhile, the 
number of wildlife shipments is increasing. How are we going to 
address the international illegal wildlife trade if we do not 
fund law enforcement adequately?
    Do you anticipate that the new inspection fees proposed 
will help meet all law enforcement needs? Will there be enough 
funds for Fish and Wildlife Service law enforcement to work 
abroad training and assisting developing countries?
    Mr. Perez. I will start with your last part of your 
question.
    The Fish and Wildlife Service Office of Law Enforcement has 
never been able to have our trainers abroad without the support 
of our partners. In the practical world that we live in, what 
we basically provide is the resource, and we don't ask for any 
support for their salaries and benefits.
    Without the support of various funds of money out there--
USAID, ITAP, some partners that you are going to be hearing 
from later--but for that support to get our folks to these 
foreign locations, we basically don't have funding allocated 
for that purpose. So we are able to deliver the mission because 
of the partnerships that we have with various organizations 
throughout the world.
    Getting back to the user fee rule, which in fact we are 
currently trying to increase, we have a proposal to increase 
our fees that haven't been increased since 1996 that actually 
published in the Federal Register on February 25.
    The intent of that increase, assuming that we don't have to 
revise the numbers based on comments that we get from the 
Federal Register, are to in fact take into account the 122 
authorized FTEs and try to in five years have the inspection 
program, which right now, based on what we collect, pays for 
about 45 percent of the program in the reimbursable 
perspective.
    In five years, once the rule is final and we get the 
estimated fees that we are going to collect, our hope is that 
the inspection program would be self-sustained for the purposes 
of the current number and also for the purposes of conducting 
and facilitating the legal trade aspect, our customer service 
aspect. That is not factoring in the potential for any follow-
up or any illegal aspect that then would be handled by a 
criminal investigator.
    So the indirect benefit would be that we would not have to 
utilize the appropriated dollars directly to fund the 
inspection program, but in fact would have a self-sustaining 
inspection program based on current numbers.
    Ms. Bordallo. The cut in the budget.
    Mr. Perez. Right. The cut in the budget. In essence, the 
addition of funding that was given to us in 2008 was from 
Congress. There was not a request for that addition, so the 
funding that we got in 2008 was not the original request.
    Congress gave us I believe a total of $3 million for two 
things, increasing----
    Ms. Bordallo. So we were generous?
    Mr. Perez. Yes, ma'am, and we appreciate that 
significantly.
    For the purposes of bringing on new agents, because of the 
recognition of our attrition rate, and also for the purpose of 
maintaining our special operations function, and we have indeed 
benefitted significantly because we were able to totally commit 
to the new hiring initiative that we are taking on.
    So in fact in 2009, it was not part of the request, but it 
wasn't that type of a cut per se. Basically the support to 
continue the same number, that is the specifics of that. The 
original request in 2008 didn't include that increase, and in 
fact because we got that increase from Congress, now it is in 
essence a reduction.
    Ms. Bordallo. So you can live with the reduction?
    Mr. Perez. We can live with whatever we are provided, and 
our employees are dedicated to deliver the mission.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Washington, Mr. Inslee?
    Mr. Inslee. Thank you.
    Science tells us that we are in the midst of an extreme 
extinction event--some people have called it I think the sixth 
great extinction in the history of the planet--due to human 
activity. Do you gentlemen think that is correct?
    Mr. Sellar. I can only speak for myself. I am essentially a 
cop, so I am afraid I can't really respond to that. Sorry.
    Mr. Perez. I would take that same--I am not a trained 
scientist. I am not a biologist. I am a law enforcement 
officer. I can only reflect to you what I hear, so I couldn't 
necessarily--I can give you an opinion, but it would be 
personal.
    Mr. Inslee. Well, the reason I ask is the President's 
budget would reduce law enforcement funding by $3.2 million 
below Fiscal Year 2008, and for purposes of this discussion, 
you can assume that we are in an extreme extinction event where 
all kinds of animals and plants are going extinct, some because 
of climate change, some because of pollution, some because of 
habitat destruction, some because of acidification of the 
ocean, and all of those stressors are made more manifold by the 
fact that there is this illegal trade going on of outright 
killing of these animals.
    If that is true, wouldn't you think it would be pretty 
unwise to reduce the budget for the cops on the beat whose job 
it is to reduce this additional stress to these already 
stressed animals?
    Mr. Perez. I would react or respond in the context of the 
fact that the Office of Law Enforcement is one program of 
several programs in an agency of about 9,000 employees. We in 
fact are about 475 employees.
    To the extent that there is some recognition by the experts 
of these kind of catastrophic issues, including the illegal 
trade and the impact on species, there are certainly 
conflicting priorities as far as what financial resources are 
available and to what entities they will in essence be going 
toward supporting.
    The Office of Law Enforcement, as I explained earlier, 
benefitted greatly from the generosity of Congress in the money 
that was given to us in 2008. To the extent that our numbers 
for 2009 are lower than they were in 2008, we have a 
functioning group. We go to great lengths to continue the 
support at the international arena.
    We are looked at I believe, and you will hear this with the 
next panel, very favorably as the experts to try to support the 
developing countries in the training capacity, so we bring that 
additional value to that effort that you are focusing on, that 
animal that is being taken illegally in a foreign country.
    Mr. Inslee. Are illegal shipments increasing?
    Mr. Perez. Yes, they are.
    Mr. Inslee. So when you have an extinction event going on 
in the world, maybe unprecedented in world history, at least 
one of the six or five that have already occurred, and when you 
have illegal shipments increasing, do you think it is a good 
idea to reduce the cops on the beat?
    Mr. Perez. No, I do not think it is a good idea. The offset 
to that, however, is the fact that the effort that we are able 
to put if we had three times the amount of resources that we 
had to operate on, that particular problem is so extensive that 
it will take, and it already is occurring, a collective effort 
from many people that you have heard from today, including the 
organizations that are out there to support, to 
singlehandedly----
    I don't believe there is any amount of increases for the 
Fish and Wildlife Service to do this, short of the full 
recognition of the very event that you are referring to from 
the broad spectrum of law enforcement officials--Customs 
officials in particular--because they are in essence who are 
doing this for all the countries.
    Mr. Inslee. I understand that we are not going to solve all 
the world's problems with this particular budget line item in 
the budget, but do you agree with me that in the face of these 
threats, the Administration has acted unwisely in attempting to 
reduce the appropriation, which in some way or another will 
reduce our effectiveness in preventing this increase in illegal 
shipments?
    Mr. Perez. The reduction of 2008 to 2009 is not what has 
given us our challenges as it pertains to our ability to 
deliver our mission. It is basically attrition. The attrition 
that is occurring with retirements is where our significant 
challenge is.
    Mr. Inslee. Well, then you are not going to be able to 
replace these people if you have less budget. You are blaming 
the attrition. If you have a budget, you can go out and replace 
these people--they are not the only people in the world who can 
do this job--couldn't you?
    Mr. Perez. That is a possibility. We are not the only ones, 
and we certainly need a collective to continue to be able to do 
this.
    Mr. Inslee. Well, I am dissatisfied. Anyway, you get my 
point. Thank you.
    Mr. Perez. Yes, sir.
    Mr. Kildee. You know, I know you are part of the Executive 
Branch of government and therefore you have to be careful in 
criticizing the Chief Executive and his budget, but it is the 
Congress that determines how much money shall be spent.
    We have rolled the President. I have rolled six Presidents 
in my 32 years. You know, it is the Congress that spends the 
money. The President can't spend a dime. He can propose. We 
dispose.
    I am not chastising you. I know your situation. You are in 
the Executive Branch. It says no money shall be drawn from the 
Treasury in consequence of appropriations made by law. The 
President has no power to make a law at all. He can sign it or 
veto it. We make the law.
    I appreciate the gentlelady from Guam's comment there. The 
President proposed a certain amount of money a few years ago, 
and we gave you more because all wisdom does not reside at that 
end of Pennsylvania Avenue.
    I have seen six Presidents, some better than others. I have 
seen 16 Congresses, some better than others, but the 
appropriations is a Congressional prerogative, not a 
Presidential prerogative. He can either sign the bill or veto 
the bill. He doesn't have line item power either. We resisted 
giving him that.
    So I understand your position, but if you had extra money, 
you would have some flexibility within your Department. You 
certainly have my gratitude, by the way. I really like the way 
you run your Department, but if you had some extra money from 
the Congress, you might have some flexibility to address 
several of the problems, including your staffing problem. Isn't 
that true?
    Mr. Perez. That is correct, Congressman. In fact, the 
primary way for us to affect our problems and our challenges is 
with more people.
    Mr. Kildee. Right. You know, that really is true. You have 
to have good people, enough people, and when you have a 
shortage of people--even on my level, my staff level, I need a 
certain number of people to accomplish my job each day. I need 
that. When you have fewer people, you just can't carry out the 
responsibilities in the same fashion.
    First of all, I am a great custodian. I carry this. I never 
leave home without this, the Constitution of the United States. 
I know exactly how much power they have at that end of the 
avenue and how much power we have at this end of the avenue. I 
love to look at the President's budget and say, ``where did you 
get this?'' We are the appropriators, and, by golly, under my 
watch we are going to stay as the appropriators.
    Thank you very much, and thanks for what you do. Thank you.
    The Chairman. Do you have a comment?
    Mr. Sellar. If I may, Mr. Chairman, from the international 
perspective?
    Clearly, I don't want to comment on your budgetary issues 
in the United States, but, to try and emphasize or illustrate a 
point I made in my opening remarks, money is not always the 
answer. There are sort of two sides to the coin, if you like.
    If you will allow me, I will court examples from a country 
in Central Africa where they have the resources, and to give 
you a practical example, I was talking to the head of a 
wildlife enforcement unit there, and I was staying in a hotel, 
and ivory was openly on sale in this good-quality hotel.
    I said to the head of the unit, how can you allow this to 
happen? Why aren't you doing something about this? They said, 
well, we have tried, he said, but when we do, the general 
manager of this hotel phones the mayor and says, why do I have 
wildlife enforcement officers wandering around my hotel 
disturbing my tourists? This is ruining our tourist trade.
    The mayor then phones the head of the wildlife division, 
and the wildlife division phones the head of the unit and says, 
back off. Stop interfering with these people.
    Then the other side of the coin, the same officer was 
telling me that he had been invited to talk to 30 Customs 
officers drawn from our own nation, and he was to raise their 
awareness of illegal trade in wildlife. He described to me how 
half of this class of 30 had sat there, and he could see that 
they were, if you like, converts. He could see that they 
understood that this was an important subject, and it was one 
that deserved attention. He saw the possible role for them.
    But he told me, you know, Mr. Sellar, the other half, I 
could see them sitting there thinking aha, there is money to be 
made here, and that is the problem with some of the training 
and awareness that we try and do, and that is why I said 
earlier if we don't have the political will, then it doesn't 
matter how much money you have. It doesn't matter how many 
people you have.
    This is why the U.S. Fish and Wildlife Service and your 
Department of Justice is really the envy of the world. You 
don't know how lucky you are. When you go to some of these 
other countries, the problems they are facing are immense.
    Mr. Kildee. Pardon me. I appreciate your remarks, Mr. 
Sellar.
    We certainly need the political will, and the political 
will is based upon a certain morality, but, you know, when I go 
to church on Sunday, I pray, but I also throw money in the 
collection plate. The church needs both.
    The Chairman. OK. On that note, we will excuse this panel. 
Thank you, gentlemen. Thank you for your testimony and for the 
work you do.
    Our second panel is composed of Mr. Steven Galster, the 
Director of Field Operations, Wildlife Alliance, Thailand; Mr. 
John A. Hart, Scientific Director, the Tshuapa-Lomami-Lualaba 
Project, Congo; Mr. William Clark, Illegal Wildlife Trade 
Expert; Dr. William E. Moritz, the Director of Conservation and 
Acting Director of Governmental Affairs, Safari Club 
International, USA; and Mr. Peter Pueschel, the Illegal 
Wildlife Trade Program Director, International Fund for Animal 
Welfare, Germany.
    Gentlemen, we welcome you to our Committee on Natural 
Resources. We recognize many of you have traveled a great 
distance, and we certainly appreciate that.
    As with previous witnesses, we have your prepared 
testimony, and it will be made a part of the record. You are 
encouraged to summarize.
    We will start with Mr. Galster.

 STATEMENT OF STEVEN R. GALSTER, DIRECTOR OF FIELD OPERATIONS, 
                       WILDLIFE ALLIANCE

    Mr. Galster. Thank you, Mr. Chairman. My name is Steven 
Galster, and I am Director of Field Operations for Wildlife 
Alliance in Southeast Asia.
    I currently run a U.S. Government sponsored program to 
train a 10 nation wildlife enforcement network in Southeast 
Asia. It was referred to several times in the hearing as ASEAN-
WEN. Our trainers include U.S. Fish and Wildlife Service 
special agents and U.S. Department of Justice officials, along 
with Wildlife Alliance and TRAFFIC officers. The regional 
effort is led by the Government of Thailand.
    From my vantage point, and I am sure that of others, 
wildlife criminals are running roughshod over authorities in 
developing countries and are unraveling globally important 
ecosystems. Just a few snapshots illustrating how big and 
damaging this crime has become:
    In the past two years, Asian authorities have seized over 
20 metric tons of elephant tusks from organized crime. That is 
over 2,000 dead elephants, and that is only what was detected.
    Every month, we are witnessing literally tons of turtles, 
tortoises and reptiles being shipped across Southeast Asia's 
borders.
    Key ecosystem predators like tigers, leopards and sharks 
are being killed and smuggled in unsustainable volumes. This 
shipment, seized by Thai authorities just 36 days ago, was one 
of many organized by a cross-border syndicate operating across 
six countries.
    This is not just an Asian story. American criminals and, 
unwittingly, American consumers, are behind many illicit 
wildlife shipments operating overseas. Foreign criminals are 
also breaking American laws by smuggling rare and endangered 
species into U.S. markets. Often these wild animals are falsely 
labeled as captive bred, indicating some level of corruption on 
the export end.
    Most field officers overseas, however, are not corrupt and 
are working very hard under dangerous conditions to fend off 
poachers and traffickers. They are crying out for assistance, 
actually.
    Americans should be concerned about all this for a number 
of reasons. First, when one species is removed from an 
ecosystem, it obviously has a knock-on effect to other species, 
including eventually onto us, people. As a nation, we woke up 
slowly to the reality of global warming. Let us not stand by as 
wildlife crime threatens to wipe out many species from this 
planet.
    We should also be concerned that wildlife crime strengthens 
transnational organized crime. Professional criminals like this 
corrupt Russian police officer have trafficked both in wildlife 
and women. Some brothels in Vietnam and Myanmar now offer young 
girls, while serving up wild animal parts as aphrodisiacs to 
their customers.
    Some drug traffickers are using wild animals to conceal 
narcotics. Some wildlife sanctuaries are being used to 
manufacture and smuggle drugs. Two years ago, we came across 
these facilities involved in methamphetamine production inside 
a Cambodian protected forest.
    The U.S. has both a moral obligation I believe and the 
technical and financial wherewithal to lead a global effort to 
curb wildlife crime. First, we should definitely strengthen the 
U.S. Fish and Wildlife Service Office of Law Enforcement to 
protect our own wildlife and prevent a massive influx of 
illegal trade from overseas.
    Fish and Wildlife agents are very effective, but there are 
just too few of them. I think their small force of about 200 
special agents could easily be doubled to catch up with the 
wildlife crime problems in and related to the United States.
    Second, the Fish and Wildlife Service and other agencies 
like NOAA and the Department of Justice should be mandated and 
supported to engage their overseas counterparts to jointly 
fight wildlife crime, just as the DEA works jointly with our 
allies to curb international drug trafficking.
    Specifically, the U.S. should post wildlife law enforcement 
officers to our overseas regional missions to train and work 
closely with their counterparts to investigate wildlife 
criminals. We should direct our national security related 
agencies to lend their support too.
    The U.S. military and its allies, for example, use 
satellites, aerial surveys and joint patrols to look for 
insurgent groups and other security threats. Let us ask them to 
look for wildlife poachers and traffickers too.
    The U.S. should also engage China, the other major global 
wildlife consumer, as an ally in helping to conserve the 
world's remaining wild animal and plant species through 
consumer reduction campaigns and other measures. I think most 
of America's allies, and perhaps even some of our enemies, 
would welcome such support and collaboration. Wildlife 
conservation is something that all countries, cultures and 
religions can agree on.
    Just to end up, the U.S. is spending significant funds to 
secure finite, nonliving resources, fossil fuels, on which we 
depend for our economy. We should consider spending a fraction 
of that amount to protect the earth's living and potentially 
sustainable resources that we will always depend on. We will 
always need healthy ecosystems, and wild animals and plants are 
the blood of those healthy ecosystems.
    I think the U.S. can play the role of global environmental 
leader, helping to roll back wildlife crime around the world 
and, by doing so, we can help protect our own natural resources 
from being targeted by increasingly strong and sophisticated 
transnational wildlife criminals.
    Thank you.
    [The prepared statement of Mr. Galster follows:]

    Statement of Steven R. Galster, Director of Field Operations in 
 Southeast Asia, Wildlife Alliance, Chief of Party, ASEAN-WEN Support 
                                Program

    Thank you Mr. Chairman. My name is Steven Galster, I'm Director of 
Field Operations for Wildlife Alliance in Southeast Asia. I have been 
involved in investigating, and designing programs to reduce wildlife 
crime in Russia, Africa, and Asia for the last 17 years. As a security 
analyst I spent years investigating human trafficking, arms 
trafficking, and drug trafficking in various parts of the globe. I've 
witnessed firsthand the connections between wildlife trafficking and 
all of these other forms of organized crime.
    I currently run a USAID- and State Department-sponsored program to 
train and support the new Association of Southeast Asian Nations 
Wildlife Enforcement Network (or ASEAN-WEN), which consists of Police, 
Customs and CITES authorities from 10 countries, with technical support 
from Wildlife Alliance and TRAFFIC. Our trainers include U.S. Fish and 
Wildlife Service Special Agents and U.S. Department of Justice 
officials.
    Wildlife crime is a threat to international environmental 
stability, the rule of law, and civil society. From my vantage point 
and that of my colleagues working in Asia, Russia and Africa, wildlife 
criminals are running roughshod over authorities in many countries. 
Wildlife crime has become a multi-billion dollar, organized, 
transnational crime that is unraveling globally important ecosystems. 
It is driven by global demand for exotic pets and food, medicines, and 
ornaments. It can no longer be contained at a local or national level. 
This growing crisis calls for an interagency, international response. 
The United States is part of this problem, and can be a big part of the 
solution.
    Here are some examples of how big and organized wildlife crime has 
become. In the past two years we have seen over 20 metric tons of 
poached elephant tusks (more than 2000 dead elephants) seized from 
hidden compartments of cargo containers, on their way from Africa to 
Hong Kong. That's only what was detected. The confiscated shipments--
which may represent only 10% of the real volumes being smuggled--were 
orchestrated by a mafia group operating between Cameroon, the 
Philippines, Taiwan and Hong Kong.
    Every month, we're witnessing tons of turtles, tortoises and 
reptiles being shipped across Southeast Asia's borders, organized by 
dealers in Indonesia, Thailand, Malaysia, China and the United States
    We're finding that key ecosystem predators, like tigers, leopards 
and sharks, are being illegally slaughtered in unsustainable volumes to 
feed a large market in China. The shipment of tigers and leopards in 
this photo, confiscated at the border between Thailand and Laos, was 
organized by a cross-border syndicate operating in six countries, with 
payment arranged by Vietnamese organized crime. These photos were taken 
36 days ago. Shipments like this are often mixed with the highly prized 
pangolin, or scaly anteater, and are happening every week.
    If this story sounds like it mainly relates to Asia, please think 
again. American criminals and--unwittingly--American consumers are 
behind some very significant illegal wildlife shipments into the United 
States from Indonesia, Thailand and other countries. Furthermore, 
foreign criminals are breaking American laws every day by smuggling 
rare and endangered species into U.S. markets under the very thin U.S. 
wildlife law enforcement radar.
    We're seeing exotic reptiles, primates, and other types of rare and 
endangered species being shipped illegally out of Southeast Asia into 
Europe, Japan and the United States every week, sometimes smuggled in 
personal luggage, sometimes shipped in large air cargo containers, or 
in personalized boxes delivered by express mail services to dealers on 
the East and West coasts of the United States and in Middle America. 
Sometimes, these wild animals are falsely labeled as captive-bred 
animals to be ``laundered'' as legitimate imports.
    Most of these animals were in fact taken illegally from the forest, 
and some overseas government officers are working hand-in-hand with 
wildlife dealers to legitimize the shipments, which are rapidly 
contributing to the demise of many species. Neither the U.S. Government 
nor American consumers should be accomplices to this level of 
corruption and environmental destruction.
    Of course most field officers are not corrupt, and are crying out 
for our help. One Filipino law enforcement officer was shot dead last 
year when he attempted to investigate a major wildlife crime case. 
Rangers we support in Cambodia were attacked with grenades during an 
anti-poaching patrol, and thankfully survived. Other rangers have been 
caught in jerry-rigged traps intended to snare tigers and elephants, 
with potentially deadly results. An Indian investigator I used to work 
with was knifed to death by rhino poachers. The injury or killing of 
conservationists and wildlife law enforcement officers is common across 
the world, especially in developing countries.
    Why should Americans be concerned about wildlife crime, including 
its international dimensions? The obvious reason is the knock-on 
effect--that when one species is removed from an ecosystem, it has a 
knock-on effect to other species, including eventually onto us, people. 
There are over 30,000 species of wild plants and animals listed by the 
Convention on International Trade in Endangered Species. As a nation, 
we woke up slowly to the reality of global warming and its serious 
implications for society. Do not underestimate the dangers of letting 
wildlife crime wipe out thousands of species from this planet.
    Americans should also be deeply concerned about wildlife crime 
because it strengthens transboundary criminal elements, corrupt 
government officials, and other enemies of the rule of law and civil 
society.
    Wildlife crime, due to its high profit margins and low risks of 
arrest and punishment, is attractive to professional criminals. In 
Russia I came across two separate gangs that were trafficking women to 
China and Japan, while smuggling bear and Siberian tiger parts to these 
same countries.
    We've recently come across brothels in Vietnam that offer young 
girls while serving up wild animal parts as aphrodisiacs to their 
customers.
    We are also seeing some links between wildlife trafficking and drug 
trafficking. Some black market traffickers are involved in both 
wildlife and drugs, even using wild animals to conceal narcotics. Some 
wildlife sanctuaries and national parks are being used as bases to 
manufacture and smuggle drugs. Two years ago, during aerial anti-
poaching patrols in western Cambodia, we came across these large make-
shift facilities used to extract chemicals to make methamphetamines, 
located inside protected forests. The illicit materials are then moved 
into neighboring countries for production before being shipped to 
international markets.
    All of these linkages between wildlife crime and other 
transnational crime point to a lack of effective patrolling and 
investigations, due to scarce resources and political will, and a fear 
of revenge. Simply put, government agencies tasked with protecting 
wildlife and forests in most developing countries are seriously out-
gunned. The result: important ecosystems on which everyone on the 
planet depends are being seriously damaged. Like most professional 
crooks, wildlife criminals do not stop until they're caught. When they 
deplete one species, they move on to the next. We have seen organized 
poaching and trafficking rings move from tigers and other highly 
valuable species to smaller cats, pangolins, snakes and reptiles--as 
the most valuable species are extirpated from the forests. The final 
frontier--thankfully still rich in biodiversity--may be the United 
States.
Recommended Response
    The U.S. is one of the biggest consumers of wildlife in the world. 
It also has arguably the best-equipped and best-trained wildlife law 
enforcement agencies in the world. Our country has both a moral 
obligation and the technical and financial wherewithal to lead a global 
effort to curb wildlife crime before the situation becomes 
irreversible.
    First, we should make sure that our national leader in the fight 
against wildlife crime, the U.S. Fish and Wildlife Service Office of 
Law Enforcement, is strong enough to protect our own wildlife and 
prevent a massive influx of illegal wildlife trade from overseas. Their 
wildlife confiscation repository outside of Denver has over a million 
items in it and keeps growing--a living testimony to how big the 
illegal trade coming into the U.S. still is. FWS agents are very 
effective, but there are just too few of them. Their small force of 
about 200 Special Agents could easily be doubled to catch up with 
wildlife crime problems in and related to the USA.
    Second, the U.S. Fish and Wildlife Service and other USG agencies 
like NOAA and the Department of Justice should be mandated to seriously 
engage their overseas counterparts to jointly fight wildlife crime, 
just as the DEA and their overseas counterparts have joined up to curb 
international drug trafficking. An international effort to curb 
wildlife crime can work in tandem with, and be more effective than, our 
anti-drug trafficking efforts. We have already been approached by the 
United Nations Office on Drugs and Crime (UNODC) to develop a joint 
program to combat trafficking of people, drugs and wildlife along 
porous border points in six Asian countries.
    There are many similarities between wildlife trafficking and drug 
trafficking, especially the relationship between supply and demand. 
Enforcement cannot operate in isolation; there must be parallel efforts 
to curb demand. But those efforts can take time.
    The fight against drug traffickers is very difficult because they 
can replace a confiscated shipment of cocaine, heroine or 
methamphetamines relatively easily. They can reproduce their stock. The 
stock of rare and endangered species, however, is limited. Even if you 
don't catch the big wildlife dealers in the act of smuggling, they lose 
a great deal of time and money in their illegal trade when their stock 
is confiscated.
    But currently, wildlife criminals feel very confident they won't 
lose a shipment or get caught. And if they are--outside of a few 
countries in the world--they won't see any jail time or receive any 
substantial penalty. They're in this business because of its high 
profits and very, very low risks.
    Imagine, though if these same wildlife criminals were suddenly to 
have their stocks confiscated, investigations were mounted against 
them, and they were actually put into jail. Suddenly, the business of 
wildlife crime would become more difficult and perceived as far less 
attractive by organized criminal elements. As the profit margins dip, 
and the risk factor is raised, the flow of trade will be reduced 
accordingly.
    The U.S. is spending an awful lot of money--and American lives--to 
protect non-living, limited resources--fossil fuels--because we 
currently depend on those resources for our daily livelihoods. We 
should consider spending at least a fraction of that money--and no 
American lives--to protect the earth's living and potentially 
sustainable resources that we depend on for our daily livelihood. We 
will always need healthy ecosystems. Wild animals and plants are the 
blood of healthy forests and waters. Without that blood, the ecosystems 
will eventually cease to function and serve our many needs.
    The U.S. is the one country that can help stem the huge tide of 
illegal wildlife trafficking here and abroad, and in doing so can help 
secure natural living resources around the globe.
    Specifically the U.S. can:
    <bullet>  Post wildlife law enforcement officers to our overseas 
regional missions to train their counterparts and work with them to 
investigate criminal groups breaking U.S. and other laws. For example, 
two FWS Special Agents should be posted next fiscal year to the U.S. 
regional mission in Bangkok to cover enormous wildlife crime needs in 
Southeast Asia, where we know local criminals are teaming up with 
Americans to ship large quantities of illegal wildlife into the United 
States. They are even starting to smuggle U.S. species back into 
Southeast Asia.
    <bullet>  Engage our own traditional national security related 
agencies in lending their machinery, expertise, and technology to help 
stop wildlife criminals everywhere in the world. For example, the U.S. 
military and its overseas counterparts conduct joint surveillance and 
anti-terrorism exercises in forest, high seas and border areas. They 
use satellites and aerial surveys to watch for border violations, 
insurgent groups, and other security threats. Let's ask them to look 
for poachers and traffickers too, and report these violations to the 
appropriate agencies.
    <bullet>  Continue to provide resources and technical capacity to 
combat crimes against nature in cooperation with willing partners in 
developing countries, which has proven to be a cost-effective and 
welcome form of international assistance with substantial benefits for 
wildlife and forests.
    <bullet>  Engage China, the only other country in the world 
consuming more wildlife than the United States, as an ally in helping 
to conserve the world's remaining wild animal and plant species. A 
superpower relationship, if you will, in which our two countries could 
reduce our respective country's consumption of rare and endangered 
species, while providing overseas technical support to developing 
countries in need of more protection.
    Most of America's allies--and perhaps even some enemies--would 
welcome such support and collaboration. In my experience, wildlife 
conservation is something that all countries, cultures and religions 
can agree on. And it brings people together to protect our common home.
    If this sounds too idealistic, it's already happening on a very 
small scale and with a very positive response. This week the US-
sponsored ASEAN-WEN Support Program, with the assistance from U.S. Fish 
and Wildlife Service, is finishing a wildlife crime investigation 
course for Indonesian Police, Forestry and Customs officers at a police 
training center outside of Jakarta. The trainees have shown deep 
appreciation for the course and want more. Other such trainings are 
being planned for the region, including one this month at the US-
sponsored International Law Enforcement Academy (ILEA). China has 
expressed interest in joining these courses and already participated in 
two.
    The U.S. can play the role of global environmental leader, helping 
to scale back wildlife crime around the world and by doing so, can help 
protect our own natural resources from being targeted by increasingly 
strong and sophisticated transnational wildlife criminals.
    [NOTE: The PowerPoint attachments have been retained in the 
Committee's official files.]
                                 ______
                                 

  Response to questions submitted for the record by Steven R. Galster

Questions from Hon. Nick J. Rahall, II:
ASEAN-WEN:
    Yes, international law enforcement training exercises have indeed 
improved detection of wildlife trafficking. I can list numerous 
examples:
    Following an ASEAN-WEN investigations training of Thai Customs, 
Police and CITES officials in August 2006, Customs began seizing highly 
endangered tortoises coming into Thailand from Africa, part of a very 
sophisticated and lucrative ring that has been operating in this region 
for years, and which by the way, is penetrating the U.S. market too. 
The tortoises are ``Madagascar radiated''. Confiscations began within 
10 days of the investigation course. USFWS was part of our training 
team.
    <bullet>  Thai police launched a successful 6 month investigation 
into a major Tibetan antelope wool (shahtoosh) smuggling ring operating 
between Kashmir and Bangkok. The arrest of four members was made in 
July 2006, following initial training of Thai police on general 
wildlife crime issues under ASEAN-WEN. The shahtoosh ring leader was 
prosecuted in 2007. A USFWS forensics expert also joined the 
investigation to authenticate the shahtoosh as being from real Tibetan 
antelope, and she also trained the Thai police and government 
scientists to conduct similar tests on their own in the future.
    <bullet>  Three major enforcement actions resulted from last 
month's ASEAN-WEN investigations training course in Indonesia, 
including seizures of orangutans, bears, as well as turtle eggs and 
23,000 sea horses. The interdictions were made between March 3 and 16 
in Jakarta and South Sulawesi by Customs, Police and Forest Police.
    The above are just a short list of many examples of increased 
interdictions across Southeast Asia since ASEAN-WEN was formed.
Violence Against Law Enforcement Officials:
    I'm afraid that another speaker talked about Somali war lords, that 
was not me.
Engagement with China:
    I recommend that the U.S. Government engage China as an ally in 
combating illegal wildlife trade through direct diplomatic channels, 
rather than through NGO's or other channels. A mix of USG 
representatives, including White House, State Department and USTR 
officials and U.S. Congressmen could approach Chinese officials with a 
common message, which would essentially be: ``Our two countries are the 
biggest wildlife consumers in the world. We are in the same corner. 
Together we can help protect the world's biodiversity by (a) conducting 
nation wide consumer reduction and law enforcement campaigns; and (b) 
providing technical assistance to developing countries that are losing 
their wildlife populations. In sum, China and the United States can 
play the role of global environmental superpowers, working together to 
protect the earth's biodiversity.'' I believe China would respond well 
to this approach. To date, they have felt cornered and isolated as the 
main culprit, which causes them to react negatively to the subject 
matter in question.
    In terms of mechanisms for bringing up the topic with China, one is 
the Strategic Economic Dialogue (SED). Also, the State Department helps 
lead a global effort to protect wildlife called the Coalition Against 
Wildlife Trafficking (CAWT).
Questions for me from Hon. Don Young (R-AK):
    1. To post 2 U.S. Fish and Wildlife Service Special Agents to 
Southeast Asia for one year would cost less than $200,000. One officer 
could train counterparts, while the other focuses on joint 
investigations. The U.S. could post 2 more officers each to central 
Africa, South America, and Eastern Europe (in that order of priority) 
for about $100,000 per officer. This assumes that salaries are already 
paid by USFWS.
    Cost of capacity building support for developing countries could 
range from the ``regional'' costs listed above (which amounts 
essentially to on-the-job training and support by U.S. FWS agents for 
an entire region), to $100,000 per country, which could cover full 
costs of a major wildlife crime investigation training course for local 
officers; to much higher costs, covering equipment for anti-poaching 
and anti-trafficking units. One unit could be outfitted for less than 
$100,000, some as little as $50,000.
    2. U.S. law enforcement efforts would benefit greatly from posting 
USFWS Special Agents overseas. These agents would be save the USFWS 
time and money in tracking criminals and illegal shipments through 
proactive investigations at the source of the crime, rather than 
waiting for the point of penetration into the United States. Less than 
5% of wildlife shipments coming into the United States are actually 
inspected. Interdictions of illegal shipments are made possible usually 
through tip offs or luck. The better real time intelligence the U.S. 
has on shipments and criminals coming into the US, the better the 
interdiction rate will be.
    3. Other options for curbing wildlife trade should actually be 
considered not as alternatives, but as supplemental actions. Wildlife 
law enforcement must be accompanied by public awareness and consumer 
reduction. U.S. citizens can help reduce wildlife poaching and 
trafficking by reducing their own consumption of rare and endangered 
species. Also, alternative livelihood support for poor poachers helps 
to reduce poaching. We have a ``poachers to protectors'' program in 
Southeast Asia that works well. Poachers are engaged by law enforcement 
officers and local NGO's to become trained in micro-enterprises in 
their villages, including organic farming on small plots of land.
    4. Yes, efforts have been made to address the cultural and 
religious factors behind the dependence on products derived from 
illegal wildlife trade. Chinese NGO's, international organizations, the 
Chinese State Forestry Administration, and the Chinese community of 
traditional Chinese medicine practitioners have held meetings and 
conducted local campaigns to address the need to stop using endangered 
species in medicines, foods and as ornaments. Most of these efforts 
have been surprisingly successful, but too far and few between in 
frequency. Also, the Dalai Lama came out about 2 years ago, asking the 
people of the Tibetan Autonomous Region to stop buying and using 
products made from tigers and leopards. This led to many Tibetans 
throwing their tiger and leopard skin dresses away, even into bonfires 
in Llasa, which was recorded on video and broadcast on the internet. 
This ironically led Chinese authorities to get upset about his 
intervention on this issue.
    5. What incentives have been used or could be used in these 
countries to reduce their dependence on illegal wildlife trade? By 
``these countries'' I will assume you mean China and the Southeast 
Asian nations I spoke about in my testimony. As I mentioned in point 3 
above, some poachers are offered alternative livelihoods. This works 
well and could be expanded. Also, on a national level, countries could 
be offered a sort of biodiversity credit scheme (similar to carbon 
credits). A forest without animals is a dead forest. So why not reward 
countries for protecting rich populations of wild animals, just as we 
do for protecting their forests? Your idea of legal and regulated 
hunting could fit in with this, but should obviously be restricted to 
areas where wild animal populations are rich and where good enforcement 
structures are in place. Safari hunters recently have tried to open up 
legal hunting in western Cambodia. This would not work because the prey 
base there is extremely low and anti-poaching units are almost non 
existent.
    I hope these answers are useful. Please feel free to call on me for 
additional assistance.
                                 ______
                                 

STATEMENT OF JOHN A. HART, SCIENTIFIC DIRECTOR, TSHUAPA-LOMAMI-
                        LUALABA PROJECT

    Mr. Hart. Thank you very much. I am going to speak very 
briefly here and summarize several points I made in my written 
testimony.
    Just to introduce myself, I have been involved through the 
international NGO community in the Democratic Republic of Congo 
with my wife over the last 20 years, including setting up 
through CITES the monitoring program for illegal killing of 
elephants. I have also been involved with USAID's Central 
African Regional Program for the Environment since its 
inception.
    What I am going to talk about though is our experience over 
the last decade where I have been leading field programs and 
field surveys with Congolese Nationals into some of the most 
remote remaining wildlife range. This has given me a 
perspective on the role that the illegal killing and illegal 
trade plays in destabilizing Central African states.
    There are a number of problems with illegal wildlife trade. 
The one that I think I have a special perspective on is just 
the role that this has played in making Central Africa an 
unstable part of the world.
    The poaching and illegal trade weakens states that are 
already fragile, and it allows the development of smuggling 
rings and particularly the movement of arms and ammunition in 
areas to insurgents, to rebel groups, some of whom are based in 
the national parks. This has allowed persistent instability in 
the region.
    These groups are using wildlife themselves to support 
themselves, and this is the beginning of a chain that others 
have described leading out, including the movement of ivory, 
and even within Africa destabilizing as you have cross-border 
movement of wildlife products from Congo into Uganda, between 
Congo and Sudan and into the Central African Republic.
    What can be done about this? This is moving beyond my own 
area of expertise. I am a biologist by training. However, I 
think that there are a couple points I would like to mention 
here and reflect the President's recent trip to Africa. One has 
to do with the role of our State Department.
    I believe that the international NGO's based in Central 
Africa are able to develop particular insights and even ability 
to put political pressure, but we often need support, and 
having our Ambassadors engage actively, especially where we 
have been able to uncover egregious cases of abuse within 
national and police and military, can be very helpful in 
tilting the balance.
    The second reflects the direct support that America will I 
believe increasingly provide in Africa in developing security 
and in training the security services. All of us would be 
appalled if we discovered that funding that we are giving is 
going to police forces that have been involved in human rights 
abuses, but we should also be appalled and we should fight 
against use of funds to support services where funding is going 
into continuing poaching of endangered species and illegal 
wildlife trade.
    So I think we should be working with allies and with 
collaborators in the region to foster an investigation of 
wildlife crimes, to develop a perspective that will allow 
wildlife issues and illegal trade to be brought in front of 
national authorities in the region and work in this way I 
believe to stabilize a part of the world in which we have and 
will have increasing interest.
    I will conclude my remarks there and take any questions.
    [The prepared statement of Mr. Hart follows:]

            Statement of John A. Hart, Scientific Director, 
    The Tshuapa-Lomami-Lualaba Project, Democratic Republic of Congo

    Chairman Rahall, Ranking Member Young, and members of the 
Committee, I am John Hart, a wildlife scientist and conservationist 
based in the Democratic Republic of Congo (DRC). I have been involved 
with a range of wildlife conservation and natural resource management 
projects in Congo and Central Africa over the past 20 years. I am 
grateful for the opportunity to present information to help the 
committee develop a perspective on what, in my opinion, is a problem of 
growing international significance.
    My experience in Central Africa includes developing a regional 
monitoring program for illegal elephant killing for CITES (Convention 
on International Trade in Endangered Species) across five nations, 
training park guards and national wildlife research staff, and 
establishment and management of protected areas. I have been involved 
since its inception with the U.S. initiated Central African Regional 
Program for the Environment (CARPE), funded through USAID to develop 
the institutional basis for conservation and forest management in some 
of the most important remaining tropical rain forest landscapes in 
Central Africa. Pertinent to the subject of this oversight hearing, 
over the past decade I have led teams of national wildlife biologists 
in DRC into some of the most remote and important remaining wildlife 
areas of the country. This has given me first hand knowledge of the 
extent and threats posed by illegal wildlife trade.
An entrenched problem
    There is a long tradition of the use of wildlife products in 
Central Africa. Bushmeat remains an important subsistence food for many 
communities which have little access to domestic sources of meat. Over 
the last two decades, however, the use of wildlife has left the realm 
of local subsistence needs in many areas and become an increasingly 
lucrative trade commodity.
    In Central Africa, wildlife trade ranges from the poorly regulated 
provisioning and sale of bushmeat through local trading networks to 
illegal poaching of elephants and smuggling of ivory across 
international borders. The traditional actors in the wildlife trade 
include local subsistence hunters and small scale market traders. Their 
ranks have been joined by growing numbers of professional hunters and 
large scale traders. Many of the professional hunters are associated 
with national security forces that provide them with arms and 
ammunition. Direct economic benefits of wildlife trade, including 
payoffs in the illegal trade in ivory, implicate highly placed public 
figures in the administration and national security forces in many 
African countries. Recent and ongoing rebel and insurgent activities 
are linked to occupation of national parks, poaching and illegal 
wildlife trade in DR Congo, Central African Republic, Chad, Sudan and 
Uganda.
    The diversity of wildlife species entering the illegal trade, the 
often unclear boundary between subsistence hunting and commercial scale 
poaching and the failure to recognize the national and regional 
significance of illegal wildlife trade, represent some of the greatest 
challenges in managing and controlling hunting in Central Africa. These 
challenges increase with growing demand from distant markets. 
Commercial trade of a wide range of wildlife and other wild harvested 
products including plants is growing and diversifying as African 
economies are opened to growing global trade.
    I would like to state that at no time in my experience in Central 
Africa have I ever documented a direct link between illegal wildlife 
trade and an immediate threat to American security. Nevertheless there 
is increasing evidence that the internal and international trade in 
wildlife and wildlife parts, including a number of endangered species, 
poses threats to entire ecosystems and also increases the potential of 
disease outbreaks. The illegal wildlife trade is one of the most 
strongly corrupting influences of national administrations and 
particularly national police and security forces, many of whose members 
are directly involved in fostering and permitting poaching and illegal 
trade in a number of the countries where I have worked over the past 
two decades.
    I would like to touch on several of these themes briefly, providing 
evidence, based on my experience. I will conclude with observations on 
what I see is an important role for U.S. leadership in combating 
illegal wildlife trade in Africa.
Undermining the potential for wildlife to contribute to sustainable 
        development
    Central Africans, including both rural and urban communities remain 
strongly dependent upon local natural resources for their subsistence 
and economy. Poaching and illegal wildlife trade undermines this 
economic base. Two recent cases in DRC, both with regional 
implications, illustrate the potential significance: Illegal killing of 
hippopotamus over the past ten years around Lake Edward, on the 
Ugandan-Congolese border, reduced populations from over 10,000 to just 
a few hundred. The hippos are a key component in the food chain linking 
adjacent terrestrial savannas with the lake, through their 
fertilization of the lake waters after nocturnal grazing. The 
elimination of the hippos, combined with unregulated and illegal over 
fishing, has led to a collapse of one of Congo's most productive 
fisheries, undermining a regional economic base. There is now a growing 
demand to protect the remaining hippos, including ending the trade in 
poached hippo meat, and control the illegal fishing practices to permit 
the recovery of the fisheries.
    The second case involves the internationally celebrated mountain 
gorillas who occupy a range of volcanoes straddling three national 
borders in what is arguably one of the most dangerously unstable 
regions in Africa. These gorillas constitute the basis for a unique and 
economically important tourism in the region. Earlier this year the 
Congolese side of the volcanoes was occupied by a renegade military 
general turned rebel and a number of gorillas were killed, with 
additional suggestions of trade in gorilla babies. The response has 
been international mobilization for protection of the gorillas and 
their mountain homeland, including an unprecedented agreement among the 
three countries to cooperate in increasing security and patrolling of 
the massif. This is a positive first step.
    While not all places or wildlife can have such high prominence, 
commercial scale hunting and illegal wildlife trade often benefit only 
a few while depleting local subsistence resources used by and 
supporting many. In Central Africa, the commercial bushmeat trade 
almost always breaks important links between wildlife and livelihoods 
and undermines conservation efforts and investments to establish 
sustainable use of fragile natural environments.
Illegal wildlife trade and emergent diseases
    Illegal trade in wildlife has been implicated in recent outbreaks 
of hemorrhagic fevers in Central Africa, most notably Ebola in Gabon 
and N Congo. Infected gorillas and chimpanzees were killed, handled and 
consumed by local villagers in the affected area, leading to a 
widespread disease outbreak with high mortality. The potential for 
recurring epidemic is present. Indeed a focus on potential disease 
links featured in a recent publication by one of the two primary 
Ugandan daily newspapers on an outbreak of hemorrhagic fever in western 
Uganda. The article went on to strongly support a ban on the trade of 
wild meat.
    While the likelihood of the spread of Ebola to America is remote, 
other global pandemics have emerged through human-wildlife contact, 
including HIV-AIDS, which the evidence suggests moved from chimpanzees 
to humans quite possibly, as with the case of the Ebola outbreak, 
through handling and consumption of bush meat. Recent global outbreaks 
and threats of bird flu were associated with illegal trade in poultry 
and other possibly other birds and wildlife. Increasing international 
traffic of bushmeat including illegal importations into the USA, 
represent an unknown but potentially significant source of new 
infections.
Wildlife trade and persistent insecurity in Africa
    Poaching and illegal wildlife trade in Central Africa weakens 
already fragile states by spreading military weapons into the hands of 
local insurgents, allowing the development of smuggling rings and 
favoring the corruption of officials, including the military and 
national police. Hunting and trade of bushmeat and ivory directly 
support rogue military gangs and provide economic support for several 
persistent pockets of rebel activity in DRC. These include Rwandan Hutu 
rebels implicated in the 1994 Rwandan genocide, a major group of whom 
remain based in the Kahuzi-Biega National Park. Factions of the Ugandan 
Lord's Resistance Army retained bases in DRC's Garamba National Park 
during their standoff--hopefully coming to an end--with the Ugandan 
government.
    During Congo's recent civil war (1998--2003) illegal bushmeat and 
ivory were among commodities exchanged for arms and ammunition. In a 
three year investigation of elephant poaching and illegal ivory trade 
in DRC's volatile Ituri Region, from 2002--2005, we documented an 
estimated 14 tons of ivory leaving the area of the Okapi Wildlife 
Reserve, a UNESCO World Heritage Site. At least two major shipments 
left by international helicopters chartered by the Congolese rebels. At 
the time of this investigation, Viktor Bout, an international arms 
trafficker wanted by Interpol, was operating in the region, and 
according to investigations done by a Belgian journalist, ivory was 
among the commodities Bout traded and transported. All sides in the DRC 
conflict were involved in the ivory trade which also implicated 
business men in Congo and Uganda.
    While Congo's conflict has currently receded, illegal military arms 
continue to circulate in some areas and are used to kill elephants. 
Many of the poachers have contact with military hierarchy and national 
police who move the arms and ammunition. Large areas of DRC remain 
outside of effective national administrative control; some areas are in 
the hands of criminals. Generalized low level insecurity persists. Over 
the past decade our surveys, and those of colleagues, have documented 
direct support of DRC's military and police in major poaching and 
illegal trade of wildlife in all of the major wildlife ranges we have 
surveyed, including all five of DRC's World heritage Sites. This 
illegal activity continues in many areas despite the end of the Congo's 
decade long conflict in 2003. It persists, even as the country attempts 
to reorganize its military and police. Part of the problem, but 
certainly not all of it, has been the perceived need for the national 
army to incorporate former rebel combatants into the ranks. These have 
included well known poachers and wildlife traffickers who use their 
military position as cover for continued poaching and who have in some 
cases implicated their authorities in the process as well.
What can be done?
    We have a direct role to strengthen efforts to control arrival of 
illegal wildlife products, including bushmeat, into USA. Coordination 
with neighboring countries, in particular Canada, to ensure that third 
party imports are not happening may be part of the process. The need to 
control illegal trade in wild products, including plants is likely to 
grow. As the globe's biota is diminished we are increasingly seeing 
today's legally traded commodity become tomorrow's illegally trafficked 
endangered species. Illegal wildlife trade will need to be regularly 
monitored.
    A unique opportunity to deal with security concerns raised by 
illegal wildlife trade presents itself with the development of the 
proposed United States African military command (USAFRICOM or AFRICOM). 
The expressed vision of AFRICOM is responsibility for U.S. military 
operations in and military relations with 53 African nations. While 
focus has been on security concerns in the Horn of Africa, and in west 
central oil producing region, nevertheless the fragile states across 
the continent are also recognized as a major concern.
    AFRICOM's mandate will include training of national military and 
security forces. This is one point where American intervention to stem 
the illegal hunting and trade makes sense. American training and 
support should be used to foster an evaluation, corrective measures, if 
required, and continued monitoring of military and police involvement 
in illegal hunting and wildlife trade.
    In DRC there is a precedence to suggest that such an approach can 
work. In the past, national park's staff was also implicated in illegal 
hunting and wildlife trade in the parks. International NGOs supporting 
the parks worked hard on the ground to document the abuses and put 
pressure on park hierarchy to bring these to an end. While it is 
difficult to ensure and measure compliance in all the remote areas 
where park staff operates, monitoring on the ground did lead to 
reductions in some of the worst poaching and illegal trade. Recently 
publicized crackdowns on notorious poachers with military links in the 
Salonga National Park suggest that the political will for further 
controls may be present. But this needs to be followed by further 
action.
    I can not over estimate the importance of having these efforts 
reach the ground, where all of the illegal hunting and illegal trade 
have their start. U.S. supported programs such as CARPE can be vehicles 
for developing a basis for this, and improving overall prospects for 
good governance in use of wildlife.
    The American diplomatic community should be briefed on the issue, 
and while I recognize that there is a limit to what can be expected of 
our diplomatic staff, nevertheless, they should be encouraged to 
monitor, and where possible provide diplomatic support to control 
egregious cases of poaching and illegal wildlife trade, especially 
where there is evidence of involvement of security forces and 
international trafficking rings.
    The U.S. can and should lead, but we can not and should not go 
alone in this endeavor. Broad based support is needed nationally in 
Africa, and internationally if better controls are to be brought to 
bear. Clarifying and bringing focus on the disease and security related 
links of some of the trade in illegal wildlife will be important assets 
in publicizing and bringing illegal wildlife trade under control.
    It is important for national governments to understand the health 
and security dangers of illegal trade. America has every interest in a 
stable and well governed Africa. Rule of law is intimately linked to 
controlling illegal wildlife trade in many areas. Security is 
strengthened by bringing an end to the associated trafficking in 
military weapons used for hunting, and controlling cross border 
wildlife smuggling.
    I would like to close by thanking the Committee for its interest 
and concern with this issue, and to commend it in taking leadership to 
develop a constructive and effective response to a growing global 
concern. I would be happy to answer any questions members of the 
committee may have.
                                 ______
                                 

    Response to questions submitted for the record by John A. Hart, 
  Scientific Director, The Tshuapa-Lomami-Lualaba Project, Democratic 
                           Republic of Congo

    Chairman Rahall, Ranking Member Young, and members of the 
Committee. Thank you for this opportunity to respond to your further 
questions.. I write to your from Kisangani, in the Democratic Republic 
of Congo (DRC) as I prepare to return to our elephant and bonobo 
conservation project in the Lomami Basin. The questions you raise are 
directly related to my immediate concerns.
    I would like to thank the committee for taking on this subject and 
for bringing together an informed panel. I am pleased and honored to 
have been part of this process, and would be happy to provide any 
further contributions you would wish to ask of me.
    Your questions and my responses follow:
 1. How did bushmeat move from a subsistence food to a lucrative trade 
        commodity? Is it due to rural populations moving to cities or 
        due to other factors?
    Bushmeat has had long history of use in Central Africa. As an 
economic commodity, taste, and developing purchasing power continue to 
influence demand. Bushmeat is increasingly a luxury commodity for urban 
or town people with disposable income. The current bushmeat crisis in 
DR Congo is exacerbated by a decade of war that has weakened national 
wildlife protection institutions and permitted the wide dispersal of 
military weapons and ammunition.
 2. You make a number of references in your testimony to illegal 
        hunting. By your definition, isn't illegal hunting really 
        poaching? Is it your contention that illegal sport hunting is 
        supporting rogue military groups in Central Africa?
    My comments pertain to DR Congo (DRC). At present sport hunting is 
all but nonexistent in DRC and so we can not yet provide an evaluation 
of its impact. But in any case any sport hunting that occurs is not 
associated with the poaching. The most serious problem in DRC, and more 
widely in Central Africa, is poaching associated with military and 
police. This is facilitated by lack of control by the national security 
hierarchy. Low salaries, often paid late, render military at a low 
level (those likely to be directly involved in hunting) open to 
poaching as an alternative source of income. Yet some higher level 
authorities are also involved, and usually with impunity.
    The problem is present in many countries, but most acute in CAR, 
Chad, DRC, all fragile states. In DRC and CAR, The same impunity and 
lack of control has been associated with other abuses by police and 
military, in particular abuse of human rights and involvement in armed 
robberies and contract killings.
    My own perspective, is that sport hunting, and possibly even some 
exploitation of bushmeat, are potentially important tool for wildlife 
management and conservation in Central Africa. The potential management 
of bushmeat exploitation has some similarities to controlled fur 
trapping in North America, which allows for economic use of an animal 
resource. Key elements include licensing and linkage with management 
that ensures sustainable populations of important species. Some species 
will not be exploited for ethical or cultural reasons, and there may be 
debate on this. But the basic fact remains that most wildlife must have 
an economic standing as well as a cultural, ethical and ecological 
value.
 3. Page 2 of your testimony, you state that ``At no time in my 
        experience in Central Africa have I ever documented a direct 
        link between illegal wildlife trade and an immediate threat to 
        American security.'' Since Central Africa is ground zero for 
        wildlife poaching, if there were terrorist links, is it likely 
        you have heard about them?
    Elephant poaching, illegal trade in ivory and to a lesser extent 
bushmeat (including elephant meat) have been and remain directly 
implicated in regional militia activities and mafia-type trade networks 
in Democratic Republic of Congo, neighboring CAR and Sudan. Ivory trade 
moves out of Central Africa into a wider illegal trade network on a 
global scale, but I have no direct information at this level. Elephant 
poaching and ivory trade contribute to chronic regional instability and 
international criminality.
    We have found the following links:
    Ivory was one of the commodities used by militias in DRC's recent 
civil war to fund operations, including purchase of weapons and 
ammunition. Some militia activity continues to the present, and 
wildlife remains a source of revenue for these armed insurgents and 
rural bandits where wildlife resources still exist.
    We have evidence that ivory was among the commodities transported 
and exported by known international arms dealers (notably Viktor Bout, 
recently arrested in Thailand).
    Ivory and bushmeat are hunted and transported by Janjaweed hunters 
during seasonal forays into DRC's northern borders from Sudan. Both 
meat and ivory are transported back to Sudan.
    Other armed nomadic groups also exploit bush meat and ivory in 
Congo's northern frontier including Mbororo pastoralists from CAR and 
Chad, who this year have even penetrated the rain forest zone to hunt 
ivory. The associated trade networks which these peoples provision are 
poorly known and documented. Congolese park guards and national police 
fear the nomads and may become accomplices to the transport of meat and 
ivory.
    As a commodity, ivory is often readily depleted, since current 
elephant populations are small and localized. Bushmeat is mainly 
exported from Congo for local consumption in neighboring countries.
    Despite its rarity, ivory can command high prices, and is still 
regarded as a prestige item. Ivory trading networks into Sudan from DRC 
are old and well established, even though the volumes may be declining 
as elephant populations are depleted. The value of the commodity is not 
declining.
    Bushmeat continues to be used by Rwandan Hutu rebels based in 
eastern DRC, and especially in two parks, Maiko and Kahuzi Biega.
    Other DRC commodities notably minerals (gold, diamonds, tin ore and 
coltan) are involved in poorly regulated, if not strictly illegal 
trade. This uncontrolled trade weakens police and security operations 
at the expense of gangs and militias that operate across borders. In 
central Africa the ivory and bushmeat trade are part of the larger 
illegal trade that continues to destabilize the region.
 4. How would you describe the state of elephant populations in 
        Southern African countries like Botswana, Namibia and South 
        Africa? How do these healthy populations compare with those in 
        Kenya? Do you think the sport hunts in these Southern African 
        countries, which support local conservation efforts, have 
        helped o protect these elephant populations?
    Elephants occur over a wide range of conditions in southern Africa, 
including some very small and constrained populations on fenced 
reserves. Overall populations in a number of southern African countries 
are stable or rising. Elephant numbers must be reduced in some areas to 
maintain range conditions. Culling and sport hunting play a key role in 
this scenario. The important point is to link hunting and culls to 
direct support for local conservation efforts. Hunting has a number of 
economic and social advantages over culls, but must be regulated. The 
linkages have to include benefits to rural communities who are impacted 
by elephants. Without this support, these communities become bases for 
poaching which can very quickly lead to elephant depletion and 
criminality.
 5. With so much instability in many parts of Africa, is it possible to 
        get the illegal wildlife trade under control prior to achieving 
        stability with the governments?
    Ultimately development will provide alternatives to poaching and 
illegal wildlife trade in Central Africa. Economic development alone 
will not eliminate these activities, but it will provide a basis for 
their control which is not possible where a large part of the 
population has few economic options. Economic development is likely to 
also foster political development, including rule of law, This will 
create a basis to control widespread involvement in illegal trade, 
though it can not entirely eliminate it.
    While one can be hopeful for this scenario, it is not going to 
happen quickly. Yet wildlife losses can happen quickly, and future 
options can be destroyed, depleted or lost. Thus a strategy to hold key 
resources is needed. This will require a combination of economic, 
legal, political and social initiatives at local and national levels, 
and supported internationally. These must be deployed in key areas and 
for key species otherwise irreplaceable.
    The vision for the future is that these protected areas and their 
fauna will provide the basis for restoration of depleted areas. Yet all 
these efforts are vulnerable to unexpected events including disastrous 
loss. Multiple sites are needed. These must be large enough to 
encompass the key resources, but small enough and buffered enough from 
demographic expansion and human wildlife conflict to be able to be 
managed and protected.
 6. You mention the international and local response to gorilla 
        massacre on the Congolese side of the volcanoes. While this was 
        a horrific event that should receive this type of response, how 
        can this model of response be used for other species?
    Gorillas are what we term a flagship species. These are species 
which can be evoke concern and interest across a wide of society. These 
species play a key role in the development of a conservation ethic that 
covers many other species and their environments. This appreciation can 
cross cultural boundaries, as seen in the case of the gorillas which 
are a global conservation symbol. Not many species can achieve this 
status. And conservation flagships must be actively protected.
    Recent developments in the conservation of Congo's mountain 
gorillas suggest how significant flagship status can be. Just this 
week, the Congolese National Parks s Service arrested one of its high 
level staff on allegations that he was directly involved in the 
massacres of the gorillas earlier this year to cover up an illegal 
trade in charcoal made by cutting the park's forests, a trade in which 
he was allegedly involved. This arrest is unprecedented, and could not 
have occurred for anything less than a flagship species. It sends an 
important message to other people in authority who would use their 
position as a base for poaching and illegal trade to further their 
private commercial interests.
 7. Were the three countries that came together--Uganda, Rwanda, and 
        the Congo? Is it possible for other African countries to come 
        together in this way to protect other species in Africa?
    In the case of the Virunga gorillas, the three collaborating 
countries were Rwanda, Uganda and Congo. Cross border protected areas 
that encompass shared resources and key environments, as well as 
migratory species crossing borders are also cases where international 
collaboration might be possible. For conservation to happen, it is 
important to develop institutional platforms and invest in these. 
Models such as the treaties regulating migrant birds are useful. To 
work, there must be benefits for all partners. These arrangements for 
the Mountain Gorillas need constant reinforcement since the three 
countries are otherwise highly suspicious of each other. This is a role 
for the international community as well.
    Piggybacking broader wildlife management on key regional resources 
such as fisheries which are shared across borders also represents a 
potential model.
 8. CITES has been around for over 30 years, with many nations not 
        complying with the Convention's enforcement or reporting 
        mechanisms. How can the world be mobilized to fully implement 
        the recommendations of CITES?
    Like drug trade, controlling the illegal trade in wildlife will 
require multiple approaches to succeed. Control of the trade will 
remain one of the tools. Illegal wildlife trade is even more 
complicated than the drug trade since wildlife is so varied. A key 
component will be reducing demand. This requires education and controls 
in consuming societies as much as controls in the producing areas.
                                 ______
                                 
    The Chairman. Thank you.
    Mr. Clark?

                  STATEMENT OF WILLIAM CLARK, 
                 ILLEGAL WILDLIFE TRADE EXPERT

    Mr. Clark. Mr. Chairman and Committee Members, thank you 
for this wonderful opportunity to address the subject of 
illegal trade in wildlife. My name is William Clark. I am 
employed by the Israel Nature and Parks Authority. The 
directors of the Kenya Wildlife Service and Lusaka Agreement 
Task Force have asked to be associated with this testimony.
    I have been actively involved with CITES since 1979. I have 
been assigned to Interpol's Working Group on Wildlife Crimes 
since 1994, and I am currently its chairman. Other credentials 
are included in my written testimony.
    I am convinced by abundant evidence that there are 
substantial links between organized crime and illegal trade in 
wildlife. I am further convinced that these links are resulting 
in serious corruption, violence and instability.
    Illegal trade in wildlife today is a very sophisticated and 
high profit global criminal enterprise. It carries in many 
jurisdictions a disappointingly low risk. This illegal trade 
involves a diversity of offenders, from common criminals with 
records in drug trafficking and murder to cosmopolitan 
merchants who control multinational crime syndicates.
    It also involves violent militant groups such as Somali 
warlord factions and the Sudanese Janjaweed, lately associated 
with genocide in Darfur. Specific cases are cited in my written 
testimony.
    But it is important to bear in mind that all of these cases 
which reflect a multi-billion dollar criminal industry are 
anecdotal. A critical first step in meeting the challenges of 
wildlife crime is to define precisely what it is. We really 
need to know the magnitude, the structure and the dynamics of 
this criminality. Lots of resources have been focused on drugs, 
weapons and that, but wildlife crime we really don't know that 
well.
    Today, Interpol has Ecomessage, which provides the only 
nominal database on international wildlife crime. Although 
Ecomessage has great potential, it needs more development.
    Violence, corruption and other criminalities are associated 
with wildlife crime today because they facilitate illegal 
trade, making it less risky and more convenient. Illegal 
trafficking in wildlife is also linked to fraud, smuggling, 
conspiracy, robbery, health violations, drug trafficking, 
weapons trafficking. There are also significant money 
launderings involved, and of course tax evasion and other 
financial crimes involving billions of dollars.
    It is important to put the known facts into context, 
particularly with reference to causations and remedies. The 
proximate cause of most wildlife crime and its consequences is 
greed. The ultimate cause of most wildlife crime is simple 
vanity. Remedies can be applied to the approximate causes, the 
greedy merchants behind the illegal trade.
    Improving capacities among wildlife agencies in developing 
countries is very important. More training programs and 
equipment are essential. The United States is already engaged 
in some of this, but the intensity and scope of poaching and 
trafficking today warrants significantly expanded efforts. 
Applying remedies to these proximate causes will be frustrated 
if the ultimate causes are not also addressed.
    The ultimate cause for most wildlife crime is found in the 
lucrative consumer markets in the industrialized countries, 
including the United States. That is where the money is. So 
long as wealthy consumers are prepared to pay good dollars, 
euros and yen to purchase protected wildlife, the fundamental 
financial incentives for wildlife crime will remain a powerful 
influence, and all the consequent problems of violence, 
corruption and instability will continue unabated.
    Mr. Chairman, I have no doubt that most developing 
countries could provide effective protection for their native 
wildlife if they had to control poaching for their domestic 
markets only, but it is unreasonable and unfair to expect 
wildlife agencies in developing countries to withstand the 
sustained assaults of criminals motivated by the profit 
incentives of industrialized societies.
    The solution is partnership. The United States should 
expand its efforts, (A) to assist wildlife law enforcement 
agencies in developing countries, improve their capacities, and 
(B) to encourage other industrialized countries to pursue 
greater cooperation, more effective policies and efforts to 
suppress international criminal syndicates.
    Specific recommendations are included in my written text. I 
thank you.
    [The prepared statement of Mr. Clark follows:]

       Statement of William Clark, Illegal Wildlife Trade Expert

    Mister Chairman and Committee members, thank you for the 
opportunity to address the subject of illegal trade in wildlife. I also 
thank 18 colleagues who helped me to prepare for this hearing. 
Nevertheless full responsibility for the accuracy of facts and the 
merit of opinions expressed in this testimony is mine.
    My name is William Clark. I am employed by the Israel Nature and 
Parks Authority. The directors of Kenya Wildlife Service and of Lusaka 
Agreement Task Force have asked to be associated with this testimony. I 
have been actively involved with CITES since 1979. I have been assigned 
to Interpol Working Group on Wildlife Crime since 1994, and am 
currently its chairman. Other credentials are included in my written 
testimony.
    I am convinced by abundant evidence that there are substantial 
links between organized crime and illegal trade in wildlife. I am 
further convinced that these links have resulted in serious corruption, 
violence, and instability worldwide. Illegal trade in wildlife today is 
a very sophisticated, high-profit global criminal enterprise that 
carries, in many jurisdictions, a disappointingly low risk. This 
illegal trade involves a diversity of offenders, from common criminals 
with records of drug trafficking and murder, to cosmopolitan merchants 
who control multi-national crime syndicates. It also involves violent 
militant groups, such as the Somali warlord factions and the Sudanese 
Janjaweed, lately associated with genocide in Darfur.
    Specific cases are cited in the written text of my testimony. But 
it is important to bear in mind that all of these cases, which reflect 
a multi-billion dollar criminal industry, are anecdotal. A critical 
first step in meeting the challenges of wildlife crime is to define 
precisely what it is. We need to know the magnitude, structure and 
dynamics of this criminality. Today, Interpol's Ecomessage provides the 
only nominal database on international wildlife crime. Although 
Ecomessage has great potential, it needs more development. It also 
needs U.S. participation.
    Violence, corruption and other criminalities are commonly 
associated with wildlife crime today because they facilitate illegal 
trade, making it less risky and more convenient. Illegal trafficking in 
wildlife is also linked to fraud, smuggling, conspiracy, robbery, 
health violations, drug trafficking and weapons trafficking. There is 
also significant money laundering involved and, of course, tax evasion 
and other financial crimes involving billions of dollars.
    It is important to put the known facts into context, particularly 
with reference to causation and remedies. The proximate cause of most 
wildlife crime, and its consequences, is greed. The ultimate cause of 
most wildlife crime is simple vanity.
    Remedies can be applied to the proximate causes--the greedy 
merchants behind the illegal trade. Improving capacity among wildlife 
agencies in developing countries is very important. More training 
programs and equipment are essential. The United States is already 
engaged in some of this. But the intensity and scope of poaching and 
trafficking today warrants significantly expanded efforts.
    Applying remedies to proximate causes will be frustrated if the 
ultimate causes are not also addressed. The ultimate cause for most of 
wildlife crime is found in the lucrative consumer markets in 
industrialized countries, including the United States. That's where the 
money is. So long as wealthy consumers are prepared to pay good 
dollars, euros and yen to purchase protected wildlife, the fundamental 
financial incentives for wildlife crime will remain a powerful 
influence, and all the consequent problems of violence, corruption and 
instability will continue unabated.
    Mr. Chairman, I have no doubt that most developing countries could 
provide effective protection for their native wildlife if they had to 
control poaching for their domestic markets only. But it is 
unreasonable, and unfair, to expect wildlife agencies in developing 
countries to withstand the sustained assaults of criminals motivated by 
the profit incentives of industrialized societies.
    The solution is partnership. The United States should expand its 
efforts;
    A.  To assist wildlife law enforcement agencies in developing 
countries improve their capacities, and
    B.  To encourage other industrialized countries to pursue greater 
cooperation and more effective policies in efforts to suppress 
international criminal syndicates.
    Specific recommendations are included in my written text.
    Thank you.

                                 * * *

    Introduction: Mister Chairman and Committee members, thank you for 
the opportunity to address the important subject of illegal trade in 
wildlife. I also want to thank 18 colleagues who helped me to prepare 
for this hearing. I nevertheless accept personal responsibility for the 
accuracy of facts and the merit of opinions expressed in this 
testimony.
    My name is William Clark, and I am employed by the Israel Nature 
and Parks Authority, Division of Law Enforcement. Mr. Julius 
Kipng'etich, director of Kenya Wildlife Service (KWS) and Mr. E.S. 
Kisamo, director of Lusaka Agreement Task Force (LATF) have requested 
that their respective agencies be associated with this testimony. Both 
Mr. Kipng'etich and Mr. Kisamo extend their respects and greetings to 
this Committee. The text of a KWS report is attached to this testimony 
and headed ``Nature of Illegal Wildlife Trade in Kenya.''
    I have been involved with nature conservation and wildlife law 
enforcement for more than 30 years including active involvement with 
CITES since 1979. I have been assigned to the Interpol Working Group on 
Wildlife Crime since 1994, and I currently serve as chairman of that 
Interpol Working Group. I hold a Ph.D. in wildlife conservation. I am a 
U.S. citizen and honorably discharged after six years service with the 
U.S. Marine Corps.
    I have received a number of relevant voluntary appointments among 
governmental, inter-governmental and non-governmental organizations. A 
few of these include honorary pilot/warden for Kenya Wildlife Service, 
liaison officer for Lusaka Agreement Task Force, technical counselor 
for Senegal National Parks, and executive committee member for INECE 
(International Network for Environmental Compliance and Enforcement).
    I hold several professional honors, membership in professional 
associations, and have published in prominent peer-reviewed journals. 
Details are available upon request.
    Fundamental Challenges: Illegal trade in wildlife today is a very 
high profit enterprise that, in many jurisdictions, carries a 
disappointingly low risk. This illegal trade involves a broad diversity 
of offenders, from common criminals with histories of drug trafficking 
and murder, to very sophisticated merchants who control multi-national 
organized crime syndicates from the relative security of safe havens. 
It is also important to note that several militant groups, such as 
Somali warlord factions that have been accused of trafficking drugs and 
weapons, and Sudanese Janjaweed militias that have been implicated in 
the Darfur genocide, have also been linked to commercial poaching and 
illegal trade in wildlife.
    Corruption, violence and other lawlessness are commonly associated 
with wildlife crime today because they facilitate illegal trade, making 
it less risky and more convenient. It is much easier to move several 
tons of ivory through customs control if there is a customs officer 
prepared to accept a bribe. It is much easier to defend a crooked 
dealer in court if potential witnesses for the prosecution are 
intimidated and too afraid to testify.
    Illegal trafficking in wildlife is linked to many more crimes than 
just corruption and violence. There are also strong links to fraud, 
smuggling, theft, robbery, conspiracy, health and veterinary 
violations, drug trafficking and weapons trafficking. There is also 
significant money laundering involved and, of course, tax evasion and 
other financial crimes.
    There are three main reasons why illegal trade in wildlife has 
achieved globally-important proportions:
    <bullet>  One reason is that wildlife law enforcement agencies in 
habitat countries, which for the most part are also developing 
countries, often do not have adequate enforcement capacity--in terms of 
training, structure and equipment--to meet the challenges by 
themselves. Habitat countries tend to have relatively weak enforcement 
capacity.
    <bullet>  The second reason is that the major markets for 
commercially valuable wildlife are in industrialized countries, 
including the United States. Industrialized economies provide very 
powerful financial motivations which sometimes eclipse a developing 
economy's power to resist. Market countries have relatively strong 
market incentives.
    <bullet>  The third reason is that illegal trade in wildlife is a 
very high-profit enterprise with exceptionally low risks. Despite the 
extremely serious nature of this criminality, most successful wildlife 
crime prosecutions result only in small fines. Prudent prosecutors 
sometimes ignore the wildlife offenses, knowing courts are 
unsympathetic, and seek convictions on related charges, such as 
smuggling or conspiracy.
    The Honorable Bakari Mwapachu, Tanzania's Minister of Public Safety 
and Public Security, addressed the Interpol Working Group on Wildlife 
Crime at our meeting in September, 2007. In his opening remarks, 
Minister Mwapachu told the meeting that ``organized criminal networks 
are engaged in a wildlife trade whose sophistication and scope 
surpasses the capacity and resources of enforcement agencies in the 
region.''
    This is a key to understanding an essential dynamic of illegal 
trade in wildlife today. Criminal syndicates are motivated by very 
substantial profits that can be made by acquiring commercially valuable 
protected wildlife in developing countries, and then selling this 
contraband in industrialized countries. The profit margin is so great 
that these syndicates can afford to invest in important measures 
designed to defeat and surpass the efforts of enforcement agencies in 
habitat countries.
    To date, the response by the international community has been very 
disappointing. In all the world, there are only two officers employed 
full time to address the challenges of international wildlife crime. 
One of them is totally dependant upon voluntary NGO support.
    Interpol provides an ageis for national wildlife agencies seeking 
to cooperate, but so far, the only available budget has been modest NGO 
contributions. National agencies normally support the participation of 
their own officers, and this works well for officers from 
industrialized countries. However, developing countries, which provide 
the most important habitat for commercially valuable species, have been 
under-represented simply because there is not adequate funding to 
support their participation.
    Interpol has created Ecomessage, which today is the world's only 
nominal database on international wildlife crime. Although Ecomessage 
has great potential for being able to define the magnitude, structure 
and dynamics of international wildlife crime, it needs more development 
to reach the point where it is comprehensive and statistically 
reliable. It also needs U.S. participation.
    Motivation: The underlying motivation for most of this criminal 
``sophistication and scope'' is the market demand in industrialized 
economies. There are wealthy buyers with dollars, euros and yen who are 
prepared to pay premium prices for contraband wildlife products. This 
is mostly a vanity market where nearly all products are devoid of any 
substantive benefit for human health, welfare or security.
    Markets in industrialized countries are the ultimate cause of most 
international wildlife crime. That's where the money is. Most habitat 
countries could very easily contend with poaching and trafficking for 
the domestic market. But it is unreasonable, and unfair, to expect 
wildlife agencies in developing countries to withstand the sustained 
assaults of criminals motivated by the profit incentives of 
industrialized nations.
    The United States is aware of this situation, and has made good-
faith efforts to address it, via various grant programs to protect 
endangered species, the international law enforcement involvements of 
the U.S. Fish and Wildlife Service, and initiatives such as the 
Coalition Against Wildlife Trafficking. Despite the very admirable work 
done so far, it is nevertheless inadequate. There are clear indications 
that illegal trade in wildlife is on the increase, and outpacing 
efforts to suppress it. There are clear indications that the 
attractions of the U.S. economy are, in large part, responsible for 
this.
    Criminals make enormous profit by cooperating shrewdly and 
extensively on an international scale. Illegal networks and syndicates 
work very closely with each other, often approaching the finesse of 
multinational corporations. Law enforcement is far behind, shackled by 
bureaucratic procedures, handicapped by inadequate budgets and 
resources, and stymied by shifting political priorities.
    If law enforcement is to have any realistic chance of counteracting 
illegal trade in wildlife, there is no option other than to improve 
systems of international cooperation dramatically. There is need for 
industrialized countries, including the United States, to extend much 
greater cooperation and support to wildlife agencies in developing 
countries. There is need for industrialized countries, including the 
United States, to participate more vigorously within the international 
community, in a global effort to solve a global problem.
    Organized Crime: Illegal trade in wildlife must be well-organized 
to be successful at the global level. Certainly there are many 
freelancers and minor operators, as with most other types of crime for 
profit. But lately there has been a conspicuous increase in the 
frequency of seizures of large consignments. Many of these seizures 
have been characterized by enforcement authorities as ``the largest of 
this type in history.'' During recent years, this phrase has been 
applied to seizures of coral, snake skins, conch shells, ivory, 
shahtoosh, abalone and other wildlife contraband.
    The shift toward larger consignments being seized is a reflection 
of a trend toward larger consignments being entered into illegal trade. 
This, in turn, reflects the greater wealth and risk-taking proclivities 
of the criminal interests behind those consignments. Ultimately, it 
reflects a greater involvement of organized crime, which has the 
financial and organizational capacity to assemble large consignments of 
contraband and absorb the losses of an occasional large seizure.
    Forensic evidence provides a very useful indication of the 
involvement of organized crime. Important work is being accomplished by 
Professor Samuel Wasser at the University of Washington, who has 
created a DNA ``map'' of African elephants. With this map, it is 
possible to assign a specific location of origin to any sample of 
ivory. This technology is now being applied by analyzing ivory from 
various seizures. The analysis identifies which populations of 
elephants were poached to provide that ivory.
    These analyses are yielding important results. For example, one 
analysis of ivory sealed in a container in Malawi, exported via South 
Africa and seized in Singapore revealed that the ivory came from a 
specific location in eastern Zambia. DNA evidence indicates the 
elephants were closely related. Another analysis of ivory exported from 
Cameroon and seized in Hong Kong revealed the ivory came from a 
specific location in eastern Gabon and a neighboring part of Congo. 
Again, it produced evidence that all the ivory came from closely 
related elephants in a particular location. More analyses of other 
seizures are presently being conducted.
    Conversely, there is no indication of any illegal dealers 
purchasing ivory opportunistically from scattered sources as a method 
of organizing a large commercial consignment. Rather, there is evidence 
of specific elephant populations being intentionally targeted to supply 
ivory for planned shipments. This indicates that poaching contractors 
are hired and they receive a ``purchase order'' for a specific quantity 
of ivory. The contractors then organize teams of poachers that work 
cooperatively to kill a particular number of elephants in a specific 
area. The contractors then arrange the logistics of transporting the 
ivory over long inland distances before export. This inland transport 
includes significant organized smuggling across national frontiers in 
Africa, so it can be exported from a country other than where the 
elephants were poached. This type of disciplined and careful planning 
is an indication of organized crime.
    In the Cameroon-Hong Kong seizure, a total of three containers with 
false compartments were discovered by law enforcement agencies. As 
these false compartments have specific volumes, and as the seizure in 
Hong Kong had its false compartment packed to capacity, it is probable 
that the poaching gangs are given specific instructions regarding the 
precise amount of ivory they were to provide. The smuggler does not 
want to waste space, nor does the smuggler want to receive more ivory 
than can be packed into a particular consignment. This type of 
inventory management indicates the discipline of organized crime.
    Professor Wasser's DNA analysis also provides evidence that the 
country of poaching is different from the country of export. This is 
very likely a protective strategy used by the smuggler, who thereby 
distances himself from the country where the violence of intense ivory 
poaching is being conducted. This can be considered yet another 
mechanism indicative of organized crime.
    Inspection of the containers themselves revealed a sophisticated 
hidden compartment system that required good planning and metallurgical 
know-how. False walls were deftly created and camouflaged, and 
inspectors standing inside empty containers were at first not aware 
they were within arm's length of the hidden compartments. This level 
are care and preparation is indicative of organized crime.
    Investigations of persons accused of being responsible for the 
Cameroon--Hong Kong seizure provide evidence of at least 15 containers 
having been shipped along the same route with the same declared 
contents during recent years. Further investigations link these persons 
to the export of at least 16 similar containerized consignments from 
Nigeria in the 1990s. There is also evidence that one of the Nigerian 
consignments contained 1,453 kg. of contraband elephant ivory, seized 
in Taiwan in 1998.
    It is reasonable to assume that all 31 containers carried 
contraband ivory. If the average weight of the two seized 
consignments--2,678 kilograms--is representative and is multiplied by 
31 known containers, there is indication that this syndicate trafficked 
in more than 83 tons of contraband ivory (costing the lives of about 
8,300 elephants). Using a modest wholesale rate of $600 per kilogram, 
it is possible to estimate this syndicate alone trafficked in nearly 
U.S. $50 million of contraband ivory during the past decade. A U.S. $50 
million criminal enterprise is another indication of organized crime.
    Two seizures out of 31 consignments is consistent with estimates of 
many customs officers that current capabilities produce a seizure rate 
of less than 10% of ``general goods'' contraband in trade. Wildlife 
products are counted as ``general goods.''
    Recently, most ivory has been seized in transit. Authorities have 
seized ivory transiting Singapore, The Philippines, Taiwan, and Hong 
Kong. In Taiwan, a computer program sounded an automatic alarm when two 
containers passed through the port of Kaohsiung two times during the 
same voyage. That indicated something suspicious. Customs officers 
inspected the containers and discovered five tons of contraband ivory 
which was in the process of being re-exported to The Philippines. 
Containers are being shuffled back and forth across the ports of Asia 
in a kind of ``shell game,'' likely in an effort to obscure their 
trail, and this also suggests the involvement of organized crime.
    This ``shell game'' is analogous to the ``layering'' stage of 
classical money laundering, a means of distancing the contraband from 
the source before entering the ``integration'' stage where the 
contraband is entered into a legitimate economy--another indicator of 
organized crime. Cases involving other species of commercially valuable 
wildlife share similar indications of organized crime. There are strong 
evidence of organized crime involvement in caviar, shahtoosh, exotic 
birds, traditional Asian medicines and other wildlife.
    On 27th January 2008, a gang of five bird smugglers was arrested in 
Trinidad. Of those, four had prior convictions, mostly on drug and 
weapons offenses. Two of those arrested had outstanding arrest warrants 
for murder. This is yet another indication that persons implicated in 
wildlife crime are often career criminals who work cooperatively.
    Much trade in traditional Asian medicines that contain prohibited 
wildlife ingredients reflects skillful organization. Investigations 
have revealed that this trade is often controlled by major Asian import 
companies that pack the contraband as part of larger, containerized 
consignments. The wildlife contraband is frequently concealed, 
misdeclared, or not declared at all. Enforcement authorities in New 
Zealand discovered important documents upon serving a search warrant at 
one such import company. These documents, when translated, were found 
to provide specific instructions to the exporter in China concerning 
how to conceal the contraband and what to write on the shipping 
documents. This provides further evidence of high-level of 
organization.
    Organized structure is certainly important for the acquisition, 
transport and smuggling of large-consignment contraband. But it is also 
vital once such contraband reaches the market country. The August, 
2006, seizure of 2.8 tons of elephant ivory in Osaka, Japan, is an 
example. This consignment involved the seizure of 2,409 kilograms of 
raw elephant ivory, plus 17,928 ivory hanko signature seals, weighing 
385 kilograms. How can a smuggler retail this volume of contraband if 
not via well-organized criminal interests?
    It is unlikely that the 17,928 hanko signature seal part of this 
consignment could have been entered directly into illegal retail trade 
only by the individual charged with smuggling. Rather, the marketing 
and retailing process certainly required a network--some organizational 
structure to get the contraband items from the smuggler's premises to 
places where they could be sold to retail consumers. It is also 
unlikely that the smuggler attempted to import this volume of ivory on 
mere speculation that he would subsequently find a market. Rather, it 
is much more likely that the smuggler was already linked to an existing 
market capable of absorbing and processing this very substantial volume 
of contraband.
    The 2,409 kilograms of raw ivory in this seized consignment 
presents a greater problem. A typical hanko signature seal, the most 
common ivory product in Japan, weighs about 20 grams. Even calculating 
a generous 25% wastage rate in the carving process, the 2,409 kilograms 
could have produced about 96,360 hankos, with a retail value of about 
U.S. $9.6 million. This estimate is corroborated by Japanese Customs, 
which claims the consignment was worth one billion yen--about U.S. $9.4 
million.
    But some very considerable manufacturing lies between 2,409 
kilograms of raw ivory and 96,360 finished hanko cylinders. This 
requires the existence of an illegal factory, or several factories, 
with many employees using power saws, lathes and polishing machines. 
The operation would have required a management team for the factory--
control of inventory, a production department, a marketing department, 
delivery vehicles, and a sophisticated finance department capable of 
providing payment for illegal workers and laundering millions of 
dollars in criminal profit. These are all very strong indicators of 
crime with industrial organization.
    The one person charged in this case received a small fine and a 
suspended sentence.
    There are levels of sophistication, from disciplined poaching 
operations providing prescribed amounts of illegal products from 
specifically targeted wildlife populations, through the logistics of 
intra-regional smuggling in Africa so the contraband can be exported 
from a country other than the one where it was poached, and then 
through the ``shell game'' shuffle of multiple transit ports, all 
suggest a level of intricate planning and complex execution that is 
characteristic of organized crime. The smuggling of tons of contraband 
requiring the existence of illegal factories, marketing and money 
laundering systems also provide evidence of organized crime
    Violence: About 100 rangers are killed in the line of duty every 
year in Africa alone.
    In late December 2007, two Tanzanian rangers were killed in the 
line of duty in the Dodoma Region. At least 120 rangers have been 
killed in Virunga National Park in the Democratic Republic of Congo 
during recent years. More than 20 more have fallen in Zambia. Kenya has 
buried 37 of its own.
    During 2007, Chad lost seven rangers in and around Zakouma National 
Park, the last significant elephant habitat remaining in that country. 
Abakar Zougoulou, Chad's wildlife director, told me that all of the 
killings were conducted by Janjaweed militias infiltrating from nearby 
Sudan. These are the same militias implicated in the Darfur genocide. 
Three of those rangers died in a 15 May 2007 during a Janjaweed attack 
that sought to capture Chad's national stockpile of seized and 
recovered ivory, which was being kept in a strongroom at Zakouma 
headquarters. The attempt failed and the attack was repelled, at the 
price of the lives of the three Chadian rangers. Chad's President Deby 
subsequently intervened by incinerating that one-and-a-half ton ivory 
stockpile, so that it could never again attract criminal attacks.
    The same Janjaweed militias are accused by Chadian authorities of 
having been responsible for the slaughter of many hundreds of elephants 
around Zakouma during the past couple of years. Elephants are 
relatively secure inside Zakouma's 3,000 square kilometer boundaries. 
But they become extremely vulnerable when the seasonal rains arrive and 
the elephants scatter across the 50,000 square kilometer Salamat region 
outside the park. This scattering is important, as it provides the park 
opportunity to recover from heavy elephant browsing during the dry 
season. But Chadian rangers do not have the capacity to provide 
adequate protection once the elephants scatter. A patrol airplane would 
be useful.
    Three nights after the Chadian rangers were killed, a unit of seven 
Kenya Wildlife Service rangers engaged a gang of Somali poachers at a 
Tana River crossing point. The poachers were very heavily armed and 
fired more than 300 rounds of ammunition in an intense, close-range 
battle at 1:00 a.m. Three of the KWS rangers were killed and another 
was seriously wounded. But the surviving rangers stood their ground, 
killing four of the poachers and forcing the remainder to retreat.
    The surviving rangers reported that the poachers were very 
professional, using military deployment and small unit tactics as they 
approached the river crossing. The entire gang marched ``in step'' so 
as to make sound of only a single footfall as they walked. The KWS 
rangers did not have night vision equipment, nor did they have 
protective body armor, or any similar items that might have prevented 
or reduced their tragic losses. ``Former generation'' equipment, 
obsolete to the U.S. military, could have been a life-saver to the 
Kenyan rangers.
    Given the assault weapons carried, the abundance of ammunition and 
the disciplined military field tactics, it is most likely that these 
poachers were working at the behest of one of Somalia's warlords, just 
as there is evidence that many previous poaching gangs had links to 
these warlords.
    One important incident occurred in Kenya's Tsavo East National Park 
during 10 and 11 May 2003 when a gang of poachers from Somalia ambushed 
a KWS unit on patrol in the park. The gunfight ran for two days during 
which two KWS staff were killed; Corporal Maina Ngara (KWS serial 
number 5776) and Ranger Mohammed Sombwana (KWS serial number 7630). 
During that incident, KWS recovered two firearms from the poaching 
gang. One weapon was a German-made G3 NATO standard 7.62 mm assault 
rifle, serial number G844485. The second rifle was a U.S.-made M-16A1 
rifle, serial number 5412260, along with 186 rounds of 5.56 mm. 
ammunition.
    This particular M-16 had been supplied by the United States to the 
Somali Defense Ministry during the administration of President General 
Sa'id Barre in the 1980s. General Barre appointed his son-in-law, 
General Mohammed Sa'id Hirsi (aka General Morgan), as his Minister of 
Defense. After General Barre's deposal in 1991, General Hirsi became a 
warlord using the remains of the Somali National Army to form the 
Somali National Front militia. It is very probable that this M-16, 
along with many others, was part of the arsenal that accompanied the 
transition. General Hirsi today remains a Somali warlord. A 2004 report 
of the Monitoring Group established by the U.N. Security Council 
pursuant to Resolution 751 (1992) and Resolution 1519 (2003) links 
General Hirsi to drug smuggling and weapons trafficking.
    In yet another incident in Tsavo East National Park, a gunfight 
resulted in the death of the leader of a poaching gang from Somalia. A 
search of the gang leader's belongings resulted in the discovery of a 
hand-written notebook which kept record of much of the gang's 
activities, including which gang member was assigned which weapon and 
how much ammunition, how they had entered Kenya, their route of march 
and resting points, and various other details, including contact 
telephone numbers in both Kenya and Somalis. Notations in the journal 
clearly linked the poaching gang directly to General Hirsi and his 
militia. There is a hypothesis that warlords are using the profits of 
poaching to support their militias and their political ambitions.
    Armed conflicts have had very serious impact on wildlife. The most 
serious impact came when the Soviet Union provided large numbers of 
Kalashnikov AK-47 rifles to various regimes. The Soviet Union has since 
collapsed and its satellite regimes have disintegrated--but most of 
those Kalashnikov rifles are still available, and many are being used 
to poach wildlife. Because of their availability and efficiency, the 
Kalashnikov is the ``weapon of choice'' for many rebel groups, militias 
and similar armed organizations. Some of these groups have taken refuge 
in national parks and other wildlife habitats. Ugandan rebels now 
operate within Garamba National Park in the northeast of the Democratic 
Republic of Congo. Other rebel groups have repeatedly over-run Virunga 
National Park in eastern D. R. Congo.
    Civil strife also creates refugees, and some of these unfortunate 
people also have a detrimental impact on wildlife. Angolan, Burundi and 
D.R. Congo refugees living in the Maheba Refugee Camp in Zambia are 
persistently implicated in poaching in West Lunga National Park. There 
are more than 280,000 refugees in 11 Tanzanian camps right now, and a 
TRAFFIC report in late January 2008 says many of them are engaged in 
severe bushmeat poaching.
    Violence is clearly intrinsic to much wildlife crime. But sometimes 
the mere threat of violence is also a serious factor and obstructs 
justice. For example, in one wildlife case involving a persistent 
offender, at least three important Thai witnesses refused to travel to 
provide testimony to a New Zealand court because they feared for their 
personal safety after returning home to Thailand. Threats, blackmail, 
and intimidation are common techniques used by criminals involved in 
the illegal trade of wildlife.
    Corruption: Corruption is frequently cited in cases involving 
illegal trade in wildlife. Corruption facilitates the illegal trade and 
protects the criminal trafficker. Corruption is very rarely prosecuted, 
and cases that do enter prosecution are frequently hush-up or simply 
left unresolved.
    Wildlife law enforcement sometimes distinguishes between two types 
of corruption. One involves lower-level corruption--such as a ranger 
pocketing receipts at the gate of a park. There is a significant 
measure of this corruption around the world--people who handle money, 
or who are responsible for issuing various wildlife permits, or 
management of an agency's supply inventories or highway check points. 
Each act of corruption hurts the agency, as well as the wildlife it is 
charged to protect. Effective campaigns can be conducted against this 
type of corruption, and there are useful resources available for 
agencies with problems.
    A more serious level of corruption involves senior officers and 
politicians. This level of corruption is much more difficult to stop. 
There are persistent reports of ministers and directors being involved 
in irregular issuance of wildlife permits, timber concessions and 
various other schemes. Some have been removed from office amid serious 
allegations, although those allegations are hardly ever prosecuted.
    The former director general of Thailand's Royal Forestry Department 
was accused by Thailand's National Counter Corruption Commission of 
improper involvement in the transfer of 100 tigers to China. 
Allegations of corruption accompanied the suspension of a senior ports 
officer in Mozambique when 400,000 cubic meters of illegal timber had 
been improperly exported to China. In November 2006, the Department of 
Environment and Natural Resources of The Philippines filed a complaint 
against 21 persons linked to the ``pilfering'' of six tons of ivory 
seized in Manila Harbor. Thirteen of those accused are customs 
officers. In late January 2008, the director general of Peru's National 
Institute for Natural Resources (Inrena) was dismissed amid allegations 
of corruption. Shortly before, the Director of Forest Technology 
Administration and Wildlife was also dismissed under similar 
allegations. Allegations regarding corruption in the caviar industry 
sometimes seem inexhaustible. There are credible reports of corruption 
among senior officials in certain island nations of the Pacific, 
particularly the Solomon Islands, with compelling evidence of them 
facilitating illegal trade. There are numerous other examples.
    High level officials often complain publicly about perceived 
corruption. For example, Malawi's environment minister complained 
vigorously about customs officers who authorized a 2002 export of 6.5 
tons of illegal ivory, but were never prosecuted. And just this past 
November, Filipino Senator Juan Miguel Zubri protested that corruption 
was behind the illegal export of five tons of coral seized in 
Argentina.
    The persistent reports of corruption associated with illegal trade 
in wildlife are impossible to ignore. However, the most typical 
response is to acknowledge the problem and do very little about it. 
Serious allegations only rarely become formal prosecutions. There is 
need for a global campaign against corruption. Suppressing corruption 
will very significantly enhance any efforts to suppress illegal trade 
in wildlife.
Conclusions:
    1. Much wildlife crime, and particularly illegal trade in large 
volume consignments of commercially valuable wildlife, conforms to 
conventional definitions of organized crime. Involvement of organized 
crime is obvious. Other crime often associated with organized crime, 
e.g. violence, corruption, fraud and financial crime, are commonly 
associated with wildlife crime. (Also see Attachments 1, 4 and 7).
    2. Wildlife crime exploits the many benefits of globalized trade 
and modern communications. It has made extensive use of the Internet 
and tourism as a means of diminishing risks associated with smuggling. 
(Also see Attachments 1, 2 and 3).
    3. There is evidence that violent militant groups, including those 
accused of genocide, drug trafficking and weapons trafficking, have 
been involved in wildlife crime.
    4. Wildlife crime tends to be exceptionally violent. Many park 
rangers are killed every year by very well organized and heavily armed 
poaching gangs. Violence is exacerbated by access to and use of 
military weapons. Violence, and the threat of violence, permeates many 
facets of wildlife, including even intimidation of potential witnesses 
for the prosecution.
    5. ``Organized criminal networks are engaged in a wildlife trade 
whose sophistication and scope surpasses the capacity and resources of 
enforcement agencies in the region.'' Many habitat countries do not 
have the capacity to counteract wildlife crime motivated by powerful 
financial interests of industrialized countries. (Also see Attachment 
5)
    6. Many industrialized countries consider wildlife crime to be 
relatively insignificant. The United States is unique as it has a 
record of passing substantive sentences to criminals convicted of 
wildlife crime. There is compelling need for the U.S. to persuade other 
consumer countries that they need devote greater resources to fight 
wildlife crime, and to impose penalties that are commensurate with the 
gravity of the crime. (Also see Attachment 4).
    7. Legal wildlife trade is frequently used as a cover for illegal 
trade, and is sometimes difficult to distinguish from it. (Also see 
Attachment 9).
    8. Both legal and illegal wildlife trade, for the most part, 
exploits Nature in developing countries to supply fashion and vanity 
demands of consumers in industrialized countries. This trade has 
negligible health, welfare or security benefit for society. Major 
profits of both legal and illegal wildlife trade are banked in 
industrialized countries. (Also see Attachment 8)
Recommendations:
    1. The United States should be a more assertive and conspicuous 
leader in the global fight against wildlife crime. The United States 
has the diplomatic, professional and financial resources needed for 
such leadership. The United States should be actively engaged in 
helping to target major international criminals and criminal syndicates 
implicated in commercial-scale poaching and illegal trade in wildlife.
    2. The United States should become substantially more engaged in 
assisting habitat countries in the developing world to improve their 
wildlife law enforcement capacities. Although some U.S. initiatives 
have been well-conceived and productive, they are not yet being 
conducted on a scale required to produce decisive impact.
    U.S. assistance should include:
    a. Professional training, with particular emphasis on the basics of 
wildlife law enforcement, including investigations and intelligence. 
Such training should seek to establish a basic world standard for 
competency, professionalism and ethics.
    b. Advice, including the need for inter-agency cooperation, and 
``best practices'' for organization, procedures and deployment of 
wildlife law enforcement agencies.
    c. Equipment for both uniformed field units as well as plain 
clothes investigation and intelligence units. Field patrol equipment is 
of particular importance as such patrols often are important for their 
deterrent value. Light aviation support is highly recommended. Much of 
this equipment can come as excess U.S. Government property.
    Improving the capacities of habitat countries to protect their own 
commercially valuable wildlife from poaching and illegal trade should 
result in diminished pressures on U.S. enforcement. As a major 
consumer, the United States has a moral obligation to invest major 
resources in efforts to assist financially disadvantaged habitat 
countries to protect their wildlife from illegal exploitation.
    3. The Congress should provide improved support for U.S. 
involvement in efforts to suppress illegal trade in wildlife at the 
international level by assuring a proper budget for its own wildlife 
law enforcement agencies.
    4. The United States should devote some of its intelligence 
capacity toward determining more clearly the relationships between 
wildlife crime and militant organizations. Anecdotal evidence indicates 
such links exist, including to groups accused of inciting genocide, 
civil war and other violence. At present there is inadequate 
information concerning how profound the relationship is and how the 
illegal sale of contraband wildlife may be part of the financial 
support for such groups.
    5. The United States should become more engaged in wildlife law 
enforcement operational cooperation at the international level, working 
in partnership bilaterally with individual countries, or multilaterally 
with regional agencies such as LATF or international organizations such 
as Interpol. Although there have been a number of encouraging recent 
successful international cases, such as with sea turtles and conch 
shells, there is conspicuous need to expand this cooperation.
    The United States should cooperate with Interpol in developing 
Ecomessage, the worldwide database on wildlife crime. The U.S. should 
also participate in supporting the wildlife officer position at the 
Interpol General Secretariat.
    The United States has a long and respected history of extending its 
efforts at suppressing criminality to locations far beyond its borders, 
indeed, ``to the shores of Tripoli.'' Cooperative initiatives, with 
friendly foreign law enforcement agencies, provide synergistic benefits 
that are good for society around the world. Thus, it is much better to 
cooperate with friends and reach even to the most distant lands in 
order to target drug production facilities in Asia or Latin America 
rather than wait for the contraband to be smuggled into schoolyards in 
the United States. The same concept applies also to the illegal 
wildlife trade.
    6. The United States should do more in helping to create and 
support regional wildlife law enforcement agencies. Good work with 
ASEAN-WEN is a promising first step. But there is opportunity, and 
need, to do much more.
    There is need to establish regional enforcement agencies in regions 
where they do not presently exist, such as the Caribbean. And there is 
also need to provide training, equipment and financial support to 
existing regional enforcement agencies, such as the Lusaka Agreement 
Task Force, with an emphasis on regions that have important wildlife 
populations but presently lack financial and technical resources. LATF 
in particular works without adequate equipment and resources in some of 
the poorest countries in the world.
    7. It should be the public policy of the United States to 
discourage trade in animals and plants taken from the wild for 
frivolous purposes, such as fashion accessories or exotic pets. 
Progress is being made in this direction, such as with the provisions 
of the Wild Bird Conservation Act, Marine Mammals Act and others. But 
there is much more that can, and should, be done. Such policy would 
also address the ultimate motivation for wildlife crime, and seek to 
diminish the vanity markets that provide the financial incentives for 
trafficking.
    8. The United States should create a special fund into which would 
be contributed all fines and other assets recovered from criminals 
involved with illegal international trade in wildlife. This fund could 
be used to assist wildlife law enforcement agencies in developing 
countries.
    9. The United States should establish a system whereby repeat 
offenders who violate wildlife laws are not eligible to receive any 
export or import licenses, or to engage in wildlife trade domestically. 
The United States should propose a similar policy to the next meeting 
of the Conference of the Parties to CITES.
    10. The United States should engage with other industrialized 
countries in an effort to share the burden of the capacity-building 
exercises recommended above. Particular effort should be made to enlist 
former colonial powers such as Britain, France, Netherlands, Belgium 
and Spain as many developing countries still have legal systems based 
on that of the former colonial power. Furthermore, many former colonies 
still have the language of the colonial power as their legal national 
language--an important consideration when planning enforcement 
cooperation and training programs.
    11. The United States should engage with its own non-governmental 
organizations which have demonstrated interest in improving wildlife 
law enforcement capacities around the world. Many of these NGOs, such 
as IFAW, the International Fund for Animal Welfare, already have 
important and useful contacts in priority countries. They have existing 
programs that are able to support specific capacity building 
initiatives. They also have useful research capacities that could be 
directed toward particular initiatives such as seeking overviews of 
illegal trade on the Internet, or specific challenges of illegal 
wildlife sales to tourists traveling abroad. In fact, the NGO community 
presently supports most of the wildlife law enforcement capacity 
building in developing countries today. NGOs, much more than government 
agencies, are providing important training, contributing supplies and 
otherwise supporting hard-pressed wildlife law enforcement agencies in 
countries which have the most serious problems.
    12. Money laundering and related financial crimes are certainly 
integral to illegal trade in wildlife. The United States should provide 
financial crime and anti-corruption training and expertise to 
appropriate law enforcement offices in developing countries where 
wildlife crime is a serious challenge. Interest can be further 
stimulated by proposing cooperative initiatives that include sharing of 
recovered assets.
    In recent years, most countries have enacted new laws against money 
laundering. But training has mostly focused on countries where drugs 
have been the primary problem. Efforts should be expanded to embrace 
wildlife crime.
    13. The United States should engage diplomatically with friendly 
foreign countries to encourage them to accept that illegal trafficking 
in wildlife is an international problem, in need of international 
solutions. U.S. diplomatic resources should encourage other countries 
to identify wildlife crime as a more serious priority. The U.S. should 
encourage other countries to prosecute wildlife crime more vigorously, 
including via creation of specialized prosecution units, as is done in 
the U.S. Efforts should be made to urge countries to apply penalties 
for conviction on wildlife violations that are commensurate with the 
gravity of the violations, similar to those defined in the U.S. Federal 
Sentencing Guidelines. Efforts should be made to urge countries that 
provide safe haven for persons accused of wildlife violations to be 
cooperative in finding solutions that are responsible and just. Efforts 
should be made to encourage all countries to require that their 
citizens report global income. Efforts should be made to overcome the 
negative consequences of diplomatic isolation.
    [NOTE: Attachments have been retained in the Committee's official 
files.]
                                 ______
                                 

    Response to questions submitted for the record by William Clark

Questions posed by Honorable Nick J. Rahall, II, Chairman
I. Top recommendations on what can be done to reduce illegal wildlife 
        trade:
1.  The U.S. Fish and Wildlife Service, Office of Law Enforcement, 
        should be provided with the resources required to engage 
        vigorously in international efforts aimed at suppressing 
        international illegal trade in wildlife. Some specific 
        engagements would include:
     a)  Secondment of a U.S. Fish and Wildlife Service Special Agent 
for a three year term at the Interpol General Secretariat in Lyon, 
France. The wildlife post at Interpol is presently filled by a New 
Zealand officer entirely supported by donations from U.S. conservation 
charities. His three-year term expires in March, 2009, and there is no 
prospect for further funding. The Interpol post is vital to the 
coordination of international efforts to suppress syndicates involved 
with illegal trade in wildlife.
     b)  Training for wildlife law enforcement officers in developing 
countries. Some of this is already being done via special legislation 
such as the African Elephant Conservation Act, and via special 
institutions such as the law enforcement training facility in Botswana. 
But overall, the system is inadequate. Only a small minority of the 
special legislation funds goes to law enforcement, and only a minority 
of seats at special institutions go to wildlife officers. There is need 
for a more systematic approach that focuses exclusively on wildlife law 
enforcement. There is need to create a comprehensive international 
basic standard for wildlife law enforcement competencies and 
professionalism. Illegal trade in wildlife has globalized, and 
dramatically so. Any efforts to confront this challenge must also be 
global--but presently, the ``weakest link'' syndrome is frustrating 
international efforts to achieve fruitful cooperation. Foreign wildlife 
law enforcement agencies with inadequate competency should be brought 
to a basic international standard. This will provide the U.S., and 
others, competent partners, especially in important habitat countries. 
I am prepared to provide specific information concerning training 
priorities if there is an inclination to pursue this option. There will 
be numerous case-by-case needs. For example, half of Africa speaks 
French, so perhaps it would be useful for U.S. F&WS to cooperate 
(perhaps under NAWEG) with French-speaking Canadian colleagues to bring 
a good level of training to agencies in French-speaking Africa.
     c)  Equipment. There desperate need for law enforcement equipment 
in many developing countries. They simply do not have the budget to 
acquire their own. Three examples:
         (1)  Senegal National Parks has an annual operational budget 
        equal to about U.S. $104,000 total--to operate six national 
        parks and eleven wildlife reserves, plus a national 
        headquarters. This is for everything other than salaries (which 
        are paid by the civil service budget). If they want to pay the 
        light bill, phone bill, buy gasoline, buy a vehicle, or buy 
        rain gear for all the rangers--it all must come from this 
        budget, or be donated. Africa's most endangered elephant 
        population lives in Senegal's Niokolo Koba National Park (which 
        at 2,256,000 acres is larger than Yellowstone or any other U.S. 
        national park outside of Alaska). Senegal also has populations 
        of chimpanzees, giant elands, African wild dogs, scimitar-
        horned oryx antelopes and other commercially valuable 
        endangered species. They have too few resources to protect too 
        many living treasures.
         (2)  A few years ago, I had the pleasure of speaking 
        personally with the President of Ghana. Bluntly, I asked him to 
        increase the budget of Ghana's Wildlife Division. Bluntly, he 
        replied that he would be very pleased to do just that--very 
        shortly after he could assure a basic primary education for 
        every Ghanaian child, and just a small health clinic with a 
        practical nurse for every Ghanaian community. Point made. The 
        Ghana Wildlife Division annual budget today is about $400,000--
        including all salaries.
         (3)  A ranger working for Chad's wildlife and protected areas 
        agency earns the equivalent of U.S. $54 per month, and no 
        insurance or benefits. I have seen Chadian rangers go on patrol 
        wearing flip-flops and carrying water in rinsed-out motor oil 
        bottles.
    Globalization has brought some new wealth to many of these 
countries, and you can see modern cars on the streets. But virtually 
none of that wealth has found its way into governmental wildlife 
conservation agencies. They function on inadequate budgets. Check the 
CITES website for ``national contacts'' and you will see, particularly 
among the Africans, government wildlife agencies will have a ``yahoo'' 
or ``hotmail'' email address. These agencies do not have computers or 
email access--so the officials make occasional visits to the nearby 
internet cafe, pay a few francs, and check their commercial emails.
    The U.S. can provide much of the needed equipment at a minimal 
cost. Excess U.S. Government property can be contributed to agencies in 
need--items such as ``former generation'' night vision equipment, no 
longer useful to the U.S. military, would be a treasure for agencies 
that persistently suffer fatalities in night-time shoot-outs (Kenya 
Wildlife Service lost three rangers killed in a 1:00 a.m. shootout on 
an overcast night of 19 May 2007. NVGs likely would have prevented 
these tragic fatalities). Other excess property such as ponchos, 
mosquito nets, etc. would be very valuable and appreciated by the 
rangers in the field. Outdated computers disposed of in the U.S. are 
very likely superior to the ones people pay for in internet cafes in 
Bamako or N'Djamena. Old field boots that the U.S. Army discards would 
be treasured by African rangers in the field. Trinidad's wildlife 
department is in need of boats to patrol the mangrove swamps around the 
island. There is widespread need for motor vehicles, especially 4x4 
pickups. (In 1991, I delivered two U.S. M880 pickups from Germersheim, 
Germany to N'Djamena, Chad. These excess U.S. Government vehicles were 
the first motor vehicles ever registered to Chad's wildlife and 
protected areas agency.) And there are many other options for economic 
and practical acquisitions of equipment to benefit agencies in 
developing countries that are charged with protecting commercially 
valuable wildlife.
    In this regard, I want to make special emphasis on the utility of 
light patrol aircraft. Virtually any law enforcement agency that can 
afford it acquires patrol aircraft. Even city police departments use 
aircraft today. Aircraft are particularly useful in wildlife law 
enforcement, especially in countries that have national parks measured 
in the multiple thousands of square miles. Most importantly, patrol 
aircraft are valuable deterrents. Just like a conspicuous police 
cruiser patrolling the interstate, a conspicuous patrol aircraft deters 
most violations. Experience suggests that just one conspicuous patrol 
flight in a period of 5 to 7 days is enough to suppress about 80% of 
poaching in a particular habitat. Let the patrols go beyond 7 days and 
the poachers start to slip back in. Flight schedules must be irregular 
and routes properly planned.
    For the minority of offenders who are not deterred, the patrol 
aircraft provides an extremely valuable law enforcement resource. A 
good patrol pilot can scout and track effectively from the air. Often, 
aerial observation is more successful than ground tracking, not only 
because of its speed, but also because it is frequently easier to see 
``down'' into high grasses and scrub brush habitats than to look 
horizontally from ground level. Once gangs are located, an air crew and 
radio details such as numbers of poachers, weapons carried, direction 
of march, etc. to ranger units on the ground for interception and 
arrest. Air crews can also guide those ground units to positions from 
which arrests can be executed with the greatest safety. Light aircraft 
also resupply ranger units on extended patrol--letting them walk into 
remote and waterless areas. They are also used to evacuate sick and 
injured persons (in Africa, malaria claims more ranger lives than 
poacher bullets do--and the poacher bullets claim more than 100 every 
year). Light aircraft fly many other useful law enforcement missions--
such as monitoring the location of herds of commercially valuable 
animals (so park managers can deploy ground units more effectively), 
monitoring park borders for illegal access, locate illegal agriculture 
(including growing marijuana) in large national parks, search for 
missing persons (staff, tourists, etc.)
    The United States Government acquires several light aircraft every 
year. Some are seized from drug runners. Some are seized from wildlife 
offenders who use them for ``land and shoot'' or ``same day'' hunting 
violations. And some are seized for various other reasons. Also, the 
U.S. military sometimes has light ``liaison'' aircraft rendered 
``excess.'' And there are other sources. Appropriate legislation 
authorizing the donation of such aircraft to wildlife agencies in 
developing countries would be a very practical and inexpensive 
contribution.
    Actually, contributing some new U.S. manufactured light aircraft 
would be an exceptionally useful donation to wildlife agencies that 
otherwise could not afford them.
    2.  The United States should create a special fund into which would 
be contributed all fines and other assets recovered from criminals 
involved with illegal international trade in wildlife. This fund should 
be used to assist wildlife law enforcement agencies in developing 
countries. Instruments such as the Lacey Act Reward Fund do exist, but 
they are underused, and often resources are diverted to forestry or 
fisheries agencies which tend to be better funded anyway (because they 
generate much more income for a government.) There needs to be a 
comprehensive review of what exists, and what is needed to create the 
equivalent of the EPA's ``Superfund''--which can be focused at 
assisting the most seriously disadvantaged wildlife agencies.
    3.  The United States should engage with its own non-government 
organizations that have expertise and experience in appropriate areas 
of law enforcement training. Certainly, it would be inappropriate for 
an NGO to begin teaching law enforcement questioning techniques. 
However, it would be entirely appropriate to partner with an NGO to 
teach protected species identification. In December, 2007, I joined 
with IFAW in a training program that involved officers from four 
Caribbean countries. A brief test at the beginning of the program 
revealed that most officers participating could not identify most of 
the local species commonly in trade. Imagine a room with 25 National 
Parks Service rangers and finding 15 of them could not identify an 
American bald eagle! One vital element of wildlife law enforcement is 
being able to identify the wild species that are being trafficked. And 
there are other areas where NGO resources can be applied in a 
cooperative effort to improve the capacities of enforcement agencies in 
developing countries.
    4.  Persons who have repeated violations of wildlife legislation, 
such as the Endangered Species Act, CITES implementing legislation, 
etc. should be prohibited from receiving any wildlife licenses or 
permits for a long period of time. Repeat offenders should be 
disqualified from engaging in legal wildlife trade because of their 
abuses.
    5.  The United States should provide authorization and line-item 
budget support to appropriate intelligence agencies to provide them 
with the capacity to gather information on illegal trafficking in 
wildlife, particularly elephant ivory and rhinoceros horn. There are 
numerous individual reports of militant groups such as Sudanese 
Janjaweed, Somali warlord factions and Bangladeshi Islamic militant 
groups engaging in commercial scale poaching and trafficking of 
wildlife--particularly wildlife with durable, high-value parts such as 
ivory and rhinoceros horn. There is compelling evidence of opportunity 
and motivation. It would be useful to seek verification of this 
presumed link. It is reasonable to assume that if such militant groups 
are engaged in illegal trafficking, the proceeds are being used to 
support violence.
    6.  One of the ``great unknowns'' of the illegal ivory trade is 
verification of the market. During recent years, more than 20 tons of 
ivory have been seized on an annual basis--mostly ``in transit'' in the 
Far East. Customs often estimates that a 10% seizure rate for ``general 
goods'' (e.g. elephant ivory) is quite good. It is reasonable to 
estimate that 200 tons (i.e. the ivory of 20,000 elephants) has been in 
trade annually during recent years. This provides an explanation of why 
most African elephant populations have not been able to recover despite 
the existence of CITES Appendix I controls.
    Major legal ivory markets, such as Japan and China, claim to have 
effective enforcement. Other countries say their domestic markets are 
much too small to account for such a large volume of ivory. So where is 
all the ivory going???
    The United States has the best intelligence capacity on earth. 
Perhaps some of that could be focused on identifying the markets for 
illegal ivory. This might also provide important information to help 
identify the persons and organizations at the supplier end, noted in 
item 5, above.
    7.  The United States should provide financial and technical 
support to the Lusaka Agreement Task Force, a multi-national wildlife 
law enforcement agency in Africa. At present, there are six countries 
that have full membership in LATF: Congo, Kenya, Lesotho, Tanzania, 
Uganda and Zambia. Many other countries would be eager to join--but 
they cannot afford the modest cost. (Recall, Senegal National Parks 
with its $104,000 budget. Where would they find funds to pay annual 
membership in LATF?)
    U.S. partnership might be able to find an economical approach. For 
example, ECOWAS membership could bring in 17 countries perhaps at a 
negotiated reduced rate.
    LATF has been particularly effective, given its relatively small 
size and resources. Expansion would go a long way in providing law 
enforcement resources in the habitat countries that urgently need such 
assistance.
    8.  The United States should use its diplomatic resources to fight 
wildlife crime. Persons identified as commercial wildlife traffickers 
presently sit in ``safe haven'' countries where there is no risk of 
extradition to countries that have issued arrest warrants for them. The 
United States can assume a leadership role in working cooperatively 
with other countries in finding alternative methods of seeking 
justice--such as implementing any of the numerous financial laws and 
agreements enacted since 9/11. Criminals in safe havens may be 
susceptible to prosecution under any of the recent money laundering, 
financial transfers, assets reporting and other laws. These people may 
no longer reside in the countries where they violated wildlife laws, 
but it is very likely they are presently benefiting from the ill-gotten 
profits of those violations.
    9.  The United States should use its diplomatic resources to 
encourage other countries to apply meaningful penalties to persons 
convicted of serious wildlife crime. Persons convicted of serious 
violations--such as smuggling multiple tons of ivory valued at several 
millions of dollars--should be penalized with more than a suspended 
sentence and a small fine. Large volumes of unprocessed wildlife 
products (such as raw tusks, unprocessed skins, etc.) indicates the 
existence of major criminal enterprises in the importing counties--
enterprises required for manufacturing and process of the contraband, 
its marketing and distribution to large numbers of retail outlets. This 
is an indication that the convicted smuggler is linked to and supplies 
a major criminal syndicate. Therefore, small fines and suspended 
sentences are inappropriate. Trafficking of this nature also reflects 
an enormous loss to the habitat countries--not merely the endangered 
animals lost, but also the lives of wildlife rangers, and all the 
consequent criminalities: fraud, smuggling, corruption, weapons 
violations, etc., etc.--and because of the persistence of this problem, 
the cost of law enforcement. A small fine and a suspended sentence for 
a major violation with major international implications merits a very 
sharp international response.
II. What is the Interpol Working Group doing to reduce illegal wildlife 
        trade?
    Interpol's Working Group on Wildlife Crime has:
    1.  Championed and achieved the creation of a wildlife post at the 
Interpol General Secretariat in Lyon, France. Interpol Wildlife then 
raised funds required to support that post for three years (2006--
2009). This post is extremely important in coordinating many 
international responses to wildlife crime.
    2.  Created a forum for bringing wildlife law enforcement officers 
from around the world together on a regular basis to exchange 
information, create mechanisms for mutual assistance, and pursue 
cooperative projects. In 2007, the meeting also provided one day for 
stakeholders to participate (NGOs, scholars, et al.) to improve 
transparency and accountability. 2007 also marked the start of 
simultaneous interpretation, which means officers from non-English-
speaking countries could fully participate.
    3.  Initiated training programs. In early 2006, one training 
program in East Africa brought about senior 34 officers for specialized 
law enforcement training. This program included volunteer instructors 
from around the world, including the United States (U.S. F&WS S.A. 
Salvator Amato and U.S. EPA attorney Andrew Lauterback). Another 
exercise was conducted in early 2007. More training is presently being 
planned for wildlife law enforcement officers in West Africa and 
Southeast Asia.
    4.  Aviation support. The Interpol General Secretariat has provided 
grant support to an Interpol Wildlife project that is supplying a 
fully-restored patrol airplane (PA-18 Piper Super Cub) to an East 
African wildlife agency. The benefits of aerial patrol are noted above.
    5.  Project teams. Interpol Wildlife has several protect teams that 
focus on specific challenges of wildlife crime. Some are species 
oriented, such as the reptiles, shahtoosh and ivory teams. Others are 
more function oriented, such as the prosecution technical assistance 
team. Generally, these teams seek to pool resources and expertise in 
their efforts to target specific problems in illegal international 
trade in wildlife.
    6.  Projects. Interpol Wildlife conducts specific projects. 
Currently, one project is the preparation of an anti-smuggling guide 
that identifies approximately 30 common techniques used by wildlife 
smugglers, along with information on best practices on how to identify 
these techniques in the field, and what to do when a violation is 
identified. (N.B., this can be quite specific. For example, a suspected 
egg smuggler should be approached in a manner that prevents him from 
throwing himself on the floor or against a solid object--as 
professional smugglers would want to crush and intermingle all the 
eggs, thus preventing DNA analysis from verifying an endangered species 
and the consequent sentencing). The guide will be distributed to 
wildlife law enforcement and customs officers world-wide, and 
particularly in countries where training in these subjects is not 
particularly good.
    7.  Operations. Interpol Wildlife members cooperate in coordinated 
law enforcement operations against international syndicates involved in 
illegal wildlife trade.
III. Elephant Poaching--links to the Janjaweed militias in Sudan.
    I have worked with wildlife officials in Chad for more than a 
decade, including field work in Zakouma National Park, located in the 
southeastern part of the country about 200 miles from the Sudan border. 
Sudan's Darfur region lies just east of the border. Many Darfur 
refugees inhabit the land between Zakouma and the Sudan border.
    I have worked at providing equipment (motor vehicles, computer, 
field supplies, even a small patrol airplane) to Zakouma. I have also 
provided training programs and collected about four thousand dollars 
from friends and colleagues to be distributed among the widows and 
children of Zakouma park rangers killed in the line of duty. The 
rangers have no insurance.
    I have cultivated cordial relations with Chadian wildlife 
authorities over the years, and we discuss matters in a frank and 
friendly manner. My information concerning the Janjaweed comes from Mr. 
Abakar Mahamat Zougoulou, presently director of wildlife and protected 
areas in Chad (Direction de conservation de la faune et des aires 
protegees, Ministere de l'environnement et de l'eau, B.P. 905, 
N'Djamena, Tchad)
    Mr. Zougoulou's telephone number is 011 . 235 . 628-6448
    His email address is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="751417141e140758580f1a00121a00191a00350c141d1a1a5b1307">[email&#160;protected]</a> (Note: Chad's 
wildlife director is one of those many Africans who must rely on a 
local internet cafe for email communications).
    Mr. Zougoulou informed me that Janjaweed militias from Sudan and 
allies among Chadian rebel groups had penetrated into the Zakouma 
National Park area, using motor vehicles and automatic weapons. They 
had killed ``many hundreds'' of elephants in 2006 and 2007 and taken 
the ivory back to Sudan. During 2007, they had also killed seven 
rangers posted to Zakouma.
    I am uncertain where the ivory goes after it enters Sudan. Sudan 
has its own port on the Red Sea. It also has a border with Egypt where 
formerly there had been serious problems with ivory trafficking. Given 
the porous borders in the Horn of Africa, there is possibility of 
smuggling into Eritrea or onward to Somalia, where there is no 
functioning central government and consequently no effective customs 
controls on exports. And there are other possibilities.
    The core problem for Chad is the dynamics of the rainy season. 
During the dry season, nearly all the elephants in the region 
concentrate inside Zakouma's approximately 1,200 square mile habitat 
and they are reasonably well protected there. But when the rains come 
(in mid-year) the elephants naturally disperse across the 10,000+ 
square miles of the Salamat Region. The Zakouma rangers do not have the 
resources to provide effective coverage over such a large terrain, 
especially during the rainy season when there is wide-spread flooding.
    The patrol airplane that I delivered to Zakouma in 1998 has 
recently become unairworthy, the victim of decade of regular hard 
service in a very harsh environment. The Zakouma elephants are now more 
vulnerable.
    One of the attacks occurred on 15 May 2007 when a gang of militants 
attacked Zakouma park headquarters. Chadian authorities believe the 
militants were trying to gain access to the 1.5 tons of ivory 
stockpiled at headquarters (this was ivory recovered from both natural 
mortalities and law enforcement seizures). The attackers were repelled 
by the defending Zakouma rangers, three of whom were killed in the 
battle. Chad's President Idriss Deby subsequently incinerated the ivory 
to prevent it from attracting another attack.
    The area between Zakouma and the Sudan border has many Darfur 
refugees living there. Some estimate one million people. It is not 
difficult for Janjaweed and/or their Chadian rebel allies to circulate 
in this region and hide among those refugees.
Responses to Questions for the Record posed by Honorable Don Young 
        (R-AK)
1. How stringent are the laws in Israel?
    Israeli wildlife law is very stringent and enforcement is 
energetic. Below, I am copying a copy of the CITES Notification to the 
Parties which reports significant Israeli laws and policies that go 
beyond the requirements of CITES--often referred to as ``Stricter 
Domestic Measures.''
    Israel is a very small country (about the size of New Jersey), but 
nevertheless it supports important populations of wildlife. Among the 
large carnivores, there are populations of grey wolves (300+), striped 
hyena (200+) and leopards (several dozen). There are also large 
populations of small carnivores--jackals, foxes, mustelidae, mongooses, 
et al. Among the ungulates, there are about 8,000 mountain gazelles, 
and nearly 1,500 dorcas gazelles. There are several hundred free-
ranging reintroduced white oryx antelopes, Asian wild asses, 
Mesopotamian fallow deer, roe deer and ostriches. There are about 3,000 
Nubian ibexes. There are good resident populations of raptors, 
including golden eagles, fish eagles and griffon vultures (nearly the 
size of California condors) and many smaller raptors. More than one 
million raptors migrate through Israel twice a year, and they are all 
fully protected and very well documented.
    Israel has 327 nature reserves and national parks. Most are very 
small. But together, they comprise more than 21% of the total land area 
of the country. The Israel Nature and Parks Authority is responsible 
for all reserves and parks in the country, and all wildlife, regardless 
of where it might be found.
    All wildlife shipments, including non-CITES species, imported to or 
exported from Israel are subject permit authorization. Israel 
approaches a 100% inspection rate for live wildlife imports and exports 
(regardless of CITES classification), and a very high rate for 
inspection of ``parts and derivatives'' of wildlife.
    Israel Nature and Parks Authority rangers are law enforcement 
officers with police powers. There is extensive basic and in-service 
training.
    Israel cooperates on a bi-lateral basis with wildlife agencies in 
many developing countries and has sent rangers abroad to teach courses 
as diverse as tactical radio communications, field hygiene, flight 
safety and proficiency, and use and care of night vision instruments.
    Following are Israel's ``stricter domestic measures'' for CITES:
CONVENTION ON INTERNATIONAL TRADE IN ENDANGERED SPECIES OF WILD FAUNA 
        AND FLORA
NOTIFICATION TO THE PARTIES
International Environment House--Chemin des Anemones--CH-1219 
        Chatelaine, Geneva--Switzerland
Tel: +41 (22) 917 81 39/40--Fax: +41 (22) 797 34 17--Email: 
        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="02616b76677142776c67722c616a2f2f556760">[email&#160;protected]</a>: http://www.cites.org
No. 2004/025 Geneva, 30 April 2004
CONCERNING ISRAEL
    Stricter domestic measures concerning import and export of wild 
fauna and flora
     1.  The Secretariat has been requested by the CITES Management 
Authority of Israel to inform the Parties of its new regulations that 
impose stricter domestic measures concerning the import and export of 
wild fauna and flora, in accordance with Article XIV, paragraph 1, of 
the Convention. These measures include the following points.
     2.  Israel prohibits the import of any animal that, in the opinion 
of the Scientific Authority of Israel, may become an invasive species 
and represent an ecological risk to its native fauna and flora.
     3.  Israel prohibits the import for commercial purposes of wild-
caught specimens of species included in Appendix II or III. Exceptions 
may be made inter alia when appropriate documentation shows that such 
an import is not detrimental to the survival of the wild population in 
the exporting country.
     4.  Israel treats all Appendix-I species in accordance with the 
provisions of Article III of the Convention and does not apply the 
special provisions of Article VII, paragraph 4.
     5.  Israel prohibits the export of specimens of its native 
wildlife. Exceptions might be made inter alia for scientific or 
educational purposes.
     6.  Israel does not allow falconry.
     7.  Israel prohibits the import of specimens of wildlife for 
circus activities.
     8.  Israel prohibits the import and export of primates as pets.
     9.  Israel prohibits the import of poisonous animals or plants 
except under rare circumstances.
    10.  All applications for import and export are considered on a 
case-by-case basis.
    11.  The Parties are requested to take note of the above 
information and to assist in ensuring that all wildlife trade to and 
from Israel is in accordance with these measures.
    12.  This Notification replaces Notification No. 2000/003 of 31 
January 2000.
2.  Concerning the caviar case mentioned by Mr. Sellar.
    I am unaware of the details of this particular case. Perhaps this 
question is better posed to Mr. Sellar.
3. How would I describe Kenya's wildlife conservation program?
    Kenya has a very good wildlife conservation, particularly under the 
circumstances that have existed in recent decades.
    Yes, Kenya did prohibit sport hunting and most other wildlife trade 
in 1976. Trying to protect the supply does not necessarily mean they 
can stop the demand. It is the responsibility of countries in the 
industrialized world, which provide the financial incentives, to stop 
the demand created by their own citizens. I think the U.S. does a very 
good job with law enforcement, and makes credible efforts to suppress 
illegal imports. However, I also think the U.S. does not do enough to 
educate its population not to purchase protected wildlife that evades 
enforcement controls.
    I do not agree that Kenya has one of the worst wildlife 
conservation programs on the continent, and I do not think that the ban 
on hunting has much to do with the commercial poaching that goes on in 
Kenya. Rather, I think the factor of greatest influence is its 
proximity to countries such as Somalia and Sudan, and the intrusion of 
heavily armed commercial poaching gangs.
    Despite persistent challenges from foreign poaching gangs, and the 
loss of many KWS rangers in gunfights with these gangs, Kenya provides 
reasonably good protection for its wildlife. Elephants, a preferred 
target of the Somali poaching gangs, have increased their numbers in 
Kenya in recent years--doubling their population since the crisis times 
of 1990. I think a very commendable job has been done in the face of 
serious challenges and inadequate support.
4. Concerning Interpol's Ecomessage.
    Ecomessage is a format-oriented report that supplies environmental 
(including wildlife) law enforcement data to Interpol's computerized 
database. It is the only international ``nominal'' database on 
environmental crime--meaning it includes the names of both persons and 
business/organizations. There are multiple benefits to Ecomessage:
    A.  When a country files an Ecomessage with details of a particular 
case, the data is automatically cross-referenced in Interpol's 
computers. ``Hits'' are reported back immediately. Thus, if the U.S. 
sent an Ecomessage reporting Mr. A being arrested for smuggling 
wildlife, that information would be cross-referenced and, if Mr. A was 
in the database--for example if he had been convicted three years ago 
for smuggling other contraband into another country--that information 
would be reported back to the U.S. This facility is attractive to 
prosecutors, who have particular interest in repeat offenders.
    B.  The Ecomessage database can also be analyzed to help target 
particular international syndicates involved in criminal activities. 
Through recent years, the Ecomessage database has been analyzed to 
target syndicates dealing in reptiles, live primates and elephant 
ivory. These analyses have produced arrests and convictions, as well as 
the break-up of syndicates.
    C.  Ecomessage is also a good way to compile wildlife crime data 
that can provide a global perspective. Generally, wildlife law 
enforcement around the world tends to be under-staffed and under-
funded. This means it should rely more heavily on intelligence-led 
policing (economy of resources). Ecomessage is the only existing 
mechanism for doing this on an international scale. As wildlife crime 
has ``globalized'' dramatically in recent years, there is compelling 
need to create an annual international wildlife crime estimate that 
maintains a credible monitor on the magnitude, structure and dynamics 
of wildlife crime. This would be the best way to establish global 
priorities and to seek the cooperation of specific international 
partners.
5.  How would Ecomessage work better than CITES reporting?
    CITES has discontinued its TIGERS database on wildlife crime, 
leaving Ecomessage as the world's only nominal database on wildlife 
crime.
    Ecomessage has better prospect of success for several reasons:
    A.  The Interpol Wildlife Group rewards countries that submit good 
Ecomessages. In conjunction with each CITES Conference of the Parties, 
Interpol presents an Ecomessage Award--a nice plaque and a non-cash 
$30,000 award which can be used for equipment and/or training. The most 
recent Ecomessage Award was presented to Cameroon and Hong Kong for 
their good cooperation on an ivory seizure. The financial part of the 
award went entirely to Cameroon and a training program is presently 
being planned.
    B.  I hesitate to use the term ``peer pressure''--perhaps the 
concept of ``peer encouragement'' is better. When significant wildlife 
seizures are made, friendly encouragements are made to countries 
involved to submit an Ecomessage reporting the details. This is done in 
a friendly, if sometimes pro-active and persistent, manner. And many of 
the persons responsible for Ecomessage gather annually at the Interpol 
Wildlife annual meeting when notes are compared and further 
encouragements made.
    C.  Ecomessage is produced by law enforcement offices, via their 
respective Interpol National Central Bureaus. These often are not the 
same persons who participate at CITES, where a CITES management 
authority is represented by an administrative official. Some CITES 
administrators see Ecomessage reports as just another bureaucratic form 
to complete. But law enforcement officers sometimes view Ecomessage 
reports as the exchange of vital information that will help them with 
their jobs. Law enforcement officers tend to be better motivated in 
such exercises than their administrative colleagues.
6.  Only two officers employed full time--
    This is in Mr. Sellar's testimony, and not mine. And I have a 
somewhat different perspective.
    It is true that John Sellar is CITES' only wildlife law enforcement 
officer, and that Peter Younger is the only wildlife law enforcement 
officer at the Interpol General Secretariat.
    However, there many other persons around the world who are involved 
with wildlife law enforcement at the international level. The U.S. Fish 
and Wildlife Service certainly invests significant time and effort on 
international cases and international training, and has had numerous 
successful prosecutions involving nationals of various countries. 
Several other national wildlife agencies also contribute significantly 
to the international effort.
    More than three-quarters of my own time at the Israel Nature and 
Parks Authority is focused on international wildlife law enforcement--
mostly on projects of the Interpol Working Group on Wildlife Crime.
    There are also regional wildlife law enforcement agencies, such as 
the Lusaka Agreement Task Force in Africa, and the ASEAN-Wildlife 
Enforcement Network in Southeast Asia that have full-time secretariats.
    And there are others engaged in efforts to suppress international 
wildlife crime--including many NGOs that conduct international training 
programs. In fact, to date, only NGOs have provided financial resources 
to support the Interpol staff position, and only NGOs have provided 
financial resources required to bring officers from developing 
countries to Interpol Wildlife meetings.
    That said, NGOs are charities with very limited budgets, especially 
when compared to the resources of governments. There is very great need 
for governments to assume greater share of the burdens of international 
law enforcement.
7.  Concerning the CITES Enforcement Expert Group reviewing the use of 
        international officers to address global wildlife crime and 
        recommend measures to fund this type of enforcement.
    I enthusiastically agree!
8.  Other options.
    There is need for initiatives in several areas:
    A.  Substantive assistance to wildlife law enforcement agencies in 
developing countries. This needs to be both with training and 
equipment. Wildlife rangers and wardens are the first and most 
important line of defense for wildlife. Once the poachers get past 
them, the animals concerned are already ``ecologically dead''--whether 
captured dead or alive, these animals are no longer functioning parts 
of their ecosystems and no longer an asset to Nature.
    B.  Greater cooperation with Interpol and other international law 
enforcement agencies that address issues of wildlife crime--including 
regional agencies such as LATF and ASEAN-WEN. Wildlife crime has 
globalized. The supply usually comes from developing countries, and the 
market is usually in industrialized countries. There are multi-national 
criminal syndicates (some involved with politically-inspired violence) 
that instigate important parts of this trafficking. The U.S. should 
cooperate more vigorously internationally, just as it cooperates 
vigorously to confront other international criminal challenges, such as 
drugs or organized crime.
    C.  The United States should use ``peer encouragements'' with other 
countries, applying diplomatic persuasion to encourage those that do 
not apply meaningful enforcement--including penalties for persons 
convicted of serious wildlife crime--to make appropriate reforms.
    D.  The United States should use its skills and leadership in 
fighting financial crime and apply them against individuals and 
syndicates involved in major wildlife crime. Estimates invariably set 
the ``value'' of wildlife crime in the billions of dollars annually. 
Yet hardly any international financial instruments are applied against 
these criminals at either the prosecution level or the asset recovery 
level.
                                 ______
                                 
    The Chairman. Thank you.
    Dr. Moritz?

 STATEMENT OF DR. WILLIAM E. MORITZ, DIRECTOR OF CONSERVATION 
   AND ACTING DIRECTOR OF GOVERNMENTAL AFFAIRS, SAFARI CLUB 
                         INTERNATIONAL

    Mr. Moritz. Good morning. My name is Dr. William Moritz, 
Director of Conservation for Safari Club International 
Foundation, SCIF, and Acting Director of Government Affairs for 
Safari Club International, SCI. Thank you for the invitation to 
appear this morning.
    SCI is the leader in protecting the freedom to hunt and 
promoting wildlife conservation worldwide. SCIF funds worldwide 
programs dedicated to wildlife conservation, outdoor education 
and humanitarian services.
    Mr. Chairman, the most important point we would like to 
make today is that poaching is not hunting. All too often, 
media accounts use the terms interchangeably. The illegal 
wildlife trade by its very definition involves only poachers, 
not hunters.
    We would also like to make clear that SCI and SCIF do not 
tolerate or condone violations of the law, whether in the U.S. 
or abroad. Hunting is a sporting activity that is bound by law, 
regulations and ethics. Hunters are conservationists. Because 
we abide by the rules established by wildlife management 
agencies and because the fees and taxes that we pay for hunting 
licenses and equipment are the single largest source of funding 
for conservation worldwide, we condemn poaching in the 
strongest possible terms.
    We go beyond rhetoric to action. SCIF and SCI engage in 
many efforts to oppose poaching because poaching is contrary to 
conservation. In many countries, sport hunters are accompanied 
by government wildlife officials. The cost of this is borne by 
the hunter gladly and willingly.
    The United States has a very potent weapon to deal with the 
illegal taking of wildlife, the Lacey Act. The Lacey Act has 
been extended to cover the importation of or commerce in 
wildlife taken, transported or sold in violation of the laws of 
other countries.
    The penalties under the Lacey Act are very significant: 
$10,000 for civil penalties and up to $100,000 for misdemeanors 
and even $250,000 for felonies committed by individuals. Fines 
for organizations are even higher, and jail time is possible as 
well.
    SCI and SCIF have long supported the vigorous enforcement 
of wildlife laws. In relation to CITES, SCI provided $50,000 
for the development of an identification manual for customs 
officers and provided technical assistance in the preparation 
of the manual, and we have just completed a three year donation 
to support a wildlife enforcement officer position in Interpol. 
We recognize and appreciate the hard work of the Fish and 
Wildlife Service in the work that they do in this arena.
    Where regulated sport hunting is legal, it is a consistent 
form of revenue for local communities, and wildlife populations 
flourish. Many communities have begun community-based natural 
resources programs which are successful because they create a 
financial incentive to the rural communities to actively 
conserve wildlife.
    Here are some facts and figures on the positive impact of 
hunting in Africa: Hunting generates $200 million annually in 
remote rural areas of Africa in 23 countries. Private hunting 
operations conserve wildlife on 540,000 square miles, which is 
22 percent more land area than is found in the national parks 
of Africa.
    According to the National Geographic, hunting is of key 
importance to conservation in Africa by creating financial 
incentives to promote and retain wildlife as a land use over 
vast areas.
    Particularly in Africa, the financial incentive to co-exist 
with wildlife is the central reason why so many species are now 
recovering, especially elephants, rhinos and lions. In 23 
southern African nations that permit regulated hunting, we see 
a trend of positive species population growth. In countries 
like Kenya where sport hunting does not exist, population 
levels are unsurprisingly very low.
    Let me end by reiterating our main point. Poaching is not 
hunting, and sport hunters do not poach. Sport hunting remains 
one of the few ways to generate money for wildlife management 
in other countries, and it is an important incentive for the 
conservation of wildlife.
    Through the presence of hunters, hunt operators and 
government officials in the field, and particularly through the 
economic stability that it can bring to remote rural areas, 
sport hunting plays a key role in combating the negative 
effects of poaching.
    Where poaching does exist, the Congress has already created 
substantial penalties for those who engage in the illegal 
wildlife trade. SCI strongly supports vigorous enforcement of 
these laws, and if law enforcement agencies need more resources 
to enforce these laws, let us make sure they have them.
    Thank you, and I will be happy to answer any questions at 
the end of the panel.
    [The prepared statement of Mr. Moritz follows:]

Statement of Dr. William Moritz, Director of Conservation, Safari Club 
International Foundation, and Acting Director of Governmental Affairs, 
                       Safari Club International

    Good morning. My name is Dr. William Moritz, Director of 
Conservation for Safari Club International Foundation (SCIF) and acting 
Director of Governmental Affairs for Safari Club International (SCI). 
SCI protects the freedom to hunt and promotes wildlife conservation 
worldwide. SCIF funds and manages worldwide programs dedicated to 
wildlife conservation, outdoor education and humanitarian services.
    Mr. Chairman, the most important point that we would like to make 
to the Committee is that poaching is not hunting. All too often, media 
accounts of poaching magnificent animals such as the mountain gorilla 
refer to the activity as ``hunting.'' Hunting is a sporting activity 
that is bound by law, regulations, and ethics. Poaching is not a 
sporting activity; it is unlawful and therefore unethical. SCI and SCIF 
would like to commend the U.S. Fish and Wildlife Service for their 
commitments towards reducing poaching.
    Poachers are not hunters. Poachers kill or capture wildlife 
indiscriminately, without limits or controls, in violation of law and 
with complete disregard for the welfare of the wildlife species. 
Hunters are conservationists. SCIF and SCI engage in many efforts to 
oppose poaching because poaching is contrary to conservation. If these 
efforts enhance the security interests of the United States or of any 
other peace-loving country which is home to sport hunters, then the 
hunting community is serving many purposes.
    The U.S. has a very potent weapon to deal with the illegal take of 
wildlife--the Lacey Act. The Lacey Act has been extended to cover the 
importation of or commerce in wildlife taken, transported or sold in 
violation of the laws of other countries. The penalties under the Lacey 
Act are very significant--$10,000 for civil penalties, and up to 
$100,000 for misdemeanors and $250,000 for felonies committed by 
individuals. Fines for organizations are even higher and jail time is 
possible as well.
    In the world of sport hunting, we are dealing with the sustainable 
take of a few animals, from a few species, under strict legal, 
administrative and ethical limitations. Sport hunting makes a positive 
contribution that helps to limit or eliminate illegal wildlife trade by 
being the eyes and the ears of the enforcement community and by 
economic contributions to wildlife management and local communities. As 
I just pointed out, in many countries sport hunters are required to be 
accompanied by government officials such as rangers. The cost of the 
ranger is borne by the hunter. Additionally, the continual presence of 
the hunt outfitter in the hunting area assures that roads are kept open 
and that people will see and report illegal activity observed during 
wildlife management activities. Many hunt outfitters have programs and 
fund activities to combat poaching and to eliminate the presence of 
poachers in their hunting areas.
    Sport hunters have a long and proud tradition of supporting 
wildlife conservation, including the enforcement of hunting seasons and 
quotas for harvest. Through the Pittman-Robertson Act in the United 
States, federal excise taxes on hunting licenses and equipment paid by 
hunters have been distributed to all fifty states for more than seventy 
years. Funds used by the states for matching grants under Pittman-
Robertson are largely funded by license fees.
    The story overseas is similar. Although there is no analogue to the 
Pittman-Robertson program in any other country, the money spent by 
sport hunters goes to provide operating funds for wildlife agencies in 
many countries. Perhaps more importantly, the benefits of sport hunting 
that flow to local people provide incentives for them to resist the 
presence of poachers. Through jobs, direct payments to villages, the 
provision of funds from hunting for civic projects in rural villages, 
and the provision of meat from game animals, sport hunting provides 
many benefits and gives value to the wildlife. The rural people who 
live in association with this wildlife are more likely to refuse to 
tolerate poaching if they understand that the poachers are robbing them 
of something of value.
    SCI and SCIF have long supported the enforcement of wildlife laws. 
In relation to CITES, SCI provided $50,000 for the development of an 
identification manual for customs officers and provided technical 
assistance in the preparation of the manual. We have just completed a 
three-year donation to support a wildlife enforcement officer position 
for Interpol. We have also signed on as a supporter of Countdown 2010, 
an effort by the international conservation community to meet many 
biodiversity goals by the year 2010.
    Let me go back to the role of sport hunting today in many 
developing countries. It is these countries where wildlife tends to 
persist due to the very lack of development that makes those same 
countries subject to the negative effects of poaching. Using southern 
Africa as an example, sport hunting has been one of the main economic 
engines in rural communities that co-exist with wildlife on a daily 
basis. In many countries of southern Africa, agrarian or pastoral 
economies cannot flourish due to limited cultivatable or grazing land. 
In these areas, regulated sport hunting has been a consistent form of 
revenue for local communities. To take better advantage of sustainable 
wildlife use, many governments have begun Community Based Natural 
Resources Programs. These programs, in essence, devolve power from the 
central government so that locally created community councils can 
regulate and manage wildlife in their areas. These councils have the 
mission to utilize wildlife so that it remains a sustainable resource 
for their community.
    Successful programs have been developed across Africa including, 
but not limited to, Communal Areas Management Program for Indigenous 
Resources, otherwise known as CAMPFIRE in Zimbabwe, Living In a Finite 
Environment, known as LIFE in Namibia, and other programs headed by the 
Zambia, Botswana and Tanzania.
    These communal programs have been successful because they 
effectively create a financial incentive for the rural communities to 
actively conserve wildlife. Revenue retention schemes ensure money 
generated from sport hunting ends up in the hands of indigenous people. 
In the case of sport hunting in southern Africa, communities in the 
most rural portions of countries reap the benefit of living communally 
and sustainably utilizing wildlife through Community Based Natural 
Resource Programs.
    Here are some facts and figures on the positive economic impact 
that sport hunting has in Africa.
    1.  Trophy hunting by 18,500 hunters generates U.S. $200 million 
annually in remote rural areas of Africa in 23 countries. Private 
hunting operations conserve wildlife on 540,000 square miles, which is 
22% more land than is found in the national parks of Africa. (Lindsey, 
Conservation Biology, 2007)
    2.  ``Trophy hunting is of key importance to conservation in Africa 
by creating [financial] incentives to promote and retain wildlife as a 
land use over vast areas...''. (National Geographic News, March, 2007)
    3.  In Namibia, 29 conservancies involve almost 150,000 rural 
individuals through trophy hunting, conservancy management or secondary 
industries.
    4.  The Zambian Wildlife Authority works with safari operators to 
ensure that as part of their contract they must develop and manage 
roads, employ Zambian Professional Hunters or Apprentice Hunters, 
ensure that a minimum of 80% of labor comes from neighboring 
communities, develop local infrastructure, notably schools, clinic and 
wells, and employ Zambian game scouts to manage both wildlife and 
poaching
    5.  CAMPFIRE has taken strides to restore natural resource use 
rights to 600,000 of the poorest people in Zimbabwe.
    6.  Sport hunting employs approximately 3,700 people annually 
(www.tanzania.go.tz/) and supports over 88,000 families (Hurt & Ravn 
2000) in Tanzania.
    Particularly in Africa, creating an incentive to coexist with 
wildlife has been a central reason why so many populations of species 
are now thriving, especially elephants, rhinos and lions. Of the 23 
southern African nations that have regulated hunting, a trend of 
positive species population growth has been reported. The growing 
population of white rhino has been one of the most notable success 
stories. Unsurprisingly, in countries like Kenya, where wildlife 
utilization by indigenous people is extremely limited and where sport 
hunting does not exist, wildlife population levels continuously decline 
and are low. Trophy hunting in Kenya was banned in 1977 and this ban 
has resulted in an accelerated loss of wildlife due to the removal of 
incentives for conservation (Baker 1997; Lewis & Jackson 2005). Some 
reports have alluded to a loss of nearly 60% of Kenya's wildlife since 
the start of the ban.
    In recognition of the important role of sport hunting in wildlife 
conservation, our organization was recently granted non-government 
observer status by the United Nations and the United Nations Economic 
and Social Council (ECOSOC). SCIF also participates in the 
deliberations of the CITES treaty on wildlife trade and the Convention 
on Biological Diversity
    Let me end by reiterating our main points: poaching is not hunting, 
and sport hunters do not poach. Sport hunting remains as one of the few 
ways to generate money for wildlife management in other countries, and 
is an important incentive for conservation of elephants and other 
species. Through the presence of hunters, hunt operators and government 
officials in the field, and particularly through the economic stability 
that it can bring to remote rural areas, sport hunting plays a key role 
in combating the negative effects of poaching.
    SCI and SCIF in partnership with the hunting community will 
continue to work toward outright elimination of illegal poaching. Thank 
you for the opportunity to contribute to this important conversation.
                                 ______
                                 

 Response to questions submitted for the record by William E. Moritz, 
Director of Conservation, Safari Club International Foundation & Acting 
      Director of Governmental Affairs, Safari Club International

Questions for the record from The Honorable Don Young (R-AK)
(1)  Dr. Moritz, you've testified that SCI is very involved with 
        wildlife management in Africa. Are there any instances where 
        SCI has worked with the actual governments of Africa and 
        especially with their ministries of natural resources?
    Safari Club International has many years of experience working with 
various African governments, especially those in sub-saharan Africa. 
Our efforts take two basic forms: improving the information about 
wildlife species through financial support of field surveys, and 
through increasing the management capacity of governments through 
training, educational brochures, and multigovernmental collaboration.
    Most recently, we have financially assisted governments in the 
development of regional lion and elephant management strategies as well 
as provided technical assistance to the governments of individual 
countries including Zimbabwe, Namibia, Botswana and Tanzania in 
developing national strategies for lion. We are assisting the 
government of Mozambique with the development and execution of a 
national lion population survey.
    For the past 6 years, we have sponsored a forum where governmental 
officials from up to 14 African countries come together to discuss 
various issues of wildlife management. This forum also includes 
representatives from CITES, TRAFFIC, IUCN, Campfire, and the hunting 
community so that stakeholders are involved in the discussions and 
recommendations that arise. In 2007, nine countries, six professional 
hunting organizations, CITES, TRAFFIC, and SASUSG assembled to discuss 
the updated elephant status report, CITES issues, and approaches to 
human/lion conflicts outside of wildlife preserves.
(2)  Dr. Moritz, you made references to community based conservation in 
        your talk, can you explain more about the program?
    The object of community-based conservation is to incorporate 
improvement to the lives of local people through the conservation of 
wildlife and their habitats. If local communities see local animals as 
a way to improve their lives, then the community will make efforts to 
protect those animals from poaching, land fragmentation, and land 
clearing. If animals have no value to the community, then individuals 
are more likely to put their own personal interests ahead of the 
community and make personal decisions that negatively affect wildlife, 
such as poaching. With protection at the local level in several linked 
areas, species will persist and grow.
    Community based conservation includes local people in both the 
development of conservation approaches (participatory management) and 
in the economic benefits derived. Wildlife managers have reported that 
individuals are more likely to adhere to preset quotas if they are 
involved in the establishment of quotas and see the tangible benefits 
to the community. Wildlife benefits because local people often have a 
better knowledge of local population status and will make more informed 
decisions about sustainable uses of those resources. In countries where 
government stability is uncertain, investments in local communities add 
stability to wildlife management decision-making.
(3)  Why is it important that wildlife have an economic value and what 
        are the benefits of legal sport hunting?
    In many countries around the world, people and communities cope 
with survival on a daily basis. In developing countries in particular, 
where there are often higher numbers of wildlife than in more developed 
areas, governments do not have sufficient funding to deal with social 
welfare issues or with wildlife conservation. Infusions of hard 
currency through forms of sustainable ecotourism, such as regulated 
hunting and wildlife photography, improve the quality of life through 
employment, infrastructure development, and education.
    Regulations that limit development and wildlife utilization 
effectively eliminate incentives for local people to manage in a 
sustainable manner. When legal markets are restricted, people resort to 
illegal uses of animals or alternative land-use decisions which may 
have irreversible impacts to the wildlife occurring on the landscape.
    Legal sport hunting begins with the requirement that quotas are 
established to ensure offtakes are sustainable and consistent with 
population goals. Seasons are set and licensing is required, so that 
the amount of effort to take wildlife is limited. License and trophy 
fees provide revenue to governments, to fund wildlife conservation, and 
in many countries a share of the revenue also goes to local people to 
improve livelihoods or living conditions. The opportunity to harvest a 
limited number of a highly desired species creates a market demand 
that, when correctly used, generates necessary revenue for management 
of the species and for community enrichment. Safari Club International 
has supported these approaches to conservation for many years.
(4)  Dr. Moritz, in your testimony you assert that hunting actually 
        increases wildlife populations in other countries, which may 
        seem counterintuitive to many people. Is that also the case 
        here in the United States? Can you explain that further?
    Hunting has served as a management tool to keep wildlife 
populations in balance with habitat, and ecosystem health has been 
protected. In areas where hunting has been eliminated as a management 
tool, managers struggle to keep species such as white-tailed deer in 
balance with the habitat and the subsequent degredation of habitat. 
Once the habitat is degraded, the carrying capacity of the habitat for 
many species may be negatively affected. Wildlife benefit from careful 
management of the size of animal populations.
    In the late 1800's and early 1900's, hunters demanded and received 
restrictions on wildlife harvest that included the end of commercial 
use, fees to support conservation efforts, and even a luxury tax on the 
equipment used for hunting. That system is enshrined in the Pittman-
Robertson Act and similar federal laws which make matching grants to 
state wildlife agencies for wildlife conservation. The matching money 
for those grants comes primarily from hunters, in the form of hunting 
license and tag fees. Thus that original spirit of conservation 
continues today, with hunting fees providing the single largest source 
of funding for conservation of wildlife and wildlife habitats. In 
addition, sportsmen's groups such as SCI carefully monitor Pittman-
Robertson and the other similar laws and their implementation, to 
assure that they are not modified in a harmful way and that they are 
implemented as intended.
    Hunters are also active at the state level, where they interact 
directly with the state wildlife agencies to support scientifically-
based limitations on hunting, reintroductions, wildlife disease 
management, and habitat improvement activities. This combination has 
led to many of our nation's wildlife conservation success stories, 
including some of today's most populous species such as white-tailed 
deer, Canada geese, and black bear. The white-tailed deer, for example, 
was nearly extinct in the U.S. in the early 1900s, along with the 
beaver, elk, moose and wild turkey. The support of hunters for 
scientific wildlife management by the states through funding mechanisms 
such as Pittman-Robertson, the payment of license fees, and political 
support for the necessary conservation actions have been largely 
responsible for the resurgence of wildlife populations in the U.S.
    Quoting from the Economist (March 8, 2008 page 87), ``In essence, 
there are two sorts of possible response to the question of how to 
conserve endangered species-apart, that is, from doing nothing. One is 
the command-and-control mechanism: trade bans are examples of these. 
They can work, but they tend to be inefficient because they fail to 
take into account the response of human beings to economic incentives. 
The alternative is to try and harness the incentives that command-and-
control ignores. Economic incentives may include removing subsidies for 
conversion to agricultural land, differential land-use taxes, 
conservation subsidies, individual transferable quotas, and communal 
property rights. They are all part of a growing economic toolkit for 
encouraging conservation while minimizing the cost of doing so.''
                                 ______
                                 
    The Chairman. Mr. Pueschel?

  STATEMENT OF PETER PUESCHEL, ILLEGAL WILDLIFE TRADE PROGRAM 
        DIRECTOR, INTERNATIONAL FUND FOR ANIMAL WELFARE

    Mr. Pueschel. Thank you. Mr. Chairman and Members of the 
Committee, thank you for conducting this investigation into the 
global illegal wildlife trade. My name is Peter Pueschel, and I 
am the Director of the Illegal Wildlife Trade Program from the 
International Fund for Animal Welfare.
    We have been working to stop detrimental exploitation of 
animals and wildlife for almost 40 years. The illegal wildlife 
trade has become a massive global industry with profoundly 
negative impacts for protecting endangered species, for 
maintaining ecosystem integrity, for conserving biodiversity 
and for securing human livelihoods.
    It is believed to be a major worldwide criminal enterprise 
on par with drug trafficking and arms trade, if not in terms of 
total revenue produced then in gravity. Often the same criminal 
circles are involved in illicit trade in drugs, weapons and 
even humans, as well as in wildlife, as we have heard from 
others as well.
    That these links exist may be less surprising when 
recognizing how profitable and with how little risks this dirty 
business can be conducted. Various governmental and 
nongovernmental agencies have estimated that the illegal 
wildlife trade may be worth in excess of $20 billion U.S. 
annually, and some even estimate it perhaps a little bit 
higher.
    The profitability on a global scale, the sheer volume of 
the trade and the need for international networks is drawing in 
highly organized criminal and militant organizations of all 
kinds, possibly even terrorist troops.
    Examples of the varying complexity of the criminal networks 
involved include elephant poaching in China tied to Sudan's 
Janjaweed militias or poaching of rhino and other wildlife in 
Kenya linked to Somali warlords, worldwide bear poaching 
connected to multinational organized crime syndicates and tiger 
and other big game poaching in South and Southeast Asia linked 
to local and regional militant groups, just to name a few.
    Organized syndicates trade in high numbers and massive 
shipments. Just one example is ivory. In 2006 and 2007, over 47 
tons of ivory were seized in large scale shipments alone. This 
reflects an unprecedented high volume since the international 
trade in ivory was banned in 1989 and a market value of about 
$40 million.
    But this also reflects the death of 20,000 or more adult 
elephants a year, and it reflects the loss of biodiversity and 
the loss of natural habitats in many countries in Africa. With 
it goes the loss of livelihoods and future security.
    It is no secret that all along armies, rebels, militant 
groups, like in Africa, have funded actions using revenue 
generated from culling mass numbers of elephants and selling 
the ivory. Officials are concerned that Central and West 
Africa, a well-known problem area for poaching and large-scale 
illegal wildlife trade trafficking, may become a, as they say, 
hotbed of crime and potential terrorism.
    Similarly, Janjaweed militants and Somali warlords in East 
Africa, two groups that have been associated with terrorist 
activity, have been involved in poaching in China and Kenya to 
benefit from the tremendous profits from trading in ivory, 
rhino horn and other wildlife products.
    The links between the wildlife trade and organized crime 
and military conflicts are clear. The links to terrorism have 
yet to be clearly determined, possibly because no one is really 
looking at the issue. The tremendous consequences may have been 
much underestimated. With this I mean the ecological and social 
consequences from losing wildlife on the one hand and those 
from bringing unregistered billions of dollars in profits to 
dubious and dangerous organizations on the other. This is what 
I believe is the real issue.
    One obvious question for those involved in tracking and 
analyzing the illegal wildlife trade and other international 
criminal activity is where does that money go? The United 
States and other governments and responsible international 
bodies should allocate the resources necessary to combat 
illegal wildlife trade from poaching to trade in consumer 
countries like the United States from improved enforcement to 
public education and the development of economic alternatives.
    It is important for us to study how strong the connections 
between wildlife and crime are to determine what threats those 
connections may pose and to develop strategies for confronting 
these threats.
    I apologize if I had a few repetitions with other speakers 
already, but I think that lies in the nature of the issue, and 
I would refer for more details also to my written testimony.
    Thank you again, Mr. Chairman, for calling attention to 
this very important issue. I look forward to answering any 
question you or other Committee Members may have.
    [The prepared statement of Mr. Pueschel follows:]

 Statement of Peter Pueschel, Illegal Wildlife Trade Program Director, 
              International Fund for Animal Welfare (IFAW)

    Mr. Chairman, Ranking Member Young, and Members of the Committee, 
thank you for conducting this investigation into the global illegal 
wildlife trade. My name is Peter Pueschel and I am the director of the 
illegal wildlife trade program at the International Fund for Animal 
Welfare.
    IFAW has been working to stop the commercial exploitation of 
animals and wildlife for over 40 years. From our 16 offices around the 
globe, we do our utmost to eradicate the cruel and ecologically 
unsustainable illegal trade in wildlife and protect animals from all 
threats imposed by commercial exploitation. To achieve this IFAW 
focuses on three overarching and interdependent spheres of activity.
    First, IFAW concentrates on strengthening international agreements 
such as the Convention on International Trade in Endangered Species of 
Wild Fauna and Flora (CITES) and on improving national legislation to 
provide a sufficient legal framework for action by national 
governments.
    Second, IFAW focuses on achieving better compliance with and 
enforcement of existing legislation, as legal protection represent 
little more than words on paper unless they are backed up by action. 
IFAW promotes partnerships with and among governments to create an 
effective wildlife enforcement response in-country. In collaboration 
with national governments, IFAW organizes and conducts wildlife trade 
enforcement seminars to train relevant officials in the technical 
aspects of wildlife enforcement.
    Finally, IFAW drives change through concerted, ongoing and 
committed public awareness campaigns, with the aim of educating 
consumers so that market demand decreases. Underscoring each activity 
is the notion that wildlife has an indispensable role to play for 
humanity. Decreasing the conservation and welfare problems created by 
the illegal wildlife trade is part of IFAW's institutional effort in 
creating a better world for animals and people.
    By all accounts, the illegal wildlife trade is very big business. 
Second only to the international trade in illegal drugs and arms, the 
illegal trade in wildlife is believed to be worth billions of dollars 
each year. Driving the trade is human consumption and greed, which 
together are devouring the Earth's living resources at an alarming 
rate. Globalization and worldwide economic growth is creating a level 
of consumer demand that is simply--and in short order--unsustainable.
    The African elephant is under threat of extinction because 
poachers, driven by a thriving black market in souvenir items such as 
carved ivory chess board pieces, slaughter thousands of elephants 
annually for their tusks. Wild tigers, numbering fewer than 5,000, wind 
up in traditional medicine, as trophies mounted in weekend hunting 
cabins, and in trendy ``tiger bone wine'' fermented with whole 
carcasses.
    In all too many cases, this human consumption has driven entire 
species to the verge of extinction. The loss of a species is more than 
just an emotional issue. It is also one of human survival. Balanced 
ecosystems influence our air, water, food and medicine, and any 
disruption to the balance threatens to deprive us of the elements 
critical to our very existence. Loss of biodiversity also impacts on us 
by jeopardizing the supply of raw materials necessary in the creation 
of life-saving drugs, thus limiting our ability to respond to new 
diseases.
    In reality, each souvenir made of ivory represents a dead elephant, 
and a luxury shahtoosh shawl for sale might represent the last Tibetan 
antelope. But unlike the more bloody events surrounding the whale or 
seal hunt, or the more heart wrenching issues associated with household 
pets in crisis, poaching of wildlife for commercial profit derived from 
luxury, non-essential items such as ivory figurines or rhinoceros bone 
for the most part occurs behind the scenes. Confronting the issue of 
illegal trade in wildlife is all the more challenging because the 
unsustainable slaughter and sale of vulnerable wildlife populations 
gets little attention compared to other high profile agendas.
    The impact of wildlife trade on animals is just easy to ignore. The 
impact of the illegal wildlife trade on humans, however, may not be so 
easy to ignore. The fact is, the illicit trade in wildlife is not only 
a serious global environmental crime with profoundly negative impacts 
for endangered species protection, ecosystem stability, and 
biodiversity conservation, but it is also a real and increasing threat 
to national and global security.
    An alarming proliferation in recent years of wild animals and 
animal parts taken illegally and exchanged through the black market 
across international borders has left law enforcement officials 
worldwide searching for ways to both stem an increasingly prolific area 
of international crime and stop the trade before it is too late for 
many endangered animals.
    No longer a problem localized to parts of the world where many lack 
access to basic resources, the illegal trade in wildlife has grown to 
become a massive global industry. It is believed to be on par with drug 
trafficking and the arms trade, if not in terms of total revenue 
produced for criminal enterprises, then in gravity.
    In fact, various governmental and non-governmental agencies such as 
INTERPOL have estimated that it may be worth in excess of $20 billion 
U.S. annually, or more. Much of this is in clandestine undertakings 
interwoven into a criminal industry that generates enormous levels of 
undocumented, untraceable revenue, the full scale of which may never 
really be known.
    Also anonymous are the perpetrators, as they conduct their 
nefarious activities in the shadows, behind locked doors, and often in 
conjunction with other dangerous criminal elements. The obvious 
question for those involved in tracking and analyzing the illegal 
wildlife trade and other international crimes is ``Where does the money 
go?'' The answer to that question may be more serious, and more 
insidious, than people think.
    The global illicit trade in wildlife is a dauntingly complex 
problem. Often folded into other illegal activities, its general low 
priority on the enforcement agenda provides additional incentive and 
less risk for criminals. But its impacts are well above the scale of 
mere petty crime. The trade feeds the black-market by taking advantage 
of the earth's rich biodiversity, pillaging wildlife resources beyond 
their sustainable capacity and turning them into commercial products.
    Big cat pelts, rhinoceros horns, elephant tusks, meat from primates 
and other bush species, pangolin scales, tortoise shells, bear gall 
bladders, shark fins--traffickers have a large variety of commodities 
to exploit depending on their resources, motives, and location in the 
world.
    The supply chain from animal source population to consumer is 
complicated, and uses for wildlife parts are broad, covering food 
(often expensive delicacies), traditional medicines, pets, decorations 
(including trophies), clothing, and fashion items. Species from across 
the animal kingdom are victims in this trade: fish, reptiles, birds, 
mammals, and amphibians.
    At times concealed under the rubric of legal trade or sheltered by 
intricate wildlife trade laws that may vary from country to country and 
differ according to national environmental policies, the illicit 
wildlife trade provides unique opportunities for criminals and imposes 
extra challenges for law enforcement. The global reach, the multitude 
of species and products involved and the expansion of the global 
marketplace as a result of the Internet make these criminal activities 
difficult to understand, trace or enforce.
    In recent years, a steady stream of worldwide media and 
governmental reports have begun to relay disquieting new details of the 
illegal trade in wildlife--its ties with violent crimes, large trade 
rings all over the world, and brazen attempts at smuggling animals and 
their parts over large distances. Wildlife traffickers have at their 
disposal an incredibly efficient and adaptable pipeline through which 
they can move wildlife and their derivatives from poacher to consumer.
    For example, in the summer of 2006, customs officials stopped a 
container of 2,849 pangolins, a medium-sized, scaly mammal that 
resembles an armadillo, and 2,600 large geckos, originating in 
Malaysia, from illegally entering China. For the seven month period 
from October 2005 to April 2006, the illegal trade in pangolins from 
one trafficking ring was valued at $3.2 million US. Early in 2008, two 
shipments with over 1,200 African grey parrots were seized from 
traffickers leaving Cameroon on their way to Bahrain and Mexico.
    There are numerous other incidents on record of massive shipments 
of illegal wildlife transported internationally, in some regions daily. 
This includes massive shipments of illegal elephant ivory, which I'll 
discuss in more detail later.
    Beyond the individual crimes being reported randomly in the news, 
often by small-scale collectors or drugs and arms smugglers trading in 
wildlife on the side, large-scale illicit trade in wildlife is where 
the big profits are being made. This high-value, high-volume illegal 
trade is occurring globally and requires the networks and skills of 
major organized crime to succeed.
    Some high-value illegal wildlife commodities are no longer 
available in massive quantities, and their value has increased with 
their scarcity. The illegal trade in ivory, rhino horn, and tiger 
parts, for example, continues to be highly profitable--perhaps more so 
because of the increasing rarity of the species that are poached for 
their parts.
    Elephants, rhinos and tigers are more challenging to capture and 
transport and their protected status is generally known, making every 
stage of this trade relatively more dangerous. For instance, any 
international trade in tigers or tiger parts is illegal. The trade is 
exclusively black-market--from killing the tiger to production and sale 
of its parts and derivatives, to the sale of tiger bone wine in a shop 
in China or San Francisco.
    In spite of the proven links with criminal syndicates, the enormity 
of scale and the potential for harm to both global biodiversity and 
public health, national and international legal frameworks and 
penalties are often slight or non-existent compared to those that 
address the illegal trade in drugs and weapons. The skills and networks 
required to illegally trade in wildlife, coupled with the lucrative 
profits, makes this type of trafficking highly attractive to serious 
criminals as a relatively easy method for generating funds, whether 
they be in parallel to or in support of other illicit trade dealings.
    The global scale of this trade in terms of profits, volume and an 
extensive network is drawing in criminal syndicates of all kinds. And 
now, in the wake of the events of September 11, 2001, concerns have 
been raised that a new profiteer from the illegal wildlife trade could 
be emerging, according to the worldwide news media, international 
intelligence agencies, and global police forces: local, regional, and 
global terrorist organizations.
    These reports, though at times vague or anecdotal, indicate that an 
increasing number of poaching incidents could be tied to organized 
crime or militias that, in turn, have ties to terrorist groups. 
Examples include elephant poaching in Chad tied to Sudan's Janjaweed 
militias, poaching of rhino and other wildlife in Kenya tied to Somali 
warlords, illegal shark finning operations off the coast of Costa Rica 
and worldwide bear poaching connected to multinational organized crime 
syndicates, and tiger and other big game poaching in South and 
Southeast Asia linked to local and regional militant groups, to name a 
few
    Many wildlife trade policy and enforcement experts from around the 
world agree on two things: 1) More resources are desperately needed to 
fully understand and ultimately combat the illegal trade in wildlife, 
and 2) If criminal elements, including terrorist groups, are not 
already using the wildlife trade as a source for revenue, they likely 
will be soon.
    Compared to other criminal activities and penalties, the low risk 
of detection and minimal consequences for perpetrating wildlife crime 
are attractive incentives to professional criminals. The degree of 
organized criminal involvement and methodology varies widely, depending 
on the species, its population size, market demand and geography.
    The legal trade in wildlife is itself used as a vehicle for the 
illicit trade--transporting illegal species instead of the legal ones 
or together within the shipments, using falsified documents, bogus 
species identification permits or false numbers. An Indonesian wildlife 
smuggler explained in a 2006 interview that they routinely pack a layer 
of legal turtles on top of the shipping crates and put thousands of 
illegal turtles underneath. Conversely, shipments of cocaine have been 
found concealed beneath legal shipments of live lizards into the 
Caribbean.
    In addition to incidents of drugs being smuggled within wildlife 
shipments, sometimes even sewn into animals' bodies, there are rising 
reports of illegal wildlife products being traded directly for other 
illegal commodities--namely drugs or weapons. A 2007 Wall Street 
Journal article reported mass quantities of illegally harvested abalone 
from South Africa being exchanged directly for methamphetamine from 
buyers in Hong Kong where abalone sells for over $200 U.S. a pound.
    As outlined by experts like John Sellar, CITES Senior Enforcement 
Officer, there are clear factors connecting groups and individuals in 
organized crime to operations in the illicit wildlife trade. These 
include: detailed planning, significant financial support, use or 
threat of violence, International management of shipments, 
sophisticated forgery and alteration of permits and certifications, 
well-armed participants with the latest weapons, opportunity for 
massive profits, and capacity to launder enormous amounts of cash.
    A United Nations report from 2003 on trafficking in protected 
species of wild flora and fauna explains, ``Even when organized crime, 
as such, is not fully involved, much of the trafficking is highly 
organized.''
    The trade in sturgeon caviar, for instance, has become so 
entrenched in illegal harvesting and trade that in 2007, officials 
representing CITES and the United Nations Environmental Programme 
(UNEP) World Conservation and Monitoring Centre decided that a database 
designed just to monitor the permits and certifications of caviar was 
needed. The UNEP report noted, ``Perhaps no sector of the illegal fauna 
and flora trade has been criminalized to the extent of that of sturgeon 
and caviar.''
    The U.S. Federal Bureau of Investigation (FBI) defines organized 
crime as:
    ``Any group having some manner of a formalized structure and whose 
primary objective is to obtain money through illegal activities. Such 
groups maintain their position through the use of actual or threatened 
violence, corrupt public officials, graft, or extortion, and generally 
have a significant impact on the people in their locales, region, or 
country as a whole.''
    By all accounts the global illegal trade in wildlife is organized 
crime. The stage this global black-market has reached in terms of 
networks, profits and operators, as well as its links to other 
trafficking syndicates, poses a substantial threat to international law 
and stability.
    Able to reach remote areas and wildlife habitats difficult to 
access, militias and military personnel have discovered that trading in 
valuable wildlife parts and derivatives generates extra income to fund 
military endeavors, including rebel militias. Leading up to the 
international ban on trade in ivory in 1989, when global attention 
focused on plummeting elephant populations, some African governments 
were known to have funded invasions and military quests using revenue 
generated from culling mass numbers of elephants and selling the ivory.
    Although international treaties such as CITES and domestic laws in 
elephant range-states make elephant poaching and dealing in ivory 
illegal, the model of using this trade to fund militias persists. In 
some cases, elephants are even being poached by rebels and militias 
using sophisticated weapons manufactured for human wars. In 2005, an 
African tour guide told the British Broadcasting Company that he had 
witnessed elephants being slaughtered with anti-tank weapons.
    Militias and military figures are able to illegally harvest and 
profit from wildlife with ease because governments and enforcement 
officials cannot contain them, or turn a blind eye to the problem, 
thereby empowering corruption in general. Global trade, technology and 
transportation are constantly becoming more sophisticated, providing 
and even facilitating the formation of the networks required to move 
illegal wildlife products like ivory from forest or savannah to market.
    With the ever-increasing purchasing power of the Chinese middle 
class and the seemingly insatiable appetite in Japan for ivory 
products, the burgeoning demand for elephant ivory shows no sign of 
abating. Studies of ivory seizures reveal that since the ivory ban was 
instated in 1989, large seizures of a ton or more increased in 
frequency and size, with more than 40 tons seized in 2005 and 2006 
alone. And, this may just be the tip of the iceberg.
    East, Central, West and even Southern African countries are heavily 
implicated as the source of most of this illicit market, with well-
established supply chains and routes particularly to China and Japan 
among other Asian markets. In 2007, National Geographic reported that 
recent heavily-organized elephant poaching in Chad's renowned Zakouma 
National Park was reminiscent of the situation in the Central African 
Republic during the 1980's, when hundreds of armed men from Sudan, now 
associated with Janjaweed militias, went on a killing rampage of 
elephants and rhinos for the profit they would earn from the ivory and 
rhino horn.
    According to a January 2008 report out of Assam, India, devastating 
increases in rhino poaching in Kaziranga National Park over the past 
year have offered every indication that militants are involved. Rhino 
horn is believed by some to be bartered for arms by militant groups in 
northeastern India working with poaching syndicates. The black market 
value for rhino horn is staggering, worth tens of thousands of dollars 
per kilogram. Prohibited in international trade by CITES, rhino horn 
has long been highly prized in Asia, for its purported medicinal 
qualities, and in the Middle East, where it is used to make ornamental 
and ceremonial daggers.
    A former rhino poacher now working with the Forest Service recently 
identified the Karbi tribal militant groups and other entities 
identified with radicalism, violence and terrorism, as key perpetrators 
of rhino poaching in Kaziranga.
    But perhaps the most foreboding criminal element playing a role in 
the global wildlife trade may be the most important to U.S. and 
international policymakers, as well as the most threatening. Over the 
past several years, the global news media and police agency reports 
have mentioned--initially almost in passing but recently with 
increasing regularity--that poachers have been connected to localized 
militant and terrorist groups responsible for attacks within 
communities.
    Even more recently, well-funded and well-armed poachers have taken 
an almost guerilla warfare-style approach to their activities in places 
like East, Central and North Africa--an approach reminiscent of the 
recent human conflicts between governments and rebel groups, warlords, 
and regional militias, some of which have been linked to terrorist 
attacks in the region.
    In some cases, according to news reports, those same rebel groups, 
warlords, and militias have entered protected areas and engaged in 
large scale poaching--areas like the famed wildlife parks of Kenya and 
the Zakouma National Park in Chad. Somalia-based warlords and Sudan's 
Janjaweed militias are two groups thought to engage in poaching in 
these areas. Though much remains unknown about this new twist to the 
ongoing assault on wildlife in Africa and other places around the 
world, experts are beginning to question whether the illegal wildlife 
trade will (or has already) become a source of revenue for terrorist 
groups.
    There are known cases, for example, where poachers have direct 
links to military weapons and markets also accessible to terrorist 
groups. Whether the poachers are connected directly to terrorist groups 
or their activities is not known. Warlords or militant groups that have 
been connected to specific instances of terrorist activity have also, 
separately, been connected to instances of poaching.
    My colleague Michael Wamithi, Director of IFAW's elephant program, 
reports that elephant poachers in many parts of Africa use weapons that 
can be acquired only from military sources, and African wildlife 
agencies are starting to recover western military weapons as well--
including American-made M-16s and German-made G3s. Whatever the source 
of these weapons is, the fact that poachers, whoever they are, can 
obtain these weapons is cause for concern.
    ``The appearance of these weapons is very alarming because it means 
an improvement in the range, accuracy and firepower available to the 
poaching gangs, and this has a direct impact both on the animals and 
the rangers that are targeted by such weapons. Kenya Wildlife Service 
has recovered RPGs (Rocket Propelled Grenades), which Somali poachers 
sometimes carry to use against the rangers or to discourage KWS patrols 
from pursuit in the first place,'' Wamithi says.
    And, although tenuous, a geographic nexus exists between the 
illegal wildlife trade and terrorism activity as well. United States 
and United Nations officials are concerned that Central and West 
Africa, a well-known problem area for poaching and large-scale illegal 
wildlife trafficking, is also fast becoming a ``hotbed'' of crime and 
potential terrorism, to use their words.
    Janjaweed militants and Somali warlords in East Africa are thought 
to receive support from al-Qaeda. In September, 2007, al-Qaeda's 
second-in-command Ayman al-Zawahiri urged Sudanese militants to rise up 
against the African Union and U.N. peacekeepers in Sudan's region of 
Darfur in a video posted on the Internet.
    During the past year, there have also been reports of militants 
affiliated to al-Qaeda tapping into the illegal wildlife trade in 
India, Nepal, Burma and Thailand. Individuals based in Bangladesh who 
are believed to have ties to local terrorist groups are reportedly 
hiring local trappers and infiltrating organized crime syndicates 
around India's Kaziranga National Park to poach in the park and nearby 
protected areas. Kaziranga and other wildlife preserves in the area are 
vulnerable and therefore attractive to criminals. Kaziranga park 
wardens report that sophisticated weapons and tranquilizer guns are 
being used to poach within the Park.
    Indian officials and local traders and poachers say that 
Bangladeshi militants have turned to the wildlife trade for financial 
support because the profits from poaching and wildlife trafficking are 
untraceable, undetectable and readily exchanged--characteristics that 
are necessary in a post-9/11 world where the money laundering and 
banking schemes previously used by terrorist groups have been 
disrupted.
    Illegal wildlife commodities like rhino horn, ivory, and tiger 
pelts and parts are the most coveted, with assured high-value on the 
black-market. And, rare wildlife commodities with established high 
black-market values can be used as collateral, just like gold, by those 
seeking fast cash resources...0
    In piecing together what little information exists about the 
suspected poacher-terrorist nexus, disturbing questions arise about 
what little we know, as do even more disturbing questions about what we 
do not know.
    The U.S. and other governments and international bodies, though 
publicly acknowledging the possibility of a connection between the 
global illegal wildlife trade and terrorism, in my opinion have yet to 
allocate the resources necessary to understand how strong the links 
are, to determine what threats those links may pose, or to develop 
strategies for confronting these threats.
    The resources dedicated by the U.S. and other nations to 
understanding and disrupting the global illegal wildlife trade are 
insufficient in comparison to those allocated for combating the two 
other large illegal industries, arms and drugs, both of which are also 
known to provide support for organized crime, militancy and regional 
instability, and globalized terror.
    Until recently, the major arguments for working to combat the 
wildlife trade have focused on the resource itself--protecting against 
extinction, preventing the spread of animal borne diseases, stopping 
animal cruelty, supporting local wildlife tourism, protecting 
biodiversity, and sustaining rural economies and livelihoods. In the 
post 9/11 world, however, the illegal wildlife trade is no longer only 
a conservation or animal welfare issue. It is a national and global 
security issue, as well, and should be treated as such.
    The impacts of the illegal wildlife trade are perhaps most apparent 
on the ground in places where highly imperiled--and highly valued--
wildlife species cling to life, guarded by a brave and dedicated few. 
In recent years, hundreds of park rangers in Africa and around the 
world charged with protecting wildlife from poachers have lost their 
lives. In 2004, over 100 rangers were killed in the line of duty in the 
Democratic Republic of Congo (DRC) alone. India lost five rangers in 
2006, and seven Chadian rangers were killed in 2007 protecting 
elephants in Zakouma National Park. The Kenya Wildlife Service has 
erected a permanent monument to the 19 rangers killed in the line of 
duty in recent years. These tragic deaths serve as a stark reminder 
that the illegal wildlife trade does not just affect the security of 
animals.
    A report from the World Bank issued in 2005 on the illegal wildlife 
trade in South and East Asia summarizes a key theme in this global 
crime, stating, ``Wildlife is not traded in isolation. It is part of a 
larger network of organized crime that involves drugs, guns, and 
people-smuggling.''
    Significant attention and greatly increased resources are needed to 
fully understand the pathways of the illegal wildlife trade and 
connections to other illicit activities--drug running, military 
weapons, human smuggling, illegal logging, militancy, and terrorism--
all of which profoundly affect both the communities where wildlife 
resources are depleted and the communities where wildlife resources are 
ultimately consumed.
    All of the links in the supply chain, from local source villages in 
wildlife-rich places to large cities where consumers purchase wildlife 
products, legally and illegally, are impacted by these crimes and the 
violence and upheaval that can often come with them.
    There is a relationship between exploiting natural resources, 
including the illicit wildlife trade, and exploiting people, whether 
it's based on religious or political ideology or just simple greed. 
Removing an opportunity for criminal profiteering by addressing this 
illegal wildlife trade crisis will result in a safer world for animals 
and for people.
    Thank you again, Mr. Chairman, for calling attention to this very 
important issue. I now look forward to answering any questions that you 
or other Members of the Committee may have.
                                 ______
                                 
                  Appendix: Examples and Case Studies
SHARKS
    An example of an entire industry utilizing a chain of corruption 
wherein loopholes and differences in laws are knowingly exploited by 
criminals is shark finning. With China's expanding middle class, demand 
for shark fin soup as a delicacy and status symbol has been rising for 
years. Dried shark fins sell for hundreds of dollars per pound. One 
bowl of shark fin soup can fetch as much as $100US.
    The Taiwanese mafia has set up large finning operations in Ecuador 
and Costa Rica. <SUP>1</SUP> Although the meat could be consumed by 
source countries, only the fins are worth enough in Asia to warrant 
investment in processing and shipping them back. Fishermen, who are 
paid to obtain as many fins as possible, use the practice of quickly 
cutting off a shark's fins on the boat and throwing the carcass back in 
the water, resulting in massive numbers of sharks being killed in a 
short amount of time and considerable waste of the animal.
    Figures on the number of sharks being finned annually are 
staggering. <SUP>2</SUP> Almost difficult to imagine, the World 
Conservation Union's (IUCN) Shark Specialist Group estimates tens of 
millions of sharks are killed globally every year for this trade. 
<SUP>3</SUP>
    There has been some recognition of the brutality and unsustainable 
nature of this practice. After reviewing the implications for the 
fishing industry and conservation, the United States National Marine 
Fisheries Association officially banned this practice, making shark 
finning illegal in U.S. waters. Fifteen additional countries have also 
banned shark finning. <SUP>4</SUP>
    But, with profits continuing and disjointed enforcement, the bans 
alone have proven inadequate to compete with the demand in China and 
Southeast Asia and with the established system of organized crime 
groups facilitating the shark finning trade.
BEARS
    Criminals looking to profit off of the trade in bear gall bladders 
and bear bile often exploit the complex system of national and 
international laws governing hunting and trade in a range of bear 
species. Bear bile (stored in the gallbladder) is used in traditional 
medicines in Asia, where demand for gall bladders and bile is high.
    Bear farming in China, Korea and Vietnam was permitted by the 
governments of these countries intending that this would supply the 
black market demand and spare wild bears. In fact, it has served to 
stimulate the market and put wild bears everywhere at risk.
    Cases of bear poaching to supply the trade going to Asia are 
occurring in Russia, Canada and the United States. In Canada, the trade 
in bear gall bladders is reportedly run by a small cartel of just five 
individuals, and bear smuggling rings are being identified in other 
parts of North America. <SUP>5</SUP> One report from Canada highlighted 
the tenacity of the criminals involved:
    ``Bear gall traffickers appear to stop at nothing. One wildlife 
supplier, believed to be selling fake galls, was found murdered in his 
New York apartment. In Russia, the family of an officer was murdered 
when he came too close to uncovering the mafia's role in the wildlife 
trade.'' <SUP>6</SUP>
    Allen Hundley of the U.S. Fish and Wildlife Service has been 
involved in addressing this trade, noting that ``any time an 
unregulated market puts a price on the head of wildlife, as it has on 
bears for their gallbladders, the future of that wildlife is in serious 
jeopardy.'' <SUP>7</SUP> So far in the United States, 34 states have 
passed laws to ban the trade in bear organs in response to this crisis.
BUSHMEAT
    The commercial bushmeat trade targets monkeys, apes, hoofed mammals 
and rodents, among others. These species are being taken out of the 
forests in unprecedented volumes, often facilitated by roads created by 
the logging industry. While bushmeat is defined simply as the meat 
derived from wildlife, characterizing the bushmeat trade is more 
difficult. <SUP>8</SUP> It can include several components, among them:
    <bullet>  Illegal hunting methods,
    <bullet>  Protected species,
    <bullet>  Hunting from restricted areas,
    <bullet>  Unsustainable harvest, and
    <bullet>  Commercial exploitation by professional hunters for 
distant urban markets. <SUP>9</SUP>
    ``Historically, local communities have consumed modest amounts of 
bushmeat,'' says Dr. Heather Eves, Director of the Bushmeat Crisis Task 
Force. ``The growing commercial trade in bushmeat, however, is fed by 
demand from markets in big cities in Africa and around the globe and 
Africans living abroad.''
    No longer simply a means of subsistence, bushmeat as a commodity, 
fueled by urban demand, brings with it the opportunity for large-scale 
illegal profit-making. In some parts of the world, including Central 
Africa, this commodity is being exploited not just for profit, but for 
the profit necessary to support sometimes violent upheaval and warfare:
    ``The [Democratic Republic of Congo] saw an explosion of poaching 
in the early part of this decade, much of it due to the rising demand 
for bushmeat in urban areas. Rebel militias and other militant groups 
saw an opportunity and took control of large parts of the country's 
parks, using bushmeat, ivory and other wildlife resources for both 
sustenance and to pay for weapons and other supplies. It's still going 
on. In the past few years, hundreds of hippos in Eastern DRC were 
slaughtered for their meat near the headquarters of the Mai Mai rebels. 
The hippo population has declined from more than 20,000 in the late 
1980s to less than a few hundred today.
    ``Less than a year ago, rebels killed several rare mountain 
gorillas, which was widely reported in the global press. The gorilla 
killings illustrate just how difficult and complex the problem really 
is--the gorillas were executed not for bushmeat, but as a dire warning 
to rangers and international conservationists to stay away.'' 
<SUP>10</SUP>
CAVIAR
    The market for caviar has always supported high-prices, but with 
decreasing availability after decades of over-harvesting and 
unregulated fishing, caviar prices have skyrocketed. Criminal 
syndicates, including the ``caviar mafia,'' are lording over the caviar 
trade.
    The groups involved are known to use violence to protect their 
practices. Recently, one of the more extreme acts of terrorism served 
as a shocking example of the danger involved. As reported in The London 
Observer Service:
    The caviar mafia is thought to have been behind a terrorist bomb 
attack in the town of Kaspiysk that killed 67 people, including 21 
children, and destroyed a nine-story apartment building. Most of the 
victims were Russian border guards and their families. The guards, who 
patrol Russia's new boundaries, had begun to produce results in 
regulating illegal traffic and, in doing so, made dangerous enemies. 
More than 100 people lived in the bombed building, including the 
commander of the locally based border guards unit, Lt. Col. Valery 
Morozov. Morozov reportedly had told a Russian newspaper, Rossiysky 
Vesti, that he had been threatened by the ``sturgeon pirates.'' 
<SUP>11</SUP>
ELEPHANTS
    Elephant ivory has been a treasured commodity for much of human 
history, but tragically, the run on ``white gold'' has escalated over 
the last few centuries and has put all elephant populations in a 
precarious position.
    By 1989, the African elephant population was shattered, from around 
1.3 million to just over 600,000; today, there are fewer than 450,000 
wild elephants in Africa and a mere 50,000 in Asia. At least 20,000 
elephants are killed annually in Africa for their ivory. Unfortunately 
pursuit of an ivory trinket necessarily coincides with the death of an 
elephant.
    Elephant ivory, derived from the tusks of adult elephants, can only 
be obtained from a dead animal, as the tusks are deeply embedded into 
the elephant's skull. While its true that ivory is also a product of an 
elephant that has died a natural death, the quantities of seized ivory 
worldwide in the past decades far exceed any reasonable mortality 
rates.
    Demand for ivory--in the form of decorative carvings, signature 
seals and a host of other superfluous indulgences--peaked in the1970's 
and 1980's, when poaching elephants for their tusks decimated the 
remaining elephant population. By 1989, the African elephant population 
was shattered, from around 1.3 million to just over 600,000; today, 
there are fewer than 450,000 wild elephants in Africa and a mere 50,000 
in Asia.
    In response to growing concern over the impact of unregulated 
international trade on the endangerment of wildlife, including 
elephants, the international community established the United Nations-
backed Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES), which came into force in 1975.
    Since then, CITES has recognized most elephant populations as 
endangered, and has strict prohibitions against international trade in 
ivory. In fact, in 1989, CITES banned all international trade in ivory 
and as a consequence, poaching stopped almost completely.
    In 1997, CITES approved a one-time, ill-fated sale of ivory 
stockpiles from a number of African countries. This creation of a 
market in ivory from the ivory stockpiles sent out the message to 
poachers, criminal syndicates, poor villagers and corrupt governments 
that there was money to be made in killing, and African range countries 
experienced a renewed surge in poaching and smuggling of ivory.
    This illustrates how any legalization of wildlife products ``and 
ivory in particular--creates a loophole for the laundering of illegal 
products into legal stocks. It is impossible to distinguish between 
legal and illegal ivory once it's on the shelf.
    While elephant populations in some Southern African countries may 
appear to be somewhat healthy, much of this is caused by governmental 
policies that cause fragmentation and manipulation of elephants' 
natural habitat. For example, while South Africa's elephant population 
stands around 17,000 (confined to just 2 per cent of the country's 
total range), Senegal has fewer than ten elephants left in the wild.
    And many less developed nations in Central, East and West Africa 
are struggling to protect their elephants from poaching. Few elephant 
range states possess the capacity to patrol the ranges, police their 
borders or, just as critically, stem the growing tide of smuggled 
illegal ivory. The global reach of the Internet and the ready 
availability of international courier services simply add urgency to an 
already intractable crisis.
    Today, at least 20,000 elephants are killed annually in Africa for 
their ivory, fuelled principally by demand in Japan, China, Thailand, 
Korea, the U.S. and Europe. This cycle of crime and brutality 
represents one of the more immediate and critical threats to the 
survival of the elephant.
TIGERS
    Over the past century, the plight of the tiger has captured the 
world's attention, so much so that the tiger has come to be the very 
symbol of the threat of extinction. In the last 50 years alone, three 
sub-species of tigers have gone extinct in Asia. And whereas as many as 
100,000 tigers may have roamed the vast Asian continent just a century 
ago, fewer than 5,000 tigers are left today, mainly in India and the 
Far East of Russia.
    Yet despite this critical level of vulnerability to the species, 
the human behavior driving the tiger to extinction continues unabated. 
Tiger populations are at risk when human settlements encroach upon 
their natural habitats. The most comprehensive scientific study of 
tiger habitats ever done (July 2006) concluded that tigers now occupy 
40 per cent less habitat than they were thought to inhabit a decade 
ago. Starvation due to prey loss is another major threat to tigers, as 
humans often hunt for the same species of herbivores that are tigers' 
prey.
    But one of the most insidious threats to tigers is the systematic 
slaughter of tigers to supply the illegal trade in tiger bones and 
skins. Tiger skins and body parts poached from animals in the wild wind 
up as ingredients in traditional medicine, as fashion items and as 
household decor.
    And all of this is illegal. The Convention on International Trade 
in Endangered Species of Wild Fauna and Flora (CITES) affords the 
highest level of protection for tigers, banning all international trade 
in tigers, their parts and derivatives. International law is buttressed 
by domestic trade bans in almost every tiger range or consuming 
country. Nevertheless, weak enforcement of these international and 
domestic laws allows tigers and tiger products to surface on the black 
as well as the open market.
    Chinese media have also uncovered a disturbing loophole to the 
Chinese ban on tiger products--the ``farming'' of captive bred tigers 
to supply the illegal market. So-called ``tiger farmers'' proactively 
promote the use of tiger bone in traditional medicine, and, to expand 
their markets, are developing a ``luxury tiger wine'' industry--a 
trendy and growing black market commodity--produced from fermenting 
tiger skeletons.
    Already, many facilities stockpile tiger carcasses in the hope that 
tiger trade will soon be legalized. At the same time, investors of 
these facilities feed into public sympathy for tigers by misleading the 
public into thinking that these genetically compromised farmed tigers 
can be released into the wild, and thus are good for tiger 
conservation.
THE INTERNET TRADE
    The Internet has revolutionized our lives by opening up enormous 
opportunities for business and communications. It offers us a 
marketplace for the exchange of goods and services, a venue for social 
networking, and a means of personal enrichment, all on a global scale. 
But there is a dark cloud behind every silver lining: the Internet 
provides criminals with increased opportunities for illegal or 
unscrupulous conduct. Wildlife crime is taking full advantage of these 
new ``opportunities'' afforded by the World Wide Web.
    The Internet is widely recognized as the preferred method for 
trading in protected and endangered species. Techniques for subverting 
the law or avoiding detection are becoming increasingly sophisticated, 
creating overwhelming challenges to law enforcement efforts. This trade 
has devastating implications for both wildlife conservation and animal 
welfare, as well as the loss of human livelihoods, as whole species 
become vulnerable to extinction by exploitation on a global scale.
    And as demand for wildlife products increases, traders are 
encouraged to fuel the market by any means necessary. Not all buyers 
and sellers are knowingly breaking the law. Consumers may be unaware of 
the registration requirements attached to certain controlled items, 
while compliance among sellers with these requirements in many 
countries is sorely lacking.
    Professional traders ignorant of the law may also be unwittingly 
purchasing illegal goods from organized criminals seeking to launder 
their products to the open market. Meanwhile, traders and criminal 
syndicates aware of the legal restrictions can easily find ways to 
maneuver around them with little risk of detection.
    But deliberate or not, the detrimental impact on wildlife is the 
same. In August 2005, IFAW launched the report, Caught in the Web: 
Wildlife trade on the Internet, detailing the results of an intensive 
investigation into the online trade. In the course of just one week, 
IFAW was astonished to find more than 9,000 wild animals and animal 
products for sale in the UK alone. This figure was all the more 
alarming because the survey was conducted on English language sites and 
restricted to trade in only five categories of endangered animals: live 
primates, elephant products, turtle and tortoiseshell products, other 
reptile products and wild cat products. The more recent follow up 
investigation, Bidding for Extinction, confirmed that wildlife trade 
via the Internet is continuing and even thriving as a result of 
inaction by Internet Service Providers, particularly eBay.\TM\
    The implications of Internet trade in wildlife reverberate beyond 
national and regional borders. Yet contemporary international law has 
fallen behind in its consideration of commercial Internet activity. 
Despite recognition by international enforcement agencies, governments, 
non-governmental organizations (NGOs) and the general public of the 
problems associated with wildlife trade on the Internet, current 
enforcement schemes have proven insufficient in dealing with the scale 
of the problem.
    Recognizing that Internet Service Providers (ISPs), site owners and 
the major marketplaces such as eBay\TM\ have a vital role to play in 
combating a problem that is not going away, IFAW has been working with 
a number of web-based global marketplaces to develop and enforce a 
clear code of practice for users. IFAW is also playing a leading role 
in working to improve coordination and response among governments and 
law enforcement agencies. Finally, IFAW focuses on elevating consumer 
awareness to break the chain of consumption that fuels the illegal 
markets.
ENFORCEMENT
    Many of the countries and regions where IFAW works are facing 
tremendous challenges in human population expansion, economic poverty, 
in sufficient legal systems and political instability. But even if such 
adequate legislation exists, its implementation and enforcement is an 
overwhelming challenge.
    To comply with CITES, an enforcement framework aimed at combating 
illegal international trade in wildlife to, from and through the 
borders of all member states is required. By signing CITES, State 
Parties have agreed to comply and implement decisions of the convention 
through national legislation and to take adequate enforcement action.
    Among the obligations accepted by all Parties to CITES is to 
establish national management and scientific authorities to oversee, 
monitor, control and document trade with species protected by the 
convention and to have sufficient enforcement mechanisms and capacity 
in place. While many countries do their best and even have stricter 
domestic measures for greater conservation benefits, unfortunately, 
compliance is uneven at best. Currently, the national legislation in 53 
per cent of CITES Parties fails to meet the legal requirements set 
forth by CITES.
    And legislation is just the first step in a long voyage that 
requires education of all relevant enforcement authorities, a wide 
range of training and sufficient resources for operation and the 
provision of rangers with the necessary tools for effective action. Of 
course, effective enforcement relies on the commitment of dedicated 
people, and IFAW works to support those rangers who readily risk life 
and limb as part of their daily routine.
    Nevertheless, faced with the need to patrol thousands of square 
miles of conservation lands, few African range countries possess 
adequate funding for personnel and equipment. This affords 
sophisticated crime syndicates and poachers the upper hand in operating 
freely and across national borders.
    Indeed, many African countries are ill equipped to meet even the 
most basic of CITES reporting requirements, let alone the basic needs 
(like vehicles or water supplies) of their rangers. Some reports even 
circulate regarding rangers hunting the very animals they are charged 
to protect to meet theirs and their families' food requirements. 
Further complicating the issue is the explosion of trade via the 
Internet--literally hundreds of anonymous postings vie for the 
attention of consumers--both those unaware of national or international 
restrictions on wildlife trade and those who knowingly flout the law.
    Increased demand for wildlife products puts enormous pressure on 
enforcement authorities, particularly range states. Because of the 
global nature of wildlife trade, enforcement shortfalls in one country 
affect the situation in others. And as the global demand for tiger skin 
and bones, antelope pelts and elephant tusks skyrockets, criminals and 
poachers hunt down any and every wild animal that might bring in money 
on the international black market.
                                ENDNOTES
<SUP>{1</SUP> Rob Stewart, writer and director. Sharkwater, Sharkwater 
        Productions, 2006. (www.sharkwater.com)
<SUP>{2</SUP> ``The End of the Line? Global threats to sharks.'' Oceana 
        and WildAid Report, Oceana, 2007. (http://www.oceana.org/
        fileadmin/oceana/uploads/Sharks/EndoftheLine_Spread_sm.pdf)
<SUP>{3</SUP> IUCN Shark Specialist Group Finning Statement Website, 
        IUCN Shark Specialist Group, 2003.
<SUP>{4</SUP> Oceana and WildAid Report, 2007.
<SUP>{5</SUP> ``Bear Alliance Project, From Forest to Pharmacy.'' 
        Animal Alliance of Canada Report, Animal Alliance of Canada, 
        January 29, 2008. (http://www.animalalliance.ca/projects/
        index.html)
<SUP>{6</SUP> Ibid.
<SUP>{7</SUP> Jane Raloff, ``A Galling Business: The inhumane 
        exploitation of bears for traditional Asian medicine.'' Science 
        New, Vol.168, No. 16, October 15, 2005. (http://
        www.sciencenews.org/articles/20051015/bob10.asp)
<SUP>{8</SUP> Dr. Heather E. Eves, ``The Bushmeat Trade in Africa: 
        Conflict, Consensus, and Collaboration.'' Gaining Ground: In 
        pursuit of ecological sustainability, 2006.
<SUP>{9</SUP> Ibid.
<SUP>10</SUP> Personal interview with Dr. Heather E. Eves, Director, 
        Bushmeat Crisis Task Force, February 6, 2008. See generally 
        www.bushmeat.org.
<SUP>11</SUP> Simon Cooper, ``The Caviar Kings: Inside the cartels that 
        built empires and destroyed species.'' Seed Magazine, November 
        2003. (http://seedmagazine.com/news/2006/01/
        the_caviar_kings.php)
                                 ______
                                 

   Response to questions submitted for the record by Peter Pueschel, 
                 International Fund for Animal Welfare

Questions from The Honorable Nick J. Rahall, Chairman, Committee on 
        Natural Resources
Confiscated Wildlife
 What happens to confiscated wildlife illegally taken when found alive? 
        Who takes them? Are they returned to the wild? Is the difficult 
        process of finding homes for confiscated animals a deterrent to 
        enforcement of wildlife laws?
    Most source countries do not have the resources or facilities to 
care for confiscated wildlife that have been illegally sourced from the 
wild. Most countries also lack the capacity to rehabilitate them and 
release or reintroduce them back into the wild. Animals often have a 
better chance of rehabilitation and release back to the wild when they 
are confiscated before they leave the borders of the source country 
because it greatly reduces the time and cost it takes to transport the 
animals home, the stress on the animals from longer periods of 
confinement and travel, and the overall distance back to their home 
ranges. Unfortunately even better resourced countries usually are not 
willing to invest in necessary facilities. To increase the chance that 
animals are detected before leaving their home country IFAW assists 
particularly poorer countries to improve their enforcement capacity and 
capacibility.
    However, when animals are confiscated after they have left their 
native country either during transit or when they arrive at their 
destination to be traded, reintroduction entails a series of efforts of 
a scale and magnitude both with regard to expenses and endeavor that 
can challenge all parties involved. For example, IFAW has been involved 
in the rehabilitation and repatriation of four western lowland gorillas 
back to their native Cameroon from where they were illegally captured 
and traded through Nigeria to a zoo in Malaysia. Now the gorillas have 
a safe sanctuary in Cameroon and are being integrated with other 
rescued gorillas, but it is unlikely, after over 6 years of captivity, 
that they can ever return to the wild. Similarly, IFAW was involved in 
the rehabilitation and repatriation of star-tortoises back to their 
habitat in India from Singapore and Malaysia, where they were 
confiscated in transit. Such efforts, however, are few of a kind in the 
history of confiscation of illegally traded wildlife, and they have 
only been possible because NGO's have raised money and rallied 
governments on both sides (source & destination) to implement such 
missions.
    Particularly problematic are animals found in large numbers, such 
as confiscations of thousands of reptiles or birds; dangerous animals 
like poisonous snakes or big cats, or animals that are not usually able 
to be rehabilitated and released, like infant gorillas, pangolins, or 
tiger cubs. The truth is that in most cases these animals are just as 
likely to die after they have been confiscated as they are if they had 
stayed in the illegal trade. Plus, many countries do not have adequate 
legislation preventing species from being legally traded once they are 
in the market, even if they were illegally taken from the wild and 
confiscated. Large confiscations still end up fueling the market and 
creating incentive for more poaching, while making it less likely that 
officials will rigorously enforce wildlife trafficking laws.
    Oftentimes, the fines and penalties for wildlife trafficking are 
minor compared to other trafficking offenses such as drugs or weapons. 
One remedy for this situation would be to levy significant fines and 
prison terms for wildlife traders, who are often part of criminal 
networks with large bank rolls. Such fines could help pay for the high 
costs of care, shelter, rehabilitation, and release back into the wild 
for confiscated animals. Another remedy might be for countries that 
permit trade in live wildlife to build appropriate facilities and 
provide trained rehabilitation personnel at points of entry. Further, 
some countries need legislation prohibiting the sale of animals that 
have been taken illegally from the wild and were confiscated. In an 
effort to strengthen measures to deal with confiscated wildlife, IFAW 
has assisted governments (e.g. Kuwait, Russia, China) in designing such 
facilities and supporting some of their efforts in the past. 
Governments of wealthier nations could aid the often poorer source 
countries for illegal wildlife in not only providing resources for 
enforcement, but also rehabilitation and release back to the wild. If 
these animals are confiscated and rehabilitated at their source, they 
stand a better chance of making it in the wild than if they are 
confiscated thousands of miles away at U.S. or other international 
ports.
Questions from The Honorable Don Young (R-AK)
(1)  On Page 4 of your testimony, you talk about tiger bone wine being 
        sold in a shop in San Francisco. Are you aware that in 1998, 
        Congress enacted and the President signed into law the Rhino 
        and Tiger Product Labeling Act? It is now ten years later and 
        you are testifying that individuals can still buy these 
        products in the United States? How do we stop these sales and 
        prosecute those benefiting from the destruction of these highly 
        endangered species?
    Unfortunately, tiger bone wine and other substances made from 
endangered animal parts are still available in the United States. The 
United States, in fact, is the world's second largest consumer of 
illegal wildlife products. These products are not generally sold out in 
the open, but instead in back rooms or hidden among other legal 
wildlife products. Oftentimes illegal wildlife specimens, endangered 
turtles for example, are imported in large numbers mixed in with legal 
shipments of non-protected species. To make matters worse, the Internet 
is fast becoming the tool of choice for criminals looking to move 
illegal wildlife products quickly and anonymously. Fish and Wildlife 
enforcement officials were having a hard enough time policing the 
myriad physical shops and other physical locations places illegal 
wildlife products were being traded across the country. The Internet 
makes enforcement exponentially harder.
    One problem is that with wildlife products, the burden of proof 
lies with the enforcement officer instead of the wildlife trader. For 
most wildlife species, a criminal offense only occurs when a product 
claiming to contain a substance from a protected species, such as bear 
bile wine, is found to actually contain that substance. Wildlife 
traders can take advantage if this by selling massive quantities of 
``fake'' endangered wildlife products and mixing in smaller quantities 
of ``real'' endangered wildlife products. The Rhino and Tiger Product 
Labeling Act was a step in the right direction because it made it a 
crime not only to sell products containing rhino and tiger parts, but 
to sell products claiming to contain rhino and tiger parts, even if 
they did not. This model should be expanded to cover all illegal 
wildlife products.
(2)  You mention bear gall bladders in your testimony. How large of a 
        problem is the trade in bear viscera from American black bears? 
        How many cases have been documented?
    The U.S. Fish and Wildlife Service (USFWS) and state wildlife 
enforcement agencies are much better situated to answer specific 
questions about the exact scale of this problem and specific instances 
of black bear poaching in the U.S. where gallbladders have been 
removed.
(3)  Do you disagree with the assessment of the Law Enforcement 
        Division of the U.S. Fish and Wildlife Service that ``the 
        poaching of American black bears for their gallbladders or 
        other parts to supply the demand of the Asian medicinal market 
        for these products is not a significant problem and does not 
        occur on any large scale? What is the source of your data?
    I do disagree with the statement that black bear poaching in the 
U.S. is not a significant problem. Even if black bear poaching is not 
widespread in the U.S., the fact that it does occur and that it occurs 
in part to feed an ever growing market for bear bile products both in 
China and other Asian countries as well as in the United States 
represents, in our view, a significant problem. In my testimony, I 
refer to large criminal rings thought to control the illegal bear trade 
in North America, some of which are known to be violent. These rings 
exist because of a thriving market for bear gallbladders, which is 
fueled by parts from both legally and illegally killed bears. Previous 
estimates from the USFWS and other law enforcement agencies have said 
that for every bear that is legally killed in the U.S. another, and 
possibly two, are killed illegally. If you include Canada, this could 
amount to 40,000 to 80,000 black bears being killed illegally every 
year. Black bears are becoming increasingly rare in Asia, and are 
highly endangered in parts of the South and Southeastern United States. 
As supplies fall in Asia, and demand increases at home and abroad, it 
stands to reason that black bears in North America will become more and 
more threatened by the global illegal trade in bear viscera. It is 
vitally important that the U.S. and other range nations have clear laws 
prohibiting the trade in bear viscera for the protection of domestic 
black and other bear species populations, as well as for more 
endangered bear populations around the world.
    Again, the U.S. Fish and Wildlife Service (USFWS) and state 
wildlife enforcement agencies as well as Canadian authorities are much 
better situated to provide data about the exact scale of this problem 
and specific instances of black bear poaching where gallbladders have 
been removed.
(4)  While there is considerable evidence that organized crime elements 
        are involved in the international illegal wildlife trade, 
        please share with the Committee real, not anecdotal, examples 
        where law enforcement agencies or governments have conclusively 
        proven that terrorist organizations are profiting from this 
        trade?
    Information about cases in which law enforcement agencies or 
governments have conclusively proven that terrorist organizations are 
profiting from the trade in wildlife should come from those law 
enforcement agencies or governments. It is clear, however, that 
significant attention and greatly increased resources should be devoted 
by such law enforcement agencies and governments to fully understand 
the pathways of the illegal wildlife trade and connections to other 
illicit activities--drug running, military weapons, human smuggling, 
illegal logging, militancy, and possibly terrorism--all of which 
profoundly affect security worldwide, particularly in the communities 
where wildlife resources are depleted and the communities where 
wildlife resources are ultimately consumed. The links between the 
wildlife trade and organized crime and military conflict are relatively 
clear, but the links to terrorism have yet to be clearly determined, 
possibly because no one is looking at the issue.
    The U.S. and other governments and responsible international bodies 
should allocate the resources necessary to combat illegal wildlife 
trade from poaching to trade in consumer countries, from improved 
enforcement to public education and the development of economic 
alternatives. It is important for us to study how strong the 
connections between wildlife and crime are, to determine what threats 
those connections may pose, and to develop strategies for confronting 
these threats.
(5)  How would you describe the state of elephant populations in 
        Southern African countries like Botswana, Namibia and South 
        Africa? How do these healthy populations compare with those in 
        Kenya? Is it just a coincidence that Southern African countries 
        allow legal sport hunting and Kenya has outlawed trophy hunting 
        since 1977?
    Elephant populations in Botswana, Namibia and South Africa are 
generally on the increase, but the rates of increase vary considerably 
across both space and time, as do the numbers of elephants across 
Southern Africa range states, which is home to approximately 70 percent 
of Africa's elephants. According to the IUCN's 2007 African Elephant 
Status Report, South Africa is home to approximately 17,000 elephants, 
Namibia has 12,000 and Botswana has over 133,000.
    Similarly, elephant populations in Kenya are generally on the 
increase. The population stands at about 33,000 today, and the 
population growth has been on average 5 percent nationally. Tsavo 
National Park, which has the largest elephant population in the 
country, has seen its elephant numbers increase from slightly over 5000 
in 1989 to 11,696 in 2007. The joint mass of Tsavo East and Tsavo West 
National Parks forms one of the largest national parks in the world and 
covers a massive 4 per cent of Kenya's total land area. The smaller 
Meru National Park has seen an increase in elephant population from 
only about 250 in 1990 to 703 in 2005, according to the Kenya Wildlife 
Service.
    Kenya outlawed hunting in 1977 because of corruption and abuse by 
both government officials and individuals from the hunting industry, 
resulting in virtually unregulated hunting that nearly decimated 
Kenya's wildlife. Since the ban, elephant populations and those of 
other species have rebounded dramatically. The prohibition on trophy 
hunting has been and continues to be an important component in the 
overall effort to conserve Kenya's amazing wildlife heritage. The major 
poaching threat to Kenya's wildlife these days comes from outside 
Kenya's borders, with heavily-armed, criminal gangs from Somalia and 
other neighboring countries infiltrating Kenya's famed parks and 
poaching elephant, rhino, and other species.
(6)  Does your organization support the CAMPFIRE and other similar 
        programs in Africa? Do you agree or disagree that unless 
        wildlife has an economic value, there is no incentive for local 
        indigenous populations to effectively conserve their wildlife 
        populations?
    IFAW believes that in order for indigenous populations to 
effectively conserve their wildlife populations over the long term, 
they must recognize the intrinsic value of each species and each 
individual animal. These intrinsic values go well beyond the short-term 
economic gains that may be derived from purely exploitative programs 
such as commercial or trophy hunting, which often serve only to 
reinforce the faulty notion that wildlife can be valued only in 
economic terms and perpetuate the destructive cycle of mass killing 
followed by either continued, slow decline or short term recovery and a 
new period of mass killing. Exploitative programs typically provide 
only nominal, short term economic benefits to local populations, and 
instead often exist for the benefit of foreign special interests with 
no real stake in the long-term health and vibrancy of the indigenous 
communities. Hunting-based conservation programs like CAMPFIRE rarely 
accomplish long-term conservation goals, especially when they are 
reliant on foreign subsidies or highly-specialized foreign special 
interests like trophy hunting, and they can often exacerbate the 
overall declines in species populations and health. Lion hunting 
programs, for example, are thought to have contributed to the current 
crash in lion populations across Africa by creating a large market for 
trophy hunting programs in other in areas and countries besides those 
designed strictly for conservation purposes. Programs designed help 
local communities both recognize the intrinsic value of wildlife and 
maximize the long-term economic value of protecting individual animals 
and whole populations are better suited to support the overall 
cultural, economic, and spiritual values held by local communities. 
IFAW supports programs in Africa and around the world that share these 
values.
(7)  You discuss the urban demand for bushmeat in Africa and in cities 
        outside Africa. Have there been any attempts to bring 
        alternative domesticated meats to these African cities to 
        reduce the demand on bushmeat?
    According to the Bushmeat Crisis Task Force (www.bushmeat.org), 
there have been attempts to bring alternative sources of protein to 
African cities. However, these sources can often be higher in price 
than bushmeat, which can be taken out of the local ecosystems for 
little or no cost to skilled hunters, or purchased by poor individuals 
at prices that are much lower than many farm-raised sources of protein. 
Thus, solutions to the bushmeat crisis must include ensuring that 
consumers have access to alternative protein sources that are both 
palatable and priced competitively with bushmeat. Unless people have 
economically viable alternatives they will continue, not surprisingly, 
to demand wildlife as an affordable and tasty source of meat.
    Evidence suggests that many poor families initially consume more 
bushmeat as their incomes rise. Consumption only begins to drop when 
families become wealthy enough to switch to eating more expensive 
cultivated sources of protein. Bushmeat consumption, therefore, appears 
to follow an inverted U pattern with income. Thus, changes in 
livelihoods of rural and urban families will not necessarily decrease 
their consumption of bushmeat, depending on where they are on the 
income axis. Though people have eaten bushmeat on a subsistence basis 
for millennia, only recently has it become such an important source of 
income for so many people.
    Also, much of the global bushmeat trade is fueled by an increasing 
demand for expensive ``delicacies'' instead of basic protein. More 
affluent urban communities in Africa and around the world are beginning 
to consider eating various types of rare or exotic bushmeat to be 
symbolic of their status within the community, much in the same way 
ordering fine wines or rare, expensive beluga caviar might be a 
symbolic of status. Far from the source and removed from the on-the-
ground impacts of poaching and wildlife trafficking, affluent members 
of urban communities have little reason to change their behavior 
without both education and strict enforcement of wildlife trade laws.
(8)  For years the focus has been on law enforcement efforts to reduce 
        the illegal trade of wildlife products. What actions can be 
        taken to reduce the demand for these products?
    Education is best way to reduce the demand for wildlife products. 
Many consumers of wildlife products either don't know that their 
products come from endangered wildlife or don't know that some of the 
methods used to obtain those products are cruel or damaging to wildlife 
populations. For example, a survey conducted by IFAW in 1998 in China 
on the use of bear bile shows that 84 percent of the public would 
refuse products such as tonic or medicine containing bear bile if they 
knew the cruelty involved in obtaining it. IFAW is working to raise 
consumer awareness about impacts that the illegal wildlife trade has on 
conservation and animal welfare. Consumers of wildlife are at the core 
of wildlife trade, and expanding economies and increased purchasing 
power worldwide have resulted in increased demand for wildlife 
products. IFAW believes that once educated, consumers will reject 
wildlife products, resulting in a reduction in wildlife consumption as 
a hole and an increase in the number of voices advocating for wildlife 
protection.
    For example, IFAW's recent Think Twice campaign targeted tourists 
flying in and out of the UK, the Netherlands and Germany on their way 
to South Africa and other African destinations and urged them not to 
buy ivory and other wildlife souvenirs during their trip. IFAW 
continues to promote the campaign to local media outlets, airlines, 
conservation organizations, and the travel industry, and to develop 
partnerships with key members of the worldwide travel industry such as 
PADI, the world's largest Sport Divers Association. Think Twice also 
offers solutions that redirect money from tourists to a local souvenir 
economy (e.g. hand woven textiles, beaded work, ceramic and tile art) 
better representative of local cultures and customs. IFAW started a 
similar campaign just this year in Dubai.
    In addition, the Internet is a rapidly expanding global marketplace 
for wildlife products. Its anonymity and unregulated nature provides an 
opportunity for criminal activities to thrive undetected. In support of 
its Internet campaign activities, IFAW offices, collectively and around 
the globe, routinely conduct ``snapshot'' surveys to assess the levels 
of illegal wildlife trade on the Internet. The results of these 
investigations continue to indicate that the illegal sales of wildlife 
via the web rising at an alarming rate.
    Recognizing that eBay represents the largest online market for 
Internet sales of wildlife globally, IFAW is working with eBay 
representatives to advise them on how to best to be compliant with 
international wildlife trade law. In May, 2006, eBay Germany adopted 
stricter policies on ivory sales and adopted more stringent enforcement 
measures. In the first two weeks following the policy change, ivory 
offers dropped by over 98% on the eBay Germany site. An IFAW 
investigation in China brought the issue to the attention of the 
Chinese government, which subsequently banned all sales of ivory over 
the Internet. IFAW is now in negotiations with eBay in many other 
countries to develop and/or clarify their policies on wildlife trade 
and as a first step towards the global elimination of ivory on all eBay 
sites. This includes working with both Internet providers and Internet 
users to educate them about the impacts that their transactions in 
wildlife products could have on wildlife populations on the ground.
(9)  Is it even possible to make inroads on the cultural or religious 
        foundations which drive the demand for some of these wildlife 
        products? Do you have any examples of alternative products 
        being used for cultural or religious purposes instead of the 
        wildlife product?
    It is possible to reduce the demand for wildlife-based TCM, and it 
can be accomplished in a way that fully respects the religions 
foundations and cultural traditions of practitioners and users of 
traditional medicines. IFAW and many Traditional Chinese Medicine (TCM) 
practitioners, for example are in complete agreement in their 
preventative approach to pursuing health for both people and the 
planet. Traditional Chinese Medicine emphasizes the prevention of 
illness as much as its treatment, founded in the principle of achieving 
harmony, both within the body and with the external world. In fact, TCM 
practitioners around the world, represented by the World Society for 
Traditional Chinese Medicine, are voicing their concern about seeing 
the TCM reputation soiled by its contribution to biodiversity loss, 
animal suffering, and one of the largest international criminal 
activities--the illegal wildlife trade.
    Western science and medicine have progressed to a point where they 
are capable of fulfilling most therapeutic needs of humans worldwide. 
Seeking to regain the balance offered by TCM, practitioners in China 
are now looking to combine science from Western medicine and experience 
from TCM. They have identified and are now using many equally effective 
alternative ingredients in place of the more expensive and difficult to 
obtain wildlife-based ingredients. The book ``Mending the Web of 
Life''Chinese Medicine and Species Conservation'' is the result of a 
collaboration between IFAW and TCM practitioners in the U.S. It 
provides a framework for TCM practitioners to incorporate conservation 
values into their profession, which includes using suitable replacement 
substances where the use of wildlife derivatives contributes to the 
destruction of the natural balance upon which TCM is based.
    Although the demand for wildlife species from legitimate TCM 
practice has reduced, many unscrupulous businessmen and women from 
China are unfortunately still working to stoke demand, promoting non-
essential, unlicensed and even counterfeit products and advertising 
false claims of the curative powers of wildlife species. The rarer and 
more exotic, the higher the price. For instance, products made with 
bear bile on the market in China include tea, power drinks, shampoo and 
toothpaste. To promote tiger-based products, the Chinese tiger farming 
industry is claiming falsely that these products cure insomnia, SARS 
and even leprosy. The result is a blatant deception that targets 
people's belief of curative powers of animals while exploiting a system 
without any regulatory checks on drug safety, truth in advertising or 
prevention of extinction or cruelty to animals.
(10)  Can you provide any substantive proof of a correlation between 
        illegal wildlife trade and terrorism?
    Please see answer to question 4.
                                 ______
                                 
    The Chairman. Thank you, gentlemen, for your testimony.
    I am going to start out with a question for Mr. Hart, and 
if I leave during the response, please understand we have votes 
on the Floor of the House, but Ms. Bordallo will take over the 
Committee chair while you are responding to my questions. She 
probably will have questions of her own as well.
    Mr. Hart, in your testimony you state that hunting and 
trade of bushmeat and ivory directly supports rogue military 
gangs and funds rebel activity in the Congo. Could you please 
elaborate on how these militant groups are profiting at the 
wildlife's expense and how they impact the quality of life for 
citizens in the Congo?
    Mr. Hart. Well, many of the militant groups are setting 
themselves up in wild areas, including national parks, where 
they are able to maintain their bases. Some of these are along 
Congo's border with Sudan, but even in the interior of the 
country, and they have in almost all cases access to arms and 
munitions through networks that link them to the national 
police and military hierarchy, sometimes directly benefitting 
them.
    We have documented several cases, most recently in the 
Salonga National Park in Central DRC where after killing the 
elephants, some of these gangs actually turn on villages in the 
area and are becoming local terrorists within their own area.
    In addition, what we have seen is that the key link to 
break here is the wildlife products, many of them are consumed 
nationally--some move out of Congo--is the beginning of a 
chain. These people are not themselves involved with further 
links up the chain and out of Congo, but many of them 
nevertheless have links with businessmen in Congo and in 
neighboring countries to move some of these products.
    The result is then there is palpable recognition on the 
part of many local communities that this is undermining for 
them their traditional use of wildlife and their natural 
landscapes.
    Ms. Bordallo [presiding]. Thank you very much.
    Mr. Clark, if you are wondering why I am not voting, I 
represent a territory. We only vote in committee, not on the 
Floor, and for amendments also.
    I have another question for you, Mr. Clark. We have heard 
from other agencies that there have been multiple attempts to 
implement computerized systems tracking the illegal trade of 
wildlife.
    Why do you think the Ecomessage will be successful, and do 
you know why the United States does not participate in the 
database, Ecomessage?
    Mr. Clark. Thank you, Madam Chair. I think the primary 
reason why Ecomessage has promise is the enthusiasm of the 
people behind it who are working on it.
    We have improved it over the past three years so that the 
number of submissions to the Ecosystem process have quadrupled. 
That is substantial. We are working on a mechanism to make it 
more user friendly.
    It is presently a little bit of exercise, administrative 
exercise, but the electronics age is catching up to us, or we 
are catching up to it, and there will be a lot of drop-down 
menus and it will be a lot easier and quicker to file an 
Ecomessage.
    I have had discussions quite recently, and the United 
States is perhaps reconsidering its situation and likely will 
be participating more actively in the Ecomessage initiative. 
Thank you.
    Ms. Bordallo. Thank you, Mr. Clark, and thank you for the 
comments. It is good that we are working together and it may 
happen in the very near future.
    I also have a couple of questions. In your testimony, you 
discuss a brutal battle between law enforcement officers and 
Somali warlords. Can you speak to the violence that wildlife 
law enforcement officers face on a regular basis?
    And I understand that you have some personal stories that 
lend credence to the link between safety and stability and 
wildlife crime, so could you also share one of those with us, 
please?
    Mr. Clark. Yes, Madam Chair. With all due respect to my 
distinguished colleague from Safari Club International, I think 
it is not Kenya's hunting policy which is reflecting in the 
loss of wildlife in that country, but rather its proximity to 
borders of countries like Somalia and Sudan and other 
northeastern Horn of Africa countries where there are very 
heavily armed groups.
    In the written testimony, you will find specifics on 
several. You asked for an example. One might be the recovery in 
Tsavo East National Park of a U.S. manufactured M-16 rifle that 
was supplied to Somalia during the regime of President Barre, 
legally supplied to the military there.
    At that time, the president had a defense minister by the 
name of General Hirsi. He also happened to be his son-in-law. 
When Somalia collapsed, General Hirsi formed one of the warlord 
faction groups called Somali Front. He took part of the Somali 
army that was within his own plan and many of the weapons with 
him.
    Those weapons are sometimes being recovered in Kenya 
national parks during engagements which result in the 
fatalities of Kenya Wildlife Service rangers. Large volumes of 
ammunition are also recovered. Thirty-seven KWS rangers have 
been killed in recent years, mostly in these confrontations 
with armed gangs coming from Somalia.
    They are coming in for a reason--ivory and rhino horn. That 
is brought back to Somalia, which has no centralized 
government, consequently no customs agency to speak of or 
anything else to restrict its export from their ports. From 
there it goes out to--it is anybody's assumption. No records.
    Thank you.
    Ms. Bordallo. Mr. Galster, you also spoke of violence with 
Somali warlords. Do you have anything to add to that?
    Mr. Galster. Actually, I was focused on Southeast Asia, but 
I would just add that it is a similar situation there. I think 
globally, wildlife law enforcement officers are probably in 
more danger than their urban counterparts, maybe by virtue of 
the fact they are out in forested areas.
    In Cambodia, for example, some rangers we have supported 
there in a place called Bokor National Park, which was featured 
on a CNN story also. Those rangers were attacked with grenades. 
They lived, but one of the pictures I showed up during my 
presentation was of another incident which the guy didn't live, 
so----
    Ms. Bordallo. Would you say, gentlemen, that this might be 
tied to terrorists, terrorist activities, or is it just 
something out there on its own?
    Mr. Galster. I am not seeing terrorists poach or traffick 
in wildlife, but I wouldn't be surprised if they are now or in 
the future going to get attracted to it unless they have a 
policy of conservation, which some insurgent groups, you know, 
funny enough have had.
    What we are seeing is opportunists, people who want to make 
quick money fast and recognizing that the agencies they are up 
against are badly armed and resourced, and it is pretty easy.
    Ms. Bordallo. Thank you very much.
    Mr. Moritz from the Safari Club, it is my understanding 
that the Safari Club International Foundation has provided 
significant financial support to Interpol's program addressing 
illegal wildlife trade. Do you have plans to continue this 
effort?
    Mr. Moritz. We have been involved with Interpol for the 
last three years, I believe, and we are currently evaluating 
continued commitments to that. We are in our third year of 
support.
    Ms. Bordallo. So what you are saying is that you will 
continue?
    Mr. Moritz. We are currently evaluating how best to work on 
this critical issue of poaching and looking at several 
alternatives. I don't believe a final decision has been made 
for the next funding year.
    Ms. Bordallo. Thank you.
    Mr. Pueschel, in your testimony you state that in the post 
9-11 world, the illegal wildlife trade is no longer only a 
conservation issue. It is a national and global security issue.
    Have terrorists increasingly been involved in wildlife 
trade? It is much like the other question that I asked the 
other gentleman.
    Mr. Pueschel. Madam Chair, we refer to anecdotal 
information. We are an animal and wildlife organization and 
have to indeed accept the alerts that are coming from some 
official and some media sources, and our concern is that nobody 
currently is really looking at that issue in terms of the 
involvement or possible involvement of terrorist organizations. 
Obviously, there are reports about it, and we are not the right 
organization to do those kind of investigations, but 
governments like from the United States of America is.
    We are here currently and really would like to encourage to 
put more attention to the whole arena of criminal 
organizations, organized crime and possibly terrorism to look 
into as the whole range of organizations and groups majorly 
interested in having unregistered, massive amounts of money to 
be used for further criminal activities on the cause of 
wildlife and on the cause of biodiversity.
    Ms. Bordallo. Thank you.
    I do feel when money, large amounts of money, are involved 
with whatever reason, whether it is wildlife or whatever, there 
is a strong possibility that terrorists could be involved 
obtaining money for other purposes, so that is why I guess the 
Committee is interested in that question.
    Mr. Galster, what has Wildlife Alliance been doing in 
Southeast Asia to urge consumers not to buy illegal wildlife? 
What more could the United States do in this area of consumer 
education?
    Mr. Galster. We are working behind governments there, 
particularly the Government of Thailand, which has taken the 
lead to develop a wildlife law enforcement network, but 
parallel to those enforcement efforts, they have also come out 
as high as the prime minister level and made pronouncements to 
the public asking people to stop buying endangered species and, 
if they see somebody selling, to call the authorities. It is a 
very simple formula.
    I think what the U.S. could do is recognize that it is one 
of the biggest consumers of wildlife in the world and approach 
China, which is clearly the biggest, and say look, we are both 
in the same corner here and having an effect on all the plant-
animal species. Let us come out as superpower allies and do a 
campaign to reduce consumption and perhaps jointly go out and 
build capacity. I see that as the most efficient way for it.
    If you want the State Department to focus on something, and 
I think they have done a great job, but they could scale up 
their efforts in a big way with your support, is to engage 
China in that kind of a superpower relationship.
    If I may add, I know the T word is dominating a lot of 
policy and direction in Washington these days, but I really 
feel that the bigger and longer term threat here is that 
massive illegal wildlife trade, no matter who is driving it, is 
unraveling ecosystems, and that is the threat to this country 
and every other one in the world. Thanks.
    Ms. Bordallo. Thank you.
    Do all the witnesses agree that this illegal wildlife trade 
is increasing? All right. Mr. Hart?
    Mr. Hart. Yes. Thank you. I agree that it is increasing. I 
just want to give one perspective from Central Africa that I 
think is pertinent.
    We have been talking quite a bit about the movement of 
illegal trade out of producing countries and into a consuming 
public which is sometimes far away. We are finding in the 
Democratic Republic of Congo that there is a lot of illegal 
trade in bushmeat that is regional and within Africa and that 
that will take a different focus and a different attention.
    In my written testimony, I mention the fact that we, and 
this was reiterated on President Bush's last visit, will be 
supporting the development and training of security forces in 
Africa, and I would like to reiterate again that it is very 
important that the bushmeat issue and illegal trade in wildlife 
be on the agenda for the trainers, just as human rights abuses 
are.
    I think this is very important to start sensitizing 
political leaders in these countries to this problem. We found 
that there is the ability to develop political will, so we have 
to, in addition to taking the really broad international 
perspective, we have to recognize there are regional 
perspectives that are important to develop as well.
    Ms. Bordallo. That is an excellent point. Thank you very 
much.
    Mr. Clark, did you have a comment to make? Please.
    Mr. Clark. Very briefly. Two points that the United States 
might consider that hadn't come to my mind, diplomatic 
initiatives the U.S. might take.
    One is to focus on the problem of safe havens. Many of 
these wildlife criminals, the big ones, sit in safe havens--for 
example, Taiwan--where there is no extradition because there is 
no diplomatic relations.
    The U.S. could use its diplomatic clout to speak in a 
friendly manner to suggest that perhaps Taiwan can go after 
these people on financial crimes bases--money laundering, 
importing more than $10,000 at a go and various other financial 
crimes.
    These are the people who are moving large volumes of ivory. 
One fellow sitting there moved more than 50 tons. Pardon me. He 
moved more than 83 tons of ivory. This might be a useful U.S. 
initiative.
    The second is penalties. Many of America's partners have 
disappointingly low penalties for major violations of wildlife 
law. One example that comes to mind immediately is in Japan, 
where three tons of ivory was recently illegally imported. The 
fellow was caught. He was convicted. He was given a suspended 
sentence and a small fine.
    Had that same violation occurred here in the United States, 
Federal sentencing guidelines would have said 46 to 78 months 
in Federal prison. There is a big disparity there.
    When someone has a consignment of three tons, mostly raw 
ivory, that suggests something very important--large organized 
crime participation--because you cannot take three tons of 
ivory and go out on the street and sell it. That means there 
are factories there. That means there are distributors, 
marketing, retail, an entire organization. That is organized 
crime.
    If the penalties for supplying that organization are so 
meaningless, there is no deterrence and the price of that will 
be not only more poaching, but a lot of fatalities in Africa. 
More than 100 rangers are killed every year.
    Ms. Bordallo. Really.
    Mr. Clark. There are widows, orphaned children, and the 
consequent criminality of corruption and fraud and all of the 
rest of it comes part and parcel. It is not just a bit of 
contraband wildlife products on someone's table. It is part of 
a much broader perspective.
    Thank you.
    Ms. Bordallo. Thank you very much, Mr. Clark.
    These closing remarks from our witnesses are all good 
points that will be shared with our Chairman, Chairman Rahall, 
and he will be made aware of this.
    I want to thank all of you. We have heard from Mr. Steven 
Galster, the Director of Field Operations, Wildlife Alliance, 
Thailand; Mr. John A. Hart, Scientific Director of the Tshuapa-
Lomami-Lualaba Project in Congo; Mr. William Clark, the Illegal 
Wildlife Trade Expert; Dr. William E. Moritz, the Director of 
Conservation and Acting Director of Governmental Affairs, the 
Safari Club International Foundation of the United States; and 
Mr. Peter Pueschel, Illegal Wildlife Trade Program Director, 
International Fund for Animal Welfare, Germany.
    We certainly appreciate your being here with us today to 
share all your expertise in your various fields.
    Members may have additional questions which will be sent to 
you in writing. The hearing record will remain open for an 
additional 10 business days to enter any additional materials.
    If there is no further business, the hearing of the 
Committee on Natural Resources is adjourned.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Peter T. Jenkins, 
Director of International Conservation, Defenders of Wildlife, 
follows:]

  Statement submitted for the record by Peter T. Jenkins, Director of 
           International Conservation, Defenders of Wildlife

    Mr. Chairman and Members of the Committee, on behalf of Defenders 
of Wildlife, I am pleased to have the opportunity to submit this 
statement for the record of today's oversight hearing on ``Poaching 
American Security: Impacts of Illegal Wildlife Trade.'' Founded in 
1947, Defenders of Wildlife has over 1 million members and supporters 
across the nation and is dedicated to the protection and restoration of 
native animals and plants in their natural communities.
    Defenders of Wildlife commends Chairman Rahall and the Committee on 
Natural Resources for drawing attention to the critical issue of the 
illegal trade in wildlife and the impacts this trade may have on 
international and national security and stability. The illegal wildlife 
trade is estimated to be worth more than $10 billion annually. 
According to Interpol, illegal wildlife trade ranks third in criminal 
revenue behind the illegal trade in drugs and arms. Many of the species 
exploited in this illegal trade are already suffering from habitat 
loss, pollution, global warming, and other factors. Add to these 
threats the further pressure of unsustainable exploitation, in 
particular to supply the illegal markets in wildlife and wildlife 
products, and the result is many species being driven to the brink of 
extinction. Some of the wildlife most affected by illegal trade 
includes elephants and rhinoceroses, the Tibetan antelope, bears, 
tigers, primates, parrots, sea turtles, corals, sturgeon, and rare 
hardwood trees and ornamental plants. The decimation of wildlife 
through illegal trade has severe implications not just for biodiversity 
and ecosystem health, but also for the economic stability of countries 
that depend on wildlife as a source of revenue and protein.
    In addition to the concerns outlined above, new evidence suggests 
illegal trade in wildlife has become even harder to combat. According 
to Traffic International and other sources quoted in the recent 
Newsweek article, ``Extinction Trade,'' (in issue dated March 10, 
2008), illegal wildlife trade has changed from the type of crime 
committed by small, unorganized groups of individuals to one involving 
large, sophisticated syndicates that also engage in various other 
illegal endeavors, including supporting militia activities. As such, 
illegal wildlife trade may play a critical role in financing activities 
that threaten national and international security and stability. The 
illegal trade in drugs and arms has already received considerable 
attention as a funding mechanism for other illegal activities, such as 
terrorism. In contrast, illegal trade in wildlife, which can follow the 
same trade routes and involve some of the same criminals, has received 
relatively little attention for its potential to proliferate other 
crimes and security threats.
    Illegal wildlife trade may also pose threats to national and 
international security by introducing harmful invasive species or 
emerging infectious diseases. As demonstrated in a 2007 report by 
Defenders of Wildlife, Broken Screens: the Regulation of Live Animal 
Imports in the United States, even the legal and intentional trade in 
wildlife poses severe risks to our nation's ecosystems and to human, 
wildlife and domestic animal health. Further, illegal shipments of some 
wildlife products, such as bushmeat, pose new health risks requiring 
urgent attention.
    Within the United States, we rely upon the Fish and Wildlife 
Service's Office of Law Enforcement (OLE) to investigate unlawful 
exploitation of wildlife resources, to inspect wildlife imports, and to 
collaborate with other agencies on both the international and domestic 
levels to promote effective law enforcement. Although the OLE has 
achieved important successes, including reducing illegal harvest and 
trade in caviar, it is severely understaffed to meet the rapidly 
growing enforcement and inspection tasks it faces. Inadequate budgets 
and low special agent numbers have damaged OLE's ability to conduct the 
relatively cost-intensive, but nevertheless vital, undercover sting 
operations needed to break up wildlife smuggling rings. In recent 
years, the number of special agents has been reduced from a high of 238 
in 2002 to less than 200, and an additional 20 to 25 are expected to 
leave for retirement in the coming year. The number of wildlife 
inspection officers is even lower, with only 112 staff members at the 
end of FY 2006. With this few inspectors, the OLE is unable to visually 
inspect all shipments of wildlife and wildlife products that cross U.S. 
borders. On average, the proportion of shipments inspected ranges from 
approximately one-quarter of fish shipments to approximately two-thirds 
of bird shipments. The number of wildlife inspectors is inadequate to 
face the challenge of enforcing compliance with federal wildlife laws 
and international treaties to which the United States is a party, such 
as the Convention on International Trade in Endangered Species of Wild 
Flora and Fauna (CITES).
    Congress appropriated $59.6 million for the OLE in FY 2008. While a 
modest increase, this level still is insufficient to meet the growing 
threats of the illegal wildlife trade; moreover, the Administration 
proposed a $2.3 million decrease in its FY 2009 budget, which would 
reverse the FY 2008 increase. Defenders of Wildlife recommends an 
increase for FY 2009 of at least $9.9 million to hire and train 
additional special agents, port inspectors, and scientists for the 
forensics laboratory, and to ensure full funding of fixed costs. In 
addition, Defenders of Wildlife recommends increased funding for the 
Fish and Wildlife Service to engage in international law enforcement 
capacity building. Better international coordination is crucial in the 
effort to reduce the illegal trade and prevent the decimation of 
wildlife species. Ecosystem and economic health are at stake, 
particularly in developing countries.
    Defenders of Wildlife recommends further investigation of the links 
between illegal wildlife trade and national and global security, 
including its role in the financing of terrorism. A multi-agency task 
force should be established to share information to effectively address 
the impacts of this illegal trade on our national and global security 
in a coordinated, proactive and preventative manner.
    Illegal trade in wildlife is a threat to the planet's biological 
diversity and ecological integrity. It is also a potential threat to 
our nation's security and to global security. Thank you, Mister 
Chairman, for holding today's hearing on this critical issue and for 
the opportunity to submit this statement for the hearing record. 
Defenders of Wildlife stands ready to assist you in crafting solutions 
to address this growing threat. If you or other members of the 
Committee have any questions, please contact me at 202-772-0293 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="36465c53585d5f5845765253505358525344451859445118">[email&#160;protected]</a>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
